<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2021</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





              DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2021

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              SECOND SESSION

                               _________

                         SUBCOMMITTEE ON DEFENSE

                  PETER J. VISCLOSKY, Indiana, Chairman

  BETTY McCOLLUM, Minnesota                KEN CALVERT, California
  TIM RYAN, Ohio                           HAROLD ROGERS, Kentucky 
  C. A. DUTCH RUPPERSBERGER, Maryland      TOM COLE, Oklahoma
  MARCY KAPTUR, Ohio                       STEVE WOMACK, Arkansas
  HENRY CUELLAR, Texas                     ROBERT B. ADERHOLT, Alabama
  DEREK KILMER, Washington                 JOHN R. CARTER, Texas
  PETE AGUILAR, California                 MARIO DIAZ-BALART, Florida
  CHERI BUSTOS, Illinois
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona

  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

     Rebecca Leggieri, William Adkins, David Bortnick, Matthew Bower,
      Brooke Boyer, Jenifer Chartrand, Walter Hearne, Paul Kilbride,
    Hayden Milberg, Shannon Richter, Jackie Ripke, Ariana Sarar, and 
                            Sherry L. Young
                            Subcommittee Staff

                                 _________

                                  PART 1

                                                                    Page
  United States Strategic Command ..............................       1 
  United States European Command................................      27 
  National Guard and Reserve....................................      49 
  Fiscal Year 2021 United States Navy and Marine Corps 
    Budget Overview.............................................     179 
  United States Space Force Organizational Plan.................     263 
  Defense Health Program........................................     299 
  United States Southern Command................................     387 
  Fiscal Year 2021 United States Army Budget....................     409 
  United States Central Command.................................     469 
  United States Africa Command .................................     489
  Testimony of Members of Congress..............................     511 
  Statements provided for the Record............................     581
                                        

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
43-815                   WASHINGTON : 2021

















                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio                             KAY GRANGER, Texas
  PETER J. VISCLOSKY, Indiana                    HAROLD ROGERS, Kentucky      
  JOSE E. SERRANO, New York                      ROBERT B. ADERHOLT, Alabama    
  ROSA L. DeLAURO, Connecticut                   MICHAEL K. SIMPSON, Idaho       
  DAVID E. PRICE, North Carolina                 JOHN R. CARTER, Texas         
  LUCILLE ROYBAL-ALLARD, California              KEN CALVERT, California            
  SANFORD D. BISHOP, Jr., Georgia                TOM COLE, Oklahoma          
  BARBARA LEE, California                        MARIO DIAZ-BALART, Florida  
  BETTY McCOLLUM, Minnesota                      TOM GRAVES, Georgia    
  TIM RYAN, Ohio                                 STEVE WOMACK, Arkansas
  C. A. DUTCH RUPPERSBERGER, Maryland            JEFF FORTENBERRY, Nebraska              
  DEBBIE WASSERMAN SCHULTZ, Florida              CHUCK FLEISCHMANN, Tennessee            
  HENRY CUELLAR, Texas                           JAIME HERRERA BEUTLER, Washington
  CHELLIE PINGREE, Maine                         DAVID P. JOYCE, Ohio 
  MIKE QUIGLEY, Illinois                         ANDY HARRIS, Maryland 
  DEREK KILMER, Washington                       MARTHA ROBY, Alabama   
  MATT CARTWRIGHT, Pennsylvania                  MARK E. AMODEI, Nevada        
  GRACE MENG, New York                           CHRIS STEWART, Utah
  MARK POCAN, Wisconsin                          STEVEN M. PALAZZO, Mississippi
  KATHERINE M. CLARK, Massachusetts              DAN NEWHOUSE, Washington            
  PETE AGUILAR, California                       JOHN R. MOOLENAAR, Michigan   
  LOIS FRANKEL, Florida                          JOHN H. RUTHERFORD, Florida
  CHERI BUSTOS, Illinois                         WILL HURD, Texas
 
  BONNIE WATSON COLEMAN, New Jersey                          
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii
  
                 Shalanda Young, Clerk and Staff Director

                                   (ii)




















 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2021

                              ----------                              

                                        Thursday, February 6, 2020.

                    UNITED STATES STRATEGIC COMMAND

                                WITNESS

ADMIRAL CHARLES A. RICHARD, COMMANDER, U.S. STRATEGIC COMMAND

                   Opening Statement of Mr. Visclosky

    Mr. Visclosky. We are at the appointed hour, and I am going 
to call us to order and in a moment recognize my good friend, 
Mr. Calvert, for a motion, but because this is the first 
hearing we are having this year, many of us may have a new 
staff person, associate staff person, many of us have new 
fellows, and would want to make sure that everyone gets 
introduced, because all of the Members at the dais understand 
who actually does the work.
    I would like to start by introducing Kyle McFarland, who is 
now on our staff. Many of you may have met him, but just on the 
chance you have not, he is the person you want to call.
    Additionally, and I would turn it over for a moment to Mr. 
Calvert, we have a new clerk on the committee as well.
    Mr. Calvert. Thank you, Mr. Chairman. I would like to 
recognize our new defense clerk for the minority, Johnnie 
Kaberle. Most of you know Johnnie. She has been up here on the 
Hill for a long time working defense issues in one way or 
another, and so I know that she is excited to be here and we 
are excited to have her. So Johnnie. Here is Johnnie.
    Mr. Visclosky. I have a new fellow, Major Steven Cash from 
the United States Air Force. If he would stand up. Great. There 
you go.
    And, Betty, we will just, I think, go around for those 
Members who are here.
    Mr. Calvert. You know, Mr. Chairman, if I could just for 
one second, I forgot to introduce my new fellow--shame on me--
Major Will Hendrickson from the United States Marine Corps.
    Mr. Visclosky. All right. Will, thank you. Betty.
    Ms. McCollum. So I don't have anybody new, but anybody who 
has ever been an intern here, I would like to introduce a 
former intern of mine, Ben Peterson, who now has I think, 20 
years.
    Mr. Ruppersberger. Yes. I would like to introduce my fellow 
from the United States Army, Cody Rush. Captain Cody Rush.
    Mr. Cuellar. I want to introduce my new fellow, Mr. 
Aguilar.
    My new fellow is Major Will Chang, Air Force. Thank you for 
being here. Thank you.
    Mr. Visclosky. Great. Mr. Aguilar.
    Mr. Aguilar. Nobody new. Wendell White on my team behind 
me.
    Mr. Visclosky. Great. Mr. Cole.
    Mr. Cole. Well, thank God I don't have anybody new. Maria. 
I live in fear of having to introduce someone. I am very lucky 
to have her.
    Mr. Womack. I am delighted to have my military fellow, 
Natalia Gruenbaum, a West Point graduate, military police 
officer, and terrific soldier, terrific. Thank you, Natalia.
    Mr. Carter. My new Army fellow is Wes Dempster, Captain. 
Great guy.
    Mr. Visclosky. Mr. Diaz-Ballart.
    Mr. Diaz-Ballart. I am honored to have Senior Master 
Sergeant Lucy Stockett, U.S. Air Force.
    My fellow will take on your fellows any day.
    Mr. Visclosky. And I do not want to prolong this, but in 
fairness, if there are any new fellows on this side of the 
room, if you would just state your name and the Member you are 
working for, please, so we get to know you.
    Mr. Vinacco. Good morning. I am Mike Vinacco. I am Ms. Kay 
Granger's fellow. I am an Air Force major.
    Mr. Cho. James Cho, United States Air Force, intelligence 
officer working for Congresswoman Bustos.
    Mr. Visclosky. Do you want to sit here with the adult table 
or what?
    Mr. Cho. I am comfortable in the back.
    Mr. Valiaveedu. Good morning. Roby Valiaveedu, United 
States Air Force fellow for Representative Kirkpatrick.
    Mr. Visclosky. Thank you. Great.
    Ms. Wallis. Emily Wallis, U.S. Navy, with Mr. Kilmer.
    Mr. Visclosky. Great.
    Ms. Gauthier. Liz Gauthier, I am a Navy civilian supporting 
Representative Lowey.
    Mr. Visclosky. Great. Thank you. And I believe we are done. 
And, Admiral, thank you----
    Oh.
    Mr. De la Cruz. Santiago De la Cruz, with Congressman Ryan.
    Mr. Visclosky. You are not from Ohio, are you?
    Mr. De la Cruz. I am not from Ohio.
    Mr. Visclosky. That is okay.
    Admiral, thanks for your indulgence. We will get started.
    I would recognize Mr. Calvert for a motion.
    Mr. Calvert. Thank you, Mr. Chairman.
    I move that this portion of the hearing today, which 
involves sensitive material, be held in executive session 
because of the sensitivity of the material to be disclosed.
    Mr. Visclosky. Today we welcome Admiral Charles A. Richard, 
the commander of the United States Strategic Command.
    Admiral, thank you very much for being here. And I want to 
extend my thanks to you and all of the men and women who serve 
under your command.
    You have one of the gravest responsibilities of anyone in 
the United States government if called upon, and we all hope 
that day never comes. It is your mission to execute the 
deployment of nuclear weapons.
    The leadership of the Department of Defense has affirmed 
repeatedly that modernization of the strategic deterrent is the 
Department's number one priority. We know that effort will be 
costly.
    We also know that the Department has outlined an ambitious 
program to modernize our conventional forces to meet the needs 
of what is referred to as great power competition.
    While the administration appears to be fully committed to 
modernizing our nuclear systems, I must also stress my concern 
that the administration has not demonstrated the same 
commitment when it comes to arms control.
    Modernizing our strategic deterrent is part of ensuring 
that a nuclear war is never fought, but so are arms control 
efforts.
    Measures such as new START Treaty help to eliminate 
uncertainty and thus improve stability between nuclear armed 
powers.
    Arms control is not a product of starry-eyed idealism, but 
of hard learned lessons from the cold war.
    To paraphrase what the late Senator Richard Lugar said when 
asked about his support for new START, the Senator said: ``I am 
trying to take warheads out of Russia so they don't hit 
Indiana.''
    Also, I appreciate the return on investment from arms 
control treaties. The development, production, deployment, and 
maintenance of nuclear weapons is incredibly expensive. 
Treaties are essential to keeping those costs in check.
    Arms control is not just a philosophical matter for this 
committee. For example, at the Department's insistence, we have 
appropriated nearly $188 million in fiscal years 2019 and 2020 
to recapitalize the aircraft that carry out U.S. missions under 
the Open Sky Treaty.
    To date, very little of that money has been spent, and it 
is unclear whether the administration intends to abandon the 
treaty.
    Putting aside the question of whether it would be wise to 
remove ourselves from Open Skies, the committee has an obvious 
interest in ensuring that funds are spent for the purposes for 
which they are appropriated.
    Before I turn to Admiral Richard for his opening statement, 
I would like again to turn to Member Calvert for any opening 
statements that he would like to make.

                     Opening Remarks of Mr. Calvert

    Mr. Calvert. Thank you, Mr. Chairman.
    And welcome, Admiral Richard. I appreciate you taking time 
to come talk with us since this hearing informally begins, so 
let the last budget cycle, for our chairman, I want to begin by 
saying what an honor it has been to serve alongside him all 
these years. He has been a great partner and friend. I look 
forward to working with him in the months ahead before he rides 
off into the Indiana sunset.
    Mr. Visclosky. When you can see.
    Mr. Calvert. Yes. When you can see. If those steel mills 
are working properly, they will--never mind.
    Admiral, thanks again for taking the time to discuss with 
us some very serious issues involving our national security.
    Nothing is more critical to our defense than our ability to 
deter and respond to adversaries armed with nuclear weapons. I 
will be asking about our latest threat capability, and it has 
caused great concern up here, the continued development of 
hypersonic missiles by China and the reported fielding of them 
by Russia in December. As you know, these missiles are nearly 
impossible to shoot down with current technology.
    Given that current plans don't call for us to have such a 
missile operational until at least 2022, such a weapon could 
significantly degrade our strategic advantage over the next 2 
years, especially if it is armed with a nuclear warhead.
    I will also be asking about transitioning certain 
responsibilities to the Space Force and the impact to our 
readiness across both organizations. I am curious to understand 
how friction is being mitigated during the time of transition 
and what steps are in place to ensure no degradation to mission 
occurs.
    Finally, I look forward to hearing your candid assessment 
of where we stand in relation to potential adversaries when it 
comes to our nuclear modernization efforts.
    Thank you for your service, Admiral, and I look forward to 
your testimony.
    Mr. Chairman, I yield back.
    Mr. Visclosky. Thank you very much, Mr. Calvert. Admiral, 
the floor is yours.
    [The written statement of Admiral Richard follows:] 
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

    [Clerk's Note.--The complete hearing transcript could not 
be printed due to the classification of the material 
discussed.]

                                      Wednesday, February 27, 2020.

                     UNITED STATES EUROPEAN COMMAND

                                WITNESS

GENERAL TOD D. WOLTERS, UNITED STATES AIR FORCE, COMMANDER, UNITED 
    STATES EUROPEAN COMMAND

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. We will come to order. This morning the 
subcommittee will receive testimony and an update on U.S. 
military activities in the European theatre. Before we get 
started, I would like to recognize my friend, the ranking 
member, Mr. Calvert, for a motion.
    Mr. Calvert. I move that those portions of the hearing 
today which involve classified material be held in executive 
session because of the classification of the material to be 
discussed.
    Mr. Visclosky. So ordered. Thank you very much, Mr. 
Calvert.
    I would like also to remind our members any materials 
placed in front of you marked classified should be left at your 
chair at the conclusion of the hearing. We do welcome our sole 
witness, General Tod Wolters, Commander European Command and 
NATO Supreme Commander. General, welcome to your first 
appearance before the committee today. We appreciate you being 
here to share your expertise.
    Many of the countries in your area of responsibility have 
been our steadfast allies for decades. From the Arctic to 
Israel, your area of responsibility comprises the core of our 
support for the past 70 years. However, to maintain even the 
oldest and strongest of alliances, it takes a constant effort, 
and even then, there will be differences of opinion.
    A case in point is the past year, the 29 allies of NATO 
reached an historic agreement on a military strategy to address 
Russia and the international terrorism. Nevertheless, some 
important European leaders have publicly challenged that 
premise that a strong NATO exists, but there is an argument, 
and an agreement, and its effective implementation will cost 
money.
    As we discussed yesterday, the fiscal year 2021 budget 
request for the European Defense Initiative is 31 percent less 
than at its peak in fiscal year 2019. And while that decline 
was forecast in prior budget requests, it comes at a time when 
the overall economic conditions in Europe are best described as 
tepid. From that vantage point, I would seek your perspective 
on how our allies will interpret the decrease in EDI as many of 
them are increasing their military budgets to meet NATO burden-
sharing requirements.
    I would also like you to give us an update on the threat 
Russia poses, not only to the United States, but to our allies, 
its scope, and what the United States can effectively do to 
manage the risk.
    And finally, I would also like you to share with us the 
quality-of-life issues for each of our servicemembers under 
your command, and what we might do to better remedy the 
concerns they may have.
    With that, again, I thank you for appearing before the 
committee today, and would recognize Mr. Calvert for any 
opening statement he has.

                     Opening Remarks of Mr. Calvert

    Mr. Calvert. Thank you, Chairman Visclosky.
    Welcome, General, to your first appearance before this 
subcommittee. We appreciate your service, and that of all the 
men and women under your command. We are committed to working 
with you to ensure that EUCOM remains postured to support U.S. 
global operations, reassure partners and allies of our 
commitment to their security, and ensure that NATO can credibly 
deter Russia aggression.
    This hearing takes place against the backdrop of a review 
by Secretary Esper of our combat commands, with the goal of 
ruthless prioritization by the Department in support of great 
power competition with China and Russia. In this regard, I hope 
you will tell us whether key readiness concerns have been 
addressed, such as with respect to rapid deployment in a crisis 
and a counter-air capability against the growing Russian air 
and missile threat.
    Similarly, I would appreciate an assessment of our ability 
to deter Russia aggression in the Baltic states, including 
through effective crisis management, intelligence sharing, and 
countering Russian information warfare and hybrid attacks.
    Finally, Moscow appears to be playing an increasingly 
active role in the Balkans, perhaps hoping to derail the 
region's integration into Europe and undermine the resilience 
of democratic institutions in Southeastern Europe. It would be 
helpful to know how EUCOM, your interagency partners, and 
allies are working together to reduce space for Russian 
interference in the region.
    I want to conclude my brief statement by thanking you once 
again for your service, look forward to your testimony.
    And I yield back, Mr. Chairman.
    Mr. Visclosky. Thank you very much.
    General, you may proceed. Your written testimony is entered 
into the record. It would hopefully like to give members two 
rounds. So if you can summarize your testimony, we would 
appreciate that very much. And we will get started.
    [The written statement of General Wolters follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Clerk's Note.--The complete hearing transcript could not 
be printed due to the classification of the material 
discussed.]

                                            Tuesday, March 3, 2020.

                       NATIONAL GUARD AND RESERVE

                               WITNESSES

GENERAL JOSEPH L. LENGYEL, CHIEF OF THE NATIONAL GUARD BUREAU
LIEUTENANT GENERAL CHARLES LUCKEY, CHIEF OF THE ARMY RESERVE
VICE ADMIRAL LUKE McCOLLUM, CHIEF OF THE NAVY RESERVE
LIEUTENANT GENERAL DAVID G. BELLON, COMMANDER, MARINE FORCES RESERVE
LIEUTENANT GENERAL RICHARD W. SCOBEE, CHIEF OF THE AIR FORCE RESERVE

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. The Subcommittee on Defense will come to 
order.
    This morning, the committee will receive testimony on the 
posture of the National Guard and Reserve components in their 
fiscal year 2020 budget request. This will be a two-panel 
hearing. Panel one recognizes the Chief of the National Guard 
Bureau. Panel two will recognize the Reserve component chiefs 
from the Army, Navy, Marine Corps, and Air Force Reserves. I 
would encourage all members to stay for both panels.
    Our witness for panel one is General Joe Lengyel, Chief of 
the National Guard Bureau. We are pleased to welcome the 
general, a member of the Joint Chiefs of Staff.
    General, welcome back to the subcommittee for your fourth, 
and I bet from your perspective, thank goodness, final hearing 
as chief.
    General Lengyel. Yes, sir.
    Mr. Visclosky. As you are retiring later this year, all of 
us really do wish you the best of luck and do thank you for a 
very good life of service to this country.
    This subcommittee has provided the Reserve component with 
significant resources through the National Guard and Reserve 
Equipment Account, an appropriation which is not included in 
the President's budget request, as well as additional funding 
for the counterdrug operations, Humvee modernization, 
helicopters, fixed-wing aircraft and more. We are looking 
forward to hearing about the importance of this investment in 
the 54 States and territorial Guard organizations. However, we 
would like to cover all aspects of funding for the Guard and 
Reserve today, to include your request for funding in the 
military personnel and operations and maintenance accounts.
    With that, again, I thank you for appearing today. We will 
ask you to proceed and present a summarized statement in a 
moment. But first, I would recognize Mr. Calvert for any 
statement he has.

                    Opening Statement of Mr. Calvert

    Mr. Calvert. Thank you, Chairman Visclosky.
    And I would like to welcome General Lengyel back to the 
subcommittee. Since this will likely be your final appearance 
before us prior to your retirement, I want to join my 
colleagues in thanking you for your nearly 40 years of service 
to our Nation. And I know you and Sally are probably looking 
forward to getting the heck out of here and heading back to 
Texas, so happy travels.
    I also know that I speak for all the members and staffers 
who have worked with you when I say we will all miss you. You 
have done a fantastic job.
    As we gather here today, our Nation is even more dependent 
on our more than 450,000 citizen airmen and soldiers more than 
ever.
    So with that, Mr. Chairman, I close my opening remarks.
    Mr. Visclosky. Thank you very much.
    General, your full statement is in the record. You may 
proceed. Thank you very much.

                      Statement of General Lengyel

    General Lengyel. Thank you.
    And good afternoon, everyone. Chairman Visclosky, Ranking 
Member Calvert, and distinguished members of this subcommittee, 
it is an honor for me to be here today on behalf of the men and 
women of the National Guard. For nearly 4 years, I have served 
as Chief of the National Guard Bureau, and I am both proud and 
humbled by the service of our National Guard.
    Today's 450,000 Guard members are the most professional, 
dedicated, and capable soldiers and airmen I have served with 
in my 40-year career. We do tremendous things every day to 
support our country in the war fight, in the homeland, and 
building partnerships around the world. Our men and women of 
the National Guard do not serve alone, and I would like to take 
this moment to thank the families and the employers of those 
who support them. I would also like to thank the members of 
this subcommittee for their continued support of the National 
Guard. This includes especially your support of the National 
Guard Reserve Equipment Account which helps ensure our long-
term readiness, lethality. It helps modernize our force, helps 
fund our domestic critical duties items, and helps sustain and 
build the National Guard capability.
    In the past year, the National Guard served on every 
continent, in every combatant command, in 70 countries. As we 
speak here today, more than 40,000 members of the National 
Guard are deployed or on duty somewhere at home or around the 
world. Our men and women of the Guard have seen combat, what we 
are ultimately trained and equipped and prepared for. We are an 
operational force providing strategic depth to the United 
States Army, the United States Air Force, and now the United 
States Space Force.
    As America's primary domestic military response force, the 
National Guard remains engaged here at home. On any given day, 
approximately 10,000 soldiers and airmen are serving homeland 
defense, homeland security, and domestic operations here at 
home. As State and local governments find themselves under 
attack by cyber assailants, the National Guard's nearly 4,000 
cyber warriors are ready to respond at the request of 
leadership in their States. As our communities find themselves 
battling wildfires in California or floods in Missouri or 
earthquakes in Puerto Rico, the National Guard continues to 
live up to our motto of always ready and always there.
    The National Guard supports the Department of Homeland 
Security along our southwest border. Today, approximately 2,500 
National Guard members from 21 States are assisting our 
partners as they help secure the border in Arizona, California, 
New Mexico, and Texas.
    Our success in both the warfight and the homeland is a 
result of our unique partnerships at all levels: international, 
Federal, State, and local. Key among these are the relationship 
we built through the State Partnership Program. These States 
and nation relationships facilitate security cooperation based 
on mutual trust and cultural appreciation. Today, with this 
important program, we now have 84 partnerships, with more on 
the way. This directly supports a key tenet of the National 
Defense Strategy of strengthening alliances and building 
partnerships.
    The National Guard has accomplished much over the past 
year, and I am proud of our soldiers and airmen who have boldly 
taken on every challenge they have faced. We are truly a 21st 
century National Guard. We have evolved much since 1636. We 
have transformed even more since 9/11. We are a unit-based, 
unit-equipped, surge-to-war Reserve component. We must adapt, 
change, and prepare for the future. We must continue to make 
strides in readiness, investing in our people, and continuing 
to innovate.
    Readiness means we must be competitive in every domain. 
Traditionally, that has meant land, air, and sea, but today, 
competitive domains includes space and cyberspace. Since 1995, 
the Air National Guard has supported the Air Force in the space 
domain, from monitoring missile threats to providing space 
intelligence. As space missions transition from the Air Force 
to the Space Force, it is imperative that the National Guard 
remain aligned with the active components we support. The Air 
National Guard is aligned with the Air Force, the Army Guard is 
aligned with the Army, and I suspect we need a Space Guard 
aligned with the Space Force.
    Furthermore, we must continue to invest in our greatest 
weapon and most valuable asset: our people. We must give them 
the training, the equipment, the full-time support they need to 
seamlessly be inoperable with our active components. We must be 
able to recruit, retain the right people, and have the 21st 
century National Guard that reflects the communities where we 
serve. We ask much of our servicemen and -women today, and I 
ask for your continued support on your behalf.
    Chairman Visclosky, I wish you much health and happiness in 
your upcoming retirement, and thank you for your years of 
service to our Nation. Ranking Member Calvert and members of 
the subcommittee, thank you for your opportunity to testify to 
you today. I appreciate your support of the National Guard, and 
I look forward to all of your questions.
    [The written statement of General Lenygel follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
   TRANSFER OF FUNDS FROM DEPARTMENT OF DEFENSE TO THE DEPARTMENT OF 
                           HOMELAND SECURITY

    Mr. Visclosky. General, thank you very much. As I may have 
told you when we met, some people inquire as to why I decided 
not to run for reelection. And I told them if you are not going 
to be around next year, it is not worth coming back.
    General Lengyel. Thank you, sir.
    Mr. Visclosky. Normally, I defer my questions, but in this 
instance, I would like to ask the first question, and then I 
will turn to Mr. Calvert, and I would have a short statement.
    Congress started appropriating funding for the National 
Guard and Reserve components through the National Guard and 
Reserve Equipment Account in 2001 as a response to the 
decreases in Guard and Reserve equipment funding, even while 
procurement budgets increased for the Department. For the past 
19 fiscal years, Congress added this appropriation in an 
attempt to ensure the equipment needs of the Guard and Reserve 
components are met and readiness levels can be achieved. 
Additional funding for aircraft or vehicles has also been 
provided in appropriations bills with the funding specifically 
noted in the bill or report for a specific Guard or Reserve 
component.
    Last month, no news to anyone on the committee, the entire 
fiscal year 2020 appropriations of $1.3 billion for the account 
funding for the Humvee modernization, as well as funding for 
aircraft specifically appropriated for the Guard and Reserve, 
was transferred from the Department of Defense to the 
Department of Homeland Security for the purpose of building a 
wall. The Department did not consult with Congress prior to 
this transfer.
    In testimony last week to the House Armed Services 
Committee, the Secretary of Defense defended the decision to 
use funding specifically appropriated for the Guard and Reserve 
by relying on his Chair of the Joint Chiefs, General Milley, 
for his analysis. General Milley said he was asked to analyze 
the move and concluded national security would not be severely 
impacted. In short, he said: What I said was that this 
reprogramming of $3.8 billion was not a significant immediate 
strategic negative impact to the overall defense of the United 
States. Quoting General Milley further: It is a half percent of 
the overall budget, so I can't in conscience say it is 
significant.
    The two problems I have with that is I think $3.8 billion 
is a huge amount of money. I think $1.3 billion is a huge 
amount of money. And maybe one half of 1 percent is not much 
out of $5. It is a lot of money out of $700 billion. The 
question I would have, essentially, is were you consulted? What 
programs and purchases were intended to be procured? And what 
is going to be the impact of the transfer of these funds, 
General?
    General Lengyel. Chairman, thank you for the question. It 
is an important question. If I could say, was I consulted, I 
would tell you the answer to that question would be no. I was 
not consulted prior to the decision being made to transfer the 
funds. I was asked about it prior to the funds being 
transferred, and the comment you referenced to General Milley 
there about--and we were asked do we disagree with this 
statement. The Chairman said this will not seriously compromise 
the military capability of the DOD to defend the United States 
at the strategic level. And when he further explained, that 
means we lose a war if we don't get this money.
    Does anyone in this room think that taking this amount of 
money exceeds that threshold? I did not think that it exceeded 
that threshold.
    But I will tell you. The NGREA account is incredibly 
important to the National Guard and Reserves. This year, for 
us, it was $790 million. That is $790 million that is less--
that we will spend less on predominantly two things. In the Air 
Guard, we predominantly use this money to make our platforms 
more lethal, more modern, more survivable than they would 
otherwise be if we do not have the NGREA funds to do it. In the 
Army Guard, we buy predominantly critical dual-use equipment 
with NGREA money. Things that we--it is our only source of 
money, really, to buy things that only the National Guard does, 
things that buy us things for domestic operations, things like 
buckets for helicopters that put out fires, things like 
communications systems for our chemical, biological, or 
radiological nuclear sets that are predominantly in the Guard, 
things that are communication suites, test sets for men and 
women of the Guard to do training on. These are things that 
would never be bought for us, for the Army Guard, by the United 
States Army.
    And on the air side, they are things that are done for 
platforms that usually the Air Force no longer has. So older 
model F-16s which only reside in the Guard, C-130H models which 
only reside in the Guard and Reserve, systems that would not 
meet the threshold for Air Force modernization activities.
    So this money is very important to us, and over the next 3 
years, between now and 2023, we have a very good history. As 
you, in fact, in 2001--I take NGREA back to the early 1980s, 
predominantly. 1983 or 4 we began getting NGREA, and it made 
our platform more lethal, more able to go to war, safer for men 
and women to fly in combat. And so this money that we don't 
have, at the very best case, it gets deferred a following year. 
Things that we were going to do, such as modernize our threat 
warning systems, modernize our infrared systems on our F-15s, 
new avionics in C-130s, those types of things will now wait a 
year, at a minimum, and that assumes that this committee 
continues to support us further with the NGREA funds down the 
road.
    So I was surprised that they took the money, and it is 
going to have a near-term materiel impact on our Air Guard for 
sure, and it will affect our commodities that we are going to 
have to deal with the domestic operations portfolio in the Army 
Guard for sure as well.
    Mr. Visclosky. Thank you very much.
    Mr. Calvert.

     REPROGRAMMING OF APPROPRIATIONS FOR THE DEPARTMENT OF DEFENSE

    Mr. Calvert. Yes, Mr. Chairman.
    As you know, I support the border security, the so-called 
wall. However, this reprogramming activity is troublesome. I 
think that all of us, I don't care which side of the aisle that 
you are on, if this kind of activity is to continue, we are 
going to, as Members of Congress, lose control of the 
appropriating process. And I preface this by also saying that 
there is money in the fiscal year 2020 and the fiscal year 2021 
bill to more than adequately continue to build the border wall 
through this year and next year.
    So I have never been really told by, you know, various 
folks why this had to be done in the first place. And how we 
found out about it, at least how I found out about it was a 
Wall Street Journal reporter running up behind me to let me 
know that this was taking place, which was not a great way to 
communicate. So I just wanted to let the chairman know that I 
agree that this kind of reprogramming has to end.
    I mean, there is going to be a future President at some 
point, maybe President Sanders, who may want to create a 
national emergency and move money into Health and Human 
Services. Who knows? I mean, that is not for the White House to 
determine; that is for Congress.
    So anyway, with that, Mr. Chairman, I yield back.
    Mr. Visclosky. I am done with my questions.
    Mr. Calvert, if you have any questions that would be fine.

                         GUARD AND SPACE FORCE

    Mr. Calvert. No. If you are ready for questioning, I will 
move on to that, yes. Okay.
    General, I know that we are expecting a report in a month 
or two detailing how the Space Force will incorporate the 
Reserve and the National Guard force. And as you know, the 
Guard has about 1,500 personnel, many of which are in my home 
State of California because of our interaction in space, 
especially in Los Angeles, El Segundo area. In many ways, I 
have always felt the guard complements the mission of the Space 
Force. And in areas where you have private industry attracting 
the best talent, the Guard is a great way for these patriotic 
folks to serve their country at the same time as staying 
involved in the businesses they work at. And understanding you 
can't get ahead of the report, what role do you see the 
guardsmen playing in the space mission?
    General Lengyel. Sir, thank you for the question. I think 
that, you know, as I said in my remarks, the National Guard has 
been in the space mission for a long time. We have been doing 
mission in space for the United States Air Force for 25 years, 
since 1995. There are space units in seven States, and the 
territory of Guam now is standing up a space unit.
    So I believe a couple of things. One is I believe that one 
of the things that is best about us is we are aligned, and what 
we do so well is we mirror the culture of our parent service. 
So there is only one standard to be a soldier in the Army, 
there is only one standard to be an airman in the Air Force, 
and there will be a standard to be a space warrior in the 
future Space Force. And I believe that it is important that the 
space capability currently in the Air and National Guard should 
move into the Space Force at the same time that all the other 
space capability that is in the Air Force, when it moves to the 
Space Force. We can't do that unless there is a component for 
us to move into.
    And thus, you know, for over a year, I have been advocating 
for the creation of a Space National Guard component. I know it 
is still under discussion. General Raymond is looking at the 
U.S. Space Force and how to build this 21st service 
organization, and I support that.
    But we have been looking at the Reserve component construct 
for a year, and the Air Force has done an internal study 
analysis, an Air Force A-9 that examined various options, and I 
believe that the creation of a Space National Guard is well 
postured for all the things that you say. As space moves into 
the commercial sector, it will posture itself, and there will 
be opportunity there to leverage that commercial sector and 
build Reserve units.
    And the other thing given about the National Guard is we 
are the only Reserve component deployable force structure in 
the space business. We have units that are unit-built, unit-
equipped that have deployed to the Middle East, that have 
deployed into the Pacific that do missions in the space domain. 
No other Reserve component does that.
    So as I look forward to structure moving from the Air Force 
and the Air National Guard as well, I would like to see it 
move, and I think it should move, into the Space Force so that 
we can recruit people. They become space warriors just like all 
the other space folks. They can have the doctrine, the 
personnel, the training opportunities of all other space 
warriors. So that is my recommendation as we continue to 
discuss what the Space Force will actually finally look like.

                      UNFUNDED LIST FOR THE GUARD

    Mr. Calvert. Good. Thank you for that answer. One other 
quick question, General. I know that the Guard does not 
historically submit unfunded priority lists, and maybe you just 
want to get the money you lost on the reprogramming, but could 
you walk the committee through what those would be for this 
fiscal year, if you had your druthers?
    General Lengyel. From an equipment standpoint or personnel, 
I have a--you know, as you know, many of the programs in the 
National Guard are funded with adds from this committee. You 
know, I think that, you know, future requirements for C-130 
platforms are there. Future requirements for advanced radars 
for F-16s would be on an unfunded list for us. You know, I 
think that as we look across other things that I have portrayed 
that are important, full-time support for the Army National 
Guard, additional money for counterdrug, additional money for 
FSRM to build our facilities, all of those kinds of things are 
on my unfunded list. And if you are asking me for an unfunded 
list, then I can create one and give it to you on the record, 
take it for the record and give a more accurate appraisal.
    Mr. Calvert. I would welcome you to do exactly that. Thank 
you.
    General Lengyel. Yes, sir.
    Mr. Visclosky. The gentleman recognizes Ms. McCollum in one 
second. But in my introduction, I was remiss. I met with the 
Defense Minister from Estonia this morning, and he was very 
complimentary to you and the Guard for the work as far as 
helping with cybersecurity. Also, I hate to say it in the 
gentleman's presence, he was grateful and thought it was a very 
strong relationship as far as the State partnership with 
Maryland as well as the country of Estonia, so I do thank you 
for that as well.
    Ms. McCollum.

                   PFOS CONTAMINATION OF GROUNDWATER

    Ms. McCollum. Thank you.
    I am going to ask you some questions for the record on 
groundwater remediation of PFOS chemicals and the Reserve 
component installation. So we know the EPA still needs to adopt 
a standard PFOS groundwater remediation, but the appropriators 
did include $127 million to the fiscal year 2020 defense bill 
to begin addressing PFOS chemical contamination. It includes 
$100 million specifically for the Air Force, as you are the 
largest user of firefighting foam that contains these 
chemicals.
    So I would like to get a better idea of the scope of PFOS 
contamination on both the Guard, and I will be asking the same 
thing from the Reserve as well. So I am going to be asking you 
to give us an update on the scope of contamination that you 
have been able to record, what States are particularly impacted 
the most, if you are having any issues with the Air Force in 
terms of ensuring that the fiscal year 2020 funds for 
remediation are available to the Reserve component for this 
issue, and what you would do with additional funding if you 
were to receive it beyond the fiscal year 2021 for the Air 
Force's environmental remediation. So I will ask you to do that 
for the record.

       EXPANSION OF THE NATIONAL GUARD STATE PARTNERSHIP PROGRAMS

    I have two questions. I am going to give them to you both 
at the same time, kind of piggybacking on what the chairman was 
just talking about with State partnerships. This is important 
to many of us in this room. We care deeply about our Guard 
partnerships. My State of Minnesota has been partners with 
Croatia for over 20 years. I was there when we welcomed them to 
our State. It is a great relationship. The Guard also does an 
exchange with Norway on a regular basis. So it is important 
that we keep expanding State partnerships, especially into 
Africa, especially when the Chinese have deep engagement in 
that continent.
    So I would like you to give us an update on the expansion 
of the National Guard State partner program in Africa. My 
understanding is Ethiopia is the next country on the list. I 
think that makes good sense, having spent a lot of time in 
Africa. So that is my first question.

                NATIONAL GUARD AND CORONAVIRUS EMERGENCY

    My second one is just kind of if you could give our 
committee a brief update on how you think the National Guard 
can work with us as we deal with this coronavirus emergency. We 
are starting to see the impacts on public health systems. Last 
week, in Washington State, Governor Inslee declared a state of 
emergency, which gives him use of the National Guard. I had a 
conversation with Governor Walz, a former National Guard member 
himself, and we were talking about, you know, if the Guard was 
to be able to be used, nobody does logistics better than the 
Guard. And as hospitals are having to prep for ICU rooms with, 
you know, strained resources, no one knows how to move things 
and get things built. So those are my two questions, and the 
PFOS is for the record.
    General Lengyel. Yes, ma'am. We have been doing a lot of 
work on PFOS, and I am happy to give you all that data for the 
record, and we will get that to you ASAP.
    Regarding the State Partnership Program, so it is 84 
countries currently. And as you mentioned, there are a couple 
that are still--that are just now coming to be filled, two of 
them in Africa. Egypt, along with Ethiopia, will be. Africa now 
has, as you may know, 15 partnerships, which is up 
substantially over the last several years. So I think that, you 
know, currently, that program is funded in the budget at about 
$16 million, and what we need is about $29 million so we make 
sure we have enough activity, meaningful activity, between the 
States and the partnerships that are ongoing.
    I just got back from a trip in the South Pacific. There is 
two brand new partnerships there that I just visited, Fiji and 
Tonga, as parts you mentioned, Chinese, and the hotel I stayed 
in had a Chinese flag flying over the hotel as I was there. 
They were thrilled to have the partnership. They were thrilled 
to have the engagement. The training and engagement with their 
State partner, which, in both cases, is the State of Nevada, is 
a superb tool for our engagement in the South Pacific and in 
the region. In Croatia and Norway, the two relationships with 
Minnesota, have proven over time to be extremely valuable as 
well.
    So was there anything else on the State Partnership 
Program? In the near term coming up is Ethiopia. They have yet 
to have a partner approved, and same thing for Egypt, although 
that is getting close to having a partnership.
    With respect to the coronavirus, the coronavirus--so 
obviously, we are taking that very seriously, and at the 
National Guard, we are doing the things that we always do. We 
are planning, we are coordinating, and we are communicating. So 
planning means we are looking internally for us across the 
equipment, the personal protective equipment activities that we 
have or the equipment just in case some units need it, and 
there is some, and we do have some, should some National Guard 
units become engaged in a contact scenario with people that 
happen to be infected.
    The coordinating piece is working closely with the 
Department of Defense COVID-19 Task Force that is working with 
DOD, HHS, NORTHCOM, and all of the players involved in trying 
to assess the scope and scale of this activity and what it is 
going to require of us, to include looking across the 
enterprise for places where, should they need, there is housing 
available or ability to have people quarantined in States and 
the like. We are just looking at those things now. None are 
being used anymore. We just finished using a station in Camp 
Ashland, Nebraska, where we had 57 people there who were being 
held till their virus was--or their quarantine time was up.
    So I think we will continue to do those kinds of things. 
And the coordinating piece is, as we do, is where the National 
Guard could be used. As you mentioned, nobody does logistics 
better. Nobody does command and control better. Transportation. 
There are many, many things that National Guards can be used 
for in their States that can help governors and State and local 
officials deal with what might happen as a result of the COVID-
19 virus.
    So, yes, we are engaged. We are involved. We are 
communicating with the States and the Adjutant Generals. So 
far, Washington State is the only State that has called me and 
said, our governor has alerted us that said we may put people 
on a State Active Duty status for logistics and planning kinds 
of activities, but I suspect there will be more as this tends--
as this unfolds.
    Ms. McCollum. Thank you.
    Mr. Visclosky. Mr. Cole.

                             MC-12 MISSION

    Mr. Cole. Thank you, Mr. Chairman.
    First, General, I want to join everybody on the committee 
and thank you for 40 years of wonderful service to our country, 
but I see your wife sitting behind you, so I want to thank her 
for 40 years of wonderful service supporting you so you could 
do your mission. And your family, I know that is not possible 
without their help, so thank you very much.
    Mr. Chairman, I am always pretty careful when it comes to 
these Guard and Reserve issues because I am sitting to the left 
of the Kentucky National Guardsman of the year for 1960 and a 
member of the Kentucky National Guard Hall of Fame, and I am 
sitting to the right of a 30-year guardsman who was a Colonel 
and Commander to our forces in the Sinai, so----
    Mr. Visclosky. Mr. Cole, if they were so sharp, they would 
have Tahiti partnership program.
    Mr. Cole. I will be suitably humble in my questions.
    I have got two, one parochial and one actually my good 
friend from Minnesota just touched on. And with some of the 
difficult budget decisions that you had, we have seen a cutback 
on the MC-12 mission, which is an ISR platform. For my friends 
that don't know, there happens to be one of them located at 
Will Rogers Air National Guard Base in Oklahoma City, the 137th 
Special Operations Wing. They have done really incredible work, 
I mean, great work in Colombia. They just provide the 
capability that we can quite often give our allies that don't 
have these kinds of platforms, and, you know, played an amazing 
role in a number of places. Some of them we can talk about 
publicly, some of them, quite honestly, we can't. But we have 
got a lot of great pilots there. We have got a lot of great 
aviation support units there. We have got terrific facilities 
there.
    So obviously, as that mission gets scaled down because the 
platform is being retired, we are concerned with what is going 
next there, if anything. So do you have any thoughts on that?
    General Lengyel. Yes, sir. Well, I will tell you that I 
agree with everything you said about the 137th SOW. They are 
respected. They are a great platform. They have done incredible 
work in SOUTHCOM, in AFRICACOM in particular, for two combatant 
commands that kind of beg for capability to do their jobs. The 
137th SOW is an incredible platform.
    I would say that I think that there are funding issues, as 
you mentioned. The Defense Wide Review, they do a lot of the 
work for Special Operations Command, and Special Operations 
Command does fund the contract logistics support to maintain 
that aircraft. And in the course of this year's budget, they 
eliminated that funding for the contract logistics support. So 
we are in the process now of looking at going--until we can get 
that extended, until we find a replacement mission, because the 
Air Force is short of pilots, you know, and we need to retain 
the aviation skills of the people in that unit. So we are 
trying to extend to the point that we can, yet to be determined 
if we can. The SecDef approved that money to be gone, so we are 
working with the Air Force and with Special Operations Command 
to find a replacement mission for the 137th, if that is what it 
comes to.
    Mr. Cole. Well, I appreciate that very much, and just want 
to flag that we want to work with you on that. Again, platform 
is one thing. The real essence of it, honestly, is the quality 
of the personnel in terms of the maintenance and the pilots 
themselves and what have you. So it is an asset, I think, from 
a personnel standpoint. As you point out, we are pilot short 
now. We don't need to be losing these kind of capabilities.
    Second question, just quickly, and you have already 
answered part of this, but this is more--I share my friend from 
Minnesota's concern with coronavirus. Because I noted from 
working on the supplemental, I haven't seen anybody talking 
about how to replace anything we expend out of these accounts 
on that, or your facilities are slated for backup if we were to 
have a problem and all the HHS facilities got up--filled up. We 
don't know that that would happen, but you would be pressed 
into service very, very rapidly.
    So I am glad you are planning on it and thinking about it. 
I think you are very wise to be looking a little further ahead. 
I would just urge, Mr. Chairman, and certainly to you, General, 
we are going to have a supplemental at some point. I know we 
are negotiating it. My guess is there might be more than one at 
some point. These things are just hard to anticipate, given 
that it is a brand-new virus. Please don't be shy about getting 
your accounts filled back up if we end up pressing them into 
duty, because we don't know we need to be robbing Peter and 
paying Paul here. We have already done a lot of that to you, 
quite frankly, as my friend, the chairman, pointed out. Does 
not need to happen on this particular national emergency. We 
may well need you, but we shouldn't be taking other things from 
you, particularly as much as we are asking you to do.
    With that, I yield back, Mr. Chairman.
    Mr. Visclosky. Ms. Bustos.

            NATIONAL GUARD FUNDS FOR EQUIPMENT AND TRAINING

    Mrs. Bustos. Thank you, Mr. Chairman.
    And really appreciate your time with us today, General. And 
since this is your last hearing season, I want to thank you for 
your stewardship of the Guard and thanks to your family as 
well.
    Since 9/11, our Nation has asked much of your soldiers and 
your airmen, guardsmen deployed to support Operation Enduring 
Freedom, Iraqi Freedom, New Dawn, Inherent Resolve, and Freedom 
Sentinel. Over 700 guardsmen's lives have been lost, 5,000 
wounded in action. So we will continue to rely on the Guard to 
execute our National Defense Strategy as we focus on near-peer 
competition.
    To be successful, however, our Nation must ensure that our 
guardsmen train and deploy with the same equipment as their 
Active Duty counterparts, and you talked about this a little 
bit when Chairman Visclosky started this out. So you said that 
you were not notified in advance that the Department of Defense 
would spend over a billion dollars that Congress had already 
appropriated to modernize the Guard and instead divert that to 
the border wall construction instead, speaking of robbing Peter 
to pay Paul, I guess I will use that same phrase as Mr. Cole.
    What worries me, and I am going to be very specific to my 
congressional district that I am fortunate enough to serve, but 
our air guardsmen maintain and fly the older C-130H models in 
Peoria. And those are the--as you know, those are the Vietnam 
war era airframes that the Active Duty Air Force doesn't fly 
anymore. And the NGREA funds were supposed to have provided 
critical survivability upgrades to those older C-130H models. 
On top of that, now Congress has been notified that DOD will 
use the money that we appropriated to acquire new C-130J models 
for the border wall also.
    And I guess, General, the fact that you weren't notified, 
and I am guessing that means that folks in Peoria, this caught 
them by surprise as well, and I guess I am wondering, these 
are, you know, obviously very important people that we are 
lucky enough to have in our Nation and serving our country. 
Just kind of what message do you think would be important for 
me to take home the next time I meet with these folks about 
this? You had mentioned, at minimum, it is a 1-year delay in 
all of this, but kind of play that out a little bit, if you 
could.
    General Lengyel. Yes, ma'am. You know, I will start off 
again by saying NGREA is a critically important source of 
income, money. It is our only procurement source to upgrade 
some of our legacy platforms. It is the only one that we have. 
And so what I will tell you is, you know, it is a unique source 
of revenue, of income for us to use because we don't have a 
program line for it. We only get it at the good will of the 
Congress year after year after year.
    One of the reasons they took it was they said, well, it 
wasn't being obligated. It wasn't spent at certain rates that 
procurement money is normally spent at. We never have spent 
NGREA dollars at 80 percent in the first year. It is impossible 
for us to do it. One, we never know how much we are going to 
get. Two, rarely do we get it at the beginning of the year. CR, 
CR, CR, so it comes late in the year. So we are unable to get 
it on contract and spend it in time. So it is not unusual at 
all for us to have low levels of obligation rates.
    But we spend all of it within the 3-year period. 99.95 
percent is spent within 3 years. You can go back to 1994, I 
think, was the last time we missed it, and we just missed it by 
a tad, but 99. is all spent.
    And that money, we have special--the Air National Guard and 
Air Force Reserve Test Center in Tucson allows us to not only 
buy things less expensively but innovatively. We are able to 
work with industry for our platforms to make fast, quick 
upgrades to our systems that the Air Force, frankly, doesn't--
they can't do. Their acquisition system isn't built to do 
things like that. Only we can do it in the Guard. So all of the 
things that you mentioned.
    And it is hard to quantify the impact of delaying it a 
year. I don't know who is going to be flying a C-130 that may 
have needed that defensive warning system on it. These 
airplanes will still deploy. They will still go around the 
world. They will still be flown in combat and in harm's way. 
And does 1 year make a difference to some airman who is going 
to fly in that C-130 that slipped a year to be upgraded? Nobody 
in this room knows that.
    So I just--you know, the many things that we have done to 
upgrade the C-130s at Peoria or the other 13 combat-coded C-130 
units that are in the Air National Guard, you know, it is a 
significant impact to us. And I have conveyed that to the 
Secretary and to the Chairman. And just to be clear, they did 
tell me they were going to do it 2 days before they sent the 
reprogramming, but I was not consulted, you know, in the 
decision of what pots of money to take in order to pay for the 
border wall.
    Mrs. Bustos. So with 2 days advance notice on this, it is 
not like you could say absolutely not, this can't happen.
    General Lengyel. Well, I don't have the power to say 
absolutely not, this doesn't happen. I don't control the money.
    Mrs. Bustos. And if you had, I am guessing that probably--
    General Lengyel. If I did, I would have pushed back 
substantially on it.
    Mrs. Bustos. Yes.
    General Lengyel. Yes, ma'am.
    Mrs. Bustos. Thank you.
    General Lengyel. A very important pot of money, and my hope 
is that this was a 1-year blip. So if it is a 1-year instance, 
then I would tell you that we are going to be able to recover, 
but--it is going to hurt, but we are going to be able to 
recover. You know, take $800 million out of modernization, you 
are going to feel it. But the money came from, you know, things 
that were going to be important to the National Guard.
    Mrs. Bustos. If it is 2-year blip?
    General Lengyel. It makes the materiel risk worse, you 
know. That is where I told the Chairman this is where I see 
there will be strategic impact. You know, just go back 10 
years. You have given the National Guard almost $7 billion to 
upgrade our equipment. There is strategic combat capability in 
$7 billion in the equipment that we have in the National Guard. 
So if we were to lose it for a long period of time, I would say 
I might meet that threshold that the chairman gave us. So, 
unknown. It is a hypothetical question, but it is very 
important revenue for us and for our platform and for the 
people who fly them.
    Mrs. Bustos. Thank you, General, and again, thanks for your 
40 years of service.
    General Lengyel. Thank you.
    Mr. Visclosky. Mr. Rogers.

                                C-130JS

    Mr. Rogers. General, I join my colleagues in saying our 
profound thanks for your 40 years of service to your country, 
essentially your lifetime. We thank you for your dedication and 
your quality that you bring to this chore.
    Speaking of the C-130s, as you know, I have been involved 
in efforts to modernize your fleet and supported the 
procurement of two squadrons' worth of 130-Js over the last 
several fiscal years. I know that the basing process for these 
aircraft is being led by the Secretary of the Air Force in 
close consultation, supposedly, with the National Guard. Can 
you tell us the role that you and the Air Guard have played in 
the basing process for these 130-Js? And do you feel that you 
and the Air Guard have been appropriately consulted about that?
    General Lengyel. Yes, sir, I can. So, you know, I can't 
remember the month that it was, but it was sometime, I think, 
in the fall. We sent out to the field, the community of 
interests, in the C-130 community, here is the criteria that is 
going to be used to look at the 13 combat-coded C-130 bases 
that are out there. The Air National Guard was instrumental in 
developing what that criteria might be in terms of creating 
some sort of a matrix to determine who was the most valued--or 
the most appropriate candidates to be looked at.
    The Air Force basing process always does that, and they 
will then winnow that list down to a smaller number. That list 
will be released sometime in the next month or two, in the 
relatively near term, from 13 to some lower number, seven or 
eight bases, most likely. And then each one of those eight 
bases will get a--a team will go and visit those bases and take 
a more detailed analysis of each location. And they will look 
at costs involved to transition the aircraft. They will look at 
ranges. They will look at training. They will look at the 
readiness units--of the units there. And then they will compile 
all of that data that will come back into the Air Force 
process, which we are a part of, as Chief of the National Guard 
Bureau and the Director of the Air National Guard will be a 
part of that to make a recommendation to the Secretary of the 
Air Force of the primary and preferred alternatives for who 
will get the C-130Js based in the near term.
    So that is the way the process will work, and the Air 
National Guard is right involved with the total Air Force to do 
the analysis with it.
    Mr. Rogers. Do you feel like you have been treated fairly 
in consulting with the Air Force?
    General Lengyel. I do.
    Mr. Rogers. Now, these are Air Guard planes, right?
    General Lengyel. The planes that are to be stationed that 
are out there were bought for the Air National Guard by the 
United States Congress. They were adds.
    Mr. Rogers. And yet the Secretary of the Air Force is 
charged with making the decision.
    General Lengyel. Yes. Well, I think that, you know, we are 
still part of the Air Force. We still have to operate from the 
Air Force. We get our money from the United States Air Force. 
So it makes sense to me that the Secretary of the Air Force has 
civilian control of the military and would run a process that 
is repeatable, defendable, and fair such that everyone can have 
a shot at getting the C-130s. I think it is a good process. I 
have watched it for many years, and I think that it keeps 
everybody honest throughout the system.
    Mr. Rogers. When will the decision be made?
    General Lengyel. I think the three bases that will get C-
130Js in the near term should be announced sometime this 
summer.
    Mr. Rogers. This summer?
    General Lengyel. This summer.
    Mr. Rogers. Thank you, General.
    General Lengyel. Yes, sir. Thank you, Chairman.
    Mr. Visclosky. Mr. Ruppersberger.

          ADVANCED ELECTRONICALLY SCAN ARRAY (AESA) FOR F-16S

    Mr. Ruppersberger. Thank you, Mr. Chairman.
    First thing, I echo your comments about moving the $1.3 
billion from the National Guard to the border wall. Makes no 
sense. Secondly, thanks for mentioning the Maryland National 
Guard, about 500 in Estonia. They have been there for years, 
and I have visited them----
    Mr. Visclosky. That is in your district----
    Mr. Ruppersberger. Well, you know, it is a good thing, but 
you might not have voted for me, so I am not sure. Or run 
against me. That is even worse.
    But, you know, Russia has attacked them so much, Estonia, 
that they are totally paperless. And as a result of being 
paperless, they are really working well, and Russia doesn't 
have as much influence as they used to, so that is a good 
thing.
    I am going to talk to you about--we dealt with this last 
year when you appeared before our committee, as far as the F-
16, the advanced electronically scan array, AESA, radar 
upgrades as a top priority for the Air National Guard. I am 
pleased that Congress heard that request and added $75 million 
explicitly for these important upgrades.
    How many Air National Guard F-16s still require these 
radars, and is it still a priority to fund the continued 
procurement of these radar upgrades, if so, and why?
    General Lengyel. Yes, sir. And I thank this committee for 
the $75 million that we got last year that gave us 30 more 
radars. Last year, I testified that we needed--that we had 261 
F-16s that I thought were going to need AESA radars as we 
proceeded down the road. AESA radars, as you know, the initial 
buy was 72, which only converted a few radars, eight radars in 
nine different locations. It makes it difficult to manage, 
deploy, logistically use these aircraft with different types of 
radars.
    So, you know, I do think that more need to be modified. 
With the 30 that we did last year, we are down to 231 left that 
don't have AESA radars planned. Now, some of those in the end 
game may age out and be retired, so we wouldn't probably want 
to buy all 231 radars all at once, because in the late 2020s or 
2030s, some of those aircraft could be retired.
    Mr. Ruppersberger. Yeah. They probably should.
    General Lengyel. But, clearly, a continued drumbeat of some 
30 or 50 radars a year would be helpful to the----
    Mr. Ruppersberger. Let me ask you this. How do these radars 
keep the homeland safe, and are the older F-16s that you 
addressed without this capability still viable? You said you 
are going to retire some.
    General Lengyel. They are viable, yes, sir. And, you know, 
they not only increase the capability of the platform to detect 
and engage threats that may be fired at the United States or 
fired at their own platform, but the AESA radar is a great 
detector. I mean, it also provides some significant defensive 
system capability for the platform when it has it. So it 
greatly enhances the combat capability of the F-16 when you put 
an AESA radar on it.

                             CYBERSECURITY

    Mr. Ruppersberger. The other question I have, my district 
is home to the National Security Agency and the CYBERCOM 175th 
Cyberspace Operation Squadron, and on a reoccurring basis I 
hear concerns of agency and military leaders about the 
recruitment, and most importantly, the retention of our 
cybersecurity workforce. What initiatives have you started to 
recruit and retain this vital skill in the Army Reserve? And 
maybe I should ask that question in the next round to your Army 
Reserve.
    General Lengyel. That is General Luckey in the Army 
Reserve. We are doing pretty well in our cybersecurity in the 
Air National Guard, as we have a large footprint of cyber 
warriors. But as with anything, getting and maintaining and 
keeping our people is getting harder to do. So the ability for 
us to have money to pay retention bonus, reenlistment bonuses--
I asked for $100 million last year to do that--and keeping our 
talent is one of the hardest things that we now do in the 
National Guard.
    Mr. Ruppersberger. Thank you. I yield back.
    Mr. Visclosky. Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman. Welcome.
    General Lengyel. Thank you, sir.
    Mr. Carter. Good to see you. I like that term Texas 
associated with you.
    General Lengyel. Yes, sir.

                    FULL TIME SUPPORT FOR THE GUARD

    Mr. Carter. Nobody likes what happened with the wall. 
Although I support it, I don't like it being taken away. And 
what worries me most with my association with Fort Hood is that 
we are always trying to be more lethal and more ready every 
time we deploy. And I know that sometimes you have a shortage 
of either training or equipment issues that are special to the 
Guard and Reserve, and I want to know if there is anything that 
is interfering with the lethality of our force and their 
ability to be a deployable-ready force. And, if so, tell us 
what you need.
    General Lengyel. So, sir, I would tell you that the 
Adjutant Generals, the 54 Adjutant Generals in the States and 
territories tell me that the one thing that is most important 
to them to build and sustain readiness in their force is the 
appropriate level of full-time support in our formations. For 4 
years, I have attempted to raise the percentage of full-time 
force in our Army National Guard, and I have been patently 
unsuccessful.
    So, you know, I will tell you that--give you an example. A 
company of 130 people is supposed to have four full-time 
people. It is supposed to have an admin, a training, a supply, 
and one other NCO in there that is supposed to maintain the 
readiness of the unit, the readiness NCO. And in most cases, we 
will have two of the four. And so it is--one, it is hard to get 
people to take those jobs because they are doing the jobs of 
four people. So that when that company of soldiers comes in to 
train for the weekend, they have the right equipment, the right 
range of schedule, the right training, all of the things they 
need to be called ready forces.
    And so for 4 years, you know, we are about 11,000 full-time 
soldiers short in the Army National Guard to get us to 80 
percent of what the Army says we need in this operational force 
that we are. And so I have asked for incrementally a thousand a 
year. So give me a thousand, and I will show you how that 
builds readiness, and then you can fund the nextthousand. But 
it is not cheap. It is $100 million.
    Mr. Carter. So what are you limited to right now?
    General Lengyel. Pardon me?
    Mr. Carter. You said you need to recruit a thousand new 
people in the Guard this year.
    General Lengyel. I need the authorizations to hire a 
thousand full-time support.
    Mr. Carter. And what is your authorization for right now?
    General Lengyel. Right now, we are at about 57,000 people, 
57,000.
    Mr. Carter. But if you wanted to get a thousand this year, 
what would we have to do? Authorize it?
    General Lengyel. Can I provide you the number? Yes, we 
would need to authorize it and fund it.
    Mr. Carter. The authorization bill.
    General Lengyel. Right.
    Mr. Carter. All right.
    General Lengyel. Yes, sir.
    Mr. Carter. Thank you.
    Mr. Visclosky. Mr. Aguilar.

                   FUNDING FOR UNBUDGETED ACTIVITIES

    Mr. Aguilar. Thank you, Mr. Chairman.
    Thank you, General. General, as of this last week, we have 
been told over 2,500 Guard personnel are supporting Operation 
Guardian Support along the southwest border. We have been told 
that it will extend through September of 2020. However, the 
administration hasn't budgeted for these activities. How long 
can you sustain these unbudgeted activities, and what is the 
plan to help the personnel accounts recover?
    General Lengyel. So, yes, sir. This is an important 
question. So, you know, of the reprogramming activities that 
have occurred thus far, one that hasn't is the ability to put 
back into our personnel accounts the money we are spending on 
the southwest border with the National Guard troops that are 
there. Last year--or this year, we will spend about $320 
million, currently coming out of our own accounts, to fund the 
National Guard men and women who are on the southwest border.
    We need reprogramming action, and we have sent to the OSD 
comptroller a reprogramming action to tell her we need to get 
$285 million of that back from some other source or the 
National Guard will be required to make changes to what we are 
doing, i.e., a drill in the Army National Guard costs $100 
million. So if we don't get that money put back into our 
accounts where we can use that money for training, we will have 
to cancel a drill weekend in September or in August or in, you 
know, the last 3 months of the year, if we don't get that $300 
million approximately put back into our account. So it is a--
that request is with the OSD comptroller, and, you know, I am 
trying to get it over here before next summer, because the 
closer we get to the end of the year, the more I get worried 
that we have to no notice make abrupt changes to our training 
plan for the year.

                            BORDER OPERATION

    Mr. Aguilar. You heard comments from the chairman and from 
members of this committee about the transfer and reprogramming 
authority, as well as those activities, and I think we all have 
concerns about that. And I know last year, when military 
construction accounts were raided, there were concerns about 
backfilling those as well, and I think that this body still has 
concerns about backfilling and what future behavior that leads 
to.
    What are you hearing from guardsmen and women at the border 
operation itself? Do they understand their mission? What is 
their morale like with respect to this mission at the southwest 
border?
    General Lengyel. So generally, I think--I have been down 
there. It has been about 4 months or so since I have been to 
Texas and seen the actual activity going on on the southwest 
border, but they are motivated. They find the mission 
meaningful. They enjoy the opportunity to contribute to the 
security of the southwest border. I saw no one there that--you 
know, and right now, we have all volunteers there. We haven't 
involuntarily mobilized anyone on the border. So no one is 
being pulled out of school or jobs or away from family that 
don't want to be there. But I found, broadly speaking, they 
enjoy the work, they find it meaningful, and they are glad to 
have the opportunity to be there.
    And we have amended, thank you, the benefits that they 
actually get to have TRICARE activities taken care of and some 
9/11 GI Bill benefits taken care of for these men and women, so 
it is a better situation for them than it was in the past.
    Mr. Aguilar. I appreciate it.
    Thanks, Mr. Chairman. I yield back.
    Mr. Visclosky. Mr. Womack.

                      FUNDS FOR THE NATIONAL GUARD

    Mr. Womack. Thank you. Thank you, Mr. Chairman. Thanks for 
the hearing.
    And thanks to General Lengyel for your service, for what 
you meant to the Guard. Our Guard is better as a result of your 
leadership, and I appreciate that. I am a better Congressman 
because of your leadership, so thank you for the relationship 
we have had.
    I don't want to kick too much on this whole issue of taking 
the money out of the Guard accounts, but I am not going to let 
the moment pass, because I remember the days when I was jumping 
off of the back of an M60A3 TTS tank when the Active Component 
was training on the M1 Abrams. I remember those days. I felt 
like a second-class soldier, because I knew if I was called up, 
I wasn't going to be on an M60A3 TTS; I was going to be on an 
M1. And it was probably even worse back in Hal's day. I mean, 
the horse cavalry, I mean, they were----
    Mr. Womack. But there is not a person sitting in this room 
today, as an elected official, that doesn't represent a 
National Guard unit that doesn't remember the day when we 
didn't train on what we were going to fight with and how far we 
have come as a country, indeed, going all the way back to 9/11 
and we started plugging this National Guard and Reserve force 
component structure into the warfight. We made them operational 
soldiers, and we promised them, we promised them that you were 
no longer going to be treated like that. You were going to be 
given the equipment that you were going to fight with.
    And so just count me as one of the people not real happy 
with the fact that we have made the National Guard a bill payer 
for this country at the expense--and you can say it is a year, 
but there is not anybody in here that can argue with a straight 
face that this is a 1-year deal. And this Congress ought to 
step up to the plate and fight it, in my opinion.
    Humvee modernization. How long have we been--I mean, we are 
in the middle of that right now. How much more do we have to 
go? I mean, these vehicles have been through a lot of conflict.
    General Lengyel. Yes, sir.
    Mr. Womack. They need repairs.
    General Lengyel. They have. And, you know, we have had 
significant and regular adds to modernize our Humvee fleet in 
the Army National Guard over the past several years and 
certainly since I have been the Vice Chief or the Chief, and we 
have made enormous process--progress. So the ambulances have 
all been upgraded. The TOW missile variants have all been 
upgraded. You know, they are in the process now of, you know, 
continuing to modernize the fleet, the JLTV is a bit down the 
road, but to make sure that we have the right fleet.
    All of the adds that we get, whether it is C-130s or 
Humvees or NGREA money, is critical to the force structure, the 
equipment, the things that we have to not just fight the war, 
but the things that we have, in many cases, to do our jobs here 
in the homeland as well.
    Mr. Womack. And worse than that, in my opinion, it is the 
message that we are sending to our citizen soldiers in our 
communities, people that we go to school with, shop with, 
worship with, these folks that have put their hand up like 
everybody else and said I will go. Again, we have made a 
promise to them, and we robbed from that promise, I think. And 
the sooner we can get this money back and give some more 
certainty to our Guard and Reserve forces, the better off I 
think we will be.
    I just don't like sending a message to them that we are 
going to relegate them back to second-tier status, because that 
is not the message we want to be sending to people that have--
you know, you go in the Rayburn foyer, and there is a whole 
bunch of names in there. And I promise you, there is a whole 
bunch of them that came out of the National Guard that are up 
there on that wall giving their life for their country. So 
anyway, thanks for letting me rant just a minute.

                              SPACE FORCE

    I want to pivot to Space Force. I think this is another 
oversight. In everything we do where the Guard is involved, we 
bring value to the fight. And I would say that we probably 
bring as much value, if not more value, to the potential Space 
Force as we do in any of the other components. Well, we have 
that inherent ability throughout the civilian sector, and 
obviously we have guardsmen. In my State, as you know, I have 
got a----
    General Lengyel. 153rd Intel Squadron, yes.
    Mr. Womack. Exactly. I have got an intel squadron. So in 
Joe Lengyel's perfect world, how would this Space Guard be 
aligned and arranged within the Space Force?
    General Lengyel. Okay. So if you are asking my personal 
opinion, I would tell you that, you know, I think that I spend 
a lot of my time as I talk about space trying to dispel myths 
about what we are trying to do. Some people think we are trying 
to create something that is going to be 54 in every State, 
territory, and District of Columbia, because we have air and 
Army units in all 54. That is not--there is no proposal from 
anybody to do that.
    What I mentioned earlier was, you know, I have advocated, 
at no cost, to just create a Space National Guard in law so 
that somebody can be in the Space Force and the Space National 
Guard of the United States and the Space National Guard of 
their States. That is what we do in the National Guard. We are 
under the command and control of the State leadership. So that 
there would be a component created such that the space 
capability that currently resides in the Air National Guard 
would move over and be part of now the Space Force. I think 
that is important.
    The Space Force is going to train, plan, doctrine. It is 
going to have its own culture. It is going to have its own 
uniform. The men and women who are in our space enterprise 
right now are worried. They are like, hey, how come no one 
wants to create this component, you know? And I say, hey, they 
are just trying to get it right. Hang on, they are going to get 
this right in the end. But, you know, as people decide, for 
whatever reason, to go work for SpaceX or Blue Horizon or some 
commercial space entity, as people are prone to do, they won't 
see the Air National--or the Space National Guard as a 
possibility to continue to contribute their military service. I 
think that is an important part.
    So ideally, when we have this component built at the same 
time such that, hey, the Title X force, they are already there. 
There is a Space Force, and they can just move them when the 
Air Force wants to. Right now, there is not a component to move 
the Air National Guard into a Space National Guard. So at some 
point in the future, I think they should do that. And so that 
when--ideally for me, they should go the same day. Everybody 
takes off Air Force, puts on Space Force. That is about the 
cost of it.
    I have people on my staff right now that are doing the 
space mission. I don't need a bigger staff in NGB to manage 
this. No States need any more generals to manage this in the 
States. The people are there. They are funded. They are paid 
for. They have equipment. We just need the ability for them to 
be part of this new service as the Space Force stands up. I 
think they will get there sooner or later.

                      EFFECT OF A CR ON THE GUARD

    Mr. Womack. I have one more quick question, and that is, 
while we are in the appropriations markup season now and we 
have all these great ideas as to how we are going to get this 
done and get it done real fast and get it done on time, there 
is probably not anybody in here that really believes that, that 
we are going to have a conferenced bill ready to sign before 
October 1. So we are going to be on a CR, and that CR probably 
is going to be kicked into who knows when. What effect does 
that have on you?
    General Lengyel. The CR always has the same effect it does 
on us in terms of, well, we can--it devastates programs that 
live on congressional adds, for one thing, like State 
partnership programs that we are going to have events and we 
don't get the money because we don't have a budget. That hurts. 
It hurts our men and women who--you know, a CR, we all think it 
is a good idea that it ends on a Friday. Generally, they end on 
Fridays. Well, the men and women who were going to go to drill 
weekend on that Saturday, they don't know whether to travel to 
their Guard unit or----
    Mr. Womack. They may be en route.
    General Lengyel. They may be en route. And all of a sudden, 
they say, sorry, we got it, or we didn't get it. It costs us 
money because if we have to cancel drills or training events 
that we have prearranged contract to build readiness things, 
like medical evaluations, dental evaluations, or food support 
for major exercises that we were going to run, we lose all that 
money. And so it is money that is gone, and we don't get it 
back because we can't change it.
    So it really disrupts our ability to train, and it jerks 
around our force. I mean, the men--you know, our most valuable 
weapon system are the 450,000 people that wear the uniform. And 
in these days with a good economy and other choices, it is 
getting harder and harder to make them choose to continue to 
serve. So I don't like it when we don't give them 
predictability. That is what they need. They need 
predictability.
    Mr. Womack. Absolutely. Thank you, General, for your 
service to your country. Thank you.
    General Lengyel. Thank you, sir.
    Mr. Visclosky. Mrs. Kirkpatrick.

                    CUTS TO VITAL AIRCRAFT UPGRADES

    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    General, thank you for being here. I represent Tucson and 
southern Arizona, and it includes part of the border. The 
presence of the National Guard in Arizona is really important 
to us. I just want you to know how much we appreciate your 
being there. And there are men and women who are our neighbors, 
and we want to make sure that they have the resources, the 
equipment, everything they need to do their job.
    And so I really have some concern about this plan to cut 
vital aircraft upgrades. My question is specific to what is 
this going to do to the Guard's F-16, KC-135, RC-26, and MQ 
fleets, especially in terms of the Guard's ability to be ready, 
be responsive, and its crucial contributions to our joint force 
mission success.
    General Lengyel. So, ma'am, there is programs involved 
with, I believe, all of those platforms. F-16s in particular 
have missile warning systems that because this money is gone, 
will either get deferred or delayed before they put it on 
there. The KC-135, we are creating systems that give enhanced 
situational awareness to the crews in the cockpit. It gives 
them the ability to see planes and systems and threats that are 
around them. That will get delayed or deferred. Other things 
such as the RC-26 and MQ fleets, if I could give that--take 
that for the record, I could tell you what those were, but----
    Mrs. Kirkpatrick. That is fine.
    General Lengyel. You know, many of these things are 
invented at the test center in Tucson. Right there.
    Mrs. Kirkpatrick. Yes.
    General Lengyel. And the ability to identify the need to 
identify contractors that can take commercial, off-the-shelf 
things and we can integrate them into our platforms quickly, it 
all happens right there. So it is definitely an impact to the 
force.
    Mrs. Kirkpatrick. Thank you so much. You know, this is a 
personal interest of mine because of my district and our 
proximity to the border and how much we rely on those men and 
women for protection. So just know that you have got my 
support, and we will do everything possible to help you out in 
that regard. Thank you.
    General Lengyel. Thank you, ma'am.
    Mrs. Kirkpatrick. I yield back.
    Mr. Visclosky. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Mr. Chairman. I don't 
know if I need to yield any time to Mr. Rogers to respond to 
the Colonel, but I don't think so. I think there will be later 
opportunities for that, right?
    Mr. Womack. Consider the source.
    Mr. Diaz-Balart. General, you have heard a lot of our 
colleagues here thank you for your service, but you know 
something, it is genuine and it is heartfelt, and we all feel 
that way.
    General Lengyel. Thanks.

                              SPACE FORCE

    Mr. Diaz-Balart. So just let me add my voice to that as 
well.
    And I believe it was the mayor who talked about Space 
Force, and I was going to ask you about that. You explained it, 
what sounded like a really logical explanation, so if it is so 
logical and so simple, why is it not happening?
    General Lengyel. Yes. Sir, that is a good question. I mean, 
frankly, there is some--you know, they want to make sure they 
get the Space Force right. That is what I will say. I think, 
you know, General Raymond has got an opportunity to look here, 
and, you know, they are trying to investigate and see can they 
create something that is even better than what we have now at 
the 21st century National Guard. I mean, we have honed 
ourselves pretty well, I think, over the years. We very little 
resemble what we were in 1636 or pre-9/11. So I think they want 
to make sure that they get it right.
    Mr. Diaz-Balart. Is there a lot of communication, General? 
Because, you know, there are a lot of folks that you have that 
are, in essence, you know, private sector, right, that have a 
lot of----
    General Lengyel. There are.
    Mr. Diaz-Balart [continuing]. Expertise that doesn't 
potentially exist anywhere else. And so are they communicating 
with you? Are they aware of some of these special assets that 
your folks have that, frankly, nobody else may have?
    General Lengyel. I think they are. I think broadly 
speaking, we have good support amongst the Air Force and the 
Space Force. And most people will tell you the phrase of ``I 
can't imagine the Space Force without the National Guard.'' You 
know, I think--but they are being careful and they are going 
slow.
    And some people--sometimes the Guard can be seen as a hard 
organization to work with. We have got States, and they don't 
understand it as well, so it is my job to convey how this 
works, make them see the benefits of the dual-use nature of our 
force, the ability for governors to task us for COVID virus or 
fires or floods or earthquakes or cyber. People thought, when 
they created the cyber force, that you didn't want to put it in 
the Guard because there was not a State mission. Well, they 
have used the Space Force already to fight fires and to fight 
floods and to expedite resources and recovery. So I think part 
of it is just, you know, beating the drum and making sure they 
understand the value of it.

                           125TH FIGHTER WING

    Mr. Diaz-Balart. Mr. Chairman, if I may, just another 
question about the 125th Fighter Wing. It carries, I think, a 
unique role, and just because of its geography, right, a 
critical national security role. Obviously, a lot of us, you 
know, want to make sure that they are equipped with the most 
advanced fighters available. You and I have had this 
conversation, I think, on more than one occasion, but just your 
thoughts about the prospects for, you know, the latest, best 
fighter.
    General Lengyel. Yes, sir.
    Mr. Diaz-Balart. The possibilities of them being there.
    General Lengyel. Right. So as you know, the F-15Cs that are 
there and getting old and getting older faster, and so that the 
Air Force is in the process of looking quickly to replace them 
with either F-35s or a newer version of the F-15, EX, they call 
it. And so the Air Force will go through a basing process, much 
like I talked to Chairman Rogers about in terms of the C-130H. 
Same sort of mentality and methodology that we will go through, 
and there is a lot of things that will make Jacksonville 
compete very strongly, I believe, for F-35s.
    Mr. Diaz-Balart. Thank you, General.
    General Lengyel. Yes, sir.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. I yield back.
    Mr. Visclosky. Mr. Ryan.

              REPROGRAMMING OF DEPARTMENT OF DEFENSE FUNDS

    Mr. Ryan. Thank you, Mr. Chairman.
    Mr. Womack got me all fired up there. And I just want to 
say that I have been here 18 years. Many of you have been here 
much longer than that. This assumption of Presidential 
authority has been happening for the last couple of decades, 
and here we find ourselves in a situation where our 
appropriated money for our priorities that we pass through 
Congress and you are not even acknowledged in that process, is 
extremely frustrating. And we have seen the diminishment of 
authority that Article I created so that the people govern the 
country, and whether it is congressionally directed spending, 
whether it is what Members of Congress get paid versus the 
judiciary or versus the executive branch, this is consistently 
happening. Here is the end of the road. And like the gentleman 
from California said, they already have money to do the wall.
    And the European Command was in here the other day and 
talked about 44 projects in European Command, and we are 
talking about battling against Russia and interference in 
elections and the drills that need to happen there and 
protecting our own equipment. Forty-four projects in the 
European Command are not going to get built because of this. I 
am upset too because in the Reserve, we have C-130Js. We put 
money in for four of those. Money for two of them are gone, and 
we are all dealing with this.
    And I just wanted a little therapy session here myself. If 
everybody else was getting one, I figured I might as well, you 
know, participate in it. And it is very, very frustrating for 
us who sit here every single day. Mr. Chairman, we see the 
threats from China. We see the threats from Russia. We see the 
complexities around the world. We see the Iranian enrichment in 
Iran. We see what is happening in Syria. You know, this is what 
we do all day long. This is what you do. And to just have this 
money go out the door without any consultation to you or us is 
extremely frustrating.

                      SHORTFALL OF FIGHTER PILOTS

    And so to kind of piggyback on some of the other questions 
here, we were talking about the Air Force and competition and 
keeping the talent that we need. And we know that the study 
that the Defense Department showed us that said the Air Force 
is hurting for about 800 Active Duty pilots and 1,150 Reserve 
pilots. The shortfall is most acute within the fighter 
community. An estimate from the Rand Corporation states that 
the Active Duty pilot deficit will grow to 1,607 by 2023. And a 
report by Rand concluded that increasing aviation incentive pay 
to increase retention was more efficient than expanding the 
training pipeline to sustain a given pilot inventory.
    We know that there are--I think the estimate is about 
30,000 pilots are going to retire from the commercial airlines 
in the next 6 years, and so we will be in direct competition to 
try to hire pilots and get them into the military.
    So can you speak on how you assess giving the parity in 
aviation incentive pay will help and cut the long-term costs 
and maintain the readiness of the force, something that we are 
all very, very concerned about?
    General Lengyel. Yes, sir, I can. I think the only good 
news for me in that story is you can be an airline pilot and a 
pilot in the National Guard. That allows us to retain talent 
and do it.
    With regard to incentive pay, I would tell you this. There 
has been a discussion, which I support, of, you know, when you 
are a member of the National Guard, if you fly 1 day, you get 1 
day's worth of flight pay. This applies to the Army as well, 
not just the Air Force. You know, and I think that there is an 
argument to be made that, you know, it doesn't matter how many 
times you fly in the Active Component, you don't have to fly at 
all. You still get your flight pay for the full month.
    So I think to retain not just our Air Force pilots but our 
Army helicopter, our Army aviators, we should look at the way 
we can, and there is a bill here, but how do we get a full 
month's pay for--if you have the skill set to be an aviator or 
some special skill that gives you an incentive pay, we should 
look at the ability to give it to you for a full month as 
opposed to just 1 day.
    Some of it is the money. Some of it is people can be 
incentivized with affiliation bonuses to join the Reserve 
component. Some of it with specialty pay and bonuses can be 
incentivized to stay. But no doubt in my mind that it does 
help, and we are seeing a lower number of people affiliate with 
us when they leave the Active Duty than we used to. We are 
seeing more people leave at the mid grade, captains and junior 
officers, when their term is up than there used to. I think it 
is just more lucrative and not required in some cases. And 
because we are an operational force, they are working harder.
    So we have to take every avenue to look across the spectrum 
to see what we can do to retain our specialty, our aviators in 
particular.
    Mr. Ryan. I appreciate that. Let me add my voice as well to 
thanking you for your years of service, and to your wife and 
your family for all of the dedication and commitment you have 
shown this country. You have been a delight to work with over 
the last few years, and continued success in your retirement.
    General Lengyel. Thank you, sir.
    Mr. Ryan. If you are like all the other people who were in 
government and now out of government, they are the ones 
smiling, walking around the hallways now. You can pick them 
from a mile away.
    General Lengyel. Yes, sir.
    Mr. Ryan. I yield back, Mr. Chairman.
    Mr. Visclosky. Mr. Crist.

                LARGER PRESENCE OF THE GUARD IN FLORIDA

    Mr. Crist. Thank you, Mr. Chairman, very much for holding 
this hearing.
    And, General, thank you for your service to our country.
    General Lengyel. Yes, sir.
    Mr. Crist. Forty years is a long time.
    General Lengyel. It is.
    Mr. Crist. You don't look old enough to have served 40 
years, but God bless you obviously.
    General Lengyel. It is really 39. It is close to 40.
    Mr. Crist. There you go. I don't have a lot to ask you. But 
even though Florida, and Congressman Diaz-Balart is well aware 
of this as I am, we are the third largest State in America. We 
have almost 22 million citizens. But Florida ranks 14th in 
total guardsmen and 49th in guardsmen per State resident. As 
you know, when one serves as governor of the State, as I was 
privileged to do, you also serve in another role, you are the 
commander in chief of the Florida National Guard, in my case. 
And I have seen firsthand how important the guard is, you know, 
how treating disasters--and, you know, Congressman Diaz-Balart 
and I many times will be together. We started out together, in 
fact, in the State senate in 1992, and we have been through a 
lot of hurricanes in Florida and a lot of fire in the Sunshine 
State, and without the National Guard being able to help us 
protect our beautiful State, we would be in a bad place.
    And that also extends to other States who will contribute, 
you know, some of their guardsmen and women when there is a 
natural--you know, huge disaster in any State in the country. 
It is a great partnership, and we treasure it.
    And so the concern I have, I guess, is that, you know, when 
Florida may be recovering from a disaster of any type, there 
may be other governors who might be somewhat reluctant to 
readily dispatch their guardsmen or women, because they might 
have their own disaster to deal with. That is pretty 
understandable. So is there a way to get a 22-million populated 
State a justifiable number of your colleagues in a better way? 
Please, sir.
    General Lengyel. Yes, sir. And I will tell you, we look at 
that all the time. We look at the ability. We have States that 
have a structure that they can't recruit to.
    Mr. Crist. Right.
    General Lengyel. Demographics have shifted, and it is 
incumbent upon us to look at that to make the hard decision to 
move structure to where we can recruit to it. And so I can tell 
you that we look at that regularly, routinely. And States with 
excess capacity to recruit we will attract as mission comes up. 
So I can tell you it is something that we look at, sir, and I 
think it is a great point.
    Mr. Crist. Thank you. I appreciate that very much.
    Should the coronavirus or another large scale event require 
a national response, I fear governors will do what they just 
may do because they care about their citizens so much. So if 
you can help me--us, forgive me--find a way to address this, it 
would be greatly appreciated. And I want to extend and 
associate myself with the remarks of my colleagues on this 
committee in thanking your family, and your wife in articular, 
for sharing you with the United States of America.
    General Lengyel. Thank you, sir. Thank you very much. 
Appreciate it.
    Mr. Visclosky. That will conclude this panel.
    General, we want to thank you for your life of service. You 
are the kind of person that been deathly serious about your 
work, but you are gracious as well. God bless you. Thank you.
    General Lengyel. Thank you very much. Thank you all.
    Mr. Calvert. One last comment. I suspect some of them are 
no longer along the southern border.
    General Lengyel. Right, they were.
    Mr. Calvert. And when I say--it is not the coronavirus, it 
is COVID-19, for those of us who live in the city of Corona.

                     Remarks of Chairman Visclosky

    Mr. Visclosky. I welcome our second panel, the Army, Navy, 
Marine Corps, and Air Force Reserves.
    I would encourage people to continue to participate in the 
hearing process.
    Our second panel this morning consists of the leaders of 
the Reserve components, Lieutenant General Charles Luckey, 
Chief of the Army Reserve; Vice Admiral Luke McCollum, Chief of 
the Navy Reserve; Major General Bradley James, Commander, 
Marine Corps Reserve; and Lieutenant General Richard Scobee, 
yes, Chief of the Air Force Reserve. I am sorry.
    We are pleased to welcome these four distinguished general 
officers as witnesses today, and while we thank each of you for 
your service, we want to especially recognize Lieutenant 
General Luckey and Vice Admiral McCollum for your years of 
service and wish both of you the very best of luck in your 
future endeavors.
    I will recognize, first of all, Mr. Calvert for any opening 
remarks he has, and then would ask you to proceed with your 
testimony.

                         Remarks of Mr. Calvert

    Mr. Calvert. Thank you, Mr. Chairman.
    In the interest of time, I will keep my remarks brief, but 
I would like to welcome our Reserve component witnesses here 
today. Each of you represent thousands of men and women who 
serve, their families who support them, and their employers who 
support that effort. I look forward to hearing from each of you 
on current operations, training requirements, and what Congress 
can do to help each of your services be more lethal and ready. 
Thank you for your service.
    And I yield back.
    Mr. Visclosky. Thank you, Mr. Calvert.

                  Summary Statement of General Luckey

    General Luckey, you may proceed.
    General Luckey. Chairman, Ranking Member--Chairman, if I 
may, begin by--and I am aware of the hour and I will be brief 
in my remarks, but I want to, on behalf of this team, thank you 
for your service as well as the leader of this committee, and I 
appreciate the support this committee has given all of us over 
the last several years.
    Distinguished members, thank you for this opportunity once 
again to sit in front of you as an extremely supportive 
committee of the Armed Forces of the United States and the 
Reserve Forces in the United States.
    For the past 4 years, you have patiently given me a chance 
for a few precious minutes to brag about the superb team of 
motivated soldiers and civilians that I have the honor to lead, 
supported by their families and employers at home, as we 
continue to press into the future, leading America's Army 
Reserve down the road to awesome. I know you share my pride in 
this magnificent component of the Army. On behalf of all of 
them, all of us, I want to thank you again for your stalwart 
support and your genuine interest in our soldiers, their 
families, and the life-balance challenges inherent in their 
calling.
    In the interest of time and to get briskly to your 
questions and concerns, I will keep my bragging short this 
afternoon. I have spoken to most of you many times about the 
improvements and readiness, warrior ethos, aggressive 
innovation that we have sparked together over the last 4 years. 
Much of it is reiterated in my filed statement, and I will not 
repeat it here. But more to the point, no words can adequately 
express the depth of my respect or affection for this phalanx 
of professionals who bring such warfighting capability to the 
Nation at such a great cost savings to their fellow citizens.
    It has been the humbling honor of a lifetime for me to have 
been able to serve as the quarterback of this awesome team. As 
the Sergeant Major of the Army expresses it so wonderfully, 
this is my squad and I shall miss it very, very much.
    I cannot overstate the degree to which your support of our 
efforts to resource key initiatives, whether it be in the 
advancing of modernization of this squad or in the 
interoperability of the total Army. It helped me as a lead sled 
dog for this team chart a course and set the tone for building 
and sustaining the most capable combat-ready and lethal Federal 
Reserve force in the history of the United States.
    Your demonstrated resolve to reinforce our initiatives to 
train and field a squad of almost 200,000 soldiers, who, upon 
very short notice, can deploy and fight and scale against a 
peer adversary has been essential and it has been reassuring. 
In the end, readiness is the essence of relevance, and it 
starts with our people.
    In daily practice, putting people first in America's Army 
Reserve will continue to mean what it has always been for us. 
Our strategic challenge is to be ready enough to be relevant 
but not so ready that our soldiers can't keep good, meaningful 
civilian jobs and healthy, sustaining family lives. Commanders 
at every echelon on this team understand that basic truth, and 
we will never take our eye off that ball.
    Looking to tomorrow, your Army Reserve will continue to 
leverage its Ready Force X construct is the way in which we 
will see ourselves, organize ourselves, assess risks, both 
risks to mission and risk to force, for the senior leadership 
of the Army and the Nation. As the commander of this force, I 
assess that even though we have dramatically increased our 
readiness posture over the last 4 years, we have done so in 
achieving a sustainable level of readiness for the outyears 
over the long haul. I gauge that fact based on a number of 
different factors and data, the most compelling of which to me 
is that the retention rate--the attrition rate of the Army 
Reserve is the best that it has been in 19 years.
    We press on in the future more ready, more lethal, more 
determined, determined to meet the challenges of our time to 
win the Nation's wars, while also well-prepared to leverage our 
soldiers and capabilities when disaster strikes in support of 
our fellow citizens at their time of greatest need. Building 
this sustainable capability and infusing this squad with a 
profound sense of purpose has been an awesome ride.
    I thank you for your support, for supporting all of us on 
this journey, and I look forward to your questions.
    [The written statement of General Luckey follows:] 
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Visclosky. Admiral, you may proceed.

                 Summary Statement of Admiral McCollum

    Admiral McCollum. Chairman Visclosky, I wish you well in 
your retirement as well.
    And, Ranking Member Calvert and distinguished members of 
the subcommittee, just thank you again today for the 
opportunity to appear before you and advocate amongst our men 
and women of the Navy Reserve. And it is an honor to be here 
with my fellow Reserve component chiefs. To do what we do 
together is fight and lead our men and women so they can 
prevail in adversity.
    It is my distinct honor to report to you on the Navy 
Reserve. Sometimes and often we call America's Navy Reserve. 
Over 100,000 members in full-time, part-time, and on-call 
reservists in the IRR.
    With me today is my wife, Leanna, whose steadfast support 
through my career exemplifies what so many spouses do to 
support their loved ones who deploy, often with very little 
recognition.
    Also here is my Force Master Chief of the Navy Reserve, 
Chris Kotz. And I would like to personally thank him today for 
what he has done to advocate, to lead for the men and women, 
our sailors, deployed around the world.
    Additionally, I would like to thank the thousands of 
employers who give up their employees to serve our country and 
a little bit of their entrepreneurial space to advocate and 
serve their country as well.
    Today marks the 105th birthday of the Navy Reserve. And on 
this day, like most days, our men and women are serving around 
the globe in some of the most austere locations. And again, I 
would like to emphasize my thanks for this committee for the 
support that you have given us.
    The necessity of an on-time appropriations bill cannot be 
overstated because it provides predictability, and as we have 
met with many of you, and we know that the reservists are at 
their best when they can be predictable with their family, 
their employer, and their military obligation.
    In the modernization, Navy Reserve equipment, as well as 
systems, is critical to ensure that the Reserve remains 
interoperable with the Active Component to be called to do the 
Nation's bidding whenever and wherever it may so choose. This 
budget includes a funding request to transition the Navy 
Reserve pay system to a cloud-based, user-friendly and on-time 
pay system.
    And maintaining Navy Reserve aircraft is essential to 
provide a lethal Reserve, Navy Reserve force. And in the fiscal 
year 2020 National Guard equipment report outlines Navy Reserve 
priorities for recapitalization efforts and upgrades in 
aviation, including adversary aircraft, the P-8 maritime patrol 
craft, and the C-130 Tango Airlift. All these are focused on 
providing strategic depth.
    I would also like to thank you for your continued support 
of military childcare. This budget funds an additional 5,000 
slots for men and women in their childcare that will support 
the Navy.
    In closing, I could not be prouder of our Naval Reserve 
force. I know you can't tell, but it has been an honor of a 
lifetime to be able to serve amongst them and with them and 
coming away inspired every time I see them, combining their 
military skills, their civilian skills, and with the support of 
their families globally.
    So on behalf of the men and women of the Navy Reserve, I 
thank you for your support, and look forward to your questions.
    [The written statement of Admiral McCollum follows:] 
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Visclosky. Admiral, thank you very much.
    And before you begin, General, I apologize to you. I 
misintroduced you. I welcome you very much, General Bellon, and 
you may proceed with your testimony. I apologize.

                  Summary Statement of General Bellon

    General Bellon. Thank you, sir.
    Chairman Visclosky, Ranking Member Calvert, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to testify on behalf of 
the Commandant of the Marine Corps about your Marine Corps 
Reserve. I am honored to be here today with my fellow Reserve 
component Chiefs and my senior enlisted force Sergeant Major 
Scott Grade, who is seated behind me.
    The mission of the Marine Corps Reserve is to stand ready 
to augment, reinforce, and sustain the Active Component. Along 
with the Active Component, we have Reserve forces forward 
deployed, supporting combatant commands' requirements. On 
average, in 2019, Marine Forces Reserve provided approximately 
11 percent of the forward-deployed Marines for approximately 5 
percent of the Marine Corps' budget.
    Over the last year, more than 2,600 Reserve Marines and 
sailors mobilized, supporting 45 operational requirements in 
each of the six geographic combatant commands. This is 
approximately a 19 percent increase in personnel deployed and 
22 percent increase in operational requirements compared to 
2018. Likewise, 9,944 reservists participated in 43 training 
exercises, supporting requirements in 21 countries around the 
globe.
    Additionally, I am pleased to inform you that the morale in 
your Marine Corps Reserve is very high, as evident by Reserve 
component end strength maintaining a 99 percent of our total 
requirement.
    Not only are we attracting new Marines, we are retaining 
them beyond their contractual obligation. On any drill weekend, 
on average, 25 percent of the Marines standing in formation are 
not contractually obligated to be there. These Marines are 
primarily our leadership. Every month, they have a decision to 
make, and they choose to continue to serve and lead our Marines 
and sailors. I am always impressed by the professionalism, 
competence, dedication to duty, and motivation of our Reserve 
Marines. Like their Active Duty sisters and brothers, they 
serve selflessly to protect our great Nation. They continue to 
answer their irrational call to serve. The way they balance 
family responsibilities, civilian lives, jobs, schools, and 
careers is nothing short of extraordinary.
    I want to extend my gratitude for your efforts to provide 
timely appropriations, and request your continued support of 
the National Guard and Reserve equipment appropriation. On 
average, the Marine Corps Reserves only have 38 training days a 
year, and that places an increased importance on adequate and 
timely appropriations. With your continued support, I can 
ensure Reserve predictable and uninterrupted training schedules 
to maximize personnel material and training readiness.
    I appreciate the opportunity to be here today, and I look 
forward to your questions.
    [The written statement of General Bellon follows:]  
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Visclosky. General Scobee.

                  Summary Statement of General Scobee

    General Scobee. Chairman Visclosky, Ranking Member Calvert, 
and distinguished members of the subcommittee, thank you for 
inviting me to report on the state of America's Air Force 
Reserve. And I am also going to discuss our fiscal year 2021 
budget request.
    I am joined today by my teammate, Chief Master Sergeant Tim 
White. He is the Command Chief for the Air Force Reserve 
Command, and he represents 75 percent of who we are, and that 
is our great noncommissioned officers.
    The Air Force Reserve is an essential component of the 
total force in the Air Force that provides experience and 
critical capabilities for our national defense. We enable rapid 
response, we supply surge capability, and we maintain strategic 
depth for sustained major combat operations, and we do so for 
only 3 percent of the total department of the Air Force budget.
    We are a predominantly part-time force. However, we provide 
full-time support to the joint force. Our personnel participate 
in every Active Component mission and are both operationally 
integrated and interchangeable with our total force partners.
    The National Defense Strategy directs us to be prepared to 
operate in tomorrow's battle space. So the Air Force Reserve 
must be able to defeat adversaries across a spectrum of 
conflicts and operate simultaneously in all warfighting 
domains. Our airmen are the foundation of these efforts, and it 
is essential that we provide excellent support to both our 
airmen and their families.
    During the last year, we focused on accelerating our 
readiness, developing resilient airmen and leaders who can 
generate combat power, and reforming our organization to 
optimize our warfighting capabilities, and we have made 
significant improvements in these areas and are presently 
expanding our efforts to further enhance our readiness and our 
ability to support our airmen. We would not have been able to 
do this without the incredible support we have received from 
Congress.
    The National Guard and Reserve Equipment appropriations 
have provided essential funding for our modernization efforts, 
and we thank you for past years appropriations. The Air Force 
Reserves' full-time manpower has improved over the last year, 
but it is still insufficient. This increase is largely due to 
the conversion of select Air Reserve technician authorizations 
to the Active Guard and Reserve billets and the congressional 
approval of the direct hire authority. That enabled us to hire 
over 900 full-time maintainers over this last period. We have 
also been able to help ourselves, and it will help us in the 
future, if we can expand this direct hiring authority to other 
career fields such as our pilots, and that would also help us 
in our full-time manning.
    Last year, Congress authorized Air Reserve technicians to 
receive medical coverage through TRICARE Reserve Select. 
Beginning, though, in the year 2030, this is a great benefit. 
It is going improve healthcare for our Air Reserve technicians 
and their families, and it is going to increase our retention. 
My ask for you this year is that we consider implementing this 
change in a earlier date.
    The Air Force Reserve is in good shape and will continue to 
increase our readiness, enhance our capabilities, and posture 
our force to meet future operational requirements. We remain 
focused on critical emerging and evolving missions, including 
nuclear deterrence, air superiority, space, and cyber. We still 
face challenges, but I am confident, with Congress' continued 
backing, we can overcome these obstacles.
    Our recent successes are a testament to your support, and 
your backing of key legislation has enabled us to address 
critical challenges, and the on-time allocation of the fiscal 
year 2019 budget directly facilitated our improvement and 
readiness.
    Thank you for the opportunity to appear today in front of 
you and for your steadfast support as we ensure your Air Force 
Reserve remains prepared to defend this great Nation. I look 
forward to taking your questions.
    [The written statement of General Scobee follows:] 
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
TRANSFER OF FUNDS FROM THE NATIONAL GUARD AND RESERVE EQUIPMENT ACCOUNT

    Mr. Visclosky. Gentlemen, thank you very much for your 
testimony, and would just ask a question of each of you as a 
courtesy to my colleagues. Just with some conciseness and 
briefness, if you could answer the question. There was $1.3 
billion transfer from the National Guard and Reserve Equipment 
Account. Could each of you again just briefly but concisely 
give us an indication of items you were looking to procure and 
the impact it will have on you in fiscal year 2020?
    General Luckey. So, Chairman, I am happy to start. I would 
just say that I would bend it more in terms of capabilities 
than I would any specific item. As you know, we execute this 
over a 3-year period of time, and in collaboration with this 
committee and the Senate, continue to make sure that we are 
investing that money wisely and aggressively. But command and 
control systems, to make sure we continue to modernize our 
capabilities and platforms for interoperability across the 
force, bulk fuel distribution systems, several different 
aspects of the medical capabilities that reside in the Army 
Reserve, simulators for training, light utility equipment, and 
then some fairly heavyweight engineering equipment, engineer 
support equipment, those sorts of things.
    As you well know, we use this account fairly aggressively 
every year to make sure we are continuing to modernize the 
force. So those are some of the capabilities that we would be 
talking about.
    Mr. Visclosky. Right.
    Admiral.
    Admiral McCollum. And so for the Navy Reserve, it is 
somewhat similar. Aircraft modernization, avionics upgrades, 
things that we do to modernize the capacity or the ability to 
be interoperable with the Active Component, as well as some of 
the fuel systems and distribution systems for our expeditionary 
combat forces that we refer to as NECC, and then upgrades for 
aircraft that we have that will give them more endurance 
capability and the ability to have a timing rhythm of the 
placement of the upgrades that I have suggested.
    Mr. Visclosky. General Bellon.
    General Bellon. Mr. Chairman, first, I would like to start 
by thanking the committee. The Marine Corps typically gets on 
average about 1 percent of the total appropriation that is 
handed out to the services, but every bit of resource that we 
get is very much appreciated.
    This year, to answer your question directly, probably the 
largest program that we will roll back a year or so is going to 
be an upgrade of an F-5 Aggressor Squadron, and that is 
typically avionics, as Admiral McCollum pointed out.
    But I would like to take this opportunity to point out to 
the committee that what the Marine Corps could really use in 
NGREA is a wider flexibility on how we spend that money each 
year that you give to us. Specifically, my greatest shortfall 
is ICCE, individual combat and clothing equipment, literally 
the body armor that the Marines wear when they go into harm's 
way. Right now, the way the rules are, I can't spend that money 
on NGREA, and I have a significant shortfall. But within two 
cycles, even with that 1 percent, I can make up that shortfall 
for the force. So I just wanted to point that out today and, 
again, thank you.
    Mr. Visclosky. If I could ask on the rules, was that within 
the legislation we passed or is that Department regulation, 
just for my clarity?
    General Bellon. Sir, I think it is probably a combination 
of both. It is the way the Department interprets the 
legislation, but I can give you--I can take that for the record 
and give you a more developed answer.
    Mr. Visclosky. So the request would be to have some clarity 
to be of assistance in an issue like that.
    General Bellon. Exactly, sir. Thank you.
    General Scobee. Thank you, Mr. Chairman. For the Air Force 
Reserve, our fiscal year 2020 NGREA fund was intended to target 
our critical capability gaps across combat systems, mobility 
systems, personnel recovery, and special operations warfare 
systems, some command and control, some space modernization 
that we had going on, and some distributed training programs. 
And there were a number of modernization programs that were 
focused on the support for our 37 Wings and 8 Wing equivalents.
    So the loss of the fiscal year 2020 NGREA funds is going to 
adversely affect basically all of the Air Force Reserve 
modernization programs and approximately--that we planned for 
fiscal year 2020 and about 50 percent of the current perhaps 
that we are working with NGREA will be delayed. So it will be--
it will hurt some of our capability, but I don't expect it to 
affect our readiness.
    Mr. Visclosky. Thank you very much.
    Mr. Calvert.

                       READINESS OF THE RESERVES

    Mr. Calvert. Kind of going on what the chairman is asking. 
For the past several years, we have increased our funding for 
the military to make up for the huge readiness shortfalls we 
had. And so could each of us--or each of you, can you give us a 
brief update on your perspective on how ready our Reserve 
focus, our forces are should a large-scale conflict take place?
    General Luckey. Sir, I will start with that one. So as you 
know, over the last 3\1/2\ years, Army Reserve has focused 
specifically on exactly what you are asking. In RFX construct, 
we have increased the readiness of our early deploying 
formations. Early deploying defined in those--of the tranche of 
forces that we would have to deploy in the ground combat 
operations at scale, it is about 38,000 soldiers in the Army 
Reserve in less than 90 days. Early deployment formations are 
those forces that we would have to get to in 30 days. We have 
increased the readiness of those formations just in the last 
year alone by another 9 percent.
    I will tell you that while the readiness has increased, as 
I said in my opening statement, significantly over the last 
3\1/2\ years, I will tell you that I think we have reached 
about the achievable level of sustainable readiness over the 
long haul. And the reason I say that, as I articulated earlier, 
I continue to be very concerned about our soldiers being able 
to balance between their responsibilities to the soldiers, 
ready soldiers in the United States Army, their 
responsibilities to their civilian employer, and their 
responsibilities to the families.
    So part of this readiness equation, of course, is a 
function of time. But I will tell you I am very confident that 
we can deliver the capability required in time.
    Admiral McCollum. And, sir, on the Navy Reserve side, the 
two dimensions of readiness that we track is personnel 
readiness and then readiness that is associated with their 
billet that they are assigned to. And one of the greatest 
enablers of that readiness is discretionary RPN or the training 
dollars allocated to Navy Reserve that is above and beyond 
their base entitlement when that billet was actually bought.
    On the personal readiness side, we use a metric that is 
established by the Department, a worldwide deployability. And 
in that metric, the goal is 5 percent, meaning 5 percent of the 
force, or said another way, 95 percent of the force has to be 
worldwide deployable. Right now, we are tracking 4.7 percent 
that is not worldwide deployable for various reasons, and that 
is a good number. Our challenge is to keep it there.
    And then on the training side of that, it is lined up as 
where the threat lies and how we maneuver the Reserve force 
commensurate with what the individual training requirement is, 
so--and that is consistent certainly with how the Navy is 
looking at its funding with readiness and wholeness.
    General Bellon. Congressman, I would like to begin by again 
thanking the committee for the support you provide us.
    You know, I think probably the most concise way I can say 
this is, you know, what we deliver are Marines, and sitting at 
99 percent of our total capacity, our requirement, with 25 
percent of that force being nonobligated, meaning that they 
decide every Thursday whether they are going to drill on Friday 
or not. If it is raining and 34 degrees, they decide they are 
going to drill. And so sitting at 99 percent, I would say to 
you that is a population that wants to be in line to go and 
answer the bell in the event of a crisis, and you have provided 
excellent support for us. We are better armed and equipped than 
we ever have been, and we have got better quality Marines than 
we have ever had.
    General Scobee. Congressman, as my counterparts here have 
articulated, there is two pieces to this. One is our personnel 
readiness, and our Reserve appropriation is the thing that that 
is my readiness account. That is where I go to to make sure 
that all my folks have everything that they need to do from a 
training perspective. It is where I get them medically ready, 
and it is where I get them their Air Force skills requirements 
that they need. Our readiness there has improved dramatically 
over the last years. And in particular, the things that we are 
interested in has been in our pilot force, which is now at 86 
percent, and then maintenance, which we were struggling with 
for years, now 95 percent.
    So these two areas have come up quite a bit. And then the 
other one is the equipment, with the equipment that the Air 
Force flies, both in aircraft and across the gambit, including 
in space. The readiness there has increased dramatically, and 
what has really helped us with that is the NGREA that we get 
from Congress every year has really helped us get the equipment 
readiness accounts where they need to be as well.
    There is constant improvement is trying to be made in 
there, and what we have done is we have prioritized our pacing 
units that the Air Force has, and our pacing units are up on 
the step and they are going to meet, for the most part, the 
requirements of the Air Force to be ready for the high-end 
fight. And so all the spacing units which you have identified 
and we have talked about over the last year are on the step and 
ready to go.
    And what we are doing now is continuing to prioritize those 
priority units and we are also bringing up all of our units 
along the way as we go. So readiness is at a high state, but we 
continue to work on that on a regular basis.
    Thank you.
    Mr. Visclosky. Thank you.
    Ms. McCollum.

                            DOUBLE EAGLE APP

    Ms. McCollum. Thank you.
    Gentlemen, I have the opportunity to go to welcome home 
ceremonies after deployment a lot for the National Guard, but I 
have been at deployment ceremonies where I have seen one Army 
Reserve, one Marine Corps, one Navy, one Air Force deploying by 
themselves.
    So, General Luckey, you know, we have got the yellow ribbon 
to support the Guard. So I was really excited about your 
testimony last year when you discussed the development of the 
smartphone-friendly application that would better assist your 
soldiers in maintaining contact with their units between battle 
assignments, provide resources for crisis support and family 
help, and to help members organize their lives.
    Can you give us an update on the Double Eagle application 
and what you have heard from your soldiers and their families, 
how useful this tool has been, and more broadly, what 
strategies you are employing to reach out to soldiers and their 
families to ensure that they have the resources they need to be 
successful? Our Reserve men and women cannot be forgotten.
    General Luckey. So I thank you for that. And I, first of 
all, I would tell you that we, like the Guard in many respects, 
have large formations that deploy as well. So while I take your 
point, I will address it directly. I want to assure you that we 
have a Yellow Ribbon Program that is--it is a DOD-wide program, 
but the Army Reserve has an analogous program to what you have 
probably seen with Guard formations and these are at scale.
    There was one in about a month ago in Anaheim, California, 
where there was 850 combination of soldiers and family members 
who may be deploying. In this case, all of them were deploying, 
but in some cases, it is a combination of soldiers who are 
departing and soldiers are returning. And we have a slightly 
different program of instruction in that situation.
    So I will tell you, first of all, I want you to be assured 
that they are not being left behind. This is a command 
responsibility that I take very seriously.
    As to the app. What I will tell you is it is better than it 
was when I reported last year. It is still not where I want it 
to be. I have specifically now tasked the 75th Innovation 
Command in Houston, Texas, which, as you may recall, is a two-
star headquarter remission about 3 years ago, to get after all 
things future in terms of innovation. It is in direct support 
to Army Futures Command, and they have access to and are now 
supporting this effort with some of the best app developers in 
the country.
    As you articulated, spot-on, you know, the opportunity here 
for soldiers and for their family members to log into the 
Double Eagle app, get information, understand what is going on, 
and be able to communicate with other soldiers or family 
members in their communities where they live and work is a 
powerful tool, and we are beginning to exploit it and develop 
it rapidly.
    My concern with it, frankly, is it has got to continue to 
stay current so it remains relevant for our younger users. I 
mean, whether it works for me or not is not the issue. The 
issue is whether or not it works for, you know, our 18-, 19-
year-old, 20-year-old soldiers and their families. So we are 
going to continue to stay after this one. Thank you for the 
question.

                     SUPPORT OF THE FUTURES COMMAND

    Ms. McCollum. So I would like to ask the Army Reserve's 
role in the support of the Futures Command with the 75th 
Reserve Innovation Command. As you continue to support Futures 
Command modernization priorities, as well as ensure that the 
Army's Reserve benefits from the best talented and skills from 
the private sector, I would like to ask you to give the 
subcommittee an overview of the process in which you engage 
with the commercial sector.
    For example, how is the Reserve taking advantage of 
emerging technology, how it is not just in Texas or on the 
coast but in the Midwest as well? And also, the Government 
Accountability was somewhat critical in a recent report of 
Futures Command about outreach to small businesses across the 
country. So what role does and can the Reserve and the 75th 
Reserve Innovation Command play in doing a better job in 
engaging with the small business community nationally? Because 
I have sat at some roundtables, and small businesses feel it is 
very cumbersome to be engaged and get through the paperwork and 
know what is going on.
    And then if there is any other Reserve witnesses that could 
provide an update on how they are engaging with the commercial 
sector, on how that would be helpful, especially from what I 
heard you say, sir, about wanting more and better equipment for 
our Marines.
    General Luckey. So if I may just briefly, as to the 
Innovation Command and where we are located, the squadron is--
the two-star headquarters is in Houston, Texas, but we 
literally have nodes, and I am just going to list off a few of 
them. I got a little card here, but you won't be able to see 
it. Everywhere from Boston to Seattle, as you would expect, 
Silicon Valley in California, Denver, Salt Lake, Chicago, 
Minneapolis, Saint Paul, Kansas City, Dallas, Atlanta, 
Huntsville, Nashville, Raleigh, Aberdeen Proving Ground, 
Washington, D.C., Detroit, et cetera, et cetera.
    So this is a--I would say this is an ongoing effort to make 
sure we are not missing opportunities to remain very closely 
connected with the private sector.
    As to your question specific--and making sure we are 
gaining and retaining talent that is working in the private 
sector or other aspects of the public sector, but also 
remaining connected to the Army through America's Army Reserve.
    As to your question specifically about engagement with 
small businesses, I will take that for action. I think I owe 
you a better answer than I could give you here. What I can tell 
you is this is--just the disbursal of this force by its very 
nature and the private sector jobs that these soldiers have, I 
think, lends itself to being able to do exactly what you are 
talking about. What I can't tell you today is how far that 
effort has matured.
    General Bellon. Congresswoman, thank you for the question. 
I can share a vignette with you. So, recently, I visited a 
logistics battalion, and within that battalion they realized 
they had a number of Marines who were university students and 
who worked in the technology fields and who were interested in 
some of the current problem sets we are facing as we look at a 
future force. So they created their own innovation space within 
the battalion.
    And so I am sitting there talking to a couple of lance 
corporals. One was on the UC Cal Berkeley robotics team and the 
other one was a math teacher and data scientist by training. In 
the Marine Corps they are mechanics.
    So in places like Iraq and Afghanistan, one of the problem 
sets we consistently were confronted with was a shortage of 
generator mechanics. Generators everywhere, few people that can 
do the generator mechanic piece, and you have got to fly them 
all over the battlefield at risk to the crews and to the 
Marines. So they decided that they could fix a generator with 
their basic skills if they simply had a recipe on how to do it, 
for lack of better words.
    So they went out and they bought an off-the-shelf virtual 
reality glasses, and they created an augmented reality program 
that they had me wear. I threw the glasses on, and there on the 
generator is an additive reality, showing the part, the belt 
that we were trying to replace, showed where it was, and then 
in the upper right corner was a YouTube video of a staff 
sergeant. And you click on it with your hands, you pinch it 
with your hands, and she would begin to tell you, now, the 
first thing you are going to do is take the four screws off the 
door, and the four screws would light up in purple through your 
glasses.
    This was created by the Marines. But the fascinating part 
and the part that I think you are after is that when they did 
that, they invited local businesses from the region to come in 
and see what they really needed. Right? It was probably a 50 to 
60 percent solution.
    And then other units often provide opportunities for local 
businesses who believe they have the capability that we will 
need and we put them into the play of our tactical problems on 
drill weekend. So if you have got a drone that can deliver 
logistics, you know, we will work it into the play of our 
problem. It may be 35 degrees and raining with 20 miles-an-hour 
wind, and you can either do it or you can't, but they get a 
good sense. Those small businesses understand, at a grassroots 
level, of no kidding what we need and they are able to 
interface with the Marines, and the young Marines bring their 
talents to bear and can better frame the problems of what we 
expect to face in the next 20 years.
    Ms. McCollum. Thank you.
    Mr. Visclosky. Mr. Ryan.
    Mr. Ryan. Thank you.
    Very interesting. Thank you, gentlemen, for your service. 
We appreciate you. We know it is difficult. I think those of us 
on this committee have a deep appreciation what you do day in 
and day out. So make sure you go back and tell all your teams 
how much we appreciate what you are doing.
    General Scobee, good to see you.
    General Scobee. Good to see you.

                        FIELDING OF TWO C-130JS

    Mr. Ryan. The question I have, when we are talking about 
transfer authority and all that, how might the delay in 
fielding two of the C-130Js that were funded in fiscal year 
2020 and then recently were just reprogrammed to support the 
border wall affect the Air Force Reserve? Now, from my vantage 
point, and I have an opinion on this, this is a critical safety 
issue. The C-130H models that my Reserve unit in Youngstown, 
Ohio, utilize and that they fly are old and they are falling 
apart.
    Now, as you know, the H model line is shut down, so we 
can't get the parts that we need, and we are cannibalizing 
other aircrafts in the process. And so the real safety issue 
for us is that we fly the aerial spray mission, and so these 
planes are very, very low to the ground. And my concern as 
their Congressman is that we need to make sure that they have 
what they need to train on and to utilize.
    So can you speak to that issue that we are going to deal 
with?
    General Scobee. Congressman, my opinion is very similar to 
yours. And our airmen need to be training on the equipment that 
they are going to use in combat and in support of domestic 
operations, especially when we are supporting the American 
people. I think it is very important.
    I would say that the readiness capabilities that we have, 
in particular at Youngstown, are very high. They are old C-130H 
models, but they are doing a great job of taking care of that 
equipment. In the Air Force, we are prioritizing recapitalizing 
some of the C-130Hs with J models, and what I have done and 
have support from the Air Force is that the priority will go to 
our Special Missions Unit.
    As you know, the Air Force Reserve is the only--the only 
capability resides in the Air Force Reserve Command for aerial 
spray, also for hurricane hunting. The hurricane hunters have 
already changed over to J models. And the other is the 
firefighting mission, the MAFFS firefighting mission that we 
share 25 percent of that with the Air National Guard.
    So those, the special units that we are looking at, we are 
looking at the feasibility studies for where it is going to be 
best to put those airplanes. I can't tell you how much I 
appreciate congressional support in getting those.
    So if we, the four that were gifted to us from Congress, if 
we take two of those away, the four would be initial fielding 
for the units that we are aware that would be picked eventually 
by the Secretary of the Air Force on where those go, although I 
am sure she will get a lot of help in making that decision.
    But also what is really important to us is that we fleet 
and we have to upgrade the entire unit there, which will be 
eight airplanes eventually. If we are--if we stop with two 
airplanes, it won't help us to start at all. What we will have 
to do is move those C-130Js into another unit that is like-
equipped. Right now, that doesn't reside in the Air Force 
Reserve. That would be probably in the Active Component. There 
may be some Guard units that have the C-130J 8.1 which is what 
it would take.
    If that had slipped, we can absolutely work in order to 
make sure that we field that entire unit. So if there is a slip 
and the two airplanes are added back later, we won't have any 
difficulty at all. But if there are only two airplanes, it will 
just create a mismatch of configurations for the aerial spray 
mission, which wouldn't add any capability to our organization. 
So we want to make sure that we get the full unit fielded 
eventually, whether it is aerial spray or the MAFFS, depending 
on how that goes. But we are happy to keep you advised of that 
situation and how we are doing.

                          SUICIDE PREVENTATION

    Mr. Ryan. Yeah. Well, that is disappointing. I mean, 
obviously, this is a critical mission within the Air Force 
Reserve and, you know, we will stay in contact with you on it, 
but we appreciate your advocacy. I mean, we know that this is 
not necessarily something that you wanted to happen or you 
wouldn't have asked for four. But, you know, there is a lot of 
people disappointed about this and, you know, we are going 
continue to try to bulldog it and see what we can do to make it 
happen.
    Another issue for the other gentlemen on the panel that we 
are very concerned about is really the outreach with regard to 
suicide prevention. I also sit on the Veterans Appropriations 
Subcommittee, and so if you can just within, you know, each get 
a minute or so, tell us what you are doing as far as--because I 
know you all have pretty much implemented new plans. So if you 
can talk a little bit about that, I would love to hear about 
it.
    General Luckey. So I will start. So first of all, it is 
great to see you again, and I appreciate the question.
    I want to be careful how I characterize this because I 
don't want to sound like I think we have solved this, because I 
don't think that is a fair characterization. What I will tell 
you is over the last 3, 4 years, the suicide rates in the Army 
Reserve have been declining. That doesn't mean we have solved 
the problem. It doesn't mean I don't watch it very carefully. 
It doesn't mean we don't continue to target, as best we can, 
those soldiers that are either unemployed or critically 
underemployed as best we can with our private partnership 
programs that really try help make sure they are able to find 
good, meaningful work again.
    As I have said in this committee before, one of my concerns 
as a leader of this component is statistical analysis. Over the 
last several years, we have found that about 50 percent of all 
of our soldiers who either have attempted or have, in fact, 
successfully completed a suicide were either unemployed or 
massively underemployed in terms of--so that obviously becomes 
an additive stressor for them. And I would argue, and I am not 
a psychologist, but I would argue that it probably increases 
their sense or lack thereof of self-worth and other issues that 
may be resident in the home and elsewhere. So we take it very 
seriously.
    I would say the biggest thing from an initiative 
perspective that we continue to really drill on is making sure, 
not only do we keep an eye on our battle buddies inside our 
units--and this is where, again, the app is going to be 
critical for us to be able to increase that connectivity during 
the other 28 days of the month--but it also enables us, again, 
to help better target how we are going to help our soldiers 
find meaningful employment in their civilian jobs.
    Mr. Ryan. Interesting.
    Admiral.
    Admiral McCollum. Congressman, thank you. Certainly a very 
important topic, one we take an all-hands-on-deck approach. We 
had 11 suicides in 2018, 7 in 2019, and we have had 2 this 
calendar year to date. And every single one of these we study 
and we try to understand, to the extent that we can. The way 
forward, our conclusion, the way forward is stress navigation, 
as well as building resiliency tools for the member. And 
probably more, just as important, this sense of purpose and 
belonging that, as leadership, how we evaluate our leadership 
methods down at the tactical level, that we create an 
environment where that member feels like they are part of the 
team and where they belong, and if they are feeling stressed, 
that we can pick it up and offer them these resiliency tools. 
So those two areas we are really investing in.
    Mr. Ryan. General.
    General Bellon. Congressman, thank you. For the great 
support from Congress, we have been able to participate in the 
Psychological Health Outreach Program. And that gives us 29 
full-time offices around the country that is civilian 
contracted and then two other offices that are part-time folks, 
and that has made a difference.
    So since I have taken command back in September, I have 
looked at the data over the last 7 years, and it is all over 
the board. I don't think you can draw conclusions. In the last 
2 years, we have had a decrease, but I don't know that it is 
statistically relevant over time yet.
    So to answer your question directly, you know, I would 
point to our command climate and our culture. You know, we take 
pride in the fact that we have a very intimate relationship 
between the leadership and the young Marines. You know, we 
share the same hardships with them. They joined the Marine 
Corps to do hard things. So we do hard things. And when you do 
that, to echo General Luckey and Admiral McCollum, you know, it 
builds their self-esteem and so forth, but more importantly, it 
creates a very intimate environment where we can observe them 
closely. And doing that and destigmatizing the challenges that 
our young Marines and sailors face, I think, is the key in the 
future.
    You have given us great tools, but it is really about our 
command climate and our culture and the destigmatization of 
some of the problems that they face as young people.
    Mr. Ryan. Thank you so much.
    I yield back.
    General Scobee. Congressman Ryan----
    Mr. Ryan. I was going to let you off the hook there, but go 
ahead.
    Mr. Visclosky. He probably wants to say more good things 
about Youngstown.
    Mr. Ryan. I will yield him an additional minute or 2 then, 
Mr. Chairman.
    General Scobee. Congressman, and I have to say this about 
this entire committee, every single either staff member we met 
with or congressperson, they have all given me an opportunity 
to talk about this. To me and my command chief, Tim, behind me, 
we take this personal. If I was sitting here--when I was 
sitting here last year, we had had three suicides in the Air 
Force Reserve Command. There are 74,000 of us in the command. 
Last year, we had 16. That is devastating, and that is not 
success.
    And what we have got to do is figure out where we have gone 
so far awry with our people and making sure that we can take 
care of them, because that is what we do. We take care of our 
airmen. We have been given so many capabilities from our 
elected officials to be able to provide care to our airmen. 
What has caused this dramatic increase over the last year? So 
we have taken a deep dive into it, and as we look at it, there 
are really two significant things that have happened in our 
airmen's lives. Everything that my colleagues have said rings 
true for us as well, but it is financial issues and 
interpersonal relationships and relationship issues.
    So as we dive into these, the command chief and I have 
really figured out what we have got to do to make sure that our 
airmen feel connected and valued. One is, part of it is 
education. We need to make sure that our folks understand what 
healthy finances look like and what healthy relationships look 
like. And then if they do find themselves in trouble, they 
understand how to get themselves out of that, because that is 
part of what we have inculcated in our culture about how we do 
things right within our command, and that is about culture.
    And then the last thing is, is making sure that our airmen 
feel connected. 15 of the 16 were part-time reservists who were 
not in status. So they weren't with the command at the time 
they took their lives.
    What I need to make sure is that all of our airmen--and we 
have really tried to do this and we continue to do it at every 
unit visit that we have--understands that they are always part 
of our family. It doesn't matter what status they are in. You 
have given me the ability to bring them in, get them the help 
that they need and the care. Some of it is mental health, but 
some of it is relationship problems. Whatever counseling they 
need, I have the ability to get them that help, and what I need 
to make sure is they understand that they are always connected.
    And in order to do that, what I have asked for this year, 
is I am putting some full-time support in my organization. Some 
of it is at our standalone bases, and that helps with our 
chaplains, especially when it comes to counseling. And then I 
am putting a full-time first sergeant at every one of my wing 
and wing equivalents. So there is somebody there that will 
always help shepherd our folks along, that there is always an 
ability to come back and contact. Because if we knew something 
was going wrong in their lives, we have the ability to help 
them. And if they know that they are connected, we can bring 
them back with us and try to get them that help, especially our 
organizations where geography is kind of the tyranny of 
distance between them, as my wife likes to say.
    Thank you for your question.

                       WOMEN VETERANS AND SUICIDE

    Ms. McCollum. Mr. Chair, if I could follow up on this. So I 
have had a few conversations in the past couple of weeks with 
some women veterans. They are very concerned about what they 
are hearing in anecdotal, and I was going to be asking to get 
some information on it, with the uptick of the number of women 
veterans committing suicide.
    Could I ask you, do you have a gender breakdown of the 
number that you just gave us with your increase?
    General Scobee. Madam Congresswoman, we will take that for 
the record and I will get that information to you. I do not 
have the breakdown in front of me, but I can tell you that it 
is--that you are absolutely correct. I do have a number. I 
don't know statistically if it is a significant number, but in 
the 16 that we have had, there are at least four or five that 
were female members of the command.
    Ms. McCollum. So that might be something we need--I think 
it is something we are going to need to look at, the way that 
we are doing counseling and outreach. Everybody comes back with 
its own set of challenges. We are all individuals. But it is 
primarily, then, a male-dominated enterprise, serving in the 
military, just as I am in a male-dominated enterprise here.
    But in the military, when people come home and they are 
dealing with issues and things, especially the women say, you 
know, I am supposed to kind of blend back in, and the 
pressures, the demands, and the expectations of what I do and 
how I can talk about what I witnessed, what I saw, is very 
different when they have a chance to talk to their peer support 
when they are with, but then when they are back home, they 
don't have the same kind of support.
    So thank you very much, and I look forward to getting that 
information and working together with you on the issue in 
general but for women in particular. Thank you.
    General Scobee. Congresswoman, I look forward to that as 
well. Thank you.

                 INNOVATIVE READINESS TRAINING PROGRAM

    Mr. Visclosky. If I could, if each of you, for those 
services, could provide the same breakdown--I had never thought 
about it quite in that context--just to see if there is 
something there. And also, all of us share the concern and 
appreciate yours, and I appreciate the emphasis on working on 
the culture and stigma, so people do--if you have got a 
problem, please, we are here to help. So I do appreciate that 
emphasis very much.
    Just one last question for myself. I will turn to Mr. 
Calvert then. I would like to talk for a minute about the 
Innovative Readiness Training program. It is administered by 
the Department of Defense, provides military training, 
opportunity in the United States and territories to increase 
deployment readiness. The program also provides key services to 
American communities, such as healthcare, construction, 
transportation, and cybersecurity.
    For the current year, as you probably know, we appropriated 
$30 million. In the budget for 2021, the Department asked for 
$13.1 million.
    General Bellon, because you mentioned the program in your 
testimony, if I could ask you, you mentioned units. It allows 
your units to increase readiness while making tangible, 
meaningful impacts in their communities, if you might address 
that.
    General Bellon. And I think this actually links a little 
bit to Congresswoman McCollum's question. So I will give you 
two vignettes. In one vignette, we were able to create a 
tactical scenario where the Marines and sailors went in and 
repaired an airfield in northern California. Huge success, and 
they finished something. They leave something behind for the 
community, and they were able to exercise their tactical tasks 
and they feel good about that. Right?
    The second one was relocating a village in Alaska. And the 
depth of the rewards that that provides in our force, you know, 
they joined because they want to serve, and they are executing 
tactical tasks that fulfill their call to service.
    So by providing this resource for us, you are helping us 
not only train the young Marines and sailors, but to develop 
that culture. You know, at the end of the day, our moral 
obligation is to return them to their families and communities 
as better citizens, better family members, better friends, 
fortified by their service, and this is the kind of thing that 
does it for us.
    Mr. Visclosky. Any of the other panelists have a comment? 
Otherwise, I will turn to Mr. Calvert.
    General Luckey. The only thing I would say, Chairman, is it 
is sort of like the Marine Corps, I find it to be a really 
great opportunity for our soldiers to do two things at the same 
time. One is develop and sustain their tactical and--their 
technical proficiency more than their tactical proficiency, 
their technical proficiency, and in addition to doing good, 
building a sense of confidence in themselves and their team 
that they are genuinely contributing back to the welfare of 
their fellow citizens. So I think it is a huge win from a 
retention perspective as well.
    Mr. Visclosky. Mr. Calvert.

                             P-3 SQUADRONS

    Mr. Calvert. Thank you, Mr. Chairman.
    It is an interesting subject. I always was interested if it 
could be a historical overview somewhat. You know, after World 
War II, I suspect that people didn't pay as much attention to 
that problem, but I suspect it was a significant problem at 
that time, in Korea and Vietnam and certainly now.
    So I don't know if there is any comparisons because I don't 
know that they even kept statistics of that in those days, but 
it would be interesting to look at that from that perspective.
    Vice Admiral McCollum, last year's appropriation bill 
included a reporting requirement of the Navy's plan to 
recapitalize its two remaining P-3 squadrons. What is the 
status of that report, and what is the impact of not buying any 
P-8s in fiscal year 2021?
    Admiral McCollum. Congressman, thanks for the question. 
First, from a strategic depth perspective, the Navy establishes 
what its warfighting requirement is. In this particular 
aircraft, it is 138. The Navy funded 119, and then we had 
additional two funded for the Navy Reserve.
    Last year, the Navy listed that aircraft on its unfunded 
priorities list, and the thought is it does two things. It 
closes the gap to the warfighting requirement of 138, and it 
can take advantage of recapitalizing these two squadrons, these 
two P-8 squadrons. We have one in Whidbey Island and one in 
Jacksonville, Florida.
    There is a human capital piece of it as well. So if you 
think about a pilot who has been on Active Duty and chooses 
maybe about the 8 to 10-year point to go to the airline, we 
really want to get a return on the investment. We, the Navy, 
have placed in that to the tune of $9- to $11 million at that 
point. If we can give them a place to continue service while 
they are serving in industry--matter of fact, in the same 
airframe, the Boeing 737--and get tremendous amounts of hours, 
that is great strategic depth of value for our Navy and our 
Nation. And every conflict that we have studied that has been 
in any aspect enduring, the Navy and all the services have 
drawn deeply on its strategic depth.
    So we need--for that purpose, that is why the Navy Reserve 
is focused, and I have listed it in my National Guard and 
Equipment report as my number one equipping priority in pursuit 
of closing this gap, funding recapitalizing the two squadrons, 
and building a human capital strategy to give the Nation 
strategic capability with pilots.
    Mr. Calvert. Thank you.
    Mr. Visclosky. Gentlemen, we have no further questions at 
this time. I want to thank you very much, again, for your 
service and for participating today.
    Admiral and General Luckey, especially yourselves, good 
luck to you in your future endeavors. As I told General 
Lengyel, as long as you are not coming back, I am not coming 
back.
    Thank you very much. We are adjourned.

                                          Wednesday, March 4, 2020.

  FISCAL YEAR 2021 UNITED STATES NAVY AND MARINE CORPS BUDGET OVERVIEW

                               WITNESSES

THOMAS B. MODLY, ACTING SECRETARY OF THE NAVY
ADMIRAL MICHAEL M. GILDAY, CHIEF OF NAVAL OPERATIONS
GENERAL DAVID H. BERGER, COMMANDANT OF THE MARINE CORPS

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. The subcommittee will come to order.
    This morning, the committee will receive testimony on the 
fiscal year 2021 budget request for the United States Navy and 
Marine Corps.
    Our three witnesses today are the Honorable Thomas Modly, 
Acting Secretary of the Navy; Admiral Michael Gilday, Chief of 
Naval Operations; and General David Berger, Commandant of the 
United States Marine Corps.
    This is your first time before the subcommittee, and we 
welcome all of you. We look forward to hearing your thoughts 
about the fiscal year 2021 budget request and engaging in a 
dialogue with us.
    Normally, I like to keep my opening remarks brief. However, 
I have some significant concerns relative to the Department of 
the Navy and ask my colleagues' indulgence.
    The bulk of my remarks will focus on the fleet. However, I 
would like to begin by highlighting my concerns about the well-
being and quality of life for sailors, Marines, and their 
families.
    Of particular interest to me is childcare. Whether it is 
Key West, San Diego, Camp Pendleton, or right here in the 
national capital region, we continually hear from sailors and 
Marines about the lack of available care. The committee made a 
significant investment in fiscal year 2020 to mitigate this 
issue, and I applaud the Navy for building on that investment 
and, obviously, looking to continue to do so in your fiscal 
year 2021 request.
    So I just do want you to know, personally, I think, one, it 
is the right thing to do, but that the Navy followed up, I 
appreciate it very much.
    Let's see. Okay. Moving on, to address the fleet, although 
the committee has not yet received the fiscal year 2021 
shipbuilding plan, I am puzzled by the degree the fiscal year 
2021 budget request deviates from the previous shipbuilding 
plan.
    Beyond that contradiction, what is even more disturbing is 
the fact that the Department that chose to transfer $911 
million of fiscal year 2020 shipbuilding funds to support the 
President's effort to build a wall on the southwest border. We 
hear time and again that more ships are required, but then 
actions like these are taken, severely undercutting the 
credibility of the argument.
    Furthermore, I am bewildered by the Navy's approach to the 
Virginia-class submarine program in the budget. The Navy 
removed funding for a second Virginia-class submarine, then 
placed that sub at the top of its massive unfunded priority 
list, knowing full well that Members of Congress on both sides 
of the aisle will advocate to find $2.8 billion needed to 
contract that boat.
    It is clear to me that the Navy didn't make the difficult 
choices required to reduce other programmatic funding to fund 
the second submarine and is expecting Congress to do so. 
Perhaps today you can make suggestions relative to reduction 
options that the committee could consider.
    I am also interested to hear an update on ship and 
submarine maintenance issues. The shipyard backlogs remain 
high, and the shipbuilding industrial base is facing production 
delays and capacity challenges. Last year, we included an 
additional $625 million for submarine maintenance. Again, I 
would like to ask how you are building on that investment.
    Finally, I remain concerned that the Navy may still be 
accepting ships with both minor and major defects which require 
additional cost and unscheduled maintenance. We have seen the 
multiple issues with the Zumwalt class of destroyers, littoral 
combat ships, and the late Ford-class aircraft carrier. I 
believe it is inexcusable if shipbuilders are delivering ships 
with defects. We need to understand what steps are being taken 
to improve this situation and to make sure that the taxpayers 
are not bearing the cost.
    With that, I thank you again for appearing before the 
committee today to discuss these issues. We will ask for you to 
summarize your testimony in a moment but first would recognize 
Mr. Calvert.

                     Opening Remarks of Mr. Calvert

    Mr. Calvert. Thank you, Mr. Chairman.
    I would like to welcome each of our witnesses: the Acting 
Secretary of the Navy, Thomas Modly; the Chief of Naval 
Operations, Admiral Gilday; and the Commandant of the Marine 
Corps, General Berger.
    This is the first time each of you have appeared before our 
subcommittee. We greatly look forward to hearing your 
testimony.
    Our sailors and Marines play a key role in projecting 
power, ensuring freedom of navigation, and protecting American 
interests both at home and abroad. As many of us on this 
subcommittee have traveled to see the current demands of our 
fleet, we understand firsthand how important it is to ensure 
these sailors and Marines are properly trained and equipped to 
carry out their mission. In the current threat environment, 
integrated naval power is what keeps our Nation safe.
    Fiscal year 2021 is a critical point as we continue to 
rebuild our military. The investments Congress made in the past 
several years have allowed our Navy to increase readiness, 
modernize key platforms, and increase lethality. Now, in this 
fiscal year, I believe we must not lose sight of the return to 
a great-power competition laid out in the National Defense 
Strategy.
    This budget request reflects the many difficult choices the 
Navy is having to make to balance current operational demand, 
properly invest in its people, and increase research and 
development to ensure we maintain our technological and 
military superiority.
    Many of these tough choices will be of great interest to me 
and other members of the subcommittee here today. There are a 
few items in this request which specifically I would like to 
hear about.
    First, I would like to understand how the shipbuilding 
proposal aligns with the National Defense Strategy. As you all 
know, China is on track to reach a 420-ship Navy by 2035, and I 
am concerned that this request does not align with previous 
force structure assessments.
    I would also like to get updates on our future fleet 
programs, including the Columbia-class submarine, frigate, and 
our amphibious warships, I think one of which was going to be 
built in Mobile, Alabama.
    Additionally, I would like to update to our aircraft 
readiness recovery goals and how we can sustain these 
improvements in the future so that readiness does not suffer 
again due to poor planning.
    I want to conclude by thanking all of you for your service, 
and I certainly look forward to your testimony.
    Thank you. I yield back.
    Mr. Visclosky. Thank you very much.
    Mr. Secretary, you can proceed.

                      Statement of Secretary Modly

    Secretary Modly. Chairman Visclosky, Ranking Member 
Calvert, distinguished members of this committee, thank you for 
your bipartisan efforts on behalf of the sailors, Marines, 
civilians, and their families in the Department of the Navy.
    It is an honor to be here today with Admiral Gilday and 
General Berger, both of whom have demonstrated great commitment 
to each other and to each other's respective naval service as 
they have worked collaboratively to lead our integrated 
American naval force.
    Consistent with that spirit, we have taken a different 
approach to the written testimony this year----
    Mr. Calvert. You might want to put that mike closer to 
your----
    Secretary Modly. Thank you, sir.
    Mr. Calvert. Thanks.
    Secretary Modly. We have taken a different approach to the 
written testimony this year, submitting one unified document 
instead of three separate documents.
    Staying ahead in today's rapidly changing global strategic 
environment demands that our naval forces commit to unified 
planning, clear-eyed assessments, and sometimes, yes, some very 
hard choices, which you will see in our budget submission.
    In this process, we must harmonize competing priorities, 
sustain our critical industrial base, and not allow our 
maritime competitive advantage to erode relative to global 
competitors and, more accurately stated, some very aggressive 
adversaries who wish to hasten our decline as a global force 
for liberty and for decency.
    In the end, this budget submission is a manifestation of 
the hard choices we had to make this year, but it is centrally 
about the safety, security, and well-being of our sailors, 
Marines, and their families. Ultimately, I ask that you 
recognize that in this submission we could not make trades that 
put our sailors and Marines on platforms and with equipment 
that are not ready for a fight, if a fight is what is required 
of them.
    While this budget shows our trajectory to a force of 355 or 
more ships, it does not arrest that trajectory. You have my 
personal assurance that we are still deeply committed to 
building that larger, more capable, more distributed naval 
force within a strategically relevant timeframe of no more than 
10 years. I look forward to working with this committee and the 
entire Congress in the coming months as we develop realistic 
plans to do so.
    Our budget also demonstrates a clear commitment to the 
education of our people, as we implement the recommendations of 
the Education for Seapower study that I led as the Under 
Secretary of the Navy the last 2 years. We are establishing a 
Naval Community College for our enlisted personnel as part of a 
bold and unified Naval Education Strategy that recognizes that 
the intellectual and ethical development of our people is 
critical to our success as a naval force.
    We are also stepping up our efforts to meet our solemn 
commitment to our military families through significantly more 
engaged oversight and accountability of the public-private 
venture housing program.
    Finally, I would like this committee to understand that, as 
leaders of the Department of the Navy, we are both vocal and 
united in our determination to prevent sexual assault and 
sexual harassment throughout our force. Every sailor, every 
Marine, every Navy civilian deserves individual respect, 
dignity, and protection from this great naval institution. We 
have work to do in this regard, but you have my personal 
commitment that we take it very, very seriously.
    We are grateful to the committee for passing this year's 
NDAA, which enables many of the priorities identified within 
this document. In passing this legislation, you have sent a 
strong signal of support to our people and a strong warning to 
our adversaries.
    We also appreciate the funding stability and the 
predictability of the past several years. This has saved money 
for the American taxpayer and given our force the agility and 
flexibility to address emerging threats while still investing 
in the integrated force.
    We urge the committee to do what it can to continue the 
stability so that we can implement the reforms and investments 
required to meet the great-power challenges, protect the 
maritime commons, and defend the United States of America.
    Thank you very much for your time, and we look forward to 
your questions.
    Mr. Visclosky. Admiral.

                      Statement of Admiral Gilday

    Admiral Gilday. Chairman Visclosky, Ranking Member Calvert, 
distinguished members of the committee, good morning, and thank 
you for the opportunity to appear before you today with 
Secretary Modly and General Berger. I am also joined by my 
wife, Linda. We are thankful for your enduring support of the 
Navy-Marine Corps team.
    Today, as we testify, three carrier strike groups and two 
amphibious ready groups, along with 30 percent of our fleet, 
are deployed around the globe today. Our Navy-Marine Corps team 
needs no permission to operate at sea, and their power does not 
rest in any one location but, rather, in our ability to 
maneuver anytime in anywhere the seas reach, operating across 
the spectrum of military operations.
    Without question, our sailors remain our most important 
asset. We have taken a hard look at what they need to be 
successful, the equipment and training they need to fight and 
win, and, as, Chairman, you mentioned, as well as the support 
required to take care of them and their families.
    Over the past 8 months, we have engaged in a deep 
examination of these issues. Our balanced approach in our 
budget submission provides a Navy ready to fight today while 
committing to the training, the maintenance, and the 
modernization to provide a Navy ready to fight tomorrow.
    Naval power is critical to implementing the National 
Defense Strategy, but naval power is not just a function of 
fleet size, as the Secretary mentioned. It is also a 
combination of readiness, lethality, and the capacity of the 
fleet.
    Our number-one priority is the Columbia-class ballistic 
missile submarine and all it brings to our national deterrence. 
This request also heavily invests in readiness accounts such as 
ship and aircraft maintenance and modernization; manpower; 
spare parts; live, virtual, constructive training; as the 
Secretary mentioned, education; steaming days and flying hours.
    It invests in new systems to make our fleet more lethal, 
including increasing our weapons inventory, bolstering the 
range and the speed of those weapons; exploring directed-energy 
weapons; and incorporating new technologies like hypersonics. 
This request grows our fleet in size, generating sustainable, 
capable capacity.
    Importantly, naval power is not just determined by what we 
operate and fight with but how we operate and fight. We are 
pursuing an integrated approach alongside the United States 
Marine Corps in fleet operations, in exercises, war games, and 
in an experimentation. The net result, as Ranking Member 
Calvert mentioned, is integrated American naval power.
    Thank you again for the stable and predictable funding, 
which has allowed us to make significant gains in readiness and 
lethality already. On behalf of your Active Duty, Reserve, and 
civilian sailors and their families who serve this Nation, your 
support allows us to answer the Nation's call. On their behalf, 
I thank you, and I look forward to your questions.
    Mr. Visclosky. General Berger, you may proceed.

                      Statement of General Berger

    General Berger. Chairman Visclosky, Ranking Member Calvert, 
distinguished members of this committee, I appreciate the 
opportunity to testify on the posture of your Marine Corps and 
our priorities for the future.
    I will start by echoing Secretary Modly and Admiral 
Gilday's thanks for timely funding as well as your enduring 
commitment to the Marines, sailors, and families through 
efforts such as the hurricane recovery, which you provided for 
last year, and revisions to our public-private venture housing 
program. Your bipartisan support is critical to ensure we 
continue to prioritize people as our greatest resource.
    Thanks to predictable funding over the last few years, we 
have made significant progress restoring both availability and 
readiness. We are now at an inflection point. We have to pivot 
now toward modernization while sustaining the readiness that 
this committee has resourced. This pivot, in my opinion, cannot 
wait until next year or the following. We must move now or risk 
overmatch in the future by an adversary. And that is a risk we 
will not take.
    As the national defense directs and as Secretary Modly 
recently emphasized in his first vector to all hands, we must 
pursue urgent change at a significant scale. Marines have 
always sensed when it is time to move out smartly. We don't 
hesitate. This is that time.
    Realizing the bold direction of our strategic guidance 
requires acknowledging fundamental changes in the operating 
environment and how we must organize, train, and equip the 
force. I believe most leaders recognize that significant 
changes are required, yet the scope and pace of necessary 
change is seemingly at odds with some historical resource 
allocations and some major acquisition programs which predate 
the National Defense Strategy.
    This budget submission marks the beginning of a focused 
effort to better align resources with strategic objectives. Our 
future budget submissions will build on this investment 
strategy with informed recommendations for force design and 
adjustments to our programs of record.
    Together in partnership with Admiral Gilday, my shipmate 
and battle buddy, and under the direction of Secretary Modly, 
we are committed to delivering the integrated naval and Fleet 
Marine forces our Nation requires.
    As always, I welcome the opportunity to discuss our 
findings along the way and keep each of you and your staffs 
informed as we progress. You have my word, we will be frugal 
with the resources that you provide, and we will ask for no 
more than we need. With Congress's commitment and support, we 
will ensure that your Marines continue to have every advantage 
when we send them into harm's way.
    I look forward to your questions, sir.
    [The written statement of Secretary Modly, Admiral Gilday 
and General Berger follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Visclosky. General, thank you very much.
    Mr. Calvert.

                                  ISR

    Mr. Calvert. Thank you, Mr. Chairman.
    Acting Secretary Modly, one shortfall we hear of from 
nearly every combatant commander is ISR. And I am concerned 
that all the services did not request sufficient resources this 
fiscal year. Do you believe the Navy's request reflects this 
increased demand?
    Secretary Modly. Sir, I think as we were going through our 
budget process, we had to make trades in a variety of different 
areas. So, when we went through this process, we went through 
the service chiefs, and we asked them, are you comfortable with 
the cuts that we have to take in certain areas?
    And the decisions we made clearly would have--there are 
certain ones that we would have liked to have not made if we 
had had more resources. But those balances were made based on 
what we believed was in the best interest of the safety and 
security of our Marines and sailors and in terms of maintaining 
the readiness of our fleet. And so those----
    Mr. Calvert. Was ISR brought up at these meetings?
    Secretary Modly. Oh, of course it was.
    Mr. Calvert. And did they say they didn't need any more of 
it?
    Secretary Modly. No, sir, I think everyone thinks they need 
more ISR. We need more ISR everywhere. But there were choices 
that had to be made based on the budget constraints that we 
had.
    Mr. Calvert. And what was more important than the ISR?
    Secretary Modly. I can give you a variety of examples of 
things in readiness that we have made choices over. It wasn't a 
binary choice between ISR and this. It was basically trying to 
balance across the whole budget. But I can give you an 
example----
    Mr. Calvert. The reason I bring it up is it seems that 
every combatant commander I talk to, the first thing they talk 
about is ISR. Why is that?
    Secretary Modly. Well, they recognize how important it is, 
and we do too.
    Mr. Calvert. General, do you need more ISR out there?
    General Berger. Sir, we do. MQ-9s for the last year, based 
on resources provided by this committee, we have employed MQ-9s 
in Afghanistan really effectively, down in Helmand province.
    At the tactical to operational level, there is no combatant 
commander, I agree with you, that is ever going to be happy 
with the ISR, because that gives them the indications and 
warning that they are looking for.
    Mr. Calvert. Yeah, that troubles me, because--you know, the 
chairman and I share our disappointment in this reprogramming. 
I know that is above all of your pay grade. I am sure you are 
probably not too happy about it yourselves.
    But, nevertheless, to break the line for the development of 
the MQ-9 Reaper Extended Range, every single combatant command 
that I talk to says they need more ISR. It doesn't make sense 
to me.
    Any comment on that, Admiral?
    Admiral Gilday. Sir, a couple of comments in terms of 
investments that we made and have made with respect to 
contributing ISR to the Joint Force.
    The first is the MQ-4 Triton. And so that is a great 
capability that will have a number of different sensors on it, 
that we most recently have deployed two of those out into the 
Indo-Pacific AOR, and we have more coming.
    As you are probably----
    Mr. Calvert. How much does that cost?
    Admiral Gilday. Sir, I will have to get back to you on the 
exact price of an MQ-4 airframe and the systems that go along 
with it. It depends on how it is configured. I don't mean to be 
evasive. I just don't know the number off the top of my head.
    Mr. Calvert. Did you request the Triton this year?
    Admiral Gilday. No, sir, we did not.
    Mr. Calvert. I am concerned that we are going to shut down 
an affordable platform. The MQ-9 Reaper runs about $20 million 
per unit. And, you know, 99 percent of the world they can fly. 
We are not talking about the denied airspace here. And for some 
future capability that is unknown and a price that is unknown.
    Most of the ISR we look at is 5, 6, 7, 10 times as much 
money as the MQ-9 Reaper. Is that what the military wants to 
move to, is something that is multiples more expensive that 
they can fly in a small part of the world?
    Was that your understanding, Mr. Secretary?
    Secretary Modly. No, sir, I don't think that is--I think 
some of those decisions were made also around survivability, 
being able to fly in permissive environments and not permissive 
environments, and also, I think----
    Mr. Calvert. The MQ-9 Reaper, is it flown in areas where 
they can't survive?
    Secretary Modly. Well, right now, there----
    Mr. Calvert. It can fly in all of Africa. It can fly pretty 
much in all of the Middle East. You can fly almost all of South 
America. You certainly can fly anything--or, you know, so----
    Secretary Modly. Yes, sir, I agree with that. I think, as 
they look at--particularly as the Air Force looks at its 
modernization--and I don't want to speak to it, but they are 
thinking about more in terms of great-power competition and 
whether or not that platform actually would be survivable in a 
non-permissive environment. So that is part of the reason that 
some choices were made in that regard.
    Mr. Calvert. So we are going to spend five times as much 
to--we are going to get rid of the MQ-9 Reaper, and we are 
going to fly ISR that can fly in denied airspace in areas that 
you don't have to worry about having it shot down.
    Is that the Air Force program or the Navy program?
    Secretary Modly. That has a lot more to do with the Air 
Force program, in terms of how those decisions were made.
    Mr. Calvert. Okay.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Kilmer.

               SHIPYARD INFRASTRUCTURE OPTIMIZATION PLAN

    Mr. Kilmer. Thank you, Mr. Chair.
    And thank you for being with us.
    As you know, my district is home to one of our four public 
shipyards. And on the heels of the last question, talking about 
the great-power competition, obviously, maintaining a strong 
naval presence is going to be all the more important in the 
years ahead to mitigate some of the threats that we are seeing 
from China, from Russia, and their investments in their navies.
    I think the Navy has acknowledged the importance of 
modernizing our shipyards and improving our public shipyards to 
make sure that they are equipped and able to maintain readiness 
of our fleet.
    I know there is the SIOP, the Shipyard Infrastructure 
Optimization Plan. I know how important it is to have it stay 
on track.
    And, Mr. Secretary, I was hoping you could just give us an 
update on the SIOP. Are you, in fact, on track? And what is the 
total level of funding you are dedicating to the SIOP in fiscal 
year 2021, and what will that accomplish?
    Secretary Modly. Thank you, sir. I will speak broadly to 
the SIOP. It is a 20-year program to basically modernize our 
shipyards, our four main shipyards. It is $20-billion-plus over 
that 20 years.
    And we are prioritizing projects in that process. I believe 
there are some projects that are happening in your district 
this year. We are putting a heavy emphasis on some of the work 
down in Norfolk Naval Shipyard as well. Looking at doing 
planning in Pearl Harbor and in Portsmouth. So there is work 
that is being done in all of these areas over the course of 
this year.
    In terms of the exact dollar amount, I don't know if the 
CNO might know what that is exactly, but I think it is around a 
billion dollars that is going into that this year.
    Mr. Kilmer. Thanks.
    Admiral Gilday. Yes, sir, it is about $1.5 billion in 
MILCON. And there is more than just MILCON, but we have three 
projects underway this year. We will have another eight next 
year across the four shipyards.
    And so, at the same time that we are replacing some of this 
equipment that--the average age of those yards is 76 years old, 
and some of that equipment is that old. Some of those dry docks 
are over 100 years old. So, at the same time, we are creating 
digital twins to understand each of those yards, the layouts, 
and how we can best invest in new infrastructure. We are also 
replacing things like cranes and dry docks and also some 
significant maintenance facilities.
    We are committed to it. The public yards, including Puget 
Sound, are really the jewel in the crown of our deep 
maintenance facilities, and we know that we are past due in 
terms of making these investments.

                     NAVALX TECH BRIDGE INITIATIVE

    Mr. Kilmer. Thank you. And I appreciated that, before we 
started, you mentioned you might be coming out. We would love 
to host you.
    And, Mr. Secretary, I would love to invite you as well. We 
would love to have you.
    Mr. Womack came out last year. And it is a real sight to 
behold, and the men and women who work there are really doing a 
bang-up job.
    I also wanted to ask about the NavalX Tech Bridge 
initiative, which was designed to create techie go systems 
around the Nation by partnering the Navy with the private 
sector and with startup communities and academia and nonprofit 
organizations.
    Keyport Naval Undersea Warfare Center in my district was 
selected as one of the first five Tech Bridge locations in the 
country. Just hoping for an update on how you feel like that 
program is going and what we are learning from that initiative, 
what sort of impact you think it will have on innovation going 
forward in tech development across the Navy.
    Secretary Modly. I think it is an absolutely critical 
process for us to develop these closer ties with industry, 
particularly in the tech areas, because of their ability to 
innovate quicker than we are able to innovate. So we need to 
learn from them; we need to partner with them.
    So this is a first, sort of, really, I think, serious foray 
into that area. We are going to continue to do this. We are 
going to monitor it. I think they are experiencing some success 
with this, but the key is to really develop this at scale so we 
can have almost a whole new ecosystem in terms of how we do 
innovation across the Department of the Navy.
    I don't know if the CNO has anything more to add on that.
    Admiral Gilday. Just to echo what the Secretary said, when 
we first joined the Navy and the Marine Corps, the U.S. 
Government did 90 percent of the R&D in this country, and now 
it is flipped. And so, obviously, the best ideas are coming 
from industry.
    The Congress has given us authorities so that we can turn--
we can lead-turn new capabilities faster. So the stuff that we 
are applying, as an example, to our computer networks in terms 
of machine learning, AI, in terms of cyber defense, have put us 
in a much better position because we don't have to wait 5 or 6 
years to field something. We can field it within 6 months.
    So, yes, we are leveraging it, sir, and will continue to do 
so.
    Mr. Kilmer. Super. Thank you.
    Thank you, Chairman. I yield back.
    Mr. Visclosky. Thank you very much.
    Mr. Womack.

                               TOMAHAWKS

    Mr. Womack. Thank you, Mr. Chairman.
    And my thanks to the witnesses this morning. Mr. Secretary, 
Chief Gilday, and the Commandant, thank you for your service to 
our country.
    This first question I think I am just going to ask for the 
record, because I know it has some sensitivity to it, but I 
just want to make sure that I understand where we are, above or 
below our requirement on Tomahawks. I consider it to be an 
important piece of our arsenal. And I would like to--we don't 
have to get into detail here, but I sure would like an update.
    Mr. Womack. But I would like your comments on the 
importance of expanding our offensive strike capability.
    So, Admiral, I will yield to you.
    Admiral Gilday. Sir, thanks for your service as well.
    Sir, so Tomahawk is one of those, as I mentioned in my 
opening statement, one of those weapons systems that gives us 
range and speed that we need to not only close gaps but 
maintain and establish overmatch against our peer competitors.
    So, with respect to Tomahawk, we are investing in Tactical 
Tomahawk, the Block V, as you know, the maritime strike 
version, and also the land attack version and the upgrades that 
come along with that.
    To directly answer your question, we are not where we need 
to be. The Block V comes to IOC in 2023. But we are making 
investments in those weapons steadily. Those numbers are coming 
up.
    Mr. Womack. Quick question for the Commandant.
    In your written testimony, you talked about the POM 
submission, which coincides with the inflection point for the 
Marine Corps. Yet, looking at the budget, I don't really see a 
significant amount of change. So why isn't there more change if 
we are at that inflection point in the PB21?
    General Berger. Sir, last July, we started probably a 7-
month effort to figure out what the Marine Corps--we would need 
in 2030, and we finished that effort in late December, early 
January. Not an excuse, but that is the reason why there aren't 
fundamental changes in this budget submission.
    There are the initial--what we could see already last July 
when we began the submission process for this, what you could 
already see was that, if we are going to contribute to the 
naval fight, back to your previous question, we are going to 
need some tools, some capabilities we don't have right now, if 
we are going to contribute to sea denial and sea control.
    Our long-range strike capability for the last 30, 40 years 
has been Harriers and Hornets and now F-35s. And then it was a 
drop back in to MRLS rockets. We need the ability to reach out 
and touch a threat, an adversary's naval force, from ship or 
from shore if we are going to be part of the integrated naval 
force. So you see even in this budget submission the beginning 
of the long-range fires that we are going to need in that 
regard.
    Mr. Womack. Okay. Thank you.
    You know, Mr. Chairman, on kind of a lighter note, I 
realize I have a couple of Naval Academy graduates sitting over 
here on the panel. And having been elected chairman of the 
board at West Point a couple of weeks ago, I just want, for the 
record, everybody to know that I am glad that they have moved 
that secret weapon that they had out to the fleet now, this 
quarterback by the name of Malcolm Perry.
    These Army guys were running around out there last December 
trying to catch the wind, and he made us pay a dear price. So 
thank you for moving that guy on out. I think he was out of 
eligibility anyway. But congratulations on your victory.
    And I yield back.
    Mr. Visclosky. Thank you very much.
    Mrs. Kirkpatrick.

                            INDUSTRIAL BASE

    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary and Admiral and Commandant. 
Thank you very much for being here and testifying today.
    So I represent Tucson. I think you have a Tomahawk 
manufacturing plant there. A very important piece of the 
economy to us. You know, it is very important that our ships 
and their components are manufactured domestically. As I said, 
in my district and throughout Arizona, there are many small 
businesses and companies that produce components for submarines 
and ships. However, they are vulnerable given the volatility of 
budgets and production lines.
    What are you going to do to help the domestic industrial 
base maintain relevancy and continue research and testing to 
give the Navy cutting-edge capabilities?
    And my question is directed to you, Mr. Secretary, but I 
would love to hear from the other people, as well, if you have 
something to contribute.
    Secretary Modly. Well, thank you for the question, ma'am. I 
think it is a very, very important question, because as we 
think about how we develop a force, a new force structure, for 
the Navy and Marine Corps team, we are heavily dependent upon 
industry for us to be able to deliver that. And the industrial 
base that we have that supports shipbuilding, particularly, and 
all the components that get into it represent thousands and 
thousands of jobs across the country, not just in the areas 
where we actually build the ships. We have to make sure that 
that industry is healthy and that it can adapt and change as 
quickly as we see the threat environment changing.
    So I have seen, just in the last couple years, lots of 
serious investment, particularly in our shipbuilding industry, 
to be able to be more adaptable, integrate new technologies 
more quickly. But it has to be a partnership with industry, 
particularly because when you see how our industrial base has 
shrunk so much over the past 20 or 30 years, we have to work 
with them a lot more collaboratively. And I think it is going 
to require a lot less adversarial type of relationships and a 
lot more collaborative relationships to make that work.
    But it is part of our strategy. It has to be part of our 
strategy. Because if we are going to accelerate a path towards 
355 or more ships--and a lot of those ships that we are talking 
about in our force structure don't even exist right now; they 
are ships, platforms that we are looking at that are both 
manned, unmanned, lightly manned--we have to have industry with 
us on that. So it is a high priority for us.
    Mrs. Kirkpatrick. Thank you. I think people are really 
surprised that southern Arizona has this industrial base 
regarding ships. I mean, we are not exactly a coastal State, 
but it is a very, very important industry to us. So I just want 
to make sure that you are there and stay there, and I want you 
to know it is a top priority of mine.
    Commandant, Admiral, do you have anything to add?
    Admiral Gilday. I want to say simply that our success, in 
many ways, depends on a successful defense industrial base.
    And so, as I just mentioned in the response to Mr. Kilmer's 
question, one of the great things right now with respect to 
industry is that there are so many ideas and so many options, 
and a lot of that stuff is exciting. So, years ago, they used 
to be really dependent upon our requirements. Now, you know, a 
question that we ask is, what have you thought of that we 
haven't that we could use? And a lot of that stuff has a direct 
application from commercial to military with a few tweaks.
    And in terms of Tomahawk, you know, as I just mentioned to 
Representative Womack, we are very bullish on Tomahawk.
    Mrs. Kirkpatrick. So are we. So thank you.
    General Berger. You mentioned predictable funding. I think 
that is one of the three points.
    Second, I think we have to do our job in terms of 
predictable programming. We can't jerk around every 2 or 3 
years in a different direction.
    In other words, looking back through the lens of industry, 
they need both. They need a predictable view on our 
programming--what we need, what our requirements are--and 
predictable funding.
    I got a lesson last spring, traveling to a shipyard, on the 
length of the supply chain, which you allude to. And the short 
version of that, which I never would have understood unless 
they drew it on a whiteboard, was, you know, here at the big 
end, we could absorb some fluctuations. Down on the little end, 
in someplace, you know, in Iowa, or you pick the State, there 
are six people that produce a component of this. They can't 
stop work for 6 months. Those six people have to have jobs.
    So I understood, some people call it the fragility of the 
supply chain, but I was taken to school last spring and learned 
a lesson. That part is really important.
    Mrs. Kirkpatrick. I agree. Maintaining that expertise at 
that level is so important to the long-term success of the 
program.
    So I just want you to know, we are very proud of the 
collaboration that you do with the University of Arizona in 
Tucson. They are working on some cutting-edge technology that 
we think can help you, and we like to see that kind of 
collaboration. So, again, thank you.
    I yield back.
    Mr. Visclosky. Thank you.
    Mr. Rogers.

                                 CHINA

    Mr. Rogers. Thank you, Mr. Chairman.
    The 2018 National Defense Strategy emphasizes the threats 
posed by, quote, ``great powers'' and specifically highlights 
Russia and China, of course, as the greatest threats to our 
interests.
    China continues to modernize its military platforms and 
increase its number of deployable platforms of aircraft 
carriers, guided missile cruisers, combat support ships, and 
fifth-generation stealth fighters. China has also started 
deploying military assets further from their coastlines. They 
recently deployed a surface action group about 250 miles from 
Guam and are also sending their submarines further afield.
    China continues to maintain its maritime claims in the 
South China Sea, has militarized disputed islands by deploying 
advanced military systems. China also uses fear, coercion, 
economic pressure to advance their priorities in countries 
throughout the world.
    We, of course, have much greater capability at large than 
China, but our military might is spread across the world; 
theirs is focused on the Indo-Asia-Pacific region.
    As China continues its economic and military ascendance, 
asserting power through an all-of-nation long-term strategy, it 
will continue to pursue a military modernization program that 
seeks Indo-Pacific regional hegemony in the near term and 
displacement of the U.S. to achieve global preeminence in the 
future.
    My question: Speak to us about the actions of China in the 
vein that I have mentioned. And what do you see for the future?
    Mr. Secretary.
    Secretary Modly. Sir, thanks, for the prelude to that, 
because I think everything you said are things that I would----
    Mr. Rogers. Could you speak up?
    Secretary Modly. Sorry. Thank you for that prelude to that, 
because I think everything you said is something that I would 
echo.
    It has profound implications for us as an integrated naval 
force because of their aggressiveness in South China Sea and 
other parts of the world. It requires us to think differently 
about the type of force structure we are going to have to be 
able to counter those threats. I just read an article the other 
day where the Chinese consider themselves a near Arctic power 
as well, in addition to the South China Sea. And they are being 
very aggressive everywhere.
    I will say that what it is doing for us is it is helping us 
rethink how we might want to build a naval force, what we need 
to invest in, what those ships might look like, what presence 
means, how do we counter them, and in an area where it is 
predominantly dominated by water, as you look at the Pacific 
region.
    And so it is there but it is also in other parts of the 
world where they are very, very aggressive. So we have to think 
about not just building a force that can fight them there, if 
we need to, or protect our forces or our trade in that area but 
also globally.
    And so, from my perspective, that means we have to build a 
much more agile Navy, a Navy that is far less concentrated on a 
small number of platforms to one that is more distributed. And 
that feeds in very much to the strategies that the Commandant 
and the CNO are working on.
    Mr. Rogers. It seems like I recollect another time when a 
military power in the East decided to run the U.S. Navy out of 
the region and we had a little war. Do you see any parallels?
    Secretary Modly. Well, sir, there are some parallels, but I 
think our job really, in trying to build this Navy and as a 
Nation, is to avoid that from happening. We want to deter that 
from happening. We want to complicate their thinking about how 
difficult that might be for them to do.
    But we have to remain vigilant, because they have a long-
term vision. And we need to sort of match that long-term vision 
with some very creative thinking, I believe, and persistence to 
maintain the industrial base that we have to have to be able to 
counter this and to be able to adapt as the conditions change 
over time.
    Mr. Rogers. Admiral, General, do you care to comment?
    Admiral Gilday. Sir, when you spoke, I thought about two 
things.
    One is, all the things you outline indicated that China has 
the capability now to challenge us, and that capability is 
growing.
    And you mentioned the South China Sea, and I think about 
intent. And so, when you think about capability and intent--
and, right now, as you mentioned, much of their behavior in the 
South China Sea is very provocative and very disruptive in a 
sea lane that handles some $3 trillion of trade a year, so very 
disruptive. That is only growing, with their One Belt, One Road 
initiative, as you see that extend across Asia and into Europe.
    And so the U.S. Navy, the U.S. Marine Corps's global 
presence is very important to challenge them. And so you see 
that on a day-to-day, week-to-week basis, where Admiral 
Davidson uses naval forces to conduct transit in the Strait of 
Taiwan--major exercises. The Navy and Marine Corps's biggest 
exercise in a generation will occur in both the Pacific and the 
Atlantic in just a couple of months to send a message to China, 
in particular, that we have capability and that we have intent 
to respond if challenged as well.
    So, to the Secretary's points about the need for a larger 
Navy, for a more distributed Navy, I think that everything that 
you stated is testimony to that argument, sir.
    Mr. Rogers. General.
    General Berger. I have spent about a third of my career in 
the Pacific, and I still have a lot to learn about the Chinese.
    Their approach--I think there are parallels to draw, some 
lessons to learn, sir, but their approach is very different. 
They would like to accomplish their goals without ever firing a 
shot. And we need to understand that. In other words, their 
goals are everything that you laid out, but their approach, it 
is very different. They will buy or coerce their way right into 
the neighborhood.
    Hence the importance of partners and allies and the U.S. 
military and our whole-of-government approach. We have got to 
be the best partner out there. Because the moment you leave a 
room, they will be in that room, convincing a country that they 
are a better partner than the U.S. is.
    Lastly, it probably goes without saying, but they have 
watched us, they are gone to school on us, they have learned 
from us, they are mimicking us. They form geographic combatant 
commands like us. They are copying us, in other words, to catch 
up to us faster. That and stealing our technology. Combine the 
two, they are moving pretty fast. We should not understate 
that.
    Mr. Rogers. Thank you, gentlemen.
    I yield.
    Mr. Visclosky. Mr. Ruppersberger.

                    EDUCATION FOR SEAPOWER STRATEGY

    Mr. Ruppersberger. Thank you for your service.
    To begin with, I do want to acknowledge Ranking Member 
Calvert's issue on ISR. We have to stay focused on present and 
future there. I realize budgeting is about priorities, so that 
is what we have to do here too. So I really think we have to 
keep our eye on the ball there.
    I want to get into the--just this last week, the Navy 
released an Education for Seapower Strategy. And the naval 
university system consists of five learning institutions. They 
have a War College, the Marine Corps University, Naval 
Postgraduate School, United States Naval Academy, and the new 
United States Naval Community College.
    The key focus of this system will be ensuring that each 
component fills a complementary role within the learning 
consortium and integrates fully with others in the system as 
appropriate and avoids, which is important, duplication of 
effort.
    Now, I am vice chair of the board of the visitors of the 
U.S. Naval Academy. And I really do acknowledge that guy was 
really good there, Mr. Womack.
    Now, getting back to the institution, in my opinion, the 
Naval Academy rivals any other in the country, including our 
Ivy League schools. With the Naval Academy's--and I am also 
vice chair of the board there, so I focus a lot at the Naval 
Academy.
    With the Naval Academy's shift in focus over the last few 
years towards demands of the future, like cyber--and that new 
building is really tremendous, and it is going to make a big 
difference, I think, the cybersecurity building--can you talk 
about the role the Naval Academy plays now in the naval 
university system, this new system, and how that might change 
under this new strategy that came out last week?
    Secretary Modly. Sir, well, thanks for the question. This 
is something that I have worked on very hard for the last 2 
years, in terms of the Education for Seapower study. We had a 
study that we launched a couple years ago to just really take a 
reflective look on our education system and what we are doing.
    You have heard a lot today about how the technology gap is 
closing with our largest adversaries. And so our conclusion was 
that the one thing that is going to be our enduring competitive 
advantage is the intellectual ability of our people and their 
ability to be agile, to move quickly.
    The Naval Academy is the cornerstone of a lot of this. It 
is the entry point for a lot of our military officers when they 
come into the naval service. And so they have done a really 
good job over the years.
    We need to be able to think about how they become part of a 
broader educational system, and that is what we are looking at. 
Because there are a lot of--we had a lot of independent pockets 
of excellence across this system that were not well-integrated, 
and so we were not taking advantage of that throughout the 
process.
    So, you know, one of the first steps we took was to fully 
fund all these institutions. Every year, they would come in, 
they would submit their budgets, and they would be bill payers 
for other things.
    So we have fully funded the Naval Academy, the War College, 
the Postgraduate School, the Marine Corps University, and we 
are standing up this Naval Community College as a way to 
leverage all the expertise that we have and give our students, 
particularly our midshipmen, an opportunity to perhaps leverage 
expertise at the War College or at the Postgraduate School or 
work on graduate programs while they are still at the Naval 
Academy.
    So I see this as all positive. And the level of investment 
is really not that large, given the size of the institution.
    Mr. Ruppersberger. Not at all.
    Secretary Modly. So it is a tremendous investment for the 
future of the force, and so we are getting after this very, 
very seriously.

                             NAVAL ACADEMY

    Mr. Ruppersberger. Do we have anybody in this room that 
attended the Naval Academy?
    Oh, okay.
    The other thing I want to talk about, which is--now we are 
on the Naval Academy. There has been so much deferred 
maintenance there that they have real problems. I visited 
Bancroft Hall maybe about 4 or 5 months ago, and we need some 
real focus and work.
    The deferred maintenance has got to stop. And I am using 
this forum right now to say, we really need to look at that. 
And I would ask that you meet with the new superintendent to 
make sure we start focusing.
    Again, the new cyber building is fantastic, but we also 
have issues of the water, the flooding. You know, there are so 
many things that need to be looked at there. I am not sure 
about West Point or Air Force, but I can tell you, the Naval 
Academy needs work in maintenance and infrastructure.
    So if you could work with me and my staff on that, I really 
want to make sure we stay on that.
    Secretary Modly. Yes, sir. Admiral Buck and I are 
classmates, and so we have been talking about this since he got 
there. And that is part of the reason--a lot of the funding 
that is coming in this year is to, A, start looking at the 
broad, long-term infrastructure plan there, do some planning 
around that. MacDonough Hall, I am sure you have been----
    Mr. Ruppersberger. Yes.
    Secretary Modly [continuing]. In there. They have serious 
problems----
    Mr. Ruppersberger. And the water levels keep rising too, 
so----
    Secretary Modly. Yes, sir.
    Mr. Ruppersberger [continuing]. We have to deal with that 
long-term too.
    Okay. Thank you.
    I yield back.
    Mr. Visclosky. Ms. McCollum.

                              SHIPBUILDING

    Ms. McCollum. Thank you, Mr. Chair.
    Gentlemen, everybody has been thanking you for your 
service, but we really mean it, so thank you once again.
    I would like to ask about the Navy's shipbuilding and the 
plan to grow the fleet to 355 ships by the early 2030s.
    The Navy has yet to submit the fiscal year 2021 30-year 
shipbuilding plan, and it is reported that Secretary Esper has 
not signed off on the plan asking the Navy to review it.
    At the same time, the Navy submitted its fiscal year 2021 
budget request and proposes a $4 billion reduction in the 
shipbuilding account from fiscal year 2021, a reduction to two 
ships.
    Gentlemen, I have three questions, and I will just put them 
out there: Why the steep reduction in the shipbuilding budget 
for fiscal year 2021? And when can we expect the Navy's 
shipbuilding plan?
    Are you concerned that the shipbuilding industrial base may 
be impacted by this reduction, and what manufacturing areas 
will be most impacted?
    And, additionally, there have been cost overruns--Admiral, 
you spoke to them at a submarine meeting I was at--and delays 
on the number of ships and subs. So are you concerned that the 
industrial base does not currently have the capacity to handle 
the growing fleet to 355 ships?
    And then, in some of that, as you were talking about dry 
docking and climate change and everything else, you mentioned 
the public plan for the public shipbuilding facilities, but we 
also have private facilities that are undergoing the same 
stress.
    So those are my questions, gentlemen. Thank you.
    Secretary Modly. I will start, ma'am, if that is okay, and 
just give you some of my thoughts on this.
    With respect to the shipbuilding plan, it is an unfortunate 
confluence of timing. As the Commandant mentioned, he and the 
CNO sat down around the September timeframe to look at an 
integrated naval force structure assessment that would then 
inform our shipbuilding plans going forward.
    All the shipbuilding plans for the last 4 years have been 
based on a 2016 assessment. That 355 was the tag line for that 
in terms of the total number of ships. We asked them to relook 
at that, to look at it together, given the changes in the 
Defense Strategy, the strategic context. And they were working 
that overtime.
    That was delivered to me in the latter part of January. Our 
budget submission for 2021 was basically already completed.
    We were going to release a 30-year shipbuilding plan that 
coincides with the 2021 budget that would have been informed by 
some of this new information but not entirely all this new 
information, and the Secretary of Defense was just not 
comfortable at that point in time, having not had a chance to 
review it all. So he has asked us to take a little more time to 
walk it through with him and the Deputy Secretary so he 
understands it better.
    So that is where we are with that. We will get a 30-year 
shipbuilding plan over here within the next couple months, I 
would say. That is the plan, at any rate.
    The integrated force structure assessment that--I see a lot 
of questions, but the Secretary of Defense is--this is his 
call, and he has told us that he wants a couple of months to 
look at that first. So that is what we are moving out on, to 
inform him so he understands it better.
    With respect to what this new shipbuilding plan might look 
like and what information will be in there, as part of this new 
force structure assessment, there are several categories of 
ships that did not exist or were not contemplated in the 2016 
assessment: a new amphib, a new smaller amphib to support what 
the Commandant is talking about; new combat support vessels as 
well; unmanned systems; the new frigate. All these are new 
ships that don't exist right now. We are going to award the 
frigate this year. But those will then inform future plans.
    So we really see, as we talk about this inflection point on 
the shipbuilding plan and the strategy, you are going to see 
that much more in the fiscal year 2022. And we want to develop 
that in consultation with the Congress as well--we understand 
this is not something we just do inside the halls of the 
Pentagon--as well as with industry.
    So do I have concerns about industry's ability to deliver? 
Not really. I think they can deliver based on the plan we have 
right now. I think that there are some concerns about how this 
year, the fiscal year 2021 budget might impact them, but I 
think, over the long term, the plan that we are going to submit 
will create a lot of opportunities for shipbuilding and the 
industrial base beyond our existing set of competitors in that 
space, because what we are asking for is a lot more innovation, 
different platforms, et cetera.
    And I can ask the CNO or the Commandant to comment on that 
as well. But that is where we are with the shipbuilding plan.
    Admiral Gilday. Ma'am, to give you some insights on what we 
did with the $5 billion that we removed from procurement since 
last year--and this submission reflects that cut, which ends up 
being fewer ships in terms of procurement.
    So that $5 billion--as I spoke to in my opening statement, 
we really want to make sure that we have a ready, capable, 
lethal fleet rather than a bigger fleet that is less ready, 
less lethal, less capable.
    And so, in that $5 billion, $3.5 billion goes to manpower 
and training. So, for years, we have had gaps for sailors, 
billets at sea that have gone unfilled. We need to make those 
ships whole again and keep them fully manned. And we learned 
lessons from that over the past few years in ways that were 
very, very painful.
    The same thing with maintenance and modernization. We have 
taken $2 billion of that $5 billion and put it in maintenance 
and modernization. So we deferred maintenance for a long time 
between 2010 and 2020, and we are now catching up, including 
modernizing our ships as well.
    We are fully funding training, our steaming days for ships, 
our flying hours for our pilots. We are funding ordnance, as we 
talked about this morning, in terms of Tomahawk and other long-
range weapons, and spare parts as well.
    So we are trying to make sure that our fleet is whole. And, 
you know, if we had more top line, we would put it to 
additional ships.
    Ms. McCollum. Well, why didn't you--I mean, you are cutting 
two ships. I understand that you are putting the money to good 
use, but why didn't you just ask for the training money and the 
money that you just described that you have technically 
reprogrammed?
    Admiral Gilday. So they were difficult decisions that we 
had to come to grips with. Do we continue to underfund those 
critical accounts? And I go right back to: Sailors are the most 
important things. And so we should be putting them on ships 
that are maintained well, that are----
    Ms. McCollum. I don't disagree with----
    Admiral Gilday. I don't mean to evade your question. 
Maybe----
    Ms. McCollum. No, and I don't think you are.
    Admiral Gilday [continuing]. I don't understand it.
    Ms. McCollum. But by doing a reduction this way, rather 
than billing it into the base that you ask us for, then we are 
not having the conversation that the money needs to be 
appropriated in those accounts in order for you to continue 
your goals. Because these aren't one-time things you are 
talking about doing, correct?
    Admiral Gilday. Correct. That is correct.
    And so, to amplify what the Secretary said, as the Navy 
grows, we want to make sure it is whole as well. And some of 
the pressurization that we have right now in the shipbuilding 
account includes the fact that 20 percent of our shipbuilding 
account right now is dedicated to the Columbia seaborne nuclear 
deterrent, and that will creep to more than 30 percent of our 
shipbuilding budget in fiscal year 2026 to 2030.
    The fact that we are investing in our shipyards, the fact 
that we are closing these gaps with respect to ordnance and 
spare parts that we can no longer ignore--and so those are the 
additional pressures, ma'am, that we have on the top line that 
we are operating under.
    Mr. Calvert. If the gentlelady would yield on that point?
    Ms. McCollum. Yes.
    Mr. Calvert. Because I think you are bringing up an 
extremely important issue here.
    Because this budget doesn't sustain the 2016 force 
structure assessment goal of 355 ships by 2030, let alone a 
plan that calls for more ships. So, you know, I think we are 
dangerously--we are down a path that we are never going to meet 
the goals that you have been outlining, from my perspective.
    And so I just wanted to bring that point up.
    Ms. McCollum. Thank you.
    With Mr. Kilmer's question about, you know, our ship 
facilities both with climate change and sea-level rise, however 
you want to describe it, the same thing is going on in the 
private yards. And I had asked a question earlier, a couple 
months ago, and I know our staffs are talking, but do you have 
any more information?
    Do you want to enlighten on--are there conversations going 
on with the private shipyards? Because this is going to be 
substantial for them, and they didn't cause the climate change. 
So that becomes a very important factor in how we are going to 
be able to keep all the shipbuilding on time.
    Admiral Gilday. Ma'am, I will have to get back to you on 
any type of conversations we are having with private shipyards 
on their infrastructure with respect to the effects of, you 
know, rising oceans.
    With respect to, though, the point about ships, your ship 
numbers, you are absolutely right. Given the top line right 
now, we don't think that we can afford a Navy greater than 305 
to 310 ships, and so the fiscal year 2021 budget takes us to 
306. So that is what we think we can afford, given all the 
other pressures that I mentioned a few moments ago.
    Ms. McCollum. Thank you.
    Mr. Visclosky. Mr. Crist.

                CLIMATE CHANGE ON MILITARY INSTALLATIONS

    Mr. Crist. Thank you, Mr. Chairman.
    Thank all of you for being here. I appreciate your presence 
and your service to our country.
    Admiral Gilday, if I could begin with you, in January of 
2019, the Department of Defense completed their report on the 
impacts of climate change on the military installations. The 
report found that 18 Navy installations are at risk, 16 of 
which are currently at risk of flooding. This report did not 
look at foreign installations, so you would have to imagine 
that the actual worldwide number is higher than 16.
    Can you talk about the problem of rising sea levels that 
are causing the Navy--and what you are doing to address climate 
change in general, please, sir?
    Admiral Gilday. Yes, sir. It is a significant concern, 
obviously, because we own so much waterfront property.
    Mr. Crist. Right.
    Admiral Gilday. And so what we are doing with the military 
construction projects that we have at our bases, we have to 
take into account at least a 2- to 3-foot buffer above the 
current level in order to accommodate, you know, that rising 
tide, which is measured--the thickness is about a nickel a 
year, anywhere from a nickel to three nickels a year, in terms 
of the rise of that water.
    So, as we are slowly investing in more infrastructure and 
getting our bases up to par, I will tell you that we are taking 
that into account as part of our long-term strategic plan. But 
it is--
    Mr. Crist. Yes, sir.
    Admiral Gilday. But it is factored into our MILCON 
projects.
    Mr. Crist. Well, thank you.
    My second and last question may seem on the lighter side. 
It is, but it really isn't. I saw a movie recently, a new one, 
called ``Midway.'' And I don't know if any of the three of you 
have seen it yet. Have you?
    Mr. Secretary, you saw it.
    The reason I raise it, it impacted me. I have seen it now 
twice in, like, a week and found it so compelling, and the 
admiration you have after--you saw it, so you know what I am 
talking about.
    My only question is--and it seemed very factual to me, 
especially at the end, with the documentation of what each of 
the individuals who were highlighted in the film, with their 
credentialing. And, to your knowledge--you are the Secretary of 
the Navy--is it factual, from what you know?
    Please.
    Secretary Modly. I believe the film--that we worked with 
them on the development of that film in terms of----
    Mr. Crist. You did?
    Secretary Modly. Yes. So most of those were historically 
based facts. In fact, we were invited to the premiere of that 
here at the----
    Mr. Crist. Did you go?
    Secretary Modly. Yes, I did.
    Mr. Crist. Was that here?
    Secretary Modly. It was here. It was at the Navy Memorial.
    Mr. Crist. That is wonderful. Where are you from, sir?
    Secretary Modly. I grew up in Cleveland, Ohio.
    Mr. Crist. Are you a Browns fan?
    Secretary Modly. Yes, I am afflicted with that.
    Mr. Crist. Say it again, I am sorry?
    Secretary Modly. I am afflicted with that. But it is a good 
affliction to have.
    Mr. Crist. Things will get better, don't worry. I am a 
Tampa Bay Bucs fan. They will get better too.
    Secretary Modly. Thank you.
    Mr. Crist. Mr. Chairman, thank you, sir.
    Mr. Visclosky. Mr. Aguilar.

                        COLUMBIA CLASS SUBMARINE

    Mr. Aguilar. Well, thank you, Mr. Chairman. I don't know 
how to follow up the Browns questions. I am going to give it a 
shot.
    Mr. Secretary, the lead Columbia-class sub has a very lean 
schedule to deliver the fleet simultaneously with 
decommissioning of the first Ohio-class submarine. What is the 
Navy and the industry doing to de-risk the programs and to 
ensure timely delivery?
    Secretary Modly. Sir, thanks for the question. I will hit 
some of the highlights of that, and I will ask Admiral Gilday 
to maybe add some more specific color to that.
    You are correct, the schedule for this is very tight right 
now. We don't have a lot of margin left in the schedule. And 
that is one of the reasons why that is our top priority in 
terms of our funding. We had to make sure that that submarine 
was funded and they were putting enough attention to it over 
time.
    But there are lots of--this sort of goes back to the 
question about the industrial base. Decisions that are made in 
the industrial base--for example, the decision last year to buy 
the two carriers at once, that has implications for the 
industrial supply base that also supports the Columbia, because 
a lot of the same companies have to be around and viable to 
deliver the Columbia. That is because it is a very, very 
specialized set of equipment. The nuclear reactors, some of the 
other technologies that go in them are shared across this 
industrial base for these specific types of submarines.
    So, when we make decisions, when we make budget decisions, 
we have to understand the second- and third-order effects. And 
that is one of the reasons why it is really important, 
particularly on these large capital projects, that we really 
think hard about them before we make decisions that could cause 
perturbations in the supply chain, et cetera, going forward.
    But we are spending a lot of time to ensure that the 
schedule for the Columbia is tracking properly, and we can't 
afford to have a slip-up there at all.
    Admiral Gilday. Sir, thank you. And if I could just add a 
couple of things to underscore what the Secretary said.
    So it is the Navy's number-one acquisition program because 
of the schedule that you mentioned.
    Number two, we are fully funding the first hull. When we 
begin construction of that hull this fall, 83 percent of the 
design will be complete. And so that may not seem impressive, 
but if I compare it to Virginia-class submarines we are 
building now, only 43 percent of the design was done when we 
began those submarines. If I go back to the 1980s when we built 
Ohio, the previous nuclear deterrent, 2 percent of the design 
was done when we began building.
    So we are working very closely with Electric Boat and 
Huntington Ingalls to ensure that we are setting ourselves up 
for success here right from the beginning. So the ability to be 
83 percent done with design gives us the ability to better 
predict, you know, the parts that we are going to need, the 
steel that we are going to need.
    And they do that work both in Quonset Point, Rhode Island, 
and also down in Newport News, Virginia, and then, finally, up 
at Electric Boat. I was up at Electric Boat the week before 
last, and they are building a facility at Electric Boat so that 
they can build the Columbia-class submarine inside one 
building, so instead of moving pieces around a shipyard or 
doing work in different areas, everything is done right in that 
one building. It is going to be really impressive.
    And, lastly, based on everything else I said, just the 
predictability for those companies to be able to keep sighted 
on what workforce requirements they are going to have over the 
next 10 years is really important. So that is another reason 
why we have to be, as you said, really focused on the schedule.
    Mr. Aguilar. Admiral, are there production delays on 
certain components that are impacting the schedule?
    Admiral Gilday. Not that I am aware of, sir. But I will get 
back to you--I will ask that question and get back to you.
    Mr. Aguilar. Okay. Missile tube production or anything like 
that?
    Admiral Gilday. So we just delivered missile tubes to the 
U.K., and my understanding is we had some initial issues but we 
are in a good spot right now, that Electric Boat is in a good 
spot.
    Mr. Aguilar. Okay.
    Mr. Secretary, same?
    Secretary Modly. There was a welding problem on some of the 
initial tubes that were manufacturer's, but they have corrected 
those.

                       CONVENTIONAL PROMPT STRIKE

    Mr. Aguilar. Okay. I appreciate it.
    Just one more, Mr. Secretary. The entire Department has 
rightly focused on the resources for emerging technologies. One 
of the line items that caught our attention was the 
Conventional Prompt Strike, which has grown from $11 million in 
fiscal year 2019 to $1 billion in this year's budget request.
    Usually, this is the point in the hearing at which Mr. 
Ruppersberger asks questions about hypersonics. But can you 
explain to the committee how this increase for the CPS program 
is justified over this short period of time, but also, 
specifically, how you are working with the other services for 
this and making sure that there aren't a duplication of 
efforts?
    Secretary Modly. Yes. Thank you for the question.
    Conventional Prompt Strike is one of our most important 
programs right now for the future. We are behind our major 
adversaries in hypersonic weapons right now. And we believe 
that that funding number is acceptable. Several people were 
trying to push us to take more than that, but I think we are 
trying to do this in a very reasonable and measured way.
    And we are doing exactly what you said, is we are trying 
not to duplicate efforts between the services. So, actually, 
about 2 years ago, Secretary McCarthy and I signed an agreement 
where the Army, Navy, as well as the Air Force will work 
together on this. So it is not a joint program office, but it 
is a cooperating program office, and so that has been going 
exceedingly well.
    And so we are very excited about that program. They are 
making great progress. And, actually, we would love--if you are 
interested, we could come and give you a classified briefing on 
that if you are interested, in terms of how that program is 
progressing.
    Mr. Aguilar. That would be great. Thank you. Appreciate it.
    Thank you, Mr. Chairman.

                  QUALITY OF LIFE AND MILITARY HOUSING

    Mr. Visclosky. Thank you very much.
    The first question I have deals with quality of life. And I 
assume, Mr. Secretary, it would be directed to you.
    Ms. McCollum, Mr. Calvert, and I were recently in Key West 
for a number of meetings, and one of the things, when we asked 
about quality of life, housing came up, and there is a backlog 
of requests. Key West, very expensive place. Our understanding 
in conversations, there is a height limitation, so there is no 
growth. Everybody rents their place out for Airbnb.
    And we are going back to the airport, and there is this 
large swath of land that is vacant. And someone pointed out to 
us that the United States Navy used to own it but in 2013 they 
sold it. Now, that was 7 years ago, but my sense was housing 
values and backlog for military housing was probably acute 7 
years ago in Key West.
    One, who makes a decision to dispose of property like that 
when you have a backlog for people who are working in the 
military who need housing that is affordable?
    And if we asked the question and went around to other bases 
and facilities the Navy has, are we going to get the same 
response of, ``Well, yeah, we sold that,'' and now we have a 
backlog on possible areas for housing?
    Secretary Modly. Sir----
    Mr. Visclosky. Who makes----
    Secretary Modly. Sir, I don't know who made that specific 
decision. Those are decisions that would make their way up 
through the Secretariat. I assume it happened several years 
ago, before I was here.
    We talked about this when I was in your office, and I am 
investigating that. And I am actually going down to Key West in 
about a week or so to talk to them about what the situation is.
    My understanding was that that was an area that had housing 
on it that had to be condemned for a variety of different 
reasons. And so then they decided to--I am not sure if they 
sold it. I need to find out the true facts on that, and I will 
get back to you on it, sir.
    Mr. Visclosky. And the reason I bring it up is not so much 
to relive the past. You can't get the property back. I mean, 
you could, but you are going to pay a lot more money for it. My 
understanding is there was property disposed of also near the 
Navy Yard some years ago. And we all realize what southeast 
Washington looked like along the waterfront, and now you would 
have to repay a gazillion dollars to get that property back for 
the United States Navy.
    So, looking forward, I guess my point would be I hope that 
never happens again. And I am not the most prescient person, 
but for some of these disposals where there is backlog on 
housing, you are in expensive housing markets, I would 
appreciate you getting back to the committee as to who is 
making these decisions and what are the safeguards in place so 
that greater care is made in April of this year, the next time 
that decision has to be made.
    We can't relive the past, but it seems like there are 
sequentially bad decisions being made on properties that could 
be used effectively to control costs for military families.
    Secretary Modly. I don't disagree with you, sir, and I will 
look into that. My assumption is it is either the Assistant 
Secretary for Installations and Environment who has the 
authority to do that, but I am pretty certain it would go all 
the way to the Secretary of the Navy for approval.
    Mr. Visclosky. If you could, again, look into this----
    Secretary Modly. Yes, sir.
    Mr. Visclosky [continuing]. So that it doesn't happen 
again.
    Secretary Modly. Yes, sir.
    Mr. Visclosky. That is all we are looking for.
    Secretary Modly. Yes, sir.

                               CHILDCARE

    Mr. Visclosky. The second thing, quality of life--and, 
again, I do want to thank the Navy. When I became chair--and I 
have been on this subcommittee since 1993. Our executive 
assistant said I was the seventh chair. I am under no illusions 
that we come and go.
    My goal last year was try to fix one thing out of that $700 
billion budget at the Department of Defense for quality of 
life, and it was childcare. I appreciate the Navy heard the 
message. The fact is, my understanding is the wait list is 
currently 3,700, which is unacceptable but much better than 
7,700 when we had this conversation a year ago.
    I also appreciate that you have increased your request--
money is not everything, but money is part of this issue--your 
request for the year going forward.
    I guess, again, in a positive light, for the other 
services, if there are lessons to be learned, what happened, 
and how did you approach that? To what do you attribute that 
success in the reduction in the wait list for daycare?
    Secretary Modly. Well, I think about a year or so ago or 
maybe--right now, I think we are about 9,000. The demand is--we 
have 45,000 daycare slots across the Navy, and that is about 
9,000 short of what we need. So, in this budget, I think we are 
adding another 5,000 to try and close that gap.
    I am not sure what we did, other than apply the resources 
to it and taking it seriously. So I am not sure what other 
lessons--I don't think it is a complicated lesson, in terms of 
what can be imparted to the other services. But I don't know 
their specific situations.
    I don't know if Mike has any observations.
    Admiral Gilday. Thanks, sir.
    If I could just add a couple.
    One of the things we are doing, in lieu of seeking 
additional MILCON, is we are doing pilot projects right now 
with some locations. And I will give you a couple of examples.
    In Coronado, California, they have an elementary school 
that is excess capacity and they don't need. So we are going to 
lease that space and turn it into a childcare facility.
    We are also working in some places with industry, with 
large companies, where they would actually build the facility 
and then we would lease some of the space back.
    As you know, we have many spouses that work in our 
childcare facilities, and so that is a plus as well. And we try 
to pay them above what industry typically pays--not a lot, but 
we are above the national average. And so we would hopefully 
find more job opportunities for our spouses, as well, in those 
facilities.
    But we would like to come back to the committee and give 
you a report on how the pilot projects work and whether or not 
we are able to look at additional opportunities based on that.
    Mr. Visclosky. And appreciating, positively, that you 
mentioned the pay issue. Again, visiting a facility, one of the 
observations of ours was that the pay for daycare workers was 
the same as a cashier.
    Now, let me tell you, I am from Gary; I want the cashier to 
make more money. But, also, you have somebody dealing with a 
person's child, a human being. We ought to pay them what we 
want for that quality daycare.
    And we are told, well, we are limited on what we can pay. 
And we had asked several different services and individuals, 
where is the law or the regulation that says I can't? And in 
one case, they said, well, it kind of depends on what we are 
getting from the commissary too, like we are having a bake sale 
here.
    So I appreciate, again, positively, you said, no, we know 
we have to pay more. Because I am deadly serious that I think 
one of greatest recruiting tools--let alone how you treat 
people, civilian and military, you couldn't find anyplace in 
this country with better daycare for your children. Now, that 
is what we ought to subscribe to.
    So I appreciate your, at least implicit, there is not a pay 
issue here if we are determined to hire people and pay them 
what they deserve.
    Admiral Gilday. Yes, sir. And our turnover rate of people 
is about 10 percent lower than industry. So we are turning over 
at about 25 percent a year; industry is at about 38 percent. 
And so we trying to remain competitive.
    The other thing we have done for our spouses is we have 
instituted a program where, if they need to get a new license 
when they move to a different State, we will pay for that.
    And now we have a MyNavy Family app, and they can do that 
on the--they can set up childcare on the app. They can set up 
their housing on the app. They can read orders that spouses 
understand on that app as well. And so we are trying to make it 
easier for people.
    Mr. Visclosky. Good. Good.
    General, if I could have the same conversation with you, 
and it is just not going to be as happy. My understanding is 
that the wait list for the United States Marines in fiscal year 
2019 was 783, and the estimated wait list for 2021--and it is 
an estimate--is 783.
    I would also point out that we plussed up the Marine Corps 
budget about $18 million last year for daycare. The fact is, in 
your budget, you asked for almost a $2.6 million cut from 2019 
levels and a significant cut for the investment we made to take 
care of childcare.
    Could you explain that budget submission to us?
    General Berger. Sir, I called down this morning to Camp 
Lejeune to find out, today, to answer your point, what is the 
picture today. Because we have been stationed on both coasts 
multiple times and we have kids.
    The wait list down there is 30 days. Needs to be better, 
but 30 days? Okay. Longer for DOD employees than it is for 
uniformed servicemembers, but for uniformed servicemembers, 30 
days.
    So the next question I asked was, okay, where is the 
chokepoint, where is the biggest bulge? And it is age 2 to 3, 4 
years. That is where the biggest bubble is.
    What are the challenges in hiring? And as the CNO said, 
licensure comes up pretty quickly, reciprocity between States, 
which this committee and the Department is working hard to bang 
out with the Governors, because that is--when our spouses move, 
and they are part of the labor pool, if it takes them 3 months 
to get relicensed in another State, that is a problem.
    We have made big adjustments in flexibility of hours. That 
has made a huge impact. Because it was rigid before, you know, 
6:00 to 6:00 and that is it. But units don't operate, of 
course, 6:00 to 6:00. So you have to be--base to base, 
installation to installation, you have to be a lot more 
flexible than they have been.
    Lastly, the whole Department of the Navy has gone online 
with applying for childcare, which you couldn't--you had to 
show up in person before with your application when you got to 
the base and then join a wait list. Now you can do it before 
you ever move. You can apply and be accepted even before you 
leave your previous duty station.
    Changes that have to happen if we are going to be 
providing, like you point out--and we need to--the world-class 
childcare that we should be providing.
    Mr. Visclosky. Well, you pointed out another issue you have 
to deal with. That is, essentially, people work shift work. 
And, again, we are all very familiar with that concept.
    But you didn't really answer my question. How are you going 
to do that backlog if you are asking for less money than you 
had 2 years ago?
    General Berger. Part of the money is labor, and part of the 
money, of course, is MILCON and the infrastructure around it. 
We think, right now, if--and we will need to check the rest of 
the, you know, places around the globe. But a 30-day wait and a 
700-person backlog, what does it cost to drive that down even 
further? And I would be happy to get back with you. I can't 
answer that today.
    Mr. Visclosky. We want to work with you. And we are going 
to be putting the bill together here; in about the next 30 
days, we are going to start. And you just have to--I just want 
to solve this problem.
    And we are never going to go have a zero wait list, but I 
have told other people, when my 33-year-old son was born--I am 
a Member of Congress; his mom at the time was a Harvard law 
grad--it took us 9 months to find daycare. We had control of 
everything in our life. If I am a newly enlisted personnel, I 
am moving my family, I am desperate for daycare, I am going to 
be deployed, I can't imagine the stress on that family.
    So I am absolutely deadly serious about solving this and 
want to work with you. But, again, in the next 30 days, really, 
if you can communicate with us, we have to--whoever is sitting 
here next year, I don't want 783 people on that list.
    General Berger. Yes, sir.
    Mr. Visclosky. Mr. Ryan?
    Yes, I am looking to my left and my right.
    Ms. McCollum. And we agree.
    Mr. Visclosky. One of them.
    Ms. McCollum. We both agree.

              SECURE LVC AIR TRAINING ENVIRONMENT (SLATE)

    Mr. Ryan. Thank you, Mr. Chairman.
    Secretary Modly, thank you for being here, a fellow Ohioan 
and, I heard through the grapevine, a fellow Cleveland Browns 
fan. We can do joint therapy together. But we are excited about 
this year.
    Thank you for being here. Thank you for your service.
    I have kind of a long question that I want to ask, but I 
think it is relatively important because it speaks to, kind of, 
a broader approach that I think we need to have.
    In your testimony, you mentioned live, virtual, 
constructive training. And the Navy has identified extensive 
shortfalls in current air combat, not the ships, but the air 
combat training requirements, highlighting the need for both 
encryption and advanced live, virtual, constructive capability 
in naval aviation air combat training.
    And my staff and I have heard from aviators flying fourth- 
and especially fifth-generation fighters who say the current 
training ranges are woefully inadequate to put these planes and 
these aviators through the paces.
    If we want aviators to train as they fight, we need to 
train them against the full range of threats, including against 
peer adversaries who are fielding state-of-the-art air defense 
systems and planes that approach our own in terms of 
performance.
    And since our adversaries are not likely to lend us dozens 
of actual S-400 missile defense systems or provide us with 
foreign pilots flying foreign planes, the next best thing is to 
simulate those entities. And in an era of distributed, all-
domain operations, utilizing synthetic training environments is 
absolutely crucial, which I know you agree with.
    Unfortunately, my understanding is that the Navy is 
proceeding down a path that would invest nearly a billion 
dollars to purchase a new training system for Navy fighters 
that does not have a requirement for LVC capabilities and could 
not handle adding those capabilities later without another a 
billion dollars later on to add new hardware.
    And instead of leaping ahead, it looks like the Navy is 
doubling down, at great expense, on technologies that won't 
provide the LVC capabilities Navy aviators and even Navy 
leaders claim that they need.
    And, even worse, I understand the Navy's next training 
system may not be fully fielded until 2050. That is a hell of a 
long time to be investing in yesterday's technology.
    So here is the kicker: The Air Force and the Navy have 
already flown and tested a system known as SLATE, the Secure 
LVC Air Training Environment, that has full live, virtual, 
constructive capabilities right now, today. And it is at 
technology readiness level 7, compared to the system the Navy 
is investing in, which is only at TRL 3.
    The reason SLATE is farther along is because this 
subcommittee, at my urging, after hearing from pilots and 
aviators, provided funding for SLATE several years in a row, 
and it has paid off. SLATE exceeded expectations when it was 
tested on Air Force F-15Es and Naval F-18s in training 
exercises at Nellis.
    Here is what the lead researcher was quoted in the press as 
saying after the test was conducted. He said, ``We are not 
supposed to say that it was a very successful technology 
demonstration. That is supposed to come from our senior 
leaders. But it was a very successful technology demonstration. 
It was beyond our wildest hopes.''
    And when Naval Air System Command completed a technology 
review board in May 2019, the SLATE program was named as the 
most mature, lowest-risk approach to delivering advanced LVC 
capability to the fleet.
    And so I want to ask you, why is the Navy not investing 
into SLATE? And why is the subcommittee being asked to fund a 
program known as Tactical Combat Training System Increment II 
that doesn't give naval aviators the full capability they need 
and won't be fully fielded until 2050?
    Secretary Modly. Sir, so thanks for that information. And 
most of those details I am going to have to go back and check 
on because I don't know the details of the program. However, 
from a high level, what you are describing, in terms of what 
that capability is, is exactly what we need.
    So I will have to go do some investigating and get back to 
you in terms of what exactly happened with those two 
technologies and what we are doing. But this is absolutely 
critical to the future and the way we are going to train our 
pilots, so it concerns me that we made an option for something 
that is not going to do that. But I will have to go investigate 
and find out for you.
    Mr. Ryan. Yeah. I would appreciate it. Like the chairman 
said, I mean, we only have a few weeks as we are moving forward 
here to construct this bill, and there are a lot of competing 
interests. And, you know, we know what the National Defense 
Strategy has kind of told us, the major--which I think is an 
amazing document and a great blueprint, and everyone who had 
their fingerprints on it should be commended. But these are the 
kinds of things that drive us crazy, you know, when you are 
thinking a billion dollars isn't going to get us to where we 
need to go or where we need to be. And we have the opportunity 
and the technology that seems like it is in place and ready to 
be scaled up.
    And, you know, that is what the taxpayer wants from us. 
And, you know, I know you are a good Ohio kid, so you are going 
to understand this. And I appreciate your service, and I want 
to say thank you. But, please, with your team behind you--you 
know, we know how important our staffs are to us--please let us 
know in the coming days how we can maybe rectify this problem.
    Mr. Calvert. Yeah, I share the gentleman's concern on that 
very subject.
    Mr. Ryan. I appreciate that. See? They say people don't get 
along in Washington, D.C., and we do, don't we?
    Mr. Calvert. Absolutely.
    Mr. Ryan. All right.
    Mr. Visclosky. Mr. Calvert.

                       MIX OF SHIPS AND PLATFORMS

    Mr. Calvert. Thank you.
    One thing that concerns me, as we go through this--and, 
obviously, I don't think there is any disagreement that we have 
that we need more ships and we need more platforms. And, you 
know, we are going to have this argument, how we are going to 
get there. We have to grow the top line. Well, you know, 
unfortunately, as an appropriator, you have to deal with 
reality. Defense discretionary spending is shrinking, not 
expanding. And the same thing with nondefense discretionary 
spending.
    And so, as we go down the appropriation line, we have to 
make some realistic decisions here. Because where we are at, 
where we are going here, this discussion about it, we are not 
going to a 355-ship Navy. So we have to look--but we need more 
platforms, we need more ships. So maybe we ought to start 
looking at the mix of ships we have in some serious 
discussions.
    You know, one of your colleagues in the Army told me, well, 
you know, when you start making 50-year decisions on aircraft 
carriers, what is the survivability of an aircraft carrier? I 
am sure you don't want to hear that, from the Navy's 
perspective, but those are questions we have to ask. Because, 
as you know, $13 billion for an aircraft carrier buys a lot of 
ships.
    And you are talking about--when the Marine Corps, for 
instance, is talking about smaller carriers, maybe have 
multiple use, be able to use those as amphibious carriers, 
small carriers, another kind of mix of ships to get more 
platforms out there, that is something we need to talk about. 
Because, you know, I have had a number of discussions about 
these various subjects but in a different setting.
    But I am concerned about that, because we need more 
platforms. And I don't see a path forward here from what you 
are laying out in your budget. I just don't see it. Tell me I 
am wrong.
    Secretary Modly. Well, sir, you don't see it in the 2021 
budget. I will admit that.
    Mr. Calvert. Do I ever see it?
    Secretary Modly. So----
    Mr. Calvert. Do I ever see it?
    Secretary Modly. Well, that is my job, is to present a plan 
that can get us there within a reasonable timeframe. And that 
is what I am working on right now with the Secretary of 
Defense, to come up with that plan.
    And as you mentioned, driving to a 355-ship fleet or more--
which I believe it has to be more--is going to require a 
different mix than we had in the 2016 force structure 
assessment. Whatever that number is, it is a 30- to 40-percent 
bigger fleet than we had 3 or 4 years ago.
    There is no realistic way that you can assume we are going 
to have a 30- or 40-percent higher top line to maintain that 
fleet. It is just not realistic. So how do we bring it in? How 
do we bring that number down? How do we change the mix? How do 
we take the average cost of our ship and take it down?
    But it is less important about what the number is than it 
is what the capabilities are that that mix delivers at the end 
of the day. And that is what we are working on. I think----
    Mr. Calvert. Well, I would caution, numbers do matter. Now, 
you have force multiplication, obviously, with our allies, 
whether the Japanese or the Australians or whatever. That 
delivers more platforms. But at the end of the day, numbers 
matter. I mean, that South China Sea is a lot of territory. I 
have been to--you know, that is--so we need----
    Secretary Modly. Well, I agree with that. My point is that 
the debate right now within the halls of the Pentagon is not a 
debate between having 200 or 350. It is more like, is it 355 or 
380, or 370 and 390? So that----
    Mr. Calvert. So how do you get there with the top line you 
have?
    Secretary Modly. So one of the things you have to do is you 
have to drive down the average cost per ship in that new mix. 
The $13 billion carrier, hopefully that is the last $13 billion 
carrier we buy. Does that mean that the next Ford class is 
going to be--it is going to come in less than 13, because we 
are learning a lot on the first one and they are going to be 
cheaper as we go forward on those.
    Right now we have four in the budget, or we have four that 
are under contract. We have now a window of time, 6 to 7 years, 
to think about what that next carrier is after that.
    Mr. Calvert. And don't get me wrong, I love aircraft 
carriers. I would like to see us, you know--but, at the same 
time, you know, we have to defend them. And if we are going to 
build them, we have to have the money to build them with.
    And now I am going to get to the second part of this thing, 
which is, if we are going to find the money to build the ships, 
including the aircraft carriers, we need reform within the 
Pentagon. And I keep harping on this subject. You guys all know 
what I am harping about, is that you have the highest number of 
civilian employees in the history of the Pentagon, relative to 
uniformed forces.
    If you get back to the historic ratios of the Pentagon, 
according to The Business Council, you save $125 billion over 5 
years. That would pay for the aircraft carriers, that would pay 
for your 355-ship Navy plus, and we would be on our way. Plus, 
it takes care of our procurement issues with the Air Force, the 
Army.
    We need reforms within the operations within the Pentagon. 
I have mentioned this to the Secretary, the Assistant 
Secretary. Because, in my perspective, under the real budget 
reality that we are dealing with, you are not going to see 
growing defense budgets like I think some people believe is 
going to happen. Realistically, I just don't see it. So we have 
to get realistic about finding dollars within that operation we 
can put into procurement in a more efficient operation.
    So, with that, Mr. Chairman, thank you.
    Mr. Visclosky. Ms. Kaptur.

                           MENTAL HEALTHCARE

    Ms. Kaptur. Thank you, Mr. Chairman. And I apologize for 
being late. I had my own hearings this morning.
    We thank you very much for your service to our country.
    I wanted to ask two questions. One deals with those under 
your command. What can be done to help ensure better access to 
mental healthcare and maintaining a continuum of care for those 
in the Navy and those transitioning out of the military?
    We understand that--at least, the information I have 
indicates that recent reports show that military treatment 
facilities will eventually only service Active Duty 
servicemembers, causing an increase in the use of civilian and 
VA medical facilities and resources, and will place an even 
heavier reliance on the Department of Veterans Affairs in this 
arena where we are so short of individuals who can perform 
these services, both as doctors and as advanced practice 
nurses.
    I think the Navy may have a special responsibility in this 
arena. And I am just wondering if you could explain to me, what 
are you doing to help us better diagnose and treat individuals 
who do present with neurological conditions, not just PTSD but 
other related conditions?
    Secretary Modly. Well, thanks very much for the question, 
ma'am. It is a very important question for us, as we are 
finding that not just PTSD but all kinds of other mental health 
issues that our sailors and Marines experience, as well as 
their families.
    One of my jobs is to sign condolence letters to the 
families of sailors and Marines who have lost their lives. And 
I am finding that, as I am signing these, 70 percent of them 
are suicide, a result of suicide. It has become a real problem, 
a significantly higher rate now than 5 years ago. I think last 
year we had 72 suicides, Active Duty members, and 5 years prior 
to that we were at 42.
    This is a significant problem for us. We are putting a lot 
of resources behind it, a lot of attention to it. We are 
putting mental health professionals on our carriers and some of 
our larger ships to make sure that sailors and Marines have 
access to that. But it is a long-term struggle for us to get 
after this.
    And it is not something that is isolated to the military; 
it is a societal problem. We are finding that our statistics 
are echoing what we are seeing in society. For our demographic, 
we are actually lower that some of the societal rates on 
suicide.
    So we are putting significant resources behind this. We are 
doing a lot of work not just with our mental health 
professionals but also with our own people about teaching them 
how to reach out, having more interpersonal reactions, being 
able to flag and understand when their shipmates are having 
struggles, and to get them to help. And it is a long-term 
thing, and it is something that we are going to be working on 
for a very long time.
    Ms. Kaptur. Well, I will tell you, I think one of the ways 
we could help is by training of additional support personnel to 
work in this area, including doctors and advanced practice 
nurses. I would appreciate your getting back to me for the 
record on the best ways we might work with you to do that.

                  TRAINING FOR BEHAVIORAL SPECIALISTS

    Ms. Kaptur. I was extremely impressed with the Intrepid 
Center up at Walter Reed. That is the beginning of a coherent 
societal response. I was very impressed when we were down with 
special forces and looking at how behavioral specialists had 
been embedded in units.
    But in order to do that, you have to have the training. And 
I can guarantee you, when these individuals come home, the 
ability of our veterans system to respond is not as crisp as it 
should be. There simply are not the people out there with the 
proper training.
    So I am looking for a proposal that would help us provide 
the funds to train. I don't quite know how to do that. I talked 
to the heads of all the service academies when they came before 
us a couple years ago, and they didn't view their job as 
training doctors. Well, I am thinking, well, then whose job is 
it? How do we do this, working with Department of Defense and 
the Veterans Department?
    So I would really welcome your comments. I met the Admiral 
of the Fifth Fleet, myself, when we were down in Tampa, and a 
few years later he was dead. And I just feel especially 
compelled to push you a little bit and ask you to respond to 
the record on that. All creative ideas welcome.
    Can you do that, Mr. Secretary?

                        CONTROL OF THE BLACK SEA

    Ms. Kaptur. My second question is completely different, and 
that regards the naval presence of the Russians in the Black 
Sea. Can you give us a sense of your own knowledge of that 
region of the world and what more we can do, working with NATO, 
working with you, to counter Russia's control of the Black Sea 
region and stop her from further advancing in that region, in 
the sea lanes? Any comments on that?
    Admiral Gilday. So, ma'am, the best thing that we can do in 
the Black Sea is to be in the Black Sea.
    We just had a ship leave the Turkish Straits overnight, the 
USS Ross, and she actually did a rescue of some Turkish fishing 
vessel, where the boat was on fire and they rescued the 
civilian mariners from that vessel. But we are doing multiple 
patrols in the Black Sea a year.
    And so our presence there is really reassuring to countries 
like Ukraine that we do have a presence and to show the 
Russians that they don't control that water space. And so, 
again, that is routinely an area where General Wolters, the 
European Command Commander, has us operate, as well as the 
eastern Mediterranean.
    Ms. Kaptur. I think my time may be closing here, but I just 
wanted to get a sense, do you view that the Russians are sort 
of in a static position, or do you view the Russian Navy as 
pushing? Do you feel the edge more, or do you feel some step-
back at this point?
    Admiral Gilday. Definitely feel the edge more. Definitely 
feel the muscles flexing, with sharp elbows, in that region.
    Ms. Kaptur. Thank you very much.
    Mr. Visclosky. Ms. McCollum.

                       ARCTIC TRAINING EXERCISES

    Ms. McCollum. I have been doing a little research for my 
next question here. I am going to ask you about Arctic 
operations.
    The last 2 years, the Navy has had two carriers participate 
in Arctic training exercises. One involved the USS Harry Truman 
with NATO, and in 2018 the USS Theodore Roosevelt in the 
northern edge in Alaska last year. And the Marines have 
conducted several training exercises with our NATO partners in 
Norway since 2017.
    The Navy is treating the Arctic region with the concern 
that I believe it warrants, given Russia and China's increased 
activities in the region.
    And, Mr. Secretary, you are right on; China has been 
calling itself a near-Arctic nation. But now they have a new 
tag line, and I wanted to get it right, so I looked it up. They 
want the Arctic to be part of the ``Polar Silk Road.'' So they 
are all in. And we know they have scientific stations in 
Iceland, built a new embassy in Iceland that is very expansive.
    So can you let the committee know--because we are getting 
more involved in supporting your efforts in the Arctic, but I 
think a lot of our colleagues here in Congress still don't 
think of China, they don't think of the Arctic, they don't 
realize Russia's vast increase in activity in the Arctic.
    Can you tell us some of the hazards of the Arctic and the 
impacts that you might see naval operations encountering? What 
kind of damage, for example, might our ships sustain due to ice 
buildup or sailing in heavy seas? Because the weather can 
turn--I am from Minnesota. The weather can turn on a dime up 
there. I think it turns fast here; it turns faster in the 
Arctic.
    What are you learning--I know there has been more 
cooperation with NATO, even National Guard exchanges with 
Canada, Denmark, and Norway--about what they do with their 
ships? Because they are regularly in these heavy conditions.
    I won't even tell--you probably know the number of 
icebreakers our NATO allies have, how many we don't have, and 
how many China is building and looking at even building 
nuclear.
    But the question I would also include the Marines on is: 
Gear is different. Training is different. You have to train to 
be everywhere in the world, as Marines, and we thank you for 
doing that. But there might be some investments or things we 
need to look at in either cold-weather research or making sure 
that supplies and training are available for the Marines, 
because they could be deployed in some very tough, tough 
conditions.
    Thank you, gentlemen.
    Secretary Modly. Well, I absolutely agree with your 
conclusion about the challenges that we are going to have 
there. We are not really used to operating up there, as some of 
our adversaries might be. The Russians, for sure, are much more 
capable of operating in those conditions. They have a greater 
inventory of icebreakers than we have.
    And as the climate changes and we are seeing some of that 
sea ice recede a little bit, it is creating more opportunities 
for sea lanes for transportation of good and services across 
the polar regions. So that is more for us to protect. And so 
that creates a lot of challenges for us.
    Also, in terms of their proximity with respect to missile 
proximity, that they could launch from that area down into 
North America, creates challenges for us there.
    We have a huge asset up in that region, and that is the 
State of Alaska, where we could use that probably more in terms 
of areas to train, to place forces, to work collaboratively 
with our other services.
    Actually, the Secretary of Air Force and the Secretary of 
the Army and I decided just this week that we are going to put 
together a team to start thinking about that part of world and 
how we can do things collaboratively so that we can leverage 
each other in terms of creating greater presence up in that 
region.
    I will ask the CNO to talk specifically about some of the 
maritime challenges, as well as the Commandant about the 
challenges in training Marines to function in cold climes.
    Admiral Gilday. So, ma'am, to echo some of the things you 
said, or to kind of underpin them, the Bering Straits will soon 
be considered strategic straits just like the Strait of 
Malacca, just like the Suez, just like the Panama Canal. 
Particularly with the receding ice cap, it is going to get more 
competitive up there in terms of natural resources, in terms of 
sea room to maneuver, in terms of trade routes.
    And so we have seen this coming and have increased our 
exercises up there. The Commandant, I know, is going to speak 
about the amphibious exercise last fall and one that we are 
just finishing up right now with the Norwegians.
    In the past month, I have met with my Norwegian counterpart 
and my Canadian counterpart to talk about additional exercises 
that we can do up north. We are doing ICEX right now in Alaska 
with two U.S. submarines and one U.K. submarine.
    So our drumbeat of exercises up there has been steadily 
increasing, with much attention by the Secretary of Defense and 
his staff as well.
    General Berger. Ma'am, those of us who have trained in 
extreme cold weather would agree with you 100 percent, it is 
not just colder.
    I think--I won't speak for General O'Shaughnessy, because 
he lays it out really straightforward. There is a homeland 
defense aspect of what you are alluding to, and then there is a 
keep the maritime commons open.
    Ms. McCollum. Right.
    General Berger. Two different----
    Ms. McCollum. Missions.
    General Berger [continuing]. Lenses to look through, both 
critically important and both, I would offer--and you 
confirmed, the naval force is key to both, as is the rest of 
the joint force.
    We are going to go where the Navy goes. We need to operate 
wherever we are sent. It is partly a matter of gear, as you 
highlight, that is unique to that environment. But it is also a 
more basic, fundamental level of leadership under extreme 
conditions that you can't simulate anywhere else. There are 
only a handful of places where you can get to that level of 
small-unit leader leadership where it makes that kind of a 
difference in that adverse environment.
    Alaska and Norway, we do train in both. Great opportunities 
to train. Alaska, in fact--you get the dual advantage in Alaska 
of a huge airspace, a huge sea space. You can stretch the 
muscles of a joint force in Alaska in a way that is difficult 
to do in most other places.
    So, absolutely, yes. We are not going to have a specialized 
cold-weather force, because, as you point out, we have to be 
able to operate wherever around the globe. But where the Navy 
goes we are going to go, and that includes the Arctic.
    Ms. McCollum. Well, I would hope that, as ships are being 
deployed, the maintenance, the stress on the metal, a whole lot 
of things, needs to be taken into account. And I am sure you 
are doing that, with working with, you know, engineers and--
because equipment is going to change when it is subjected to 
that kind of cold, and that needs to be worked into a 
maintenance log.
    When I started working, people--Mr. Calvert was very nice 
to me all the time. He knew I was going to ask about 
icebreakers for years and years and years.
    You know, it is like, ``Well, no, we will pay for them. The 
Coast Guard can pay for them.'' Well, the Coast Guard can do 
some of them, but I think the DOD needs to be stepping up, and 
we need to have some that are fully at your disposal, equipped 
in a way to do what you need them to do, and not just rely on 
Coast Guard, which is also going to have other maritime 
responsibilities for the commercial shipping that is taking 
place as well as commercial fishing in there.
    So I look forward to working with all the branches of the 
service but with the Navy and the Marine Corps in particular to 
make sure that we have the training, we have the equipment, we 
have the ingenuity, we have the research going on. Because 
Alaska is either your front yard or your backyard, depending 
upon how you are facing. And China might want to be near the 
Arctic, but it is not an Arctic nation. We are. And so we need 
to take care of our yard.
    Thank you.

                              ICEBREAKERS

    Mr. Visclosky. If I could follow up on Ms. McCollum's 
question, historically, it has been the Coast Guard for 
icebreakers. And given the commentary relative to the Russians 
and their number of icebreakers and the opening up of the 
Arctic, do you foresee--and I know there is no money in the 
2021 budget--that that might change and that the Navy might 
have a role in that?
    Admiral Gilday. So, sir, we did make an investment--
actually, a joint program office with the Coast Guard. They----
    Ms. McCollum. One.
    Admiral Gilday. For one. Right. Exactly, for one. The 
Commandant of the Coast Guard reminded me of that this week 
when we traveled.
    But it is, presently, a Coast Guard--it is, presently, a 
Coast Guard mission. And that Polar Security Cutter, I think 
they are going to deliver it within the next 2 years.
    I know that answer is unsatisfying, ma'am.
    Ms. McCollum. Yes.
    Admiral Gilday. But right now that is a Coast Guard 
mission.
    Mr. Visclosky. I would get to shipbuilding in an inverse 
manner from what Ms. McCollum had talked about earlier and a 
number of other members. We had a conversation last week about 
the Littoral Combat Ship, and I am not going to revisit that 
conversation.
    But, for the record, I would like to know how much the 
United States Navy paid for those first four littoral combat 
ships that are going to be decommissioned. It has come to my 
attention there are going to three dock-landing ships also that 
are going to be decommissioned.
    Also, in the 2021 budget--I assume it may be in the 
submission. If not, what is the cost for that decommissioning 
as far as providing for it in the 2021 budget?
    Having said that, though, and the explanation being the 
cost of, if you would, refurbishing these ships, to the 
extent--and I am still having a very difficult time coming to 
grips with that we had four experimental ships before we built 
the fifth one, but I will give you that.
    My understanding is the LCS mission modules are finishing 
testing, and they will complete tests on these ships and others 
in the fleet. Will other LCSes have to be redesigned? Will 
there be other testing? Will there be other changes?
    And, again, kind of looking forward--okay. I am unhappy 
about those four. But if we are still doing testing and we are 
still developing modules, is this going to be a continuing 
saga?
    Admiral Gilday. Sir, so the testing we did with those first 
four hulls actually informed the modifications that had to be 
made with the block buys we did with LCS-5 going forward so 
that we could put missile systems--the antisubmarine warfare 
package, the anti-surface warfare package, and the mine warfare 
package.
    And so the things that we found on those first four vessels 
included propulsion issues, both with water jets and reduction 
gears that weren't working properly. So the engineering plants 
were--the propulsion plants as well as the electrical plants 
were unreliable. And so we learned from those four vessels and 
have actually retrofitted the newer vessels to have 
modifications that have taken care of those problems.
    We learned from testing that we needed increased cooling 
systems. We had to change out, completely change out, cooling 
systems in order to accommodate those modules that I just spoke 
to. And there were also command and control modifications that 
were made in order to get the most out of those new mission 
modules that we are putting on the LCSes.
    The surface mission modules, they are already being 
installed. The antisubmarine warfare mission modules, they will 
finish their testing this year. And then the mine modules will 
finish their testing the following year. So we are looking at 
maiden deployments for these new systems within the next couple 
of years.

                 NUCLEAR WEAPONS MODERNIZATION PROGRAM

    Mr. Visclosky. Okay.
    There is a lot of focus on the Columbia, for good reason, 
but I would like to turn for a few minutes just to the nuclear 
weapons modernization program itself.
    I am going to be at the Energy and Water Committee later 
today. Mr. Calvert and I are members, as well as Ms. Kaptur is 
chairing the committee. And the NNSA is going to come in today.
    According to its agency's 2020 stockpile stewardship 
management plan, they said they did not intend to ask for any 
more than $15.5 billion for weapons activity until the early 
2030s. And, again, this is their budget submission. Yet they 
are now, for 2021, seeking $15.6 billion, which is 25 percent 
more than current-year funding.
    Admiral, your budget proposal talks about the development 
of the W93 in the 2019-2020 budget. The W93 design was not 
planned to begin until fiscal year 2023.
    The question really is, what has changed relative to the 
investment in this warhead? And will this investment starting 
earlier affect other investments the Navy has to make?
    Admiral Gilday. Sir, I can't speak in terms of comparing 
that investment against others. We could certainly take a look 
at that. But I will say that the actions that we are taking are 
based on the Nuclear Posture Review, as you know, in terms of 
the modification of some of those weapons.
    I think the investments that we are making are a pretty 
steady glide slope and are fairly modest with respect to 
keeping the arsenal up to date.
    Mr. Visclosky. Okay.
    One final question in the same vein. According to a 2019 
report by the Government Accountability Office, plans to 
refurbish the Navy shipyards, including those that are critical 
to the modernization effort, are suffering from delays and cost 
overruns.
    With regard to our nuclear deterrence, what are the 
strategic risks of neglecting these refurbishment projects? And 
how is the Navy planning to make that investment, if I could?
    Admiral Gilday. So, sir, the strategic investment plan that 
we have for shipyards, our four public shipyards, if that is 
what you are talking about, $20 billion over 20 years. And so 
right now we have three MILCON projects ongoing. Another eight 
are requested in the budget, our budget request for 2021.
    We are really committed to updating those yards. The 
average age, as I mentioned before, is 76 years old. The 
condition, relative to other infrastructure, we would rate as 
poor. And so it has become a priority for us.
    It is an area that we have probably under-resourced for a 
number of years, and it has finally come to roost. In terms of 
being able to continue to do high-quality maintenance on those 
nuclear-capable ships, we have to continue to make the 
investment in that infrastructure.
    Mr. Visclosky. Okay.
    Mr. Calvert.
    Mr. Calvert. Just more of a comment as we are ending this 
hearing.
    You mentioned a digital twin earlier, Admiral. That is, 
obviously, very exciting technology. And that came out of the 
Small Business Innovation Program. Can you get back to us and 
tell us how successful that is and how well that is doing? Or 
maybe you want to make a quick comment about that?
    Admiral Gilday. Yes, sir. Absolutely. So, right now, it is 
very promising in terms of creating these digital twins for all 
four shipyards that allow us virtually to take a look at how 
would we streamline production lines and processes. But we will 
come back to you, sir, and adequately answer your questions.
    Mr. Calvert. Good. Thank you.
    Mr. Visclosky. Gentlemen, I think we are at the conclusion.
    Mr. Aguilar mentioned the hypersonics program. Obviously, 
very important across the services. And from, I think, all of 
our perspectives--and I am sure you are cognizant, but I just 
feel compelled to say it--is the issue of making sure we are 
coordinating these investments so that we are not getting in 
each other's way. Because, obviously, we are in a competition. 
Very important program.
    Thank you for your service. Thank you very much today.
    We are adjourned.

                                          Wednesday, March 4, 2020.

             UNITED STATES SPACE FORCE ORGANIZATIONAL PLAN

                               WITNESSES

LIEUTENANT GENERAL DAVID D. THOMPSON, VCE COMMANDER, U.S. SPACE FORCE
MAJOR GENERAL CLINTON E. CROSIER, DIRECTOR, SPACE FORCE PLANNING, 
    OFFICE OF THE CHIEF OF SPACE OPERATIONS

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. The subcommittee will come to order. This 
afternoon the subcommittee will receive testimony on the 
Department of Air Force's plans for standing up the Space 
Force.
    We welcome our witnesses today. General Thompson and 
General Crosier, welcome to your first appearance before the 
committee. We do appreciate you being here to share your 
expertise.
    Recently, the Space Force was established as a new branch 
of the armed services. Such a significant reorganization cannot 
be approached lightly or haphazardly as it is critical that the 
foundation crafted is well constructed and provides a path to 
success for the service and the department as a whole.
    It is essential that those forming the policies and 
procedures for the Space Force actively engage the Congress, 
particularly the Appropriations Committee, to build and sustain 
support for the force and its mission. This will require the 
Department to provide timely and complete information and 
transparency to ensure that there is a common understanding and 
expectation of what this new service will do, how it will do 
it, and what resources are needed.
    For example, the Space Force budget projects over the next 
5 years current missions and no new capabilities. So will the 
Space Force simply execute existing space missions but under a 
new organization, or is the Space Force ultimately organizing 
to do new substantial missions? Either way, I believe that the 
fiscal year 2021 budget requests and the Space Force reports 
provided by DOD to date leave those questions unanswered.
    Finally, I understand that the Space Force aspires to 
minimize cost and bureaucracy and to implement a management 
approach that is lean and agile. The plan is to accomplish this 
by leveraging existing support and services from the Air Force.
    This is a common-sense approach. However, some aspects of 
the proposal raise questions. Specifically, I am concerned that 
the Space Force will not have the adequate decisionmaking 
authority over its acquisition process, financial management, 
and recruiting. And as the Space Force is not properly 
represented in rooms where the Air Force is making resourced 
decisions, then I fear the Force's interest will be 
subordinated to those in a much larger sister service.
    I would appreciate our witnesses giving us an update on the 
status and the plans for the Space Force and help us understand 
those issues. I appreciate, again, you being here. We will have 
your testimony in a moment, but first would recognize my 
Ranking Member, Mr. Calvert, for any remarks he has.

                     Opening Remarks of Mr. Calvert

    Mr. Calvert. Thank you, Chairman.
    Welcome, Lieutenant General Thompson, Major General 
Crosier, to the subcommittee. As we consider the current threat 
environment and how we train and equip our forces to respond, 
space must be a fundamental part of our planning efforts. 
China, Russia, non-state actors, and others are working to 
challenge our unfettered access to space. That is why we must 
smartly build a Space Force that can provide us with the 
freedom of operations and security.
    Last year we discussed how the Space Force will coordinate 
with existing commands, identify servicemembers to join the 
force, and how it can meet the space mission--and I share this 
concern with the chairman--growing into an ineffective 
bureaucracy.
    I look forward to receiving an update on all these issues. 
I also look forward to hearing about the Space Force plans on 
leveraging private industry and guardsmen, all of whom are 
looking to contribute to the mission of the Space Force. I want 
to conclude my brief statement by thanking you, once again, for 
your service, and I look forward to your testimony.
    And, with that, Mr. Chairman, I yield back.
    Mr. Visclosky. Thank you very much. I appreciate the 
special effort that our ranking member for the full committee, 
Ms. Granger, made to be with us this afternoon. She does have a 
statement as well.

                         Remarks of Ms. Granger

    Ms. Granger. Thank you. I thank Chairman Visclosky and 
Ranking Member Calvert for holding this hearing today. I would 
also like to welcome our first witnesses ever from the U.S. 
Space Force, Generals Thompson and Crosier. You have a big but 
necessary job in front of you. This hearing is an important 
step for our Nation as we consider the Space Force very first 
budget request.
    More now than ever our Nation faces competition and 
aggression on every front, and space is no different. Our 
adversaries, especially China, are developing advanced space 
technologies that actively threaten our Nation's dominance and 
American way of life. Our Nation's security and prosperity 
relies on our unchallenged access to space.
    For this very reason, I was proud to support the Trump 
administration's vision for this new branch of our armed 
services, and I look forward to supporting its development this 
fiscal year. I am pleased to see the budget request reflects 
our needs in space. Strong investments in research and 
development while minimizing bureaucratic delays will grow the 
Space Force in the most efficient and effective way. Your 
comprehensive plan on the organizational structure of the U.S. 
Space Force provides us with your vision for the Force's 
future. However, many of us still have questions relating to 
acquisition, organizational requirements, and how the Space 
Force will support our combatant commanders.
    I look forward to hearing from the witnesses today and 
working with members of the subcommittee on this important 
issue so vital to our national security.
    Thank you.
    Mr. Visclosky. Thank you very much.
    Gentlemen, you may proceed.

            Summary Statement of Lieutenant General Thompson

    General Thompson. Chairman Visclosky, Ranking Member 
Calvert, Representative Granger, and distinguished members of 
the committee. I am honored to appear before you here today 
along with my esteemed colleague, Major General Clinton 
Crosier. We are privileged to be among the 16,000 men and women 
currently assigned to the U.S. Space Force serving under the 
leadership of the first chief of space operations, General Jay 
Raymond.
    These space professionals remain the best in the world in 
developing, fielding, and operating space systems that maintain 
the combat edge of our Armed Forces and the reason they enjoy 
freedom of action. It is this freedom of action in space that 
is our asymmetric advantage.
    U.S. interests in space are increasingly threatened as 
Russia and China develop and field weapons to hold U.S. and 
allied space systems at risk. For example, late last year, the 
Russian Government launched a satellite that is actively 
maneuvering near a U.S. national security satellite today. The 
Russian Government has characterized this as an inspector 
satellite, but similar actions in any other domain would be 
interpreted as unprofessional, dangerous, and potentially 
threatening behavior. These activities are very concerning.
    The U.S. position is that these actions do not reflect the 
behavior of responsible space-faring nations. Development like 
these and aggressive actions by other potential adversaries are 
the big reason why, on December 20th, 2019, the President and 
Congress directed the establishment of the U.S. Space Force as 
the sixth branch of the Armed Forces. Space Force 
responsibilities, in addition to executing our day-to-day 
missions, include developing military space professionals, 
acquiring military space systems, maturing military documents 
for space power, and organizing current and future forces for 
combatant commanders.
    The Space Force represents a monumental change in our 
warfighting paradigm and our ability to fight and win future 
conflicts. By the design, the Space Force will be an 
independent, 21st century military service, agile, lean, and 
mission-focused, while leveraging Air Force support for so many 
services that will minimize bureaucracy.
    The fiscal year 2021 space budget requests support and 
provides irreversible momentum towards implementation of the 
national defense strategy that remains our guiding star and 
drives our decisionmaking. Current resources will transfer into 
the Space Force from the Air Force in expedition-conditional 
phases to best take care of our servicemembers and to avoid 
risk to mission.
    This budget submission includes increased investment in 
four elements of our strategy to address the threats in space: 
first, to protect and defend highly capable satellite systems 
we depend on today; second, to field robust and resilience-
based architectures that survive under attack and deliver space 
capabilities in all phases of conflict; third, to develop true 
space war fighters who are essential to winning in the domain; 
and, finally, to develop a broad range of options to respond if 
our national security is threatened and, in particular, if 
those in space are threatened.
    Progress along these lines of effort improves our ability 
to address near-peer threats in space and is sustained by your 
support and funding, you, our partners in our Congress.
    Let me close, again, by stating that we do not seek 
conflict in space. However, we must maintain a position of 
strength and develop credible warfighting capability in order, 
first, to deter conflict and to maintain a full range of 
options to ensure our national security. The Space Force is 
taking the lead to preserve U.S. and allied space superiority 
across the continuum of conflict and to defend U.S. interests 
and those of our partners and our allies.
    Thank you, again, for the opportunity to testify, and we 
look forward to your questions.
    [The written statement of Lieutenant General Thompson and 
Major General Crosier follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Visclosky. Mr. Calvert.

                     CONSOLIDATING VARIOUS OFFICES

    Mr. Calvert. Thank you, Mr. Chairman.
    In the initial organizational chart that you released, the 
Space Force has outlined the goal to bring the space and 
missile system center, space development agency, space rapid 
capabilities office, and space elements so the Air Force rapid 
capabilities office under a single authority. I think 
consolidating these efforts is a good idea and an opportunity 
to become a leaner, more agile organization.
    I know more details were coming out later this month, 
specifically on acquisition authority and how that will be 
organized. But is there anything you can share? Do you expect 
consolidating these offices will result in some efficiencies 
that will hopefully save some money?
    General Thompson. So, Congressman Calvert, let me say, 
first of all, that, as you suggested, the Congress and the 
President have given us a tremendous opportunity. It is not 
just in acquisition, but it is across the Space Force. You have 
given us the opportunity to create a clean sheet design in many 
areas, one of those is specifically acquisition, by directing 
the establishment of the Space Force Acquisition Council and 
telling us to come back with a new approach.
    With regard to those organizations today, we have already 
begun the process, even before the Space Force was established 
but since then, of working between the space and missile system 
center, the space development agency, the Space Rapid 
Capabilities Office, the Air Force rapid capabilities and 
others to ensure that their acquisition activities are 
synchronized, complementary, and not duplicative in many 
senses.
    In fact, as an example, the Space Rapid Capabilities Office 
that was established 2 years ago, we gave some very specific 
mission sets that hadn't been addressed previously as a result 
the warfighting domain. We expect them to do that quickly. The 
Space Development Agency's focus is on leveraging commercial 
investment and what we see there in proliferated consultations 
and the Space and Missile System Center has recently 
rearchitected itself but is still focused on those specific 
today warfighting capabilities that we will need today and in 
the future.
    Consolidating them under a specific acquisition 
organization will further integrate their activities, ensure 
they are not duplicative, but make sure they create one single 
space architecture. I have no doubt going forward that we will 
find efficiencies. Right now our focus is in driving an agile 
and rapid response for all of them as they continue to develop 
space capabilities for the Nation.
    Mr. Calvert. I would ask, as this acquisition takes shape, 
that you leverage the talent and the institutional knowledge 
that you mentioned of the Space Missile Center in L.A. The 
intellectual capital has been built up, as you know, over a 
long period of time. It is one-of-a-kind that is uniquely 
situated to meet the challenges that the new Air Force, new 
Space Force is going to take on. And so I know you will give 
them the leadership to move in the right direction and get that 
done.
    General Thompson. Yes, sir. They are a national treasure. 
They have provided capabilities that no one else could for more 
than six decades, and I am sure they will continue to do that 
in the future. The evidences was their own rearchitecting 
themselves to ensure they could meet those challenges. They 
have special set of capabilities, as does the space RCO at 
Kirkland and the SDA as we leverage----
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Visclosky. Ms. McCollum.

                         SPACE FORCE PERSONNEL

    Ms. McCollum. Thank you. So we know, in order to be 
successful, not only do you need equipment; you need the 
personnel to operate the equipment to do the mission. So I 
would like to ask you a few questions about the development of 
Space Force personnel, including the transfer of the Air Force 
to the Space Force. In the fiscal year 2020 NDAA created Space 
Force, but it directed the Air Force to move personnel 
internally to populate Space Force instead of adding more 
personnel to the new service branch. It is my understanding 
that the Air Force Secretary has temporarily detailed about 
16,000 airmen to Space Force.
    And so, before I get into the question, I want to set the 
table a little bit, too. So, General Crosier, you recently 
stated during a presentation to the Defense Advisory Committee 
on Women in the Services that Space Force is working to 
incorporate flexible family leave and caregiver possibilities. 
You went on to say that we have a ground level opportunity with 
Space Force to ensure that the newly created military branch 
incorporates the culture of equality and inclusion in order to 
attract female candidates.
    As you know, this is an area which the older branches of 
the military have struggled with over the years and continue to 
struggle with. So I have a couple of questions, but I will 
submit a question to the record about how Space Force cadets 
are going to move forward in the future.
    As you know, it is our honor and privilege to nominate 
individuals to the military academy, and I don't think--I don't 
know if they will call them doolies their first year of the 
Space Force Academy.
    My questions are: Can you give us an update on the process 
by which you are asking Air Force personnel to voluntarily join 
Space Force as well as the development of personnel 
administrative systems for Space Force? And how are you 
ensuring that you have the capability and the ability to pull 
space operators from the Army or Navy into Space Force, in 
other words, create even more opportunity for them and more 
yourselves? Do you have a timeline for no longer relying on Air 
Force detailees? And then, back to my question about, you know, 
having a more inclusive military branch here, what are some of 
the specific policies and regulations that face Space Force 
might be planning on implementing to encourage women to join 
and to ensure women will be retained?
    General Crosier. Congresswoman, thank you very much for the 
question. I appreciate that. There are a number of things there 
that you talked about, so let me just try to address a few of 
them at a time. So, on the day that the President signed the 
NDAA on 19 December--20 December 2019 rather, we assigned 
16,000 men and women from the former Air Force base command 
into the U.S. Space Force.
    So those people are executing the mission of the U.S. Space 
Force today. It is essentially the mission we had been 
executing all along, but with the stand-up of the Space Force, 
now we have men and women, as you said, assigned sort of in a--
I wouldn't say temporary detailee, but they are temporarily 
assigned in the same way that an officer or enlisted member can 
be assigned to a combatant command or the joint service or 
something like that.
    Of those 16,000 people, a portion of those, probably about 
6,000 people, will be offered the opportunity to formerly 
transfer into the U.S. Space Force. And by that we mean, the 
technicality of actually resigning your commission in the Air 
Force, Army, or Navy, or Marine Corps and then recommissioning 
in the Air Force or terminating your enlistment in those 
services and reenlisting in the Space Force. It is a very 
technical process that has to take place and it is part of 
congressional scrolling and law.
    In terms of the readiness to do that, we think it will take 
a few months to be ready do that. All of the databases that we 
need to process pay and retirement and healthcare and those 
sorts of things, it will take us some time to do. Currently, we 
are looking about the 1 September timeframe to be able to 
transfer Air Force space operators into the Space Force, and 
then we will follow on with those volunteers from space 
intelligence, space acquisition, space communication probably a 
few months later.
    Our plan for the Army, Navy, and Marine Corps transfers has 
always been in the fiscal year 2022 timeframe simply because we 
believe it will take some time and we want to get the 
transition right with those Air Force members that are 
transitioning, and we are more similar between the Air Force 
and Space Force for obvious reasons. But then we want to take 
the appropriate amount of time to make sure when we transfer 
those soldiers, sailors, and marines that we have got all the 
right pieces of infrastructure in place to be able to do that.
    Finally, very briefly, if I can just reflect on DACOWITS, I 
was honored to be able to speak in front of that organization 
yesterday. And the point that I was making is the point we will 
underscore throughout the hearing I hope, and that is General 
Raymond, our CSO, has really put an edict down for us that we 
have a historic opportunity.
    This is the first new service that has been established in 
72 years, and so we have been told by Congress, by the 
administration that we have a clean sheet to look at, how would 
a 21st century service operate? And as you look at human 
capital management in the 21st century, the world has changed 
over the last number of decades with technology and personnel 
needs and that sort of thing.
    So we think there are opportunities to look at more 
flexible recruitment and retention policies, some of which you 
mentioned, that will make the Space Force attractive to all the 
men and women who might be interested in joining.
    Thank you.
    Ms. McCollum. And then you will get back to us on the 
record on how you are going to handle academy appointments----
    General Crosier. Yes, ma'am. Happy to do that.
    Ms. McCollum. Thank you, Mr. Chairman.
    Mr. Visclosky. Thank you very much.
    Ms. Granger.

                      COMMAND AND CONTROL PROGRAM

    Ms. Granger. Thank you. After receiving several classified 
briefings, I am very concerned about the threats that China 
poses in space. Can you briefly update us on how the Space 
Force is dealing with these threats?
    General Thompson. Yes, Congresswoman. Let me say, first of 
all, I noted not only that but the opening statement by the 
chairman, the need to understand that more fully. And what I 
would ask is to give us an opportunity to come back in a 
classified setting because we can give you full details in that 
regard. I will tell you that this fiscal year 2021 budget is 
the fourth in a series of budget that you all have given us 
that have really allowed us to turn and focus on the threat.
    When we started this process back with the fiscal year 2018 
budget, we started working on some of the foundational 
principles we needed to understand the domain deeply, space 
domain awareness, sensors, and fusion engines and tools 
associated with understanding all of what is in a domain, what 
its capabilities are, who owns it, and how it might pose a 
threat and provide indications and warning.
    In subsequent years we built on that. We have built command 
and control tools now as well, and we continue funding a 
command and control program to be able to fuse that data, to 
develop courses of action to present them to commanders so they 
can make timely decisions and disseminate it out to the force. 
That has been part of our investment since about fiscal year 
2019. And we began prototyping and demonstrating and preparing 
for what I will call abilities to protect and defend our 
assets. And we did that extensively in the budget in 2020.
    In 2021, we are now taking steps to extend that across the 
fleet as well as look at other capabilities to be able to 
continue to defend those assets that we have and deny adversary 
use of space in conflict. We have done that over the course of 
4 years. There is a tremendous amount of detail that we could 
provide in a classified setting, but I would tell you where 4 
years ago we did not have significant sensing, command and 
control, defend and protect, and other capabilities in this 
domain, we now have established a course and, with your support 
and continued investment, are certainly on a course to be able 
to defend and protect our assets in a domain going forward.
    Ms. Granger. Thank you. I know we would all look forward to 
those classified briefings.
    Thank you very much. Thank you.

                      PROCUREMENT AND ACQUISITION

    Mr. Ruppersberger. First thing. I think you talked about 
historical opportunity, and this is very rare that you get an 
opportunity to start from scratch. And, you know, when you are 
involved in management whether it is corporation, government, 
bureaucracy a lot of times gets in the way. So it is really 
important that when we--what we have to deal with is space. 
Space and cyber are the future of tomorrow, and we are--have 
Russia, China, other countries that are focused there, so--and 
a lot of people really don't know how much space is involved in 
everything that we do every day and whether it is from defense 
or whether it is from commercial or whatever. I know Mr. 
Calvert talked about acquisition. I want to get into that a 
little bit, and one other thing I want to say, too. Since I 
have been here there have been two start-ups, Homeland Security 
and the Director of National Intelligence. I think Homeland 
Security went too quick, too fast. Thank goodness they had 
operations like the Coast Guard that were well managed and 
helped move where they needed to be. But the Director of 
National Intelligence took a little slower; they pulled people 
in; and I think it was effective on what they needed to do.
    Mr. Calvert. Would the gentleman yield on that one point?
    Mr. Ruppersberger. Yes, I will yield.
    Mr. Calvert. When we were having those discussions about 
the Director of National Intelligence, how big was that office 
supposed to be? About 100?
    Mr. Ruppersberger. Whatever it is, it works. At least it 
did work until----
    Mr. Calvert. I think it was 100 going back in time. I 
think, what, 1,200 now?
    Mr. Ruppersberger. Is that what it is? I haven't kept up 
with it. I am just looking at the end game results.
    Mr. Calvert. And it keeps growing. It is about 1,200.
    Mr. Ruppersberger. If it works, we do it. The national 
intelligence is important. But getting back to the issue. I do 
want to get into acquisition. The Department's effort to design 
a Space Force organization structure as it relates to 
procurement and acquisition, which can really get tied up in a 
lot of the bureaucracy issues that slow you down. You detail 
that the plan aligns with the congressional direction to 
streamline acquisition, functions of the Space and Missile 
Systems Center, Space Development Agency, and Space Rapid 
Capabilities Office.
    Now, can you explain to this committee your recommendations 
on how we should evaluate this effort and what the ideal roles 
and responsibilities among these different entities should look 
like? In other words, what do SMC and SDA and the Space Rapid 
Capabilities Office do now, how do they differ, and how should 
we expect them to look a year from now?
    General Thompson. Congressman, thanks so much.
    Let me talk a little bit about that if I can. As you noted, 
those organizations all are involved in acquiring and filling 
space capabilities. We have already begun the work to make sure 
that they are deconflicted, starting with the Space and Missile 
Systems Center. When it talks about those unique what I will 
call unique military space capabilities that we have used for 
decades, things like missile warning, GPS positioning, 
navigation, and timing remains one of those capabilities that 
the military provides today, even though it is used more 
broadly, protected communications that includes the ability to 
do command and control of nuclear forces in event of nuclear 
war, as well as the ability to surveil the domain, understand--
keep track of all the objects in the domain. Those are some 
unique military space capabilities that we have done for 
decades. Those are the things that Space and Missile Systems 
Center does today, does well, and is going to continue to do 
into the future, even as it evolves what it is and how it does 
those things.
    Mr. Ruppersberger. Yes. Finished?
    General Thompson. SDA, the Space Development Agency, is 
focused on looking at commercial and architecture, how we can 
leverage it for new and evolving missions and merge those with 
Space Missile Systems Center. And then space RCO is focused on 
rapidly fielding--prototyping and fielding for us new 
capabilities to help defend and protect----
    Mr. Ruppersberger. And the commercial was so important. 
That is what makes us strong as a country.
    One other thing and I am finished. You mentioned the 
consolidation of acquisition oversight will significantly 
improve the Space Force's ability to integrate future space 
programs and architectures. Can you speak to why you are so 
convinced of this and how the U.S. Space Force plans to remove 
to measure success in procurement?
    General Thompson. Yes, sir. There are two things I would 
point to. The first is the direction of Congress to provide a 
report back on a clean sheet design to do that. First of all, 
we recognize the need for transparency and the oversight of 
Congress. We are going to ensure that is the case, but this 
gives us the opportunity to do that with you in a streamlined 
way. It also gives us the opportunity to develop a streamlined 
approach to oversight inside the Department of Defense.
    So that is the first thing you have given us is the 
opportunity to develop that and come back to you and work with 
you on how to implement that. The second piece is, the 
establishment of the Space Force Acquisition Council and the 
assistant secretary of the Air Force for Space Acquisition and 
Integration, who is supposed to lead that activity.
    And the expectation is, under that leadership, including 
Space Force members and others, that group using a streamlined 
approach and process with the support and the--or the oversight 
of Congress is intended to create the new acquisition system 
that you will see here with the report here in a few weeks.
    Mr. Ruppersberger. I yield back.
    Mr. Visclosky. Mr. Carter.

         SUITABILITY AND SURVIVABILITY OF SPACED-BASED SYSTEMS

    Mr. Carter. Thank you, Mr. Chairman. Welcome.
    This is an exciting thing to talk about. General Thompson, 
according to the 2019 annual report from DOD director of 
operational test and evaluation which provides independent 
assessment of the effectiveness of DOD systems has raised 
concern about whether DOD's space systems will perform 
adequately against potential adversaries.
    Report says DOD intends to invest, at least, 100 billion in 
space systems over the next decade. It must thoroughly 
understand how our systems will perform in space, particularly 
when facing manmade threats. The report concludes the DOD 
currently has no real means to assess adequately the 
operational effects of this suitability and survivability of 
space-based systems against growing threats.
    What is your view of this report's finding? Do you agree 
and how will the Space Force address this issue differently 
than has been addressed previously?
    General Thompson. Congressman Carter, that report was 
absolutely correct. For many years, because space was not a 
warfighting, we focused on engineering excellence. We focused 
on mission performance. We did not have to think about or 
develop systems that could survive in the face of manmade 
threats. That is absolutely correct. That is one of the reasons 
the Space Force was created and one of the things that we have 
to do and are doing and are beginning to invest in directly is 
a suitable testing enterprise and testing regime to test 
exactly for those sorts of threats. It is done today in every 
other service, in every other domain. We do it in the air. We 
do it at sea. We do it on land. We now have to build a similar 
enterprise for space system to test them against threats and 
representatives to those threats to ensure they can survive and 
function effectively throughout the domain.
    Mr. Carter. You used the term ``warfighting domain,'' would 
you define that to us? It makes sense----
    General Thompson. Yes, sir.
    Mr. Carter. But there has got to be a specific thing that 
means.
    General Thompson. So I would say--so I am not sure there 
has been an established and approved definition, but I would 
tell you the D.D. Thompson definition is: If I am operating in 
the domain, somebody can threaten my ability to perform, shoot 
at me, whether it is with kinetics or electronics or with cyber 
and have the ability to destroy my capability or my mission or 
defeat my mission, that is a warfighting domain. D.D. 
Thompson----
    Mr. Carter. You told us about Chinese and Russian satellite 
that kind of got in on our space. Now the Navy, when somebody 
gets in their space, historically puts a shot across their bow 
telling them to back off. The Air Force has their way of 
letting them know you are getting too close for comfort and you 
are about to commit an act of aggression.
    Are we going to internationally define those things, or are 
we just going to be custom?
    General Thompson. So, Congressman, it has been years that 
we have not had those sorts of standards and norms of behavior 
or rules of engagement in space. I hope you saw the commander 
of U.S. space command, our boss, General Jay Raymond in his 
other hat, specifically and publicly, called out the Russians 
for that activity and that domain. We are in the process now, 
first and foremost, internally with the United States with our 
partners and allies and friendly nations to help establish what 
those norms of behaviors should be, what rules of engagement 
should be, and help to make it clear going forward what they 
are, how we expect others to behave, how we will behave, and 
what the consequences might be if they do not.
    As you said, it took centuries to develop those at sea. It 
took decades to develop those in the air. We are now in the 
process of developing them in space.
    General Crosier. Very, very quickly. I really appreciate 
the question, but one of the things you will see inside this 
fiscal year 2021 budget is resource-neutral. We have paid for 
it within the Department of Defense but we are actually 
bringing the additional billets to the table to stand up the 
first space doctrine center to do exactly these kind of things, 
develop doctrine, norms of behavior. We are also looking at 
robusting our space warfare center to create those tactics and 
TTPs that we need to deal with these threats.
    And to your original question, we are actually investing to 
robust the space test environment and the space test center so 
that we can get after the space tests the same way other 
domains do it. We captured that and paid for resource-neutral 
in our budget because we agree with you: All three of those 
things are important to get after.
    Mr. Carter. Thank you.
    Mr. Visclosky. Mrs. Kirkpatrick.

                    COMMANDS WITHIN THE SPACE FORCE

    Mrs. Kirkpatrick. Thank you, Mr. Chairman. Thank you both 
for being here this afternoon and for your testimony. I 
understand that the Space Force is considering standing up 
several systems commands, including a space training and 
readiness command, which you talked about, and a systems 
command focused on acquisition.
    How many system command organizations are you considering? 
What will they do, and where are they going to be placed? Will 
they be spread throughout the country, including places like 
Arizona, or are they going to be concentrated in a location 
where there is a space mission already in place?
    General Thompson. Congresswoman, let me say a few things if 
I can. First of all, today the organizations that will 
constitute commands that do operations, commands that do 
acquisition already exist in many places in the enterprise. We 
talked about some. We talked about the Space and Missile 
Systems Center. We talked about space RCO. We talked about the 
Space Development Agency. Those organizations exist today. They 
are actively engaged today. They are performing effectively 
today, as are our operational units and commands. Certainly, 
the original intent, once we have finalized and had an approved 
field command design, there is no expectation or intent that we 
would be looking at moving organizations around, repositioning, 
reposturing. It is the in-place structure to ensure they 
operate effectively, they perform their tasks effectively, they 
are integrated, and they are supporting the priorities of the 
Nation and the Space Force and our leadership. That is what the 
Space Force will do initially.
    Some of the other capabilities we need and other commands 
will grow out over time. As General Crosier said, they are 
funded in the budget, and as we develop, build, and fund, and 
resource them, we will go through the process of establishing 
where they might be. We have basing processes to determine 
where they might be, and we will run those processes. As those 
new capabilities are developed, they are ready to come online.
    Mrs. Kirkpatrick. Thank you.
    I yield back.
    Mr. Visclosky. Mr. Cole, please.

                    SPACE FORCES IN RUSSIA AND CHINA

    Mr. Cole. Thank you, Mr. Chairman. Thank you, gentlemen. I 
have to tell you I struggle with this, just intellectually, not 
from any hostility. I think this is great. Just trying to 
envision exactly what we are doing and where we are going, so 
trying to develop some frame of reference.
    Let me ask you this: I am very curious since part of this 
is a spin-off from threats from our near-peer rivals. How do 
they organize their Space Forces? Do they have a separate Space 
Force in Russia and China?
    General Thompson. Congressman, they do. In fact, they are 
recently--they have recently reorganized themselves. Since I am 
going to say 2014, both have created organizations. In one 
case, one of the organizations is a space organization itself. 
The other is a space organization that includes cyber and some 
other things, but they have strategically reorganized 
themselves in the last 5 years to emphasize the importance of 
space because they recognize--two things. First of all, they 
recognize what our ability to use space for our purposes has 
done for us, and they want to do the same thing. The second 
thing is, they have reorganized themselves to attempt to take 
away our ability to use space in conflict, and so they have 
created--in fact, they preceded us in creating space 
organizations to do exactly that.
    Mr. Cole. And what about--we have obviously friends that 
have capabilities in space and assets in space, the British, 
the French. Tell me where our allies are at. What is their 
thinking? Is this sort of--do you see them developing along the 
same lines that we are and apparently the Russia and the 
Chinese are? Give me some assessment of their----
    General Crosier. Congressman, I think the unifying piece, 
whether you are talking about our potential adversaries or our 
allies, is we have all recognized that space is now become a 
contested potential warfighting domain. That is the key. The 
Russians and the Chinese have come to a slightly different 
organizational construct that we have based on their militaries 
and how they are organized and our allies--most of our allies, 
some are very capable in space, but most of them, all of them, 
are much smaller than we are. So they likely will come to a 
different conclusion about what organizational construct works 
for them, but what is clear across the board--and as we do our 
space exercises and space war games, we continue to invite 
allies and partners. And over the last couple of space flags 
and other space-related exercises, we have anywhere from 7 to 
10 of our allied partners show up and do those integrated war 
games with us. And they are fully on board with the idea, with 
the understanding, that space has become a threatened 
environment, and if we are going to be able to operate our 
space assets, both in peace time and in war time, both to 
support our economies and our militaries, they have got to be 
protected and defended.
    I will tell you that already, as the director of planning 
for the space team, I already have a formal request from one of 
our key allies in writing to embed several of their officers 
inside the Space Force planning team. We are only 75 days old 
as a Space Force today, and I already have, as I said, a formal 
request from one of our closest and most trusted allies to 
embed officers inside our planning team. So I think that is a 
good sign.

            CONSOLIDATION OF CAPABILITIES IN THE SPACE FORCE

    Mr. Cole. Last question. And, again, I am just struggling 
with this. Your testimony, the documents I have read talk about 
having 16,000 people or so. It is pretty small number 
obviously, and that is appropriate when you are at the very 
beginning of something. Seems a little top heavy in terms of 
general officers given the size of that unit for me. I would 
like you to address that, how you feel about that long-term? 
And then the second question related that I would have and, 
again, I recognize we are at the very beginning and I would 
expect things to change just as they changed--you know, there 
were decades before we had a separate United States Air Force 
whereas other countries did it differently. I mean, there was a 
Royal Air Force almost from the beginning of their power there. 
They didn't follow the same model we did for several decades. 
So, again, these things are going to change and be different 
between countries, but I do worry about having a force where 
you have got a corps of 6,000 or 7,000, whatever the number is, 
and you have got elements of the other services that are 
working on the same mission in the same chain of command, I 
would say, how does that work? I mean, we don't have--obviously 
our services cooperate; we believe in jointness. But we don't 
have, you know, Marines and Army people directly in the same 
chain of command. As a rule, we don't have, you know, anything 
like that. Again, there is not Air Force officers on aircraft 
carriers. So I just wonder how that--how do you manage that in 
the beginning and when and how do you see it conflicting? And I 
guess I would ask you, how do you see things in 5 years? I 
mean, you are clearly thinking ahead, what do you think is 
different in 5 years than today?
    General Crosier. So what I can tell you, Congressman, is a 
year ago, when we brought our legislative proposal to Capitol 
Hill, we have been consistent ever since in saying that the 
Department's intent was to consolidate space capabilities from 
across the Army, the Navy, the Air Force into the Space Force. 
The Department of Defense has said clearly that we can't 
establish an Air Force Space Force for the reasons you 
describe. We have other services that do things in space, but 
if we are really going to take advantage of this historic, 
once-in-a-lifetime 72-years-since-we-have-done-it opportunity, 
then we have to look across the board. And so the Secretary of 
Defense on the 20th of December 2019, the day that the NDAA was 
signed, Secretary Esper signed out an implementation memo and 
part of that implementation memo was saying it continues to be 
the intent of the Department of Defense to consolidate space 
capabilities from across the services of the Department of 
Defense.
    So we are going through a process right now--in fact, I 
spent a couple hours this morning. We spent the better part of 
the last 6 months identifying what Air Force units, missions, 
and people will transition from the Air Force into the Space 
Force. And that has been very successful. We transferred $15.4 
billion from Air Force funds, and as has been identified about 
10,000 people between military and civilian. So that is working 
very smoothly. Now, as we have looked at the fiscal year 2022 
planning timeframe, we are going through the process of 
identifying what units in the Army, the Navy, the Marine Corps, 
et cetera, would and should transfer into the Space Force so 
that we can take advantage of that unity of effort, singular 
leadership, and integrated strategy, vision, and architectures 
which we think is so important.
    Mr. Cole. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Aguilar.

          RELATIONSHIP WITH DARPA, NRO AND OTHER ORGANIZATIONS

    Mr. Aguilar. Thank you, Mr. Chairman.
    Thank you gentlemen for being here. Following up a little 
bit on my colleague, Mr. Cole, prior to the Space Force, there 
still are several agencies, as you have mentioned, that have 
space programs. How do we plan to intend to leverage the 
capabilities of space-related agencies like NRO and DARPA to 
make sure that there isn't a duplication of efforts? What role 
will they play moving forward, and how are those conversations 
now?
    General Thompson. Congressman, I will tell you that already 
we had a very effective relationship with those organizations 
before the Space Force was created. Specifically with the 
national recognizance office, we have had a longstanding 
relationship with them. In fact, today they have a total staff 
of about 3,000, about 1,000 of those are U.S. Space Force 
members. So we already provide expertise and personnel to help 
them in their activities. The second thing is, about 5 years 
ago, we established with the national recognizance office two 
forums that we use, one, on the acquisition and architecture 
side and the other on the operation side. The organization that 
was at the time Air Force space command that is now the core of 
U.S. Space Force, developed a common national security's space 
architecture with the NRO, determined in a couple of cases 
where we were going to conduct joint programs. In one case, we 
are doing it with an on over at space surveillance system. We 
are collaborating on how to create systems to warn and protect 
our satellites together, as well as collaborating on the 
overall architecture. That has been in process for 5 years. 
That will continue in the Space Force.
    On the operational side, we created a forum called the 
Joint Space War Fighters Forum where the U.S.-based command 
commander and the director of the NRO collaborate on 
operational issues. They are together doing planning and 
operation every single day in the National Space Defense 
Center. So there is already a well-established and very close 
relationship with the NRO that pre-dated the U.S. Space Force. 
We will continue to do that in the future.
    With DARPA and NASA and other organizations, we have 
routine engagements to establish priorities, areas of 
collaboration, whether it is in technology, whether it is in 
research and development, whether it is in operational 
concepts. All of those forums worked relatively well in the 
past. Now that you have a U.S. Space Force and a service chief 
who can speak with authority, who can establish authorities 
across the broad range of activities, I can only see those 
relationships growing and being more effective in the future.
    General Crosier. I would just add very quickly too as I 
like to do. We recognize very early in the planning process the 
value of having the national recognizance office, in 
particular, part of our planning team so we have an embedded 
NRO officer inside our planning team to make sure that as we do 
all of our planning going forward that we think about how we 
better integrate as a team.
    Mr. Aguilar. Do you anticipate that embedded NRO individual 
or that type of position continuing for years? How would you 
formalize that within the structure?
    General Crosier. Well, we can easily formalize it through 
what we call memorandums of understanding or agreement, but I 
think it likely will. I think we are going to see such benefit 
from having exchange officers, if you will, on each other's 
staffs. And as General Thompson said, we already have up to a 
thousand previously Air Force people from Air Force space 
command inside the NRO as these members now become U.S. Space 
Force members, you will have the U.S. Space Force serving 
inside the NRO day in and day out, but having NRO planners 
inside our team at headquarters U.S. Space Force, I think, will 
be very effective. And I see no reason why we wouldn't continue 
it long-term.
    Mr. Aguilar. Appreciate it. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Rogers.

                 SPACE FORCE CREATION AND REDUNDANCIES

    Mr. Rogers. Thank you, Mr. Chairman.
    Let me talk to you briefly about what I am going to call 
inevitable redundancy. I am sure you have gone through this in 
your own minds a lot. Many of us in Congress support the Space 
Force, however, we do have some concern that the creation could 
lead to redundancy between the services since some services 
that have had space-related operations before you came along 
will still require the information and intelligence obtained 
through those operations that they have been experiencing. How 
do you deal with this?
    General Thompson. Congressman, I would say, first, some of 
that redundancy already exists today, and I think through the 
creation of the Space Force and what happens naturally when you 
bring organizations and combine them in that regard as we will, 
it is a quicker and more effective mechanism for identifying 
and eliminating some of those redundancies. That is a measure 
of how effective we are in consolidating the sum total of DOD 
space activities inside the Space Force. And so that is the 
first way we will get after it is, as soon as all of those 
activities and organizations are inside of one service, you can 
very effectively with one service chief, with one leader 
working together with the Secretary of the Air Force, identify 
more quickly those redundancies, and you really only have one 
set of leaders that need to agree to eliminate them.
    So I would say, in fact, some of those redundancies, in 
fact, some Members of Congress have chastised us in the past 
about the number of duplicate and redundant organizations we 
have inside of the DOD and National Security Space Enterprise. 
I think consolidating all of that activity under the U.S. Space 
Force is one means by which we can identify and eliminate those 
redundancies.
    General Crosier. Fully agree, Congressman. And I would just 
add too that as we look at Space Policy Directive 4, SPD 4, 
signed by the President last year, the primary mission given to 
the Space Force--well, two missions really, but mission number, 
as we call it, is enhancing the lethality of the joint force. 
So, even as we stand up to Space Force and as General Thompson 
said, the goal of the department is to consolidate and avoid 
duplication of effort, but even as we do that, the Space Force 
has a primary mission of supporting the Army, the Navy, the 
Marine Corps, and the Air Force in all of those things they 
have come to know so well in terms of joint warfighting. 
Satellite communications, ISR, weather, missile warning, GPS, 
precision-guided weapons, accuracy, all those will continue to 
be primary missions for the Space Force.
    So we look at the Army, the Navy, the Air Force, and the 
Marine Corps as primary customers in delivering those 
capabilities, and we will integrate more closely than ever 
before to make sure that we fully meet their warfighting needs.
    General Thompson. I apologize, Congressman, if I could add 
one more thing. This does not mean there should not be space 
expertise in those other services. There must be space 
expertise inside those services so that we can work with them 
to effectively integrate those capabilities. What we don't 
want, as you said, is duplicative capabilities.

                    SPACE FORCE AND WEATHER PROGRAMS

    Mr. Rogers. One of your missions is weather. Navy has their 
own weather program, and in most cases, that type of 
information is very custom, very attuned to what the Navy 
needs, wind directions and so on; Air Force with flying and the 
like. Will they now just disband their space-related agencies 
like that when you come into being?
    General Thompson. Sir, today with the Navy, in particular, 
we do a couple of things. One is their naval research lab is a 
very effective arm of developing the kinds of sensors that we 
need in space for, as you said, the very specific weather and 
meteorological-related things that they do today, but we work 
with them effectively. They often times will do experimentation 
and then that technology and those instruments are then 
translated over to what are now U.S. Space Force organizations 
to build into those weather systems.
    So, in our relationship with the Navy today, we don't 
duplicate, we divide and conquer in terms of technology, 
development, and ultimate fielding. We anticipate that work 
will continue in one of two ways or probably both ways. In 
cases where it makes sense, those capabilities that exist today 
inside the Navy will move into the Space Force, but where it 
makes sense for them to remain, we will continue to interface 
and integrate with them to make sure that they are 
complementary and not duplicative in how we work.
    We do that today in the specific example you provided, 
which was meteorological sensors and satellites for weather 
forecasting.
    Mr. Rogers. Well, you have got a lot of work to do. This is 
going to be a little bit complicated as we go along.
    General Thompson. Yes, sir.

          MODEL FOR SPACE FORCE SAME AS NAVY AND MARINE CORPS

    Mr. Rogers. Have you studied the creation of the U.S. Air 
Force out of the old Army Air Corps? Was that a good model to 
follow?
    General Crosier. Yes, sir, we did study it. In fact, some 
of the language that we submitted in our legislative proposal 
last year--and, of course, Congress adopted their own version 
of the Space Force, which we are happy with and comfortable 
with; we like what we got out of legislation--but some of what 
we provided in our legislative proposal was actually translated 
from the initial legislative proposal from the creation of the 
Air Force in 1947.
    We had access to those documents, and things like technical 
conforming amendments about how you make sure that you can pay 
people as they move to services. We used a lot of that. So we 
did. What we have also done, though, is we have really looked 
at our partners in the Navy and the Marine Corps because the 
model that we have adopted, that Congress adopted that, again, 
we are very comfortable with, is two separate and equal 
services inside a single department. And that is the same model 
with the Department of the Navy who has two separate and equal 
services in the U.S. Navy and the U.S. Marine Corps. The same 
is true. One Department of the Air Force, two separate and 
equal services, the U.S. Air Force and the U.S. Space Force, 
but we have taken a lot of lessons from the Navy and Marine 
Corps about how do you apportion the budget? How do you do 
requirements together? How do you share a common secretariat or 
secretary infrastructure? And we have learned a lot and adopted 
a lot from that.
    Mr. Rogers. Good luck.
    Mr. Visclosky. Mr. Diaz-Balart.

                         ROLE OF NATIONAL GUARD

    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    So we have recently been talking a lot about, and I think 
we had a meeting with the National Guard, and they are 
obviously an integral part of our defense and so what--and they 
also have this unique ability of--they have folks in the 
private sector that have, you know, special expertise. So how 
do you see them being incorporated without--to go to one of the 
previous questions without redundancy. What is the role of the 
National Guard? How do you see it happening? How do you see 
that being put together?
    General Thompson. Congressman, let me say first, both the 
Guard and the Reserve are vital to mission execution today 
inside the U.S. Space Force. We simply could not execute all of 
our missions without the support and the capability that both 
of them provide today. So I would tell you already both inside 
of the Guard and Reserve, both in the Guard Bureau and the Air 
Force Reserve have already aligned themselves and their units 
that provides space capabilities to provide effective support 
to the U.S. Space Force.
    So we know that they already support us today. They have 
already made some organizational adjustments to continue to 
ensure that that support is effective. One of the things that 
we are doing as a result of this opportunity to look at a 21st 
century service is to look at the Active Duty, Reserve, and 
Guard construct through a 21st century lens.
    And so we have put a focused team together. That team 
includes members of guard, members of the Reserve, Active Duty, 
and our civilian experts to look at whether or not we think 
there are some changes to that approach that might be merited. 
We haven't presupposed or precluded any outcome, but while we 
are effectively aligned today with the Guard and Reserve--they 
continue to support the Space Force--we are going to take a 
clean sheet 21st century look at this relationship, at these 
components, and see if changes are warranted.
    Mr. Diaz-Balart. So, again, those decisions have not yet 
been made?
    General Thompson. Correct.
    Mr. Diaz-Balart. You are looking at them, which makes 
sense. So one of the things that when you think of the Space 
Force, you know, you think of protecting our military assets, 
but do I understand that--and I think, Judge Carter, you talked 
about those rules of engagement, right? One of the things 
obviously our military and Navy does is protect sea lanes, open 
sea lanes. So do you also see the role to protect civilian U.S. 
assets and that kind of thing?
    General Thompson. Yes, sir. As you know, that is the role 
of our warfighting combatant commanders. In fact, with the 
establishment of U.S. Space Command that new space combatant 
command last August, that was one of the responsibilities 
conveyed on the combatant commander, the Commander of the U.S. 
Space Command is, when directed, provide protection to civil, 
commercial, and other interests of the United States and our 
allies. So we could certainly see that today and in the future.
    Mr. Diaz-Balart. Great. Thank you.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Aderholt.

            ROLE OF ARMY'S SPACE AND MISSILE DEFENSE COMMAND

    Mr. Aderholt. Thank you, Mr. Chairman. Thanks.
    Thank you for being here. Could you talk about the role of 
the Army's Space and Missile Defense Command in Space Force, 
and, in particular, I am interested in what role that 
Huntsville, Alabama, the tech center there, would play?
    General Thompson. Sir, the Army has brought tremendous 
space capabilities for decades--obviously, as you noted, 
missile defense, but Space and Missile Defense Command is the 
core of their space capability.
    As General Crosier described, we are in the process right 
now--first of all, they effectively support the U.S. Space 
Command, the combatant command today. And as General Crosier 
described, we are engaged in a process with the Army and the 
rest of the Department in defining what parts of that command, 
what capabilities, what missions might, in fact, transfer into 
the U.S. Space Force to continue to operate in that role and 
which elements will remain behind in the Army to provide 
effective space support.
    And let me give you a couple of examples. One of the things 
they do today is the Army has a series of units that operates 
our military wide band communication satellite payloads. They 
do that globally for the entire Department of Defense. That is 
one that you might consider as a military space mission that is 
focused on space that might be considered for transfer. At the 
same time, they have a whole series of teams that they call 
space support teams. The sole purpose of those teams are to 
bring space capabilities, and facts and understandings to Army 
maneuver units. They exist to ensure that Army units 
effectively exploit space capabilities today. Those sorts of 
units probably don't make sense in the U.S. Space Force. They 
need to stay behind in the United States Army.

                          COMBATANT COMMANDERS

    So all of the missions of the Space and Missile Defense 
Command are vital today, will continue today in one way, shape, 
or form. The analysis that we are doing now will determine 
which elements might transfer to the U.S. Space Force and which 
will remain behind and support the United States Army.
    Mr. Aderholt. Thank you. What will you be doing to ensure 
that combatant commanders will continue to have the access to 
their need for Space-based information and avoid creating 
levels of control and bureaucracy in the Space Force which 
would actually slow down the process?
    General Thompson. Sir, General Raymond as the commander of 
U.S. Space Command, one of the first things he did when he 
established the command, he established what he called 
integration--forward integration and planning elements with 
every single combatant command. Their purpose it was modeled 
after what had been done in U.S. Cyber Command, to ensure the 
expertise, the capability, and ability to integrate operations 
and plans for all of the rest of the combatant commands was 
there for space as it was in the other domains. That was 
instead of a more traditional model and a larger resource model 
that created individual components in all of those commands.
    The job of the U.S. Space Force will be to ensure that 
those planning elements and the individuals in those planning 
elements that are U.S. Space Force members are adequately 
trained, have the adequate expertise and are prepared to 
support U.S. Space Command and combatant command in that work 
that needs to be done.
    Mr. Aderholt. In terms of rolling out the plans to locate 
the various parts of the Space Force and how it will all be 
supported, how are the studies going to be in terms of the cost 
of living and the cost of operations?
    General Thompson. The Department of the Air Force has a 
very objective and transparent process by which we define the 
criteria that we need for basing decisions on a whole host of 
factors, assess them, develop options, and ultimately do a 
selection process. Our intent is to use that same process that 
is used for strategic basing for decisions across the 
Department of the Air Force at the point at which it becomes 
necessary and prudent in the establishment of various commands 
inside the Space Force.
    General Crosier. If I could just add very quickly. So in 
the congressional report that we submitted just a few weeks ago 
to this committee and to the rest of the Congress, what we said 
was as we looked at these organizations that are moving from 
the Air Force into the Space Force and potentially 
organizations that might move from the Army, Navy, or other 
DOD, we used a phrase, we said, we wanted to to the maximum 
extent practical keep organizations located where they are. We 
have said cost and maintaining cost and being careful about 
cost is a very important parameter for us. And, frankly, unless 
there was an overwhelming need to relocate something--and in 
most cases we don't really see that--then it is far more 
effective and less expensive to continue to maintain 
capabilities where it is.
    So, again, we will look on a case-by-case basis, but we 
have been very clear, unless there is an overwhelming 
operational need that we would much prefer leaving things where 
they are, at least, for the near term to midterm until the 
Space Force grows into its final operating capability.
    Mr. Aderholt. Thank you.
    Mr. Visclosky. Thank you.
    Mr. Womack, you are recognized. I think we are batting 
cleanup.
    And since we have about 20 minutes, General, I would ask 
and you have been very good in your answers, but I think we are 
looking for additional brevity because I do have a series of 
questions, too. But floor is yours, Mr. Womack.
    Mr. Womack. So I am supposed to be brief?
    Mr. Visclosky. No. You are always a gentlemen. I am not 
worried about you.

                          SPACE NATIONAL GUARD

    Mr. Womack. Well, I will be brief.
    Well, not completely satisfied with the answer on the 
Guard, so I am going to pushback a little bit and press a 
little bit. We have--in my State--I am Arkansas--we have space-
focused missions already. And, frankly, I don't understand why, 
because of the reporting requirements as you stand this 
organization up, I don't understand why we are going to not 
incorporate space guard, create a Space National Guard because 
we have those elements, why we wouldn't do that on the front 
end, while we will study it later. By not doing it now, does it 
make it easier just not to ever do it? I mean, in all the other 
services, our Guard and Reserve folks bring so much value to 
the process and their expertise inside the uniform and, in many 
cases, in their civilian occupations lend itself. And I know 
that part of the reporting requirements as was contained in one 
of the documents in the open-source information was to prevent 
what was called bureaucratic bloat and redundancy. It just 
makes sense that the space guard idea should have been part and 
parcel to the process from the beginning and should be 
incorporated. And I am not satisfied that it is not.
    General Thompson. And Congressman, I will tell you that in 
many of the areas that we are looking at, in acquisition and 
personnel management, in a whole host of areas, there are many 
people who simply believe the way we do things today are 
effective and we should continue to do that. And in many ways, 
we ultimately may do that and probably will do that.
    What I would suggest is, it is probably harder to create a 
guard and then try to uncreate a guard rather than it is to do 
a study and then later say the proper answer is to get guard or 
not a guard.
    And so what we don't want to do is put blinders on or 
presuppose an answer, at the same time not precluding it, just 
make sure we have allowed ourselves full flexibility to 
understand the problem, understand the solutions, understand 
the advantages, the pros and cons, and make the decision going 
forward.
    Mr. Womack. So what is your answer to the space-focused 
guardsmen out there who have been--I don't want to say 
overlooked, but maybe they just feel bastardized in some way? 
That may not be the right way to say it, but what is your 
answer?
    General Thompson. What I would say is----
    Mr. Womack. Where do we fit in this process?
    General Thompson. All of those units that were previously 
aligned Air Force Space Command are now realigned to U.S. Space 
Force units. They continue to execute the mission. They 
continue to be as vital today as they were before that, and 
they will be as long as this construct is in place until we 
decide what the future looks like and we implement it. So they 
are just as valuable and important to us today.
    Mr. Womack. So, from an upward mobility standpoint, how 
will these airmen in space-focused missions advance without a 
space guard? I am not real sure how----
    General Thompson. Well, sir, they advance inside the Guard 
structure today. That Guard structure remains in the Air Force 
and in the Army, you know. I would hope and I would expect--and 
I know General Lengyel is a strong supporter--they would have 
the same advancement opportunities inside the Guard today that 
they have had in the past.
    Mr. Womack. Call me skeptical with the process. We will 
keep an eye on it.
    General Thompson. Yes, sir.
    Mr. Womack. And I thank you.

                        SPACE DEVELOPMENT AGENCY

    Mr. Visclosky. Thank you.
    I would start by associating myself with the questions 
raised by Mr. Diaz-Balart as well as Mr. Womack. I did not hear 
the complete interchange, but would be concerned about some of 
the personnel suffering because they have lacked schooling or 
career advancement opportunity. So, again, appreciate that 
being raised and apologize. It has been a while since we have 
been interrupted by a vote. We have a prime real estate here. 
So we are not looking to prolong anything, but we can continue 
for a moment.
    The space programs and other programs in the Federal 
Government from time to time are run overbudget and behind 
schedule.
    My concern is, because the Air Force will not relinquish 
authority over the acquisition decisions for several years, the 
Space Force is developing a proposed plan for an alternative 
acquisition system to streamline it. The plan is set to be 
before the United States Congress at the end of this month, but 
as you know beginning in April, we are writing our bill. The 
question is: The commitment will be met as far as the end of 
March, and, as you sit here or between now and the end of 
March, if there is an anticipation of a substantive budget 
issue for 2021, I assume we have your assurances we would hear 
back from you on that?
    General Thompson. Yes, sir.
    Mr. Visclosky. Okay. The Space Development Agency is slated 
to move to the Space Force in October of 2022, more than 2 
years from now. If everybody is agreed it should move, why the 
wait, if I could ask?
    General Thompson. Sir, the thought inside the Department 
right now is, both the Space Development Agency and the U.S. 
Space Force are two young and immature organizations that have 
been given an aggressive charter and an aggressive purpose and 
an aggressive mission. And the thought was each one of them, 
understanding the ultimate end state, each one of them needs 
the opportunity to develop and grow and reach a level of 
maturity before we bring them together. I will tell you that we 
have already been, since the establishment of the Space 
Development Agency, we have been working very closely with them 
on ensuring that the activities of the Space Force and the SDR 
are complementary. We are sharing architectural ideas, 
requirements, and things like that. So we are working together, 
but the thought was, let both organizations mature a little bit 
and then bring them together.

                              LAUNCH COSTS

    Mr. Visclosky. Okay. On a launch cost for fiscal year 2020, 
Congress appropriated $1.2 billion for launches, rough 
approximation $310 million per launch for 2021. We are looking 
for three launches for a billion comes out to about 350 million 
per launch. Realize part of that cost is government oversight. 
Any reason for the continued increase in launch costs and also 
recognize we have got a competition going on here? The theory 
is all of this is supposed to be reducing that average launch 
cost.
    General Thompson. Yes, sir. So what I would propose. I will 
give you the answer and then propose we would come back to you 
and your staff with more detail. It is also a matter of the 
type of mission, the size of mission, the uniqueness of the 
mission, the complexity of the mission, and the missions in 
2021 in that sense are a little more complex. They are going to 
unique orbits. They have some specific requirements that aren't 
what I would call part of a typical launch.
    What I would suggest to you is, we get together with you 
and your staff. We go through the elements of the mission and 
the elements of the cost, in particular, and I think what you 
will see is those cost differentials are based on the 
uniqueness of the mission. You are absolutely correct. We are 
in the middle of a competition. We expect to award this summer, 
and we fully anticipate cost savings out of that program.

                              COMPTROLLER

    Mr. Visclosky. Okay. My understanding is you will not have 
your own comptroller. Are you worried about your independence? 
Is there a plan at some point to house a comptroller in your 
organization?
    General Crosier. Congressman, so already, as you know, we 
have submitted a separate Air Force budget from a separate 
Space Force budget in this budget build fiscal year 2021. In 
fiscal year 2022, we already have--the budget that we submitted 
was largely built by the Air Force with some Space Force 
involvement and participation, as the Space Force stood up only 
in December as you know. But the fiscal year 2022 budget, we 
are taking responsibility to build as the Space Force.
    So General Raymond as the CSO has a pot of money that has 
been allocated to us to recommend to the Congress for 
appropriation, and he has control and authority over how we 
will recommend that money to be used. So I think he has 
complete autonomy within that cap, within that dollar value 
that we have been given, within the budget bogie if you will, 
and I think he has complete authority to oversee that. What we 
have done is, because the comptroller proper is in the 
secretariat and we are two services and one Secretary, we will 
share the FM, the comptroller function in current year of 
execution. But what we did to make sure that we had not just 
appropriate representation but to ensure that they had enough 
manpower to manage two separate budgets now is we have invested 
a number of billets from the U.S. Space Force into our FM 
function so that we have dedicated full time people doing the 
Space Force budgeting mission in direct support of the Space 
Force.
    Mr. Visclosky. The Air Force will be executing activities 
on your behalf. Will they be charging you a tax for those in 
the coming fiscal year?
    General Crosier. Congressman, I am not aware of any taxes. 
Obviously, we have to work out the details of exactly how we do 
budget allocation, one Department, two services. As I have 
said, we looked heavily at the Navy and Marine Corps, but, 
Congressman, I am not aware of any tax processes or any idea 
for that.

                                 BUDGET

    Mr. Visclosky. Okay. No organization's life is unstatic. I 
notice that the budget grows somewhat over the next 5 years, 
but not appreciably. However, recently the chief of staff of 
the Air Force indicated that he did not think that the current 
funding levels for the Space Force was sustainable and that the 
Nation's needs when it comes to space capability are going to 
enlarge. Any sense looking out these next 4 years and the 5-
year plan where we are going to hear back and there is going to 
be a bump?
    General Thompson. Chairman, I would say, first of all, I 
think like many of the rest of our Armed Forces, the Space 
Force is probably smaller than the Nation expects. However, we 
have been blessed over the last several years with significant 
increases in the budget after what we need as a space 
warfighting domain, and all I would tell you going forward is, 
based on the guidance from the administration, based on what we 
do in terms of Congress, based on the resources provided, that 
the chief of space operations working with the Secretary and 
the leadership of the Nation will create the investment 
strategy, the best investment strategy we can to meet the 
challenges we face in space.
    Mr. Visclosky. I don't mean this in any disrespect at all, 
and there was an interchange earlier about the size of the 
National Intelligence Administration and whether it was 
supposed to be 100 and whether it was 1,200 there now, but it 
appears that the Space Force is planning to have two four-star 
general officers and at least three three-star general 
officers. You mentioned before the small size of the Space 
Force, a tenth of the size of the Marine Corps. Any concern 
that we are going to end up being top heavy with officers?
    General Thompson. Sir, there is absolutely concern, and 
what we would love to do, we are finishing our analysis and our 
final proposal to come back and share those numbers. I will 
tell you two things: First of all, there has been tremendous 
pressure and tremendous drive from our leadership to hold down 
the bureaucracy of this force, and we are going through a 
number of initiatives--and if you would like, General Crosier 
will share some of those--to ensure that we are agile, we are 
lean, and we are mission-focused. We are using a lot of 
innovative approaches to ensure that is the case. The 
additional challenge that we have is we also have to function 
inside the Department of Defense and the national security 
enterprise. And to be effective--and we have got to be 
effective functioning inside that enterprise--comes with it 
what I will call certain things that we have to do to 
effectively engage in the budgeting process to effectively 
ensure that our--that chief space operations fulfills his role 
with the Joint Chiefs to do planning, programming, to do all of 
those things. And to sort of plug into that enterprise 
effectively is going to drive some things that we need. And 
what we would like to do is do two things: Show you how that 
works, number one, but also to show you the metrics we 
developed that we believe shows we are, in fact, relatively 
speaking light and lean when it comes to bureaucracy.
    Mr. Visclosky. General, I do trust your good faith, and I 
would appreciate also we had an exchange in our office last 
week relative to budget justifications, and I do appreciate 
that people have followed up with us and shown the committee 
the respect I think it deserves.
    I would encourage you in that and it is hard sometimes to 
resist requests. We are here also to be helpful to you to 
manage the size so you are exactly the size you do need for our 
national security; no less, but no more. So we would want to 
participate in that as well. So thank you very much.
    Mr. Calvert.
    Mr. Calvert. One last comment. I was somewhat surprised you 
had an unfunded priority list already of $1 billion, and so you 
are learning your lesson from your parent organization. So I 
just thought I would point that out.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Calvert is on fire today.
    Ms. McCollum.
    Ms. McCollum. Mr. Chair, Ranking Member, this really isn't 
for you gentlemen to answer today, but we need to think about 
how the Space Force is going to align with NATO and our other 
allies as we look at Russia and China. Is the Air Force going 
do it? Because it took a while after World War II to develop 
NATO, and different NATO allies are aligned different ways. 
They have all been working on space. They have things done 
differently, and so this is going to have to be a decision and 
discussion that is going to have to take place. And I think it 
needs to take place sooner rather than later if it is 
happening. I think you are so busy with everything else right 
now and fulfilling your mission of trying to get yourself 
organized at the same time do the excellent job you do in 
space, but that is probably a luxury discussion that that takes 
place. But if we are going to figure out, as we patrol the seas 
to keep them navigable, as we do drills to make sure that 
things work on the ground, we will have to figure out how Space 
Force interacts with our allies.
    General Crosier. Congresswoman, if I can just add very 
quickly, you are right. We do have a lot on the plate, and we 
are very busy, but the Air Force, the space elements within the 
Air Force had a pretty robust engagement with allies and 
partners before the Space Force was stood up, and that mission 
has translated. And we are paying particularly attention to 
that. In fact, just a few weeks from now, we have the annual 
space symposium out in Colorado Springs, the end of March, 
first week in April. And General Raymond, our CSO, is hosting 
his first ever space chief's conference--international space 
chief's conference at the space symposium. So he is going to 
have--I am not sure--10, 12, 15 foreign space chiefs, allied 
space chiefs that are there at the symposium with him and 
already starting to do the engagements to figure out how we are 
going to work together. So we are on a positive trend, I think. 
We have a lot of work to do, but I think we have got a lot of 
those engagements already established.
    Ms. McCollum. As has been said before, good luck, and I say 
that as a daughter of an Army Air Corps person. Good luck.
    Mr. Visclosky. Gentlemen, thank you very much. You have a 
fascinating but very difficult challenge ahead of you. You do 
have our best wishes. And because it is new, it is unchartered, 
good things happen, problems occur. Please stay in touch and 
let us know. We want you to be successful here. So we are 
adjourned. Thank you very much.

                                           Thursday, March 5, 2020.

                         DEFENSE HEALTH PROGRAM

                               WITNESSES

LIEUTENANT GENERAL R. SCOTT DINGLE, SURGEON GENERAL OF THE U.S. ARMY
REAR ADMIRAL BRUCE L. GILLINGHAM, SURGEON GENERAL OF THE U.S. NAVY
LIEUTENANT GENERAL DOROTHY A. HOGG, SURGEON GENERAL OF THE U.S. AIR 
    FORCE
THOMAS McCAFFERY, ASSISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS
LIEUTENANT GENERAL RONALD PLACE, DIRECTOR, DEFENSE HEALTH AGENCY
BILL TINSTON, PROGRAM EXECUTIVE OFFICER, DEFENSE HEALTHCARE MANAGEMENT 
    SYSTEMS

                Opening Statement of Vice-Chair McCollum

    Ms. McCollum. The Subcommittee on Defense will come to 
order. This morning the subcommittee will receive testimony on 
the defense health programs in the military health system, and 
we have six witnesses with us today and we welcome them: 
Lieutenant General R. Scott Dingle, Surgeon of the U.S. Army; 
Rear Admiral Bruce L. Gillingham, Surgeon of the U.S. Navy; 
Lieutenant General Dorothy A. Hogg, Surgeon General of the 
United States Air Force; Mr. McCaffery, Assistant Secretary of 
Defense for Health Affairs; and Lieutenant Ronald J. Place, 
Director of Defense Health Agency; and Mr. Bill Tinston, 
Program Executive Officer of Defense Healthcare and Management 
Systems. Today we have serious questions on how medical reforms 
have been accounted for in the President's budget for fiscal 
year 2021.
    As you will notice, we will have members coming in and out. 
We are getting briefings on COVID-19 as we speak, and there is 
a few other meetings going on. But your full testimony is 
available, and I know members had it like I did last night to 
read through it.
    So we will get started. Across the spectrum of the military 
healthcare system, from military readiness to benefit care, in 
many cases the budget justifications lacks adequate detail for 
the subcommittee to make informed decisions. We hope the 
witnesses today can address the subcommittee's questions and 
concerns.
    Out of particular interest we look forward to hearing about 
the role of the Department in addressing or assisting other 
Federal agencies dealing with the epidemic or pandemic possible 
outbreaks, such as COVID-19, the Department's study on reducing 
and eliminating certain healthcare services at many military 
treatment facilities, and an update on the Department's 
electronic healthcare record system, MSH Genesis.
    We look forward to hearing about these topics and more. 
And, with that, I want to once again thank you for appearing 
before the subcommittee. And now I want to recognize our 
distinguished ranking member, Mr. Calvert, for his comments.

                     Open Statement of Mr. Calvert

    Mr. Calvert. Thank you, Madam Chairman, and I want to thank 
you for referring to this horrible disease as COVID-19. I am 
from Corona, California, so we want to make sure that we call 
the disease what it is.
    Ms. McCollum. I did it for you.
    Mr. Calvert. And I appreciate that very much.
    I want to welcome our distinguished panel. This is a 
critical year for the military healthcare system with a lot at 
stake. We are trying to keep the COVID-19 virus from impacting 
readiness while also going through significant structural 
changes to the system.
    These changes include transitioning military treatment 
facilities from the services to the Defense Health Agency, 
consolidating some facilities and shifting medical specialties 
to focus more on operational readiness, all while continuing to 
implement a new electronic health records system. Currently, 
you have a lot on your plate.
    Given that these issues will impact a broad population, to 
include military personnel, dependents, and retirees, I can't 
overstate the importance of keeping us apprised of your 
progress and informing us when you need help. We must ensure 
that health and safety are not adversely impacted as a result 
of these structural changes.
    During my time, I will ask you to address some of these 
issues, starting with your preparedness and resourcing for 
COVID-19. We all know the impact it has globally, and I will be 
interested in your plans to mitigate its effect on the force. 
In addition, I will ask about your views on the structural 
changes to the military healthcare system and their potential 
impact on readiness. And, finally, I look forward to hearing 
about the progress on implementing the new electronic health 
record.
    Thank you for your service. I look forward to your 
testimony.
    With that, Madam Chairman, I yield back.
    Ms. McCollum. Thank you.
    Mrs. Lowey and Ms. Granger are hoping to be joining us, and 
we will break for any statements that they wish to make when 
they arrive.
    As I said earlier, your full written testimony will be 
placed in the record, and members have copies at their seats. 
And I told some of you I was riveted reading last night. So we 
have it, and we thank you for it.
    In the interest of time, however, I am going to strongly 
encourage each one of you to keep your summarized statement to 
3 minutes or less, and I will let you know when you are at 3 
minutes. I will do so gently, and then it might get a little 
louder with the gavel.
    So, Lieutenant General Dingle, will you lead us off with 
the 3-minute remark.

                      Statement of General Dingle

    General Dingle. Thank you, Vice Chairwoman McCollum, 
Ranking Member Calvert, and distinguished members of the 
subcommittee. It is an honor to speak before you today. The 
mission of the Army Medicine is to conserve the fighting 
strength as the Army is called upon to deploy, fight, and win 
wars in support of our National Defense Strategy. We accomplish 
this not independently but as part of a synergistic Joint Force 
that is represented before you today.
    The Chief of Staff of the Army says: People first and 
winning matters because there is no second place in combat.
    Like General McConville, I and everyone in Army Medicine 
recognize the foundational strength of our Army lies in our 
people, our soldiers, their families, our civilians, and our 
soldiers for life. They are our greatest strength and our most 
important asset.
    My vision for Army Medicine is to ensure that we remain 
ready, reformed, reorganized, responsive, and relevant in this 
era of unprecedented global complexity, change, and 
uncertainty, whether in support of multidomain operations, 
large-scale combat operations, or pandemic emergencies. As the 
Army undergoes modernization to support the multidomain 
battlefield, we will lead through change and reorganize to 
remain relevant and responsive to the warfighter.
    However, our unwavering commitment to save lives on the 
battlefield will never change. In tomorrow's multidomain 
battlefield our adversaries may possess robust anti-access and 
aerial--area-denial capabilities that will test our ability to 
provide prolonged field care. Consequently, our medics will 
have to sustain life in austere locations. This requires 
changes in our doctrine, training, and material solutions.
    To remain relevant in this new environment, Army Medicine 
must leverage 21st century digital technologies along with 
cutting-edge research and development in order to remain 
proficient. Army Medicine is assisting in the prevention, 
deterrence, detection, and treatment of infectious diseases.
    Similar to HIV and the Ebola responses, Army Medicine is 
working with leading agencies and institutions to combat COVID-
19. Army Medicine's ability to prevent, detect, and treat 
infectious diseases depends greatly on the Army's research, 
development, and public health capabilities that enable a 
medical ready force and a force that is medically ready.
    In closing, I want to thank the committee for allowing my 
colleagues and I to speak before you this morning. America 
entrusts the military health system, Army Medicine, and the 
services with its most precious resources, our sons and 
daughters. It is imperative that we get it right, and we will. 
Your commitment and continued support assures the Joint Force 
that when a wounded soldier cries out ``medic'' in combat, we 
will be there ready to respond because Army Medicine is Army 
strong.
    I look forward to answering your questions.
    [The written statement of General Dingle follows:] 
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Sir, that was delivered with precision 
timing. Thank you.

                  Statement of Rear Admiral Gillingham

    Rear Admiral Gillingham, your statement, please.
    Admiral Gillingham. Good morning. Madam Chairwoman 
McCollum, Ranking Member Calvert, distinguished members of the 
subcommittee, on behalf of the over 60,000 men and women who 
comprise the mission-ready Navy Medicine team, I am pleased to 
be here today. I am grateful for the continued trust you place 
in us.
    The mission of Navy Medicine is tightly linked to those we 
serve, the United States Navy and the United States Marine 
Corps, their ability to prevail across the range of military 
operations depends on their medical readiness and our 
capability to enhance their survival on the high-end fight.
    At its core, survivability is Navy Medicine's contribution 
to lethality. To this end, our one Navy Medicine priority is 
the people, platforms, performance, and power are strategically 
aligned to meet these imperatives: Well-trained people working 
as cohesive teams on optimized platforms demonstrating high-
velocity performance that will project medical power in support 
of naval superiority.
    I can tell you that these priorities are rapidly taking 
hold. On any given day, Navy Medicine personnel are deployed 
and operating forward in a full range of diverse missions, 
including damage control resuscitation and surgery teams; 
trauma care at the NATO Role 3 Multinational Medical Unit in 
Kandahar Airfield, Afghanistan; humanitarian assistance onboard 
our hospital ships; and expeditionary health service support 
and force health protection around the world.
    There is no doubt that people are at the epicenter of 
everything we do, dedicated Active and Reserve personnel, Navy 
civilians, serving around the world in support of our mission. 
In order to meet current future challenges. We must recruit and 
retain talented medical and civilian workforce. Navy Medicine 
continues to focus on several key areas, both our officer and 
enlisted communities, including critical wartime and 
operational specialties, as well as mental healthcare 
providers.
    Importantly, we are now embedding 29 percent of our 
uniformed mental health providers directly with fleet, Fleet 
Marine Force, and training commands to improve access to care 
and to help reduce stigma. All of us have a responsibility to 
do everything possible to reduce the incidents of suicide. It 
is important--its impact is devastating and affects families, 
shipmates, and commands.
    Collectively, substantive military health system reforms 
directed by Congress in fiscal years 2017 and 2019 National 
Defense Authorization Acts represents an important inflection 
point for military medicine, catalyzed our efforts to 
strengthen our integrated system of readiness and health.
    Navy and Marine Corps leadership recognize the tremendous 
opportunity we have to refocus our efforts on medical readiness 
while transitioning Healthcare Benefit Administration to 
Defense Health Agency. You would expect from a transformation 
of this scale, MHS reform presents us with both challenges and 
opportunities. We can point to progress made to date. However, 
all of us recognize there is much work ahead.
    In summary, the Nation depends upon our unique 
expeditionary medical expertise to prepare and support our 
naval forces. It is a privilege to care for our sailors, 
marines, and families. Again, thank you for your leadership, 
and I look forward to your questions.
    [The written statement of Rear Admiral Gillingham follows:] 
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Ms. McCollum. Thank you.
    Lieutenant General Hogg, please.

                  Statement of Lieutenant General Hogg

    General Hogg. Vice Chairwoman McCollum, Representative 
Calvert, and distinguished members of the subcommittee, it is 
my distinct honor to testify on behalf of the 64,600 Active 
Duty, Guard, Reserve, and civilian airmen who comprise the Air 
Force Medical Service.
    At home and abroad, Air Force medics answer the call across 
a broad spectrum of operational, humanitarian, and disaster 
response missions. From the clinic to the battlefield and even 
the back of an airplane, our ability to deliver life-sustaining 
care in the most challenging environments ensures that our 
warriors return home to their families.
    The Air Force medical services' core competency of 
aerospace medicine and aeromedical evacuation focuses on the 
needs of air and space operators and maintainers. Since 
September 11, Air Force aeromedical evacuation crews have 
conducted more than 340,000 global patient movements, including 
13,500 critical care missions.
    In the deployed environment, roughly 30 percent of 
downrange care is trauma related, and the remaining 70 percent 
is disease and nonbattle injuries. These injuries range from 
occupational, dental, and musculoskeletal injuries. Our 
training and currency opportunities mirror these scenarios to 
produce well-rounded, flexible medics who can accomplish any 
mission under the most unpredictable conditions.
    As the National Defense Strategy shifts focus to global 
conflict and peer competition, the Air Force is postured to 
increase lethality, strengthen alliances, and realign 
resources. The Air Force Medical Service is evolving in support 
of these national defense objectives by investing in our 
aeromedical evacuation platforms, ground surgical teams, and 
broadening every medic's skill set, preparing them to deliver 
care in denied environments where we may not have the access to 
functioning airfields or state-of-the-art equipment.
    The story of senior Airman Colleen Mitchell, a young 
medical technician, drives home the criticality of this last 
point. In January, Airman Mitchell was on her first deployment 
when Al-Shabaab militants attacked the airfield at Manda Bay, 
Kenya, killing three Americans. Awakened by the chaos, she 
assumed the role of lead medic. Spending hours triaging and 
treating patients, working with limited personnel and supplies, 
she operated well above her pay grade and outside her comfort 
zone to save lives.
    Airman Mitchell demonstrates the qualities that makes our 
medics remarkable: leadership, technical skill, and an 
unwavering commitment to mission and those whom we serve. As 
the surgeon general, my responsibility is to prepare every 
medic to do what Airman Mitchell did, and I do not take this 
task lightly. Military treatment facilities remain our primary 
readiness platform, but sometimes fall short of offering 
patient volume, diversity, and acuity needed to sustain 
clinical currency.
    Leveraging additional training opportunities through 
civilian and government health organization is paramount and 
will inevitably grow as we rescope the direct care system. 
Military medicine presents unique challenges that a civilian 
healthcare system does not encounter. Our medics will continue 
to rise to those challenges.
    Thank you for your continued support, and I look forward to 
your questions.
    [The written statement of Lieutenant General Hogg follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Ms. McCollum. Thank you.
    Lieutenant General Place.

                     Statement of Lieutenant Place

    General Place. Vice Chairwoman McCollum, Ranking Member 
Calvert, members of the committee, thanks for the opportunity. 
I will add just a few comments to my colleagues.
    The DHA's principle mission is supporting readiness. Within 
that mission are two distinct responsibilities: First is to 
ensure that every person in uniform is medically ready to 
perform their job anywhere in the world. Second is to ensure 
our military medical personnel have the cognitive and technical 
skills to support the full range of military operations, which 
our leaders may call on us to perform.
    The Defense Health Agency is accountable to the Assistant 
Secretary of Defense, Honorable McCaffery, the combatant 
commands, and the military departments' force aim. The DHA 
assumed responsibility for managing all military hospitals and 
clinics in the United States in October of last year.
    Working closely with my colleagues, the service surgeon 
general and the Joint Staff surgeon, we continue to view our 
medical facilities as readiness platforms where medical 
professionals from the Army, Navy, and Air Force both obtain 
and sustain their skills from which these professionals deploy 
in support of military operations.
    The DOD's leadership's recent assessment of which medical 
facilities best support this readiness mission provides the 
basis for moving forward and implementing these decisions. We 
intend to execute this plan in a manner that ensures our 
patients continue to have timely access to quality medical 
care.
    I will highlight a few important points: First, Active Duty 
family members who are required to transition to civilian 
network providers will incur little to no additional out-of-
pocket costs for their care. Second, all beneficiaries in these 
locations will still enjoy access to the MTF pharmacy. Finally, 
we will implement changes in a deliberate fashion at a pace 
local healthcare markets can handle. If market capacity in a 
particular location is more constrained than we estimated, we 
will reassess our plans and potentially adjust them.
    The surgeons general and I are ensuring that the proposed 
reduction in infrastructure and uniformed medical personnel is 
coordinated. This synchronization will be reflected in the 
Department's medical personnel reduction plan, required by the 
fiscal year 2020 NDAA section 719 that is due to the Congress 
in June.
    The DHA is scrutinizing every part of our health budget to 
ensure we are using the resources provided by Congress in a 
manner that most effectively supports our readiness mission. We 
have established four healthcare markets to integrate 
healthcare in specific regions of the country. We will be 
establishing additional markets throughout this year.
    Local military and medical leaders will have the authority 
and responsibility to allocate resources in a way that improves 
patient care and our readiness functions. I am grateful for the 
opportunity to provide further detail on our efforts to 
standardize military medical support to combatant commands, the 
military departments, and to our patients.
    Thank you to the members of this committee for your 
commitment to the men and women of our armed forces and the 
families who support them.
    Ms. McCollum. Mr. McCaffery, please.

                    Statement of Secretary McCaffery

    Mr. McCaffery. Vice Chairwoman McCollum, Ranking Member 
Calvert, and members of the subcommittee, on behalf of the 
Secretary of Defense, it is an honor to speak before you today 
representing the dedicated military and civilian professionals 
of the military health system who support our warfighters and 
care for the 9.6 million beneficiaries that our system serves.
    I am pleased to present to you the defense health budget 
for fiscal year 2021, a budget that prioritizes the medical 
readiness of our military force and their readiness of our 
medical force while sustaining access to quality healthcare for 
our beneficiaries.
    Our proposed fiscal year 2021 budget requests $33.1 billion 
for the Defense Health Program. This proposed budget reflects 
our continued implementation of a number of comprehensive 
reforms to our health system as directed by Congress and 
department leadership.
    Some of the significant reforms are the following: 
consolidated administration and management of our military 
hospitals and clinics under the Defense Health Agency; 
rightsizing our military medical infrastructure to focus on 
readiness within our direct care system; and, finally, 
optimizing the size and composition of the military medical 
force to best meet our readiness mission.
    In implementing these reforms, the Department is guided by 
two critical principles: first, that our military hospitals and 
clinics are first and foremost military facilities whose 
operations need to be focused on meeting military readiness 
requirements.
    That means that our MTFs serve as the primary platform by 
which we ensure servicemembers are medically ready to train and 
deploy. It also means that our MTFs are effectively utilized as 
training platforms that enable our military medical personnel 
to acquire and maintain the clinical skills that prepare them 
for deployment in support of combat operations. Second, that as 
we reform the military health system, we continue to make good 
on our commitment to provide our beneficiaries with access to 
quality healthcare.
    While we implement these changes to the health system, we 
also continue to pursue our other priority initiatives that 
have contributed to the achievement of the highest battlefield 
survival rates in history while providing world-class 
healthcare to our millions of beneficiaries.
    That includes our continued deployment of our electronic 
health record and our ongoing operation of our cutting-edge 
research and development programs, which Congress and this 
committee have long championed. That work in that area is 
playing a significant role in support of the whole-of-
government effort on the COVID-19 issue.
    I want to thank the committee for your continued support of 
these efforts and to the men and women of the military health 
system and the millions depending on us. Your support has 
helped us achieve and continue to drive forward unparalleled 
success in building and sustaining a military health system 
that delivers for our servicemembers, our beneficiaries, and 
our Nation.
    Thank you.
    [The written statements of Secretary McCaffery and 
Lieutenant Place follow:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. McCollum. Thank you.
    Mr. Tinston.

                        Statement of Mr. Tinston

    Mr. Tinston. Vice Chairwoman McCollum, Ranking Member 
Calvert, and distinguished members of the subcommittee, thank 
you for your invitation. I represent the Program Executive 
Office Defense Healthcare Management Systems, also known as the 
PEODHMS. It is my honor to represent this team of professionals 
in their efforts to achieve a single common electronic health 
record for our servicemembers, veterans, and their families.
    Patient-centered care is not only an ethos we use to 
describe our mission, it is fundamental to our design, from 
capturing critical data on the battlefield to documenting care 
at military and veteran medical facilities, we understand the 
patient is our focus. Our patient-centered model highlights the 
broad spectrum of people who depend on MHS Genesis.
    Systems do not create success; people do. Our progress 
depends on the hard work and talent of clinicians, engineers, 
and other business professionals who comprise our MHS Genesis 
team. I want to thank our functional champion, Major General 
Payne, and my VA counterpart, Mr. John Windom, for their 
partnership as we deliver a single, common record.
    In September 2019, we completed Wave Travis at four 
installations across California and Idaho without any patient 
safety issues. The medical staff at Travis Air Force Base 
demonstrated confidence in MHS Genesis. On day one, when a 
patient arrived at the emergency room in sudden cardiac arrest 
2 hours before the official go-live, the team had a choice. 
They chose MHS Genesis, and that was the right decision.
    With every deployment, we hone our process and improve 
capability delivery. For instance, establishing peer-to-peer 
training proved very successful, so successful, in fact, that 
Major General Payne initiated a commanders workshop to 
strengthen commanders' engagement as we move forward with 
deployments.
    This summer, MHS Genesis will deploy to Wave Nellis, more 
than doubling the number of deployed sites. As we move forward 
we seek to industrialize our process while meeting the unique 
needs of each site in order to optimize delivery to the 
enterprise.
    We have proven that MHS Genesis significantly improves the 
patient experience. Any time we can enhance patient care we 
absolutely should. As part of that process, we will continue to 
assess risks and ensure fiscal stewardship making every dollar 
count.
    Critical to making every dollar count is optimizing 
decisions with the VA to increase efficiencies. For example, 
within the next few months, we will launch a joint health 
information exchange with the VA expanding DOD connections with 
private sector healthcare providers.
    In closing, as the son and brother of veterans, I am truly 
invested in the success of this program. Spending significant 
time at Walter Reed with my parents, I understand the 
criticality of delivering patient-centered care. I am confident 
we have the right people in the right place to complete this 
mission. We value transparency, and we value you, the 
committee.
    As the wise sentiment goes, it is amazing what can be 
achieved as long as we don't care who gets the credit. The MHS 
Genesis team exemplifies this wisdom. Together we have the 
opportunity to make a tangible difference in the lives of 
millions of Americans.
    Thank you again for your time, and I look forward to your 
questions.
    [The written statement of Mr. Tinston follows:] 
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. McCollum. Thank you.
    And with great humility and honor, I turn to the full chair 
of the Appropriations Committee, Mrs. Lowey, for her first 
questions.

                       ELECTRONIC HEALTH RECORDS

    Mrs. Lowey. Thank you. Oh, boy. Thank you. I need some 
healthcare, I think, at this moment. But it was all checked 
out. I just lost my voice. But I wanted to come to this hearing 
because, as you probably know, this committee and the other 
committee focusing on veterans has been waiting with bated 
breath to get a healthcare records system that works.
    As you probably know, Mr. Tinston, for decades this 
committee has funded efforts to modernize the health system at 
both the VA and the Department of Defense, in particular, 
efforts to address electronic health records. Now, I understand 
because I have had briefings, hearings on this for the last 5 
years at least. So I know it is difficult, but, frankly, our 
servicemembers and their families have been waiting for far too 
long, and the taxpayers have invested too much to continue with 
problems and delays.
    I am not saying that it is all VA and that DOD is perfect, 
but are you learning anything by this? We had a hearing not too 
long ago with the VA, and the last number I looked at is the 
Department is requesting another billion--billion, in case 
anyone in the audience think I said million--another billion in 
fiscal year 2021. I don't get it. Maybe you can explain why 
this has taken so long.
    If this happened in the private sector, they would probably 
be out of business, but you are too valuable and no way can you 
be out of business. But I don't understand why you can't get 
this done.
    My colleague, Mr. Rogers, is not here. We have had closed-
door hearings, open hearings, private discussions. Another 
billion dollars? Why can't you get this right?
    Mr. Tinston. Ma'am, in September, we deployed--the DOD 
deployed to Wave Travis, which doubled our installed base. It 
was a very successful deployment. We changed the way we 
delivered the infrastructure. We changed the way we delivered 
the training. We prepared people to be effective at doing their 
jobs, and we found it to be a very effective deployment.
    At this point, we have 66 sites underway with Wave Nellis 
coming up next with 10 sites. So I think we are making 
tremendous progress in getting MHS Genesis, the modern 
electronic health record, deployed to the military health 
system.
    We also work very, very closely with the VA program because 
we are really deploying a joint system here. It is a single 
record for both departments, and so, as the VA starts to bring 
their sites on, we will have one instance of the record about 
the patient, not where the care was delivered or who delivered 
the care, available to any provider about the patient when it 
is necessary.
    Mrs. Lowey. Can you give me a better explanation as to why 
you are still bringing on sites? Why is this so complicated?
    Mr. Tinston. So when you----
    Mrs. Lowey. If the VA isn't up to standards and they can't 
get records from a disaster incident that may have happened 2 
years ago, 3 years ago, they are not getting adequate 
healthcare.
    Mr. Tinston. So, when you are delivering an enterprise 
system like an enterprise health records, electronic health 
record that MHS Genesis is, the IT element of it is a small 
piece of the transformation that has to happen in the 
organization. It is an organizational transformation. It is a 
training challenge.
    So you have to work--you deliver the right capability in 
the record, which we have done. You then have to customize that 
record to meet the physical plant of the facilities that you 
are supporting. Then you have to train people to be effective 
clinically with the new workflows that you have introduced.
    So it is not just a turn it on and let everyone start using 
it. You have to be very deliberate about bringing people up to 
speed so that they can be effective so that we don't comprise 
the healthcare delivery as we deploy MHS Genesis.
    Mrs. Lowey. $4.6 billion. Now you want another $1 billion. 
I am sure that our great military has had many, many 
complicated missions, and, frankly, I don't understand. I 
understand what you are saying, but I don't understand why you 
can't get it right. I just hope that next year you won't ask 
for another $1 billion again and another $1 billion with $4.6 
billion.
    And the expertise that you have in the military, it would 
seem to me that this task could have been completed. But I have 
been hearing one excuse after another, year after year. And if 
my colleague, Mr. Rogers, was here, he would probably get even 
redder faced than I am because we have had public meetings, 
private meetings, one-to-one meetings, two-to-one meetings.
    Okay, I guess we are going to have to give you another $1 
billion. I could think of a lot of other things, so I sure hope 
you get it right this time. Can you guarantee that this is 
going to do it; you have finally the expertise to do it?
    Mr. Tinston. Congresswoman we have the right people in the 
right place to be effective at delivering MHS Genesis.
    Mrs. Lowey. I have heard this for the last 5 years, you 
know.
    Mr. Tinston. Yes, ma'am.
    Mrs. Lowey. These people are more expert? They really 
understand the systems?
    Mr. Tinston. Yes.
    Mrs. Lowey. Okay. Mark that down in the record.
    Thank you very much, Madam Chair.
    Ms. McCollum. So noted.
    I recognize Mr. Calvert.

                                COVID-19

    Mr. Calvert. Thank you, Madam Chairman.
    And thank you again for your all being here. I would like 
to start off with a question on the COVID-19 since we are all 
aware of the significant impact it is having around the world.
    I was speaking to General Townsend, the AFRICOM commander 
earlier this week, and he noted that a map showed the U.S. Army 
Africa headquarters, the part they have over in Vicenza, Italy, 
it was surrounded by new cases of the virus in a local 
community. He indicated that fortunately so far they have not--
unless there is anything new this morning--they have not been 
affected, and that that is a testament to the great work that 
people have done in their preparedness to protect our force.
    As this virus continues to spread, what steps are you 
taking to ensure installations both overseas and in the United 
States are protected? And do you need additional resources 
beyond the fiscal year 2021 President's budget request--or in 
the supplemental there may be--some assistance may be available 
to the military also, but to continue to safeguard for the 
force against COVID-19? So I don't know where to start, so 
maybe we will start with the admiral or start down here at the 
end.
    Mr. McCaffery. I would be happy to kick it off, and my 
colleagues can chime in, Mr. Calvert.
    So, when the DOD looks at the COVID-19 issue, there is 
really a handful of priorities we look at: First, it is the 
safety and health and well-being of our servicemembers; that is 
very much tied to then our ability to as we deal with this 
issue to continue to meet mission; and third, how we, the DOD, 
can support the rest of the Federal Government in the all-of-
government approach and strategy on the COVID-19 issue.
    With regard to the guidance we are giving on that first 
priority around the health and well-being of our 
servicemembers, the Department has issued a series of force 
health protection guidance to our servicemembers and our 
commanders built largely around CDC guidance. And so things 
around identifying best science and CDC guidance on risks to 
personnel, healthcare worker protection, protocols for 
screening of patients and reporting any detected virus.
    It is also around giving guidance to self-protection, you 
know, common hygiene in terms of protection against viruses. 
And we also are giving guidance with regard to working with the 
CDC and the Department of State travel guidance in terms of 
restriction of travel to and from select countries.
    And then most recently, sir, giving guidance to 
installation commanders, the combatant commanders with regard 
to how to assess their particular situation on the ground, be 
it installations here or overseas, and what kind of guidance 
they should use in making their flexible judgments about 
protections to put in place on their bases, again, everything 
from restricted travel and access to their bases.
    As the CDC issues additional guidance or things change in 
terms of travel advisories, we will continue to update that 
guidance for the field.
    Mr. Calvert. Thank you for that.
    Any other comments on the force itself? I was curious, 
since yesterday, has there been any other transmissions?
    General Hogg. Not that I am aware of, sir, but for many 
years, we have had disease containment plans and pandemic 
influenza plans that we have exercised at different points in 
time, and so now we are using those plans to help guide and 
direct our actions in relationship to the CDC and Health and 
Human Services guidance.
    Mr. Calvert. Yes.
    General.
    General Dingle. And, sir, from the Army perspective, we 
have taken a three-prong approach of prevent, detect, and 
treat. The prevention is the education awareness of all the 
soldiers and family members within that installation commander, 
our senior commander's footprint. The detection piece or the 
screenings that we are doing as well as the testing to verify 
the presence to acknowledge if it is, in fact, symptomatic and 
those who have been identified that----
    Mr. Calvert. Well, South Korea specifically----
    General Dingle. Yes, sir.
    Mr. Calvert [continuing]. You still have not had any 
additional transmissions you are aware of?
    General Dingle. No additional. Right now, we have one 
soldier, and we have two dependents right now in the treatment 
mode, and then that is the last phase is the treatment, where 
we have implemented our pandemic expansion plans or response 
plans, and every installation, emergency preparedness, and we 
are even going as far as worst-case scenarios on bed expansion 
plans. So we are taking a holistic approach of prevent, detect, 
and treat as an Army.
    Mr. Calvert. And South Korea, specifically, is it General 
Abrams pretty much has all the facilities shut down at this 
point?
    General Dingle. Sir, the prevention piece to ensure that we 
are not spreading and they have not implemented some of the 
normal activities that bring together large gatherings. So 
whether--if it is school, each installation commander makes 
that call under the guidance of General Abrams, yes, sir.
    Mr. Calvert. Okay.
    Admiral, anything to add?
    Admiral Gillingham. Yes, sir. I would just say that I would 
like to thank the committee for the investment that has been 
made over the years in the President's budget for our network, 
worldwide network, tri-service network of research labs.
    I can specifically say for Navy, our research labs that are 
in NAMRU 2 in Singapore, as well as NAMRU in Sigonella, Italy 
are at the forefront of the global response to this emerging 
pandemic. But that investment in our scientists and really 
world-leading knowledge and research is now bearing fruit, and 
you are seeing that dividend in the sense that we now have 12 
of 14 DOD labs actively able to do diagnostic testing around 
the world.
    Mr. Calvert. Thank you.
    Mr. McCaffery. And, Congressman, just DOD-wide. So we have 
as of last night 4 confirmed cases and 12 suspected that are 
being tested.
    Mr. Calvert. And where are those cases at?
    Mr. McCaffery. I don't have that break down, so this is 
across the DOD, both, you know, here and----
    Mr. Calvert. Both CONUS and outside the United States?
    Mr. McCaffery. Yes.
    Mr. Calvert. Are there any cases within the United States 
that you are aware of?
    Mr. McCaffery. I do not believe DOD cases as of yet, but I 
can get you the updated numbers today and break it down.
    Mr. Calvert. I appreciate that. Thank you.
    Thank you, Madam Chairman.

                 DEVELOPMENT OF A VACCINE FOR COVID-19

    Ms. McCollum. Thank you. I am going to ask you to submit a 
report to the committee as soon as possible on the two 
following questions, following up on my colleague from 
California on COVID-19: The $3 billion of the supplemental will 
go towards research and development of vaccines. Considering 
the Department's experience in working with SARS and MERS over 
the past 20 years, two respiratory illnesses that are similar 
to COVID-19, I would like to know what the Department of 
Defense and the Army in particular are doing to work with our 
other Federal agencies and partners, the FDA, CDC, and HHS in 
developing a vaccine.

                 STOCKPILE OF CRITICAL MEDICAL SUPPLIES

    The other information I would like you to share back with 
us as soon as possible, for example, the Federal Government 
maintains stockpiles of respirators, and it has come to all of 
our attention that a number of these respirators have been 
allowed to expire.
    Once again, the military usually does logistics and 
stockpiling with great, great precision. So we would like 
information on the Department in how you have been maintaining 
your own stockpile of respirators and masks and how you would 
distribute them within the different branches of service, if 
needed.
    And, also, again, with your knowledge in this area, what 
role should the DOD play or could play in working with our 
public agencies to maintain proper stockpiles of critical 
medical supplies so our country can be better prepared for 
future healthcare crisis? If you would please follow up and get 
that information to us.

                    MILITARY DOWNSIZING AND CLOSURES

    My question is on military downsizing. Secretary McCaffery, 
as you know, the Department provided Congress with a report on 
February 19 for planned closing and downsizing of up to 50 DOD 
military treatment facilities. And I would stress the word 
``report'' here because most of it is just a list of impacted 
facilities.
    Some of the comments on the downsizing were there would be 
no out-of-pocket cost to families or soldiers or airmen and 
that their prescriptions wouldn't change. But there are other 
things that can impact the delivery of healthcare, not only to 
the person wearing the uniform but the family that is behind 
that person, and our uniform members need to know their 
families are well taken care of.
    So bottom line is, we still don't have a timeline, 
projections of cost savings, a real plan for implementation of 
these downsizing and closures. Now, while I understand the 
Department wants to focus on increased medical readiness of our 
troops and medical forces, the impacts of this organization 
will be significant. And trust me, we will hear from the 
individuals that are impacted by these changes.
    Some numbers I have seen indicate up to 200,000 family 
members and retirees across the country would be pushed away 
from DOD medical treatment facilities and onto civilian 
providers. We need to understand what that plan looks like.
    So, Mr. Secretary, your office has clearly been thinking 
about this for a long time since you do have a list of 
facilities that have been impacted. So there must be a document 
somewhere to back up these facilities in how they were chosen.
    So, Mr. Secretary, how can you expect us to, you know, do 
due diligence with our appropriate, necessary funds to 
reorganize the military's treatment facilities when we haven't 
seen a comprehensive transparent plan from the Department on 
what, when, or how this restructuring will be implemented.
    Additionally, the report submitted on February 19 states, 
and I quote: Upon submission of this report, detailed 
implementation planning will begin with implementation 
beginning not less than 90 days later. We need the information. 
That language, to me, and to many, sounds as though the 
Department believes it does not require congressional approval 
prior to moving forward with the implementation.
    Secretary McCaffery, does the Congress need to stamp its 
approval on the recommendation prior to the Department's moving 
forward with the implementation plans to do scope services at 
military treatment facilities?
    And the final question, for now, as we await your written 
response as soon as possible, if you are not ready to transmit 
to us a comprehensive and transparent plan, why not just ask 
for a delay of the reorganization so we can get it right and 
not cause any confusion for Congress in appropriating its funds 
when your patients, our soldiers, airmen, and marines ask us 
what is happening to them and their families?
    Mr. McCaffery.
    Mr. McCaffery. Yes. So I will try to go through each of the 
questions, and if I have missed something, let me know, and we 
will follow up.
    With regard to the review that the Department has done, 
this was coming out of NDAA 17 direction from Congress to 
assess all of our military hospitals and clinics to ensure that 
we were aligned and matched with their primary mission being 
military facilities and being training platforms for our 
medical force, as well as ensuring that our Active Duty are 
getting convenient access to care in order to be medically 
ready to do their jobs.
    So that is the focus. The reason why in our report to 
Congress we identify some facilities that we are recommending 
for a reduction of services available to MTF, it is because of 
this attempt to tie the operation of the MTF to that readiness 
mission.
    What do I mean by that? There are some facilities where the 
volume of caseload and the type of patient caseload that is 
provided at that particular MTF is not a good match for the 
type of caseload and acuity that our uniformed military 
providers need to maintain proficiency. And those skills that 
we expect them to have currency in----
    Ms. McCollum. Mr. McCaffery, we have limited time. When can 
we expect the followup? You seem to have made--I believe that 
you did due diligence in making your decisions, but we were 
given none of the supporting documents to follow up with them. 
We are being asked to make decisions in a timeframe within a 
matter of months. And as you said, Congress charged you with 
this. So when can we expect a followup and the supporting 
documents?
    Mr. McCaffery. So I will outline that. So the report to 
Congress identified and shared that we did a screen of 348 
U.S.-based hospitals and clinics. Out of those, the Department 
determined 77 needed a deep-dive examination. The report went 
through the methodology we used to identify those, the 
methodology that was used in looking at the community 
availability of community care healthcare. We then--out of the 
77, we actually determined 21----
    Ms. McCollum. Sir, so we have the report, as you pointed 
out.
    Mr. McCaffery. Yes. And----
    Ms. McCollum. When is the implementation plan coming?
    Mr. McCaffery. Well, and including in the report, there is 
for each of the 50 facilities that are being recommended for a 
change, there is an entire use case that goes through all of 
the data that we use specific to that MTF. The report very 
clearly says there is not going to be any immediate change to 
operations, that it is not a one-size-fits-all implementation 
timeline. It will be based upon our work with the individual 
MTF in that community. Some of these----
    Ms. McCollum. Mr. McCaffery, our staff seems to think, and 
I would agree with based on what I and others have seen, that 
we need some more information here. So I will ask you to please 
follow up with the committee because I have a lot of members 
here who have a lot of other questions that I know you are 
going to want to hear about what is on the mind of other 
Members of Congress.
    So I thank you for that, but at this point in time, I would 
say that the Appropriations Committee doesn't feel that it is 
fully informed and ready to go.
    Mr. McCaffery. We will be happy to provide you additional 
information.
    Ms. McCollum. Thank you.
    With that, Mr. Carter. Thank you.

  TRANSITION OF MILITARY TREATMENT FACILITIES TO DEFENSE HEALTH AGENCY

    Mr. Carter. Thank you. I have got a voice problem too. 
Appreciate all of you being here.
    I am trying to learn all this stuff. This gets pretty dang 
complicated. Lieutenant General Place, how is the transition of 
military treatment facilities to the DHA going? What are some 
of the successes you have seen? What are the biggest challenges 
you are facing? And while these treatment facilities 
transitioned to DHS this past October, the services are still 
supporting DHA to keep the train on the tracks. Surgeons 
general describes the support that you continued to provide to 
the military treatment facilities in DHA.
    Lieutenant General Place, what is the plan to decrease 
reliance on support from the services? Forgive my voice.
    General Place. Sir, thanks for that question. So, in terms 
of the first part, how is it going, I would say that I agree 
with you it is an extraordinarily complex and challenging 
transformation. That said, overall, I think we are going very 
smoothly according to the plan, not that everything is perfect, 
not that there haven't been challenges associated with it.
    But in general, as we measure the effectiveness of the care 
that we are delivering and measure the effectiveness of our 
actions to plan, we are actually making good improvements in 
the quality of the care, in the speed with which we are 
delivering the care, and the use of the resources that the 
Congress has been generous enough to provide.
    In terms of the successes, the success we are finding 
actually is in a particular regional market--and I will use 
here in D.C., for example--our ability to utilize all the 
resources of each of the facilities, to include the staff, to 
align them more appropriately to the location where they can 
best provide healthcare.
    Similarly, we are able to use the particular location, 
whether you are enrolled to this particular military medical 
treatment facility or another, to move patients around to 
achieve the best quality of care. So the standardization within 
a market has been a success.
    In terms of the challenge, you are exactly right, and that 
is the reliance on the service medical departments to continue 
to provide direct support. The reason for that is the staffs 
that have been doing it for decades in the services are slowly 
but surely transferring into both our headquarters and into our 
regional markets.
    As we are doing that, we are sharing responsibility for the 
delivery of healthcare and sharing responsibility for oversight 
of that staff. That plan should continue for approximately 
another 6 months or so. My anticipation, at the end of this 
summer, the majority of the staff who will need to be 
transferred will be transferred into the Defense Health Agency 
headquarters. And the reliance on the service medical 
departments, at least for a U.S.-based support, will be 
significantly diminished in almost every area.
    There are some challenges that are still there for the way 
we do our financing, for example, because we use different 
financing systems in each of the different services. So we 
still have to collaborate on some functions, but the majority 
of them will have transferred.
    I think I got to all your questions, sir. If I didn't, 
please remind me.
    Mr. Carter. Any of the other services have any comments?
    General Hogg. Yes, sir. I would echo, this is a very 
complicated merger of four cultures, if you will. And we will 
get there, as long as we get there using manageable risk. What 
that means for me is we need to transition before we transform. 
So we need to be able to continue supporting the Defense Health 
Agency in standing up its capabilities to manage these military 
treatment facilities because if you remember in the past, DHA 
didn't come out of that.
    They came out of the old Tricare management activity, and 
their core competency was writing and managing contracts, not 
managing MTFs. So we need to help them do this mission. And so 
I would ask that we not add additional system changes until the 
Defense Health Agency is standing on their own, is well 
established, and has been managing the market with demonstrated 
success for a period of time.
    General Dingle. And, Mr. Carter, I would add, the 
complexity, as you mentioned, is extremely difficult. And from 
the Army perspective, you know, what we have always championed 
is that we cannot fail at this. We have to get this right. And 
in order to get it right, the focus should be on the MTF 
transitions, which starts with the standup of that 
headquarters. If the headquarters is not up and operational and 
running, then it will continue to require that direct support.
    After you get that headquarters stood up, then you can 
start transitioning the military medical treatment facilities, 
and then we should also be focusing in that transition on that 
electronic health record. From the Army perspective, we believe 
that is the most key thing, and anything else are just 
distractors that are not allowing us to get it right.

                         PATIENT'S SATISFACTION

    Mr. Carter. Is there anything in the Department of Defense 
that is not complex? And the question, I guess, real question 
we ought to be asking, maybe we need to talk to the NCOs when 
they come before us, what do the patient--how are the patients 
feeling about the care? Are they feeling anything that is 
throwing them off balance or that they are not getting treated 
well? Because that is who I am going to hear from in Florida is 
the ordinary soldier, and he is going to be telling me because 
he is not getting what he needs.
    General Place. Sir, that is a great point. We continue to 
track the patients' satisfaction at every location that has 
already transitioned into the Defense Health Agency. And the 
patient satisfaction scores at each of those installations are 
at or above--at every single location that is transitioned is 
at or above what they were at baseline before transition. So 
not perfect--not trying to tell you that it is--but improving.
    Mr. Carter. Well, that is good. Any other comment?
    Admiral Gillingham. Sir, I would just add that we remain 
committed in the Navy Medicine to creating a truly integrated 
system of readiness and health. Going through this transition 
has forced us to look very carefully at our medical readiness 
requirements, and I will tell you that, as we have done that, 
we have identified opportunities for focus.
    I mentioned in my opening remarks we now have almost one-
third of our mental health professionals embedded in the fleet 
and Fleet Marine Force. So we believe that we are seeing--as 
citing a success, we are seeing increased focus on the wellness 
and readiness of our warfighters.
    Mr. Carter. Well, and not to change--take too much more 
time, but this morning I was thinking about the Navy because a 
cruise ship is coming back into the United States waters 
because of, once again, the virus. And I thought, my gosh, what 
happens if we get that on an aircraft carrier or submarine and 
the complications that is going to make for our naval forces?
    Admiral Gillingham. Yes, sir, I appreciate that concern, 
and that is something that we have thought very carefully 
about. And as Mr. McCaffery said, we have worked closely with 
the CDC, World Health Organization, NORTHCOM, and other Joint 
Staff to understand how to eliminate that risk. And so that is 
why one of the requirements that we have established in the 
fleet is that no ship having left port will go to another port 
or arrive in another port and disembark within 14 days.
    Ms. McCollum. Thank you.
    Mr. Carter. Thank you.
    Ms. McCollum. Thank you, Judge Carter.
    Mr. Cuellar.

                     MODIFICATION OF CDC PROTOCOLS

    Mr. Cuellar. Thank you, Madam Chair.
    Thank you for being here. I appreciate your work.
    I want to direct my question on the coronavirus and the use 
of bases, as you know. The Secretary of Defense, Mr. Esper, 
approved a request for assistance from the Department of Health 
and Human Services for housing support for those that had to be 
quarantined. One of those places is in my area in San Antonio, 
Lackland Air Force Base.
    As you know, there was a particular situation that they 
released an individual. And I know that you all are providing 
support services, but I just want to know if you all are 
coordinating. They released somebody that was still pending a 
test. That person went to North Star Mall, went around San 
Antonio. Of course, that caused a problem because the second 
test came back. There was a protocol modification that the CDC 
Director sent off. Are you all familiar with this letter that 
got sent off on the modification of protocols? Anybody?
    Mr. McCaffery. I am not sure which communication you are 
referring to, but----
    Mr. Cuellar. Yes, just basically the modification on CDC 
changes, that is--there were two changes: One, that is if you 
have a quarantined individual, that person will only be 
released if that person has had two sequential negative tests 
within 24 hours, modification number one; modification number 
two, which is the most important one, where I think they messed 
up, was that no person will be released if there is a pending 
test result, and that is what we saw in the San Antonio area.
    My request is that I know that you all are supporting--
providing support services, but I think these modifications 
should be something that we should apply, whether it is in 
South Korea or wherever the case might be. I would ask you, if 
you are not familiar with this, I would ask you to please be 
familiar with this. Any thoughts or comments on this? And then 
I want to ask you a second question.
    Mr. McCaffery. Sure. We will make sure that we have the 
same guidance. I believe we do have what you are showing us. 
And as you pointed out, this is a good example of where the 
Department is in a supporting role to the all-of-government 
effort.
    And so the use of military installations in terms of 
receiving repatriated citizens, the role there was we made 
available our installations and then Health and Human Services 
and the CDC were really--once those folks were on the ground, 
had that responsibility in terms of managing them, providing 
them care, doing the testing and then any kind of referrals out 
into the private healthcare sector. And so we defer to them on 
making and managing that area, but we will take a look at----
    Mr. Cuellar. Yes. And that I understand, but even if you 
are providing support services, if you are off abroad 
somewhere, let's say South Korea, then we better be familiar 
with this protocol. So I would ask you to do that.

                 WALTER REED ARMY INSTITUTE OF RESEARCH

    Second thing is, what I would ask you is, the Walter Reed 
Army Institute of Research is working on a vaccine against the 
coronavirus. Can you give us the status on that progress, 
number one? And also, I think they are working on diagnostic 
testing kits, and how close are we on those two points on that?
    Mr. McCaffery. Yes. So the Military Health System is part 
of the broader interagency on looking at everything from 
diagnostics, vaccine research, as well as antiviral therapies 
for, if you have the condition, how it can be treated. So, in 
fact, we, CDC, NIH, are all--have in progress, have research 
going on on a vaccine, and it has been ongoing. I believe 
clinical trials for that will not be for another few months, 
and so, in terms of a final determined FDA-approved vaccine, 
likely we are looking at, you know, 16 or 18 to 24 months. That 
is from the research that we are doing. I can't speak to 
similar research NIH or CDC are doing on that.
    Similarly, on an antiviral therapy, we may be closer there 
in terms of having something that can be usable. It is actually 
in clinical trials right now for testing of efficacy.
    Mr. Cuellar. Well, as I close, I just ask you all to--I 
know we are putting a lot of Federal dollars in research, and I 
understand that, in different areas. I just want to make sure 
that we are coordinating working together as we use this large 
amount of Federal dollars. And as you saw, the House passed the 
supplemental bill yesterday appropriations. So I just want to 
make sure we are all coordinating.
    Thank you for your service all of you. Thank you.
    Ms. McCollum. Thank you.
    Mr. Womack.

                    TACTICAL COMBAT CASUALTY PROGRAM

    Mr. Womack. Thank you, Madam Chair. And thanks to the 
entire panel.
    I want to direct my question to General Dingle and Admiral 
Gillingham, and I am going to pivot away from all of these 
flavors of the month, COVID-19, et cetera, et cetera, and I 
want to come back to tactical medicine for just a minute.
    It is my strong belief that in the last two decades, thanks 
to the efforts in the entire readiness scenario to better 
prepare our men and women in uniform to perform battlefield 
medicine has saved a lot of lives. There are a lot of people 
that have been able to go home to their families, albeit maybe 
banged up a lot, that in many previous wars would have died on 
the battlefield. And in my regiment back many years ago, we had 
a robust Combat Lifesaver Program, and I think that Combat 
Lifesaver Program was probably the reason we have done so well.
    I know that the military services are transitioning from 
the traditional Combat Lifesaver Program to a more robust 
Tactical Combat Casualty program. So I would like an update. It 
is my understanding that that process is still evolving and 
that the Tier 2 TC3 program is going to become that bedrock 
training for our readiness posture that in the event that we 
were to engage in a near-peer combat scenario more force-on-
force scenario, that a much more robust combat program, combat 
medic program would be important.
    So can you explain to me where we are in this process, how 
it is going, and what you see unfolding in the next year or 
two?
    General Dingle. Mr. Womack, first and foremost, let me 
thank you for recognizing the first responders. Oftentimes, the 
combat medic, the combat lifesaver do not get the recognition 
that they deserve when they are the very first responders that 
stop the bleeding that are enablers to the sustainment of life 
in combat.
    With that said, you are absolutely correct, our program is 
going tremendously within the Army. We call it the Army 
Medicine Medical Skill Sustainment Program, which it involves 
everything from expeditionary combat medic care where we are 
teaching them expeditionary medicine and how to provide 
prolonged care in austere environments, all the way to where we 
are taking our trauma teams, as you mentioned, and embedded 
them in our civilian facilities, those trauma centers, so that 
they can get the touches not just as a trauma surgeon but as a 
trauma team.
    Right now, as we expand that, we currently have three 
programs going on right now across the country. We are going to 
expand that this year in fiscal year 2020 for those trauma 
teams to three more, and then we have about another eight more 
that are right behind those.
    In reference to those enlisted training, also we have what 
we call our Strategic Medical Asset Readiness Training. So that 
SMART focuses, once again, on that combat medic, not just 
training them in simple training environments but also pulling 
them out and putting them into some of those trauma centers, 
too, so they can get those individual critical task lists 
trained to proficiency so, when they are called upon, they will 
be ready to respond.
    Bruce.
    Admiral Gillingham. Thank you, Congressman Womack.
    As an orthopedic surgeon who served as the officer in 
charge of a surgical shock platoon in Fallujah in 2004, I can 
tell you this is of particular interest to me that we continue 
to get this right, particularly as the nature of our adversary 
potentially changes. I will tell you that, in addition to 
moving up in terms of the capability for our enlisted providers 
for TCCC, we are actually in the process of training the 
entirety of the ship to have those basic skills because as 
terrific as our independent duty corpsmen are who are 
responsible for the medical care on our smaller ships, they 
would be rapidly overwhelmed. So we are in the process of 
training the entire crew in fundamentals of tactical casualty 
care, sir.

                    CLOTTING MATERIAL AND TECHNIQUES

    Mr. Womack. I have one followup question regarding new 
medicine, and that is that there is a lot of technology out 
there regarding clotting material in the application of certain 
bandages and this sort of thing. Are we okay with our 
stockpiles? Are we procuring these new technological advances 
in a timely way so that we can use the very best that we have? 
Because, you know, in that golden hour or in those first few 
minutes, that type of equipment is going to be critical to 
helping save lives when otherwise they would be lost 
immediately.
    Admiral Gillingham. Yes, sir. I can't speak directly to the 
supply that we have, but I will tell you that they are--and 
perhaps General Place or Mr. McCaffery can speak in greater 
detail, but I can tell you that there is a tremendous 
commitment in our research enterprise to make sure that we have 
absolutely the best possible, you know, equipment and 
technology in the hands of our first providers.
    General Place. Yes, sir, I will add on to that.
    Both in terms of quality and in terms of the quantity, the 
research that has been occurring within the Military Health 
System, specifically for intraabdominal clotting, for example, 
which is a problem on the battlefield, or junctional hemorrhage 
cases. So where extremities come into the thorax or into the 
abdomen, those are also important. We have cutting-edge 
research that has given us new clotting technologies to be able 
to use in those conditions. So it is not just the quantity of 
them, yes, sir, we have good stocks of them, but it is also new 
qualities of hemorrhage control capacities that we have.
    Mr. Womack. Thank you for the service, for all of your 
service, and I appreciate the answers to my questions here this 
morning.
    I yield back.
    Ms. McCollum. Thank you.
    I saw some of the clotting techniques that they were 
working on out at Fort Detrick just recently, truly amazing and 
will later on have application in the civilian healthcare world 
as well.
    Mrs. Kirkpatrick.

                       ELECTRONIC MEDICAL RECORDS

    Mrs. Kirkpatrick. Thank you, Madam Chair.
    And thank you to all of the panel, excuse me, for being 
here.
    Prior to coming to Congress, I was a hospital attorney. I 
represented a regional hospital that had a number of smaller 
clinics within it and spent a great deal of my time on medical 
records completion. It is not easy. It is very complicated. And 
one of the things that I discovered was that there was a real 
reluctance by some members of the medical staff to use 
electronic medical records. So they were used to dictating 
their charts as they made their rounds, and then that chart 
would go to medical records, and then somebody would transcribe 
that chart in medical records so that it could be electronic. 
It was very cumbersome, took weeks and weeks and weeks to 
complete.

            RECRUITMENT OF PEOPLE INTO THE HEALTHCARE SYSTEM

    So I want to know a couple of things. The other thing we 
found is that it is really difficult to attract young people to 
residencies in the VA, and so I would like you to address what 
you are doing to recruit and attract young people into the 
healthcare system and the delivery system, and then what has 
been done to improve the use of electronic records, let alone 
interoperability? I mean, we can't even get to that until we 
actually have the electronic records in the system.
    So that is an open question to anyone on the panel who 
feels like they can address that. Thank you.
    Mr. McCaffery. Let me start with kind of the larger 
question that you asked and probably would defer to the 
military departments in terms of the specific question of 
things that we are doing to recruit and retain young people 
into--I mean, from our perspective, into the medical side of 
the military. But you indicated the challenge of adopting an 
electronic health record, and I think that is something that 
really--to foot stomp here for everybody. My experience in the 
private sector is even systems like Kaiser that have been 
around, very sophisticated, when they adopted a new electronic 
health record, it took several years for them to do for just 
many of the reasons you pointed out. It is not so much the 
technology. It is how do you train your workforce, including 
clinicians, on that new technology, what are the workflows you 
need to use to match it up, and it has changed management. And 
I think--and I will let Mr. Tinston weigh in with some more 
detail, but we purposely, when we rolled out for the Department 
of Defense, rolled out the her, we did it in a test way in four 
facilities to see what we needed to learn and informed the 
larger deployment, and we learned many of those things. And I 
think that is what has led to the most recent deployment in 
September went far better, and we believe we are really well 
positioned now as we pursue additional waves of getting it out 
throughout the system.
    But I don't know if you have anything to add, Mr. Tinston, 
on that.
    Mr. Tinston. So, Mr. McCaffery, Congresswoman, we did learn 
a lot. We did the initial Pacific Northwest sites. We didn't 
have all of the capabilities that we needed----
    Ms. McCollum. Sir, if you would speak into a microphone so 
that it can be picked up.
    Mr. Tinston. Sorry about that.
    Ms. McCollum. Not a problem.
    Mr. Tinston. We took some time to make sure we had the 
capabilities right with the record and the workflows, and we 
began training those workflows to get people job-ready vice 
teaching them how to use the IT, which is one of the mistakes 
we made out the gate. So we have had much better results with 
Wave Travis, and we anticipate continuous improvements as we 
proceed to wave knowledge and future waves. And as I said 
earlier, we have 66 sites in the deployment process at this 
moment.
    Mrs. Kirkpatrick. Are you working with medical schools to 
train young doctors before they get to residency how to use 
that IT software?
    General Place. Well, ma'am, most of the medical students 
who are on the scholarship programs that end up bringing them 
into our system, they do rotations in our organizations 
already. So, yes, they are being trained on our systems before 
they ever get into it.
    Let me add one other comment to it. We have been using an 
electronic health record within the Military Health System for 
two decades. So the challenge that you are describing is really 
not a challenge that we are having. We are used to using 
electronic health record. The downside of it was it was 
homegrown. It was clunky. There were challenges with it. But 
our culture has changed to accepting the electronic health 
record. The challenges that we are having now is from our 
homegrown electronic health record, where we did our own 
workflows even locally sometimes differently, to the commercial 
off-the-shelf that we purchased, transitioning to that. It is 
not the reliance on the electronic health record that we are 
having the challenge with.
    Mrs. Kirkpatrick. Are you using software you just purchase 
off the shelf?
    General Place. Yes, ma'am. It is a commercial off-the-shelf 
software program.
    Mrs. Kirkpatrick. The other challenge we ran into was 
maintaining confidentiality. So when records are being 
transferred around to different institutions, how do you 
maintain the confidentiality of the medical record?
    Mr. Tinston. So we are fortunate in that we are part of the 
Department of Defense, and so from a cyber security and a data 
protection perspective, we have the baseline of the 
Department's cyber rules and standards to base our 
implementation off of. So we manage the cyber protection with 
the VA because it is a joint record that we are creating 
between the DOD and the VA to meet the DOD standards. And as 
far as the interoperability and exchange of data with external 
providers, we do that through the--there is data use agreements 
in place, and we do that through HL-7 standards, and we are 
engaged with the standards agency organizations to make sure 
that we have influence on how those are promulgated.
    Mrs. Kirkpatrick. Well, it is a tremendous problem, and I 
appreciate your attention to it. Anything that I can do to help 
solve that problem, I have been working on it for decades, so 
feel free to call on me. Thank you.
    And I yield back.
    Ms. McCollum. Thank you.
    Mr. Ruppersberger.

           STRATEGIC MEDICAL ASSET READINESS PROGRAM (SMART)

    Mr. Ruppersberger. Okay. General, thank you for being here. 
What you do is very important. We appreciate your competence.
    I want to get into the Strategic Medical Asset Readiness 
Program, SMART. I know Congressman Womack dealt with it.
    Lieutenant Dingle, we must ensure that we continue to take 
care of our American soldiers. A few weeks ago I had the 
privilege to accompany your Deputy Chief of Staff MG Crosland 
to the Baltimore Shock Trauma at the University of Maryland, 
and that is rated one of the top trauma centers in the world, 
research, development. And the Air Force has been there for 
many years and has a really good relationship, and we are 
focused right now on the Army and maybe the Navy and Marines 
later. In fact, that trauma center saved my life 50 years ago. 
And if it weren't for their expertise and competence, I 
wouldn't be here today. Maybe that is a good thing for some 
people.
    Anyhow, during our visit we discussed the SMART program, 
which provides combat medics the opportunity to get hands-on 
training alongside their civilian counterparts. The studies 
show that, during the first few years of wars in Afghanistan 
and Iraq, we could have saved 1 in 7 troops lost if they had 
access to reliable trauma care.
    Now, what are your plans to expand this vital program? Does 
the fiscal year 2021 budget support this? And as our military 
shifts to near-peer competition, can you explain why trauma 
care experience is so important to our medical corps?
    General Dingle. Thank you, Representative.
    As you have experienced the great treatment from the 
Baltimore Shock and Trauma, one of the beauties of the SMART 
program is it is taking, again, that combat medic and 
expounding and building upon something that we have had within 
the Army called medical proficiency training in the old days 
where we were leveraging just our military medical treatment 
facilities. What Baltimore Shock and Trauma and then those 
hospitals who are those civilian trauma centers, they are 
exposing these medics in a 2-week rotation with the ability to 
put hands on trauma injuries and trauma cases. So that is 
exponentially increasing their skill set, their individual 
critical task list, and it is just priceless.
    We are expanding to two programs this fiscal year this 
summer, with plans to expand to about six, seven more almost 
each year. And, again, we have not had any issues with funding 
as we continue to expand and are intending to expand this 
across the country.
    Mr. Ruppersberger. Okay. That is good.
    General Hogg.
    General Hogg. Yes, sir. So, as you know, we have used 
Baltimore for quite some time. We have other C-STARS 
capabilities out there with Cincinnati and University Medical 
Center in Nevada. What we are also looking at is embedding 
entire teams in civilian facilities. 24/7, 365 days a year, we 
are there getting the touches on a regular and consistent 
basis.

                      ORTHOPAEDIC RESEARCH PROGRAM

    Mr. Ruppersberger. That is good. You keep it up.
    All right. I want to move to the Peer Reviewed Orthopaedic 
Research Program.
    Secretary McCaffery, I would like to ask you about this 
program, the Orthopaedic Research Program. I have been 
supporting this program for years. It is a research program 
which has demonstrated results enrolling more than 15,000 
patients to date in military-relevant research with the 
potential to provide healthcare solutions for injured 
servicemembers, veterans, and civilians. Now, the conflicts in 
Iraq and Afghanistan have resulted in 5,300 deaths and 52,000 
battlefield injuries among American service personnel, 
including more than 2,200 major limb amputations. The unique 
nature of these wounds, which primarily resulted from explosive 
glass and high velocity of gunshot, has been well documented. 
The Orthopaedic Research Program has been funded since 2009 and 
has received level funding at $30 million per year since fiscal 
year 2012. These funds have allowed our orthopedic docs to work 
miracles, stabilizing limbs, helping with tissue regeneration 
and even a full face transplant. Those conducting the research 
are asking for an increase to 35 million in work to provide 
stable funding for the consortiums, which includes the major 
extremity trauma research consortium metric, and that is 
anchored at Johns Hopkins University.
    Can you walk us through the history of the Orthopaedic 
Research Program and the consortium it works? And also do you 
believe the program could benefit from increased funding 
designated to support the services on an ongoing basis? And do 
you agree the services are a force multiplier that provide the 
greatest return on investment?
    Mr. McCaffery. So thank you for the question, Congressman.
    To be candid, I cannot walk you through the history of this 
particular research program. I would need to get back to you in 
terms of----
    Mr. Ruppersberger. Well, I probably can more than you then 
because I----
    Mr. McCaffery. I am not aware of the request for increased 
funding in this particular research program.
    Mr. Ruppersberger. Okay.
    Mr. McCaffery. But I am happy to take back your questions 
and provide you the answers.
    Mr. Ruppersberger. Well, I will have my staff get in 
contact with you or your staff today, and then I want to try 
and make this a priority if we can.
    Mr. McCaffery. Sure.
    Mr. Ruppersberger. Okay. Yield back.
    Ms. McCollum. If we could have the Army follow up on that 
to the committee.
    Mr. Crist.

        STATUS OF SERVICEMEMBERS IN THE AL ASAD AIR BASE IN IRAQ

    Mr. Crist. Thank you very much, Madam Chair.
    And thank you all for being here today. We appreciate your 
service to our country.
    As you know, Iran launched 11 ballistic missiles at the Al 
Asad Air Base in Iraq. While we thought that all servicemembers 
were safe, over 100 servicemembers have since been diagnosed 
with traumatic brain injury.
    What is the status of the servicemembers who were in the 
attack? And out of those who have returned to duty, how many 
are on light or restricted service? And that is for any of you 
who feel comfortable responding.
    Mr. McCaffery. So, Congressman Crist, this may be a little 
dated. This is probably numbers from a couple of days ago, but 
my understanding, out of the roughly 100, 109 servicemembers 
that were identified, 75 have been reviewed, evaluated, and are 
actually back in duty in Iraq. The remainder I would need to go 
back and check in terms of what is the status with regard to 
their evaluation and have they been returned to duty and what 
type of duty. I don't have that handy, but I can get back to 
you on that.
    Mr. Crist. Thank you, sir. I appreciate that very much.
    I am concerned obviously because, even though the bunkers 
mostly held and had ample warning to take shelter, over 100 
servicemembers were diagnosed, and that is very disconcerting 
obviously. That number will likely increase, too, I am told. As 
General Milley said, the troops in the attack will need to be 
monitored for the rest of their lives. But he also said, quote, 
that there is nothing we could have done, end quote, because 
the missiles were so powerful. If we are making investments to 
counter Russia and China, we also need to protect our 
servicemembers against the powerful weapon systems, including 
the ballistic missiles.
    What are we doing to protect servicemembers from ballistic 
missiles or other causes of TBI?
    Mr. McCaffery. So a couple of things. One of the areas that 
Congress has asked the Department to work on and we are in 
process and that is focused especially on the implications of 
blast exposure.
    Mr. Crist. Right.
    Mr. McCaffery. And we are in the middle of doing a study on 
that to figure out better ways to measure it but then, more 
importantly, what we find out about the impacts of blast 
exposure on brain health that then needs to inform everything 
from what weapons we acquire, the training we put in place, not 
just in a deployed setting but training here at home, to inform 
what we can do to best protect our servicemembers. And then, 
most importantly, and I think you kind of referenced it, was 
what we are doing, I believe it is the Special Forces Command 
right now is really doing a good job at baselining all of their 
servicemembers with regard to their cognitive abilities and 
have that as the benchmark then to evaluate over time to see if 
any of their, you know, in training, in deployments, any 
potentially concussive events have affected that baseline as a 
way to monitor and evaluate. So those are some of the things 
that we are looking at.
    Mr. Crist. Great. We have learned that brain injuries are a 
problem, and we have known that our adversaries have these 
weapons. So how have we not considered what would happen in an 
attack like this?
    Mr. McCaffery. So I believe we have considered, based upon, 
you know, the evidence we have and what kind of protective 
gear, based upon research we have done, what we believe, you 
know, makes sense in terms of protection, and, most 
importantly, we do have standard across-the-board policy with 
regard to if a servicemember has experienced a concussive 
event, there are very strict protocols around reporting that, 
screening that servicemember, getting the evaluation and then 
pursuing whatever medical care is required before return to 
duty or something else.

            STOPPING SPREAD OF COVID-19 AMONG SERVICEMEMBERS

    Mr. Crist. Thank you, sir.
    We have seen patches of coronavirus here at home, including 
in my home of Tampa Bay, home to CENTCOM and SOCOM. As you 
know, there are also larger outbreaks near military 
installations overseas.
    What are you doing to stop the spread of the coronavirus in 
our troops?
    Mr. McCaffery. So the Department has issued a series over 
the last 4 to 5 weeks of force health protection guidance, 
largely built around CDC guidance, and part of that, though, is 
how we apply that guidance to the military environment and 
guidance we give to installation commanders both here and 
abroad and how they can apply that to their particular 
situations on the ground to inform what they want to do with 
their servicemembers in terms of screening, access to the 
installation, as part of the effort to contain any infection at 
their base or surrounding area.
    Mr. Crist. Thank you. I appreciate that.
    Just finally, do military installations have access to 
testing? And then I yield back.
    Ms. McCollum. Thank you.
    Mr. McCaffery. The installations it would be--it is tied to 
where we have the lab technology at military installations in 
terms of our MTFs. Right now my last information is I thought 
we had 9 or 10 of our military labs have the access for the 
testing that is approved by the CDC. We are seeking to get all 
of our labs, which is about 14 or 15, to have that ability.
    Mr. Crist. Thank you very much.
    Thank you, Madam Chair.
    Ms. McCollum. Thank you.
    If you would follow up with the committee on that, on the 
testing.
    Mr. Ryan.

                     OBESITY RATES FOR ACTIVE DUTY

    Mr. Ryan. Thanks, Madam Chair. Thank you for your service, 
thank you for being here.
    I want to go on a little bit of a different direction. I am 
a little bit unique. I think I am the only one who sits on the 
Defense Appropriations Subcommittee and the Military 
Construction-VA Subcommittee.
    So the issue of health as it relates to all of you in 
Active Duty and as it connects to veterans is important. And 
one of the things--and I have tried to look through a lot of 
your testimony. It is very technical. We are talking about 
records and all of that. I want to talk to you about obesity 
rates.
    From what I can gather, the obesity rates for Active Duty 
are going up: 15.8 percent a couple of years back and now 17.4 
percent. In the Navy, it is 22 percent. Air Force is 18. Army 
is 17. Males between 35 and 44 years old have almost a 30 
percent obesity rate. And when you look at the increase in 
blood pressure and diabetes and heart disease, all of this 
stuff, you know way better than I do, this is a problem that we 
are not even talking about, and it has got a relatively simple 
or simpler solution than everything that we have just talked 
about.
    And for the last few years, my staff and I have been trying 
to dig in on the food that is being fed to our soldiers, the 
fact that, you know, the commissaries and cafeterias are closed 
and people are working late and the only thing left on the 
whole base is a Burger King that is open, and so they go and do 
that over the course of many years.
    Now, we need a big strategy to reverse the obesity rates. 
And, I mean, I think most people would be shocked to think that 
we watch Tom Brady, and we see these high-performing athletes, 
and we look at their diets, and we look at their lifestyles, 
and we are spending billions of dollars to have high-performing 
men and women serving our country performing at peak levels in 
very high-pressured situations. And for us to have an obesity 
rate that is creeping up to 20 percent and zero strategy on how 
to fix it, that is a real problem. And then you come back and 
you want more money for this and more money for that, and there 
is all kinds of research going on and reversing Type 2 diabetes 
with food as medicine and all kind of innovative things that 
are happening in the real world that we have got to make sure 
that it is getting into the military.
    Now, here is the connection for us who sit, you know, at 
30,000 feet. The diabetes rate for veterans is 1 in 5; the 
diabetes rate for average American is 1 in 10. So here we are 
blowing all of this money. I have been on ships before and you 
walk in, and it is all the sugary cereals. Now, look, I am not 
a prude on this stuff. I am an 80 percenter, right: 80 percent 
of the time, you do what is right. You work out; you eat 
healthy 80 percent of the time. But we can't have this, folks. 
This is unacceptable that we are going to continue.
    Is there any strategy that is in place, Mr. Secretary, that 
is addressing this in an aggressive way?
    Mr. McCaffery. So we have, in part working with your 
office, I know last year have been putting together what I 
would call more of a framework or a skeleton in terms of what 
would be the key components of the strategy. As you mentioned, 
part of it, in terms of on the health side, are what are the 
health guidelines and health recommendations that then feed 
into how our installations are operated and the decisions made 
about what types of food, access to that. And where we have not 
completed that is that closure, that link between the medical 
side and how we are operating our infrastructure, so to speak, 
in delivery of food.
    So there is more work to be done on that, and you make very 
good points in terms of, you know, part of lethality is our 
servicemembers and their health and their ability to do their 
job, and this is a negative impact on that.
    Mr. Ryan. Well, it is a waste of money is what it is. I 
mean, it is inefficient. Obviously, it goes to production. Then 
they go into the VA system, and they have diabetes. And then 
diabetes, when you look at diabetes with any other sickness, 
just jacks up the cost. It extends your stays in the hospital. 
It complicates any other issue that you may have. If you have 
to go to surgery or if you have got heart problem and diabetes, 
it just makes it that much worse. So now I will leave here, and 
I will go sit on another committee, the VA, and talk about how 
we don't have any money. And so we have got to start seeing 
these systems as integrated.
    And the same--you know, we can have a whole discussion on K 
through 12 school. When I walk into a school and these kids are 
getting a Rice Krispies Treat and a thing of chocolate milk, 
and they start their day out with about 80 grams of sugar. And 
then they are on the Medicaid program, and they end up getting 
diabetes with the public money that we spent to buy them Rice 
Krispies Treats and chocolate milk, and then the public money 
we spend to take care of them on Medicaid. The American people 
are sick of this. This doesn't make any sense. And I want the 
military in the United States to be the leader in this.
    So I only have probably a little bit of time left, and I 
would just like to give it to the Surgeon Generals if anybody--
if one of you have a comment on this.
    General Dingle. Sir, I will be real quick, Mr. Ryan.
    Mr. Ryan. Yes.
    General Dingle. Within the Army we have a very pragmatic 
approach to the health of the force, and we have many programs, 
from Go Green, Healthy Choices, Spartan Board, that get after 
the eating, as well as the activity, as well as the entire life 
process or approach to living, and then our holistic health and 
fitness, going after the spiritual, physical, and mental 
wellbeing of our soldiers, the ACFT, APFT, the wellness 
centers, all designed to, one, educate our soldiers where we 
have got programs that have also inculcated this into the 
units, not just special forces, but treating every soldier as 
an athlete.
    Admiral Gillingham. I would certainly agree. Very 
similarly, in the Navy, we have a similar program. Certainly we 
understand the importance of wellness. I think, sir, one of the 
points you make are the social determinants of health that we 
really have to get after in the environments in which our 
sailors and marines and soldiers live. So we are working with 
commissaries, for example, with our dieticians to provide 
guidance so it is available in the commissary as individuals 
purchase their groceries.
    So, sir, we agree with you 100 percent, and we are working 
very hard to get----
    Mr. Ryan. We have a lot of work to do.
    Admiral Gillingham. Yes, sir.
    Mr. Ryan. And this committee is going to push every single 
one of you to make this happen.

                MILITARY HEALTH PERSONNEL RESTRUCTURING

    Ms. McCollum. Thank you, Mr. Ryan. I think everybody has 
gotten the message, and I know there is more to say, but we are 
actually out of time for a vote.
    And I do want to follow up with one question, not to be 
responded here today but reported back to the staff. And it 
goes back to the military health personnel restructuring.
    The DOD, in your announcement of the plan of healthcare 
restructuring, roughly 18,000 uniformed health positions will 
be gone with no plan to replace them, yet you are talking about 
putting people into the marketplace. We know that there is a 
shortage in our healthcare system throughout this country. We 
are also concerned about your ability when these facilities 
close to be able to retain some of the docs and high 
specialized individuals that are serving us. You also function 
as teaching hospitals, and teaching hospitals are closing and 
limiting the number of training opportunities all across this 
country. We can't afford to lose you as part of our backbone 
for not only our military health but for our allover U.S. 
healthcare system, especially when it comes to OB/GYN's and 
pediatricians. And with more women serving, OB/GYN's, I have to 
say I have some familiarity with them, having had an Army 
doctor deliver both of my children, and, you know, we can't 
afford to be losing those kinds of specialties and keep and 
recruit and retrain women, as well as women who are family 
members.
    So we have got some serious questions on that. We want to 
be helpful with you as you make that decision, but I think we 
need to look at a whole of healthcare. So I want to thank you 
so much for coming. And now this also goes to Mr. Carter's 
question about, you know, some of the outside treatment 
happening as well.
    Thank you so much for being here. Thank you for your 
service, and thank you for getting back to us promptly because 
we are starting to mark up the bills.
    With that, this meeting is adjourned. This hearing is 
adjourned.

                                           Tuesday, March 10, 2020.

                     UNITED STATES SOUTHERN COMMAND

                                WITNESS

ADMIRAL CRAIG S. FALLER, COMMANDER, U.S. SOUTHERN COMMAND

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. The committee will come to order. This 
morning the subcommittee will hold a hearing on the posture of 
the U.S. Southern Command, or SOUTHCOM.
    Before we get started, I would like to recognize Ranking 
Member Calvert for a motion.
    Mr. Calvert. I move that those portions of the hearing 
today which involve classified material be held in executive 
session because of the classification of the material to be 
discussed.
    Mr. Visclosky. So ordered. Thank you very much, Mr. 
Calvert.
    Today we will receive testimony from SOUTHCOM Commander 
Admiral Craig Faller. Admiral, welcome back to the 
subcommittee, and we do look forward to your testimony. The 
SOUTHCOM's area of responsibility lies at the doorstep of the 
United States. Defense in this part of the world often has a 
direct impact on the United States and its allies.
    In Central America, economic and security conditions 
continue to cost thousands to migrate north every year. In 
South America the mismanagement of Venezuela's economy and 
institutions have displaced millions, impacting that country's 
neighbors and countries, including the Caribbean.
    Across the SOUTHCOM area, the lack of economic opportunity 
and law enforcement, along with continued demand, supports the 
flow of drugs and criminal organizations. So more broadly, 
great power competition is playing out in the region. China's 
Belt and Road initiatives now extends to the majority of 
countries, including areas critical to U.S. commerce and 
security.
    Russia's continued support of Cuba, Nicaragua, and 
Venezuela works across purposes to U.S. interests in the 
region. We do look forward to hearing about how SOUTHCOM is 
postured and resourced to play its part to address these 
challenges.
    In addition, we would like to better understand how 
SOUTHCOM is leveraging the assistance funding that we 
appropriate. Even without a significant U.S. presence, our 
longstanding partnerships with countries, like Colombia and 
Peru, can help us advance our interest.
    And we look forward to hearing about how new opportunities 
in countries like Ecuador and Brazil are progressing. I know we 
have a number of committee members who follow these issues very 
closely, and so I am glad they were able to attend the hearing 
today.
    Admiral, we look forward to your testimony, but first, I 
would recognize my friend and ranking member, Mr. Calvert, for 
his opening comments.

                     Opening Remarks of Mr. Calvert

    Mr. Calvert. Thank you, Mr. Chairman.
    Admiral Faller, welcome back to the subcommittee. I 
appreciate the chairman for calling this hearing. He and I 
recently had the opportunity to visit the Joint Interagency 
Task Force South and Guantanamo Naval Base, and I want to 
express my tremendous admiration for the professionalism and 
hospitality of your team.
    Like other combatant commands, SOUTHCOM is the subject of 
ongoing review about the appropriate allocation of the U.S. 
global military resources to implement the 2018 National 
Defense Strategy. From a national interest perspective, the 
case per greater not lesser U.S. engagement in the region is 
compelling.
    There are certainly no shortage of challenges facing the 
U.S. in the region. Political, social unrest is on the rise; 
corruption and transnational organized crime undermine 
Democratic institutions; Venezuela is a virtual failed state; 
and migrant flows from the Northern Triangle threaten our 
homeland security.
    I would also like--if any comments about the oil collapse 
yesterday, how that is going to affect Venezuela in the short 
term, because, obviously, cash flow in that part of the region 
is extremely important.
    China's footprint in Latin America and the Caribbean is 
expanding rapidly, and the growing diplomatic and economic 
reach there could enhance its military intelligence posture. 
Meanwhile, Russia and Iran remain a malign presence in the 
region, not to mention Cuba and its involvement in the drug 
trade.
    Frankly, many of these issues principally involve our 
civilian agencies and broader interagency efforts to address 
ongoing urgent governance challenges while advancing enhanced 
U.S. cultural, political, and economic ties with Latin America.
    But counternarcotics and homeland security issues also loom 
large for the U.S. Many, many people die of drugs in this 
country, far more than all the combatant commands combined. And 
here in SOUTHCOM it certainly plays a critical role.
    We all know the men and women under your command have done 
more with less for years in carrying out their mission. Lack of 
ISR capability has been a persistent concern, and an absence of 
manned and unmanned assets for aerial detection and monitoring.
    We deeply appreciate the efforts by you and the men and 
women who serve under your command, and all they do on behalf 
of the United States. I look forward to the testimony and the 
dialogue to follow. I yield back.
    Mr. Visclosky. I would now recognize the ranking member of 
the full committee, Ms. Granger, for her opening comment.

                         Remarks of Ms. Granger

    Ms. Granger. Thank you, Chairman Visclosky. Admiral Faller, 
welcome back to the subcommittee. SOUTHCOM is a region of vital 
importance that is often overlooked, but the threats you face 
are just as complex as those of other combatant commands. This 
subcommittee understands how important your work is, and we 
look forward to hearing your needs and priorities.
    As a former chair of the State Foreign Operations 
Subcommittee, I spent a lot of time on issues in the area of 
your responsibility. This is the region often focusing on the 
Northern Triangle countries, and Costa Rica and Colombia.
    I would like you to update the committee on the security 
situation, including how these countries are working with the 
Department of Defense and other U.S. Government agencies to 
address drug smuggling and human trafficking. These problems 
originate, or flow through these places and eventually reach 
the United States.
    I am also particularly interested in hearing your thoughts 
about the influence of Russia and China in the region. We can't 
afford to lose the strong cooperation we had with our neighbors 
in the south, and we must do all we can to continue this 
partnership.
    I look forward--again, thank you for your service and look 
forward to your testimony.
    Mr. Visclosky. Admiral, your statement is in the record, as 
you know. If you want to summarize and then we will proceed 
with questions. Go ahead. Thank you.
    [The written statement of Admiral Faller follows:] 
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

    [Clerk's Note.--The complete hearing transcript could not 
be printed due to the classification of the material 
discussed.]

                                           Tuesday, March 10, 2020.

                 FISCAL 2021 UNITED STATES ARMY BUDGET

                               WITNESSES

HON. RYAN D. McCARTHY, SECRETARY OF THE ARMY
GENERAL JAMES P. McCONVILLE, CHIEF OF STAFF, UNITED STATES ARMY

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. The subcommittee will come to order. This 
afternoon, subcommittee will receive testimony on the posture 
of the United States Army and the fiscal year 2021 budget 
request for the Army. Our two witnesses are the Honorable Ryan 
D. McCarthy, Secretary of the Army, and General James C. 
McConville, the Chief of Staff of the United States Army. Both 
gentlemen have long and distinguished careers. They were 
appointed to their current positions within the last year. So 
this will be the first time testifying before us. Thank you 
very much for being here.
    We recognize that this is an extraordinary time for the 
United States Army. Our Nation presently has over 187,000 
soldiers deployed in 140 countries around the world. These 
soldiers are the Army's most critical resource. We will talk 
today about training, equipment, and resources needed to give 
our soldiers the skills and tools needed to accomplish their 
missions. But we would also like you to know that the members 
of this committee care deeply about the welfare and quality of 
life of our men and women in uniform, and we want to make sure 
that we take care of their needs as well.
    We are keenly aware of the need to modernize the Army of 
today in order to meet potential great power competition in the 
future. That process began with last year's budget request, and 
I think you will agree that the subcommittee struck a balance 
between supporting your strategy and assuring that successful 
ongoing programs continue to receive an appropriate level of 
resources.
    The Army's fiscal year 2021 budget request continues to 
focus on resourcing the National Defense Strategy. To achieve 
this goal, the Army continues to conduct night court sessions 
to review the necessity of existing programs. This process has 
led to the proposed reduction or cancellation of more than 240 
programs in fiscal years 2020 and 2021. Many of these programs 
are on time and on budget and bring essential capabilities to 
our soldiers of today. We do want to be your partner in 
executing the strategy but not at the expense of key enablers 
that lead to success on the battlefield today.
    I support the idea of reviewing your existing programs to 
determine if there is excess funding, but I do not support 
funding future programs in which the requirements have not been 
fully thought out. One example is the recently cancelled 
optionally manned fighting vehicle. This the Army's third 
attempt at replacing the Bradley fighting vehicle. One month 
after Congress appropriated $205 million for this program, the 
Army announced its intention to cancel the solicitation. As a 
result, the optionally manned fighting vehicle program will now 
be at least 2 years behind schedule, and the funding we 
appropriated towards it could have been used to continue 
supporting one of the fiscal year 2020 programs that were 
reduced or eliminated.
    This gives us great pause when evaluating the requests 
before us to once again cancel or reduce 80 programs in the 
fiscal 2021 budget. We have been told time and again that this 
time it is different, yet the Army has a long history of 
canceling high-profile programs after significant investment of 
taxpayers' dollars due to the incomplete requirement process.
    We supported the Army's Futures Command as a way for the 
Army to consolidate its modernization process under one roof, 
but the first large acquisition program that has come out of 
the Army Futures Command has fallen flat. You do need to 
convince this committee today that our continued support of 
modernization will eventually be a good investment.
    I would also like to highlight my concerns about the well-
being and quality of life of Army soldiers and their families. 
Of particular interest to me, as you know, is childcare. We 
continually hear about soldiers lacking available childcare. 
The committee has made significant investments in fiscal year 
2020 to mitigate this issue. I would like to know what the Army 
is doing about it.
    Gentlemen, I have seen the unfunded needs of the Army and 
across the services, including readiness, improved facilities, 
and your stated goal of modernizing the force. This committee 
wants to be your partner in achieving the goals, but it is 
imperative that we are investing wisely, and please assure us 
today that your budget request prioritizes quality of life.
    With that, before we hear your testimony, I will want to 
turn to Mr. Calvert for any opening comments he has, but I 
would also just suggest because both will potentially start in 
the middle of this hearing that, given our prime location, we 
will simply continue the hearing and each of us exit, go vote, 
and please come back.
    And, with that, Mr. Calvert, you are recognized.

                     Opening Remarks of Mr. Calvert

    Mr. Calvert. Thank you, Mr. Chair.
    Mr. Secretary, General McConville, welcome. Thank you for 
taking the time to come talk to us. The fiscal year 2021 budget 
request continues the second year of the Army's bold 
modernization transformation. While I fully support the Army's 
efforts to focus on near-peer threats, I have concerns with 
implementation of your modernization enterprise thus far.
    As you have noted, Mr. Secretary, the Army's modernization 
plans assumes flat budgets. We cannot, therefore, afford costly 
mistakes like those that have plagued the Army acquisition in 
the past, nor can we afford excessive delays. So the chairman 
and I are basically on the same page already. We have 
discovered that the Russians, for instance, they fielded a 
hypersonic weapon while we are still trying to develop one. 
What was that? The Chinese have hacked in.
    Mr. Ryan. I have Huawei on my phone.
    Mr. Calvert. There you go. So failing is not an option, and 
failing early is even a bad option, a worse option. But I share 
the chairman's concern about this Army modernization effort, 
specifically the optionally manned fighting vehicle, the OMFV, 
and I would be interested in what lessons you have learned thus 
far and what you think you can do to improve the process. And 
so that will certainly be in my questions and I think the 
chairman's questions also.
    So, with that, Mr. Chairman, I will yield back.
    Mr. Visclosky. Ms. Granger.

                     Opening Remarks of Ms. Granger

    Ms. Granger. Thank you. Thank you both for being here.
    Our Nation faces unprecedented threats from near-peer 
adversaries, such as Russia and China, and continued harassment 
from the rogue regimes of North Korea and Iran. Because of 
this, our soldiers need the absolute best equipment to defend 
our Nation and the American way of life. I am interested to 
hear how your modernizing the Army in the way that leverages 
our industry partners and gives our soldiers and their families 
the support they need and deserve.
    While I wholly support the reasons we need to modernize, I 
do have concerns that the Futures Command is trying to do too 
much too quickly. I hope you will explain today how the Futures 
Command plans to execute this bold strategy while assuring that 
the Guard and Reserve are at the same level of readiness as the 
Active Duty Army. Thank you both. I look forward to your 
testimony.
    Mr. Visclosky. Thank you very much.
    And with the indulgence of the members, I would want to 
assure Mr. Calvert that I would usually recognize Mr. Ryan 
first for questions so that he can leave, if that would be all 
right.
    So, in that event, I would recognize Secretary and General 
for your testimony.
    Secretary McCarthy. Am I recognized, sir?
    General McConville. Yes. Go ahead.

                    Statement of Secretary McCarthy

    Secretary McCarthy. Chairman Visclosky, Ranking Member 
Calvert, distinguished members of the committee, thank you for 
your continued support to the Army and our people. In 2018, the 
National Defense Strategy outlined the current and future 
threat picture, drastically changing the Army's focus. The 
strategy outlined great power competition, specifically Russia 
and China, who are rapidly investing to modernize their 
formations.
    In order to achieve national objectives laid out in the 
defense strategy, including deterrence, the Army with the 
support of Congress developed three distinct priorities: 
readiness, modernization, and reform, and aligned our budget 
against the same. Two and a half years into our modernization 
efforts, we are here to finish what we collectively started.
    This budget request rests upon the funding and authorities 
that Congress provided over the last 2 years. Together, we are 
creating irreversible momentum towards a ready, modernized, 
multidomain Army capable of meeting future demands highlighted 
in the NDS. Our fiscal year 2021 budget request is $178 
billion; 60 percent of that top line is invested in our people 
and towards operations and maintenance, with the remainder of 
our available budget aligned towards our modernization 
priorities.
    Despite a fixed top line and a flat budget, demand for Army 
forces continues to rise. The Army currently fulfills 60 
percent of the overall combatant commanders' demands with no 
projected decrease in COCOM demand. Demand, paired with the 
need to bring new systems online, will require us to grow the 
budget 3 to 5 percent real growth in the outyears.
    Readiness remains the Army's top one priority. We remain 
ready today, capable of dynamic force projection. Take, for 
example, this year on New Year's Eve. We pushed a brigade size 
element on a no-notice, cold-start emergency deployment. Within 
hours, soldiers from the 82nd Airborne Division went from 
holiday parties to wheels up on a C-17. Within a day, soldiers 
were operating in the Middle East. Nearly half of our brigade 
combat teams are at the highest levels of readiness, pulling us 
from a readiness trough to a readiness peak over the last 3 
years.
    On modernization, we are rapidly developing new 
technologies across six modernization priorities and 31 
signature systems, all geared towards meeting the demands of 
the future battlefields. The creation of Army Futures Command 
has allowed us to combine the stakeholders together and rapidly 
increase the speed of the modernization process. We are seeing 
real results. Prototypes that began in fiscal year 2018 and 
2019 are maturing with real capability that will land in 2021 
and 2022.
    In this fiscal year, we will increase soldier touch points, 
test shots, capability demonstrations, and the fielding of our 
formations. The Army is investing $800 million across the next 
5 years towards cloud computing, which is central to our 
modernization effort. Long-range fires, including ERCA, PrSM, 
hypersonic missiles flying further and hitting their targets 
and increasing our reach in lethality, essential deterrence in 
the joint fight. We have invested $1.3 billion towards these 
efforts, and continued funding will allow the Army to field a 
road-mobile battery and hypersonics in fiscal year 2023.
    New aircraft in our Future Vertical Lift portfolio are 
flying hundreds of test hours as we fly before we buy. We have 
seen great advances in our soldier lethality portfolio for 
individual kit with Integrated Visual Augmentation System that 
links multiple sensors to multiple shooters and multiple 
command-and-control notes, ultimately increasing lethality and 
survivability for our men and women.
    The demand for Army, forces, paired against a flat budget, 
has forced tough fiscal decisions. In-depth program reviews 
will continue in fiscal year 2021 with the total target of $9.1 
billion in programs that will be delayed, reduced, or 
eliminated.
    The Army will continue to show fiscal responsibility with 
taxpayer dollars. We view every dollar as we do with 
ammunition. Each bullet matters and is aimed at a target. With 
Congress' steadfast support, we are here to finish what we 
collectively started.
    I would like to share the floor with my teammate, General 
McConville, and I look forward to your questions.

                    Statement of General McConville

    General McConville. Thank you, sir.
    Chairman Visclosky, Ranking Member Calvert, distinguished 
members of the committee, I also want to thank you for the 
opportunity to be here today and for the support you all 
continue to give the Army and our people, our soldiers, our 
families, our civilians, and our soldiers for life, our 
retirees and veterans.
    As of this morning, the Army has over 189,000 soldiers 
deployed in 140 countries around the world. Those soldiers form 
the leading edge of an Army that stands ready to fight and win 
whenever and wherever it is called. We are currently 
demonstrating Army readiness with our Defender 20 exercise in 
Europe, the largest of its kind in 25 years, and we will do the 
same in the Pacific in the fall on a smaller scale. Both 
exercises will further strengthen not only our readiness to 
deploy U.S. Army forces but to also increase our ability to 
fight alongside our allies and partners and deter those nations 
or groups who wish America harm.
    Going forward, we will sustain the tactical readiness of 
our units while at the same time ensuring we are strategically 
ready to mobilize, deploy, and sustain our combat forces in a 
way that supports how we will fight in the future. To ensure 
that the Army will be ready and can win the future, we must 
also modernize, as the Secretary and I have discussed with many 
of you. The National Defense Strategy has focused us on great 
power competition, but great power competition does not have to 
mean great power conflict. A ready, modern, and multidomain 
Army provides the Nation's strategic leaders with flexible 
options to compete below the threshold of armed conflict while 
maximizing deterrence. With timely, adequate, predictable, and 
sustained funding, we will deliver an Army that will never be 
outranged, outgunned, or overmatched.
    But to get to the Army we need in the future requires 
transformational change, not incremental improvements. Our 
fiscal year 2021 budget requests supports that transformational 
change. It aligns resources with the National Defense Strategy 
and our Army priorities. It also balances the demands for 
readiness now and allows us to invest in the future.
    Our budget request maintains 58 brigade combat teams, 23 
aviation brigades, and 6 security force assistance brigades 
across the regular Army, Army National Guard, and Army 
Reserves. It enables 24 combat training center rotations, 
including 4 for the National Guard. It funds strategic 
readiness, including dynamic force employments to Europe and 
the Indo-Pacific, and maintains the maintenance of key 
prepositioned stocks and ammunition. It provides modest end-
strength growth to meet the expanding operational requirements 
and promotes interopability with allies and partners through 
combined exercises with countries around the world.
    In terms of modernization, our request supports the 
continued development of the Army's multidomain operation 
concept which will inform our contributions to the emerging 
joint warfighting concept. Our request funds multidomain task 
forces in Europe and the Pacific to increase Army capabilities 
in both competition and conflict. Our budget supports critical 
steps in research and development that allow us to deliver key 
systems across our six modernization priorities.
    Finally, our budget helps us win the war for talent by 
funding key quality-of-life initiatives and moving us from an 
industrial age personnel management system to a 21st century 
talent management system with the continued implementation of 
the integrated personnel and pay system and initiatives like 
talent-based branching, the Army talent alignment process, and 
the Battalion Commander Assessment Program.
    Thank you for your time and support of the Army. We look 
forward to your questions.
    [The written statement of Secretary McCarthy and General 
McConville follows:]  

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Visclosky. Gentlemen, thank you very much.
    Mr. Calvert.

                          ARMY FUTURES COMMAND

    Mr. Calvert. Thank you, Mr. Chairman.
    In 2018, the Army embarked on an ambitious modernization 
effort by establishing Army Futures Command while shifting the 
Army's focus from counterinsurgency to near-peer threats. One 
of the primary benefits of Army Futures Command, we were told, 
was that it would bring together all relevant stakeholders, 
including industry, at earlier points in the requirements in 
the development process. This would allow the Army to provide 
capabilities to soldiers more quickly and more cost 
effectively. Yet 2 months ago, the Army withdrew its 
solicitation for the optionally manned fighting vehicle, or 
OMFV, and decided to restart the program because it admitted 
its own requirements were too stringent for industry. It is now 
going back to square one.
    Then, last month, we learned that the Army had decided to 
defer a decision on selecting a system for its indirect fire 
protection capability program, even though it said last year 
that it would make a decision by the second quarter of this 
year.
    I have to tell you, gentlemen, that these decisions have 
produced significant concern in Congress, obviously from both 
sides of the aisle, and industry regarding the Army's 
modernization process.
    Looking specifically at the optionally manned vehicle 
decision, I have two questions. First, I understand you all 
conducted an after-action review to understand what went wrong 
with the process. VAE pulled out early due to conflicting 
requirements. Why didn't you stop then and reassess? Why should 
we have confidence at this time that you will get it right, 
especially when it seems you are returning to the normal Army 
acquisition process?
    And, secondly, the fielding for the OMFV was scheduled for 
2026. As the chairman mentioned, he mentioned delay, but are 
you still planning for a 2026 fielding, and if so, how can you 
get there given that you have got to restart this whole 
program?
    Secretary McCarthy. Sir, I will say a few things. If I 
could pass also to General McConville, I would appreciate that.
    With respect to the RFP, we did have a competitor in the 
process that could bend the metal and develop a prototype in 
the process. What the team learned as they went through the 
whole process of RFP was that, in this case, they fell short of 
the requirements that was in the RFP. And we took a step back 
from the table, making the judicious decision not to keep going 
down the path and spend hundreds of millions of dollars on a 
system that would never be able to achieve the outcomes we were 
looking for.
    So, from that standpoint, if you look at us historically, 
we would have kept going, and we would have spent billions of 
dollars. We think that the way that we are organized against 
the problem now by fusing all of the stakeholders together, we 
are getting the best, most informed recommendations from the 
Army modernization enterprise.
    General McConville. If I could add, I think we learned 
early on in this program, and what we learned was there was 
confusion over the requirements. And so we just came out with 
the characteristics of what we want in this vehicle because we 
don't want to get to our requirements until we actually see 
what the prototype is going to be. And by doing this, we will 
come out with the nine characteristics that we would like to 
see in this vehicle.
    And what we will do is go out to industry. We are working 
with industry right now. We will go to industry and 
nontraditional industry to see what type of technology they 
would like to see in this vehicle. They will come back to us 
with a design, and we will pick five designers for the build--
that come up with the best designs and also five technologies 
that we look at inserting into the vehicle. From that, we will 
refine the characteristics. We will go to a detailed design and 
then do the same thing and go to prototype.
    Once we get the prototype and see what they can actually 
produce, not in Power Point, but actually what they can do so 
we can drive, we will refine the requirements, and then we will 
have the competition. We think we can save time up front, and 
we can get the vehicle we need before we invest a lot of money 
in it and have requirements that we know that industry can 
meet.
    Mr. Calvert. Well, I mean, you know, that sounds great, 
General, but I wonder why we didn't start this process, you 
know, a long time ago. I thought we were going to move down 
this. What happened?
    General McConville. I think what happened, Congressman, is 
we have learned. We are learning with industry. We are learning 
with our acquisition folks who are used to doing it the old way 
where we spent a lot of time, 5 to 7 years developing 
requirements and then 5 to 7 years developing a system, and 
then investing a lot of money in it and finding out at the end 
we didn't get what we wanted. So we are stopping early, and we 
are redefining the way we do the process to encourage 
innovation.
    Mr. Calvert. Fine. Just one comment. I used to be in the 
construction business. Usually the happiest day of my life was 
when somebody asked for a redesign or, you know, some kind of 
change order that I would understand would be more 
profitability on my side of the transaction. So I would hope 
that whatever you come up with, and hopefully it is soon, that 
you get a set of plans, and you go to bid on those set of 
plans, in effect, get the contractors to come forward and stick 
with it because these changes can only cost the United States 
Government money and time, which you don't have either one.
    So that is my comment, Mr. Chairman. Thank you.
    Mr. Visclosky. Thank you very much.
    Mr. Ryan.

                       FOOD MODERNIZATION EFFORTS

    Mr. Ryan. Thank you, Mr. Chairman. I appreciate the 
indulgence here and want to associate myself with the gentleman 
from California's line of questioning.
    Mr. Secretary, I am going to switch gears here a little 
bit, but there is some correlation. We know that the enlisted 
soldiers are only using about half of their meal entitlement, 
basic daily food allowance funds per day, and that is roughly 
$170 unspent every month. Obviously, none of us want to see an 
already cash-strapped soldier leave 170 bucks a month on the 
table, let alone spend additional money out of their pocket to 
eat. We also know that the reason soldiers so often fail to eat 
in dining facilities is because those soldiers may not be able 
to get to the dining facility in time for breakfast, lunch, or 
dinner, given their training and the other demands that they 
have.
    That is why I have been pleased with the Army's commitment 
to move to a campus-style dining concept whereby soldiers will 
be able to use their full meal entitlement not just in the 
dining facilities but in the AAFES facilities, MWR facilities, 
and even someday at off-base establishments that offer a 
healthier menu, essentially a system similar to that which most 
colleges and universities have had for decades.
    I understand that this is a work in progress, and it will 
take time to work out the kinks, but I want to put a marker 
down before the Army goes too far down any particular planning 
path. The Army should expand where soldiers are allowed to 
spend basic daily food allowance funds. The Army should not 
seek alternative funding to be used to buy meals in nondining 
facilities unless those funds are being requested for 
technology or facility upgrades that are necessary to make the 
campus-style dining concept work better.
    And if there is a DOD policy that you believe prevents the 
Army from using DDFA funding for the full cost of a meal, 
outside dining facilities, or otherwise limits the ability of 
the Army to create an efficient and well-integrated campus-
style dining model, I encourage you to pursue such a waiver, 
similar to what the Air Force was granted when the Air Force 
began its food transformation initiative, which included a 
campus dining model. We want to work with you to get this right 
because if we do it correctly, we can save soldiers money, 
greatly improve their health and mission performance, and save 
the U.S. taxpayer money.
    So, with that all said, can you provide the subcommittee 
any updates on the Army's progress with respect to its food 
modernization efforts and campus-style dining reform?
    Secretary McCarthy. Sir, I can tell you a specific example 
from just the first week of February. I was out at Fort 
Wainwright, and they are doing that in the barracks there, 
developing, constructing a very similar concept like you just 
mentioned. It has been a challenge because we have seen the 
lack of participation in large volumes in the chow halls. There 
have been a lot of investments that have been made in the chow 
halls to also change the menus, putting dieticians down at unit 
level. So we made a lot of investments with holistic health and 
fitness to address this, and to your point, configuring the 
barracks in the case of Fort Wainwright, to do just that. We 
could also provide more information on how we are doing this 
comprehensively across the Army to the committee.
    Mr. Ryan. I just want you to know this is something that I 
feel very, very strongly about. One of the other committees I 
sit on in the Appropriations Subcommittees is the Veterans 
Affairs, the VA. And when you look at, you know, what we want 
from a performance level, obviously there is a money issue here 
of leaving this money on the table, and I have one followup 
question to that.
    But we have got to make sure, when you are looking at the 
obesity rates in the Army, Navy, Air Force, it is unacceptable. 
I mean, it really is unacceptable that we are spending this 
much money, and the number one and best investment we could 
make is into the men and women who serve, and to making sure 
that, as you said, they have dieticians nutritionists, making 
sure that they are functioning at a very, very high level. I 
mean, you look at these peak athletes and what they do to make 
sure they are performing at the highest level. Well, it is the 
same thing here, and I want us to start adopting that 
mentality.
    So we are going to work with you. We want to stay on this 
issue and continue to try to drive down the cost because then, 
on the other end, I will leave here, and I will go to a VA 
subcommittee hearing and look at how much we are spending on VA 
healthcare around diabetes and obesity and all these things 
that started when they were Active Duty. And then we go to the 
taxpayer and say we need more money. The taxpayer thinks we are 
crazy. So we need to figure out how to make this happen.

                      BUDGET FOR FEEDING SOLDIERS

    So one followup question. I know when you as the Army put 
together the budget for feeding soldiers, my understanding is 
that it uses a simple calculation of number of soldiers 
entitled to meals times the basic daily food allowance per 
soldier, and so now soldiers are leaving approximately $170 
spent every month. That adds up to hundreds of millions of 
dollars over the course of a year that is unaccounted for. 
Either the Army dining facilities are purchasing and preparing 
three meals a day per soldier and then wasting half the food, 
or the money is not being spent on the soldiers' food, and it 
is being spent on something it wasn't appropriated for. So I am 
not really sure what is worse, but if you could, Mr. Secretary, 
share with us maybe where these unspent funds are going.
    Secretary McCarthy. Congressman, I would have to check with 
our finance folks and get back to the committee on that.
    Mr. Ryan. Okay. I mean, these are the kind of things that I 
think we--I sit here and listen to my Republican colleagues 
talk about this. The Democrats are talking about this. We are 
spending a ton of money on these programs, and this is just one 
example around food, that there is 170 bucks, hundreds of 
millions of dollars. Mr. Chairman, we don't know where it is 
going.
    And I understand, Mr. Secretary, you have got a lot of 
interests and a lot of things and a lot of programming that you 
have got to keep your eye on, but here is a perfect example of 
how we can save money in the military. And you know, we are 
talking about cutting SNAP programs and cutting other programs. 
And you look at the budget for the next year, only 2 and a half 
billion dollars to spread over--nondefense discretionary money 
to spread across 11 other subcommittees: 2 and a half billion 
dollars. And you are talking about near-peer competition with 
China and Russia, and we don't have the resources to invest 
into STEM and education and research and infrastructure and all 
these things that are a core component to our competition with 
them.
    We only have 330 million people in the country. So we 
better all be at our best, and I want it to start with the men 
and women in the military. I want to know where this money is 
going so that we can find out how to repurpose it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Visclosky. I would associate myself with Mr. Ryan's 
concerns and assume that you will get back to the committee in 
detail, okay.
    Ms. Granger.

                      FUTURE VERTICAL LIFT PROGRAM

    Ms. Granger. The Future Vertical Lift program is the first 
major aviation modernization program in years and the Army's 
number three modernization priority. Can you please update us 
on the progress of the program and tell us if it remains on 
schedule?
    Secretary McCarthy. Yes, Congresswoman Granger. We are 
trying to bring on two platforms into the formation, an attack 
reconnaissance version as well as a long-range assault 
aircraft. At present, we are looking at the down select in the 
competition for both platforms, looking to do that later this 
month, which will get us down to--I think it is what, two 
competitors. Two competitors for the lift. There is two 
competitors for the assault platform and then one on the long-
range assault platform that will build prototypes. So that down 
select, they will go out and produce full up prototype variants 
for us to test, and then we will continue to ramp the 
investment. We have over a billion dollars invested in vertical 
lift platform this year.
    So we are making some very big decisions here and continue 
to work with and really yield the benefit of industry who is 
investing about $4 to $1 with their development dollars. So we 
have harnessed a lot of good--the positive industry from the 
industry and bringing the capabilities into formation.
    General McConville. We are very excited about what industry 
is doing because they are investing a lot of their own money. 
They are showing us that they can actually fly and demonstrate 
for us that capability, you know. There is two major 
competitors out there we are seeing right now that have very 
innovative capabilities that are going to provide us a 
significant overmatch in the future.
    So the fact that we can see what they are doing, this goes 
along the line that we are trying to get to. If we can see what 
they can do when we write the actual requirements from the 
prototyping, we know they can do this. We won't be investing in 
a program that is unattainable because we asked for something 
that they can't do.
    Ms. Granger. Good. Thank you very much.

                          ARMY FUTURES COMMAND

    Ms. McCollum. Thank you, gentleman. I am going to go back 
to Army Futures Command. So for the Army to achieve its 
modernization goals, the Army Futures Command is going to need 
some help from industry, small business, not just in Texas--and 
I like Texas; I can actually sing the State song--or on the 
coast, but from all over the country. Now, I live in a State 
where we don't have a large military presence, and because of 
our business community that is located there, it is often 
overlooked by the Department of Defense. And I can tell you 
that States like Minnesota and our commercial sector have a lot 
to offer the Army. I can just think of healthcare, personal 
protection, equipment, engineering, computing, a whole host of 
things.
    You know, my region, other regions like mine, we want to 
help you find the best solutions for your requirements, but it 
is going to take engagement from the Army to build those 
relationships.
    Now, you are well aware the GAO report last summer was 
critical of Army Futures Command's small business engagement. 
So can you tell the committee what changes have been made to 
Army's future outreach to small businesses since then, 
particularly in the area of research and development? And how 
is Army Futures Command ensuring that they reach business 
communities across the Nation, including areas in which the 
Army normally doesn't do much business because there aren't 
bases located there, but that doesn't mean there aren't great 
ideas and great opportunities.
    Secretary McCarthy. Yes, Congresswoman. We established a 
footprint in an accelerator hub in Austin, Texas, which will 
provide us a venue to work with small businesses in particular, 
which is attracting a great deal of attention, very similar to 
an accelerator hub that I saw in Minneapolis as well when we 
were conducting the due diligence for where we were going to 
put the headquarters. So what the accelerator hub is, it 
provides an opportunity for Army leaders to sit there and talk 
about what are the types of capabilities that we need. It 
creates a venue for small business to learn about where the 
opportunities lie for Army.
    Some of the things that we need to improve upon to the 
point of the report is just the business practices of how we 
can get contracts written quickly and to get people start 
funding flowing because small business's greatest challenge is 
usually cash flow. How can we get our contract writers to 
embrace a lot of the authorities that we have been granted from 
Congress over the past 3 years so that they can get small 
businesses on contract very quickly. So procuring this 
capability, develop prototypes, and then ultimately turn this 
into a program of record. So we are getting better, but a lot 
of it came to just developing that platform to do business 
differently and attract more attention.

                   ENVIRONMENTAL RESTORATION ACCOUNT

    Ms. McCollum. And I think this will be a rather quick 
question. In 2021, the Army budget request $44 million cut to 
the Army's environmental restoration account. This is a 17-
percent decrease overall from the fiscal year 2020 enacted 
level which is an 18-percent reduction to remedial actions 
specifically. Congress has prioritized environmental 
remediation very clearly in the last appropriations bill for 
the services. It is particularly important given the emerging 
threat of PFOS chemicals, given the scope of remediation issues 
facing Army. In addition to facilities across the country that 
still need remediation work, how can a 17-percent reduction 
possibly be adequate to fund the work that the Army needs to 
do----
    Secretary McCarthy. Congresswoman, I am not up to speed on 
the issue. If I could take that for the record and get back to 
the committee, I would appreciate that.
    Ms. McCollum. That is a 70-percent reduction (off mic) has 
there been less pollution and that PFOS, so could you please 
get back to us on why that is there? Maybe we can fix that.
    Thank you, Mr. Chairman.

                             SMALL BUSINESS

    Mr. Visclosky. I was absent during Ms. McCollum's question, 
but in fact, it was a question I was going to ask about small 
business, and I would, one, associate myself with her concerns. 
In fact, I was going to quote from the GAO report. And while I 
appreciate it, I assume the answer was that you are creating a 
venue and addressing the issue of small business. I would point 
out the Army's Futures Command has been existence for 18 
months, and we are--creating a venue to address small business 
is not acceptable.
    Secretary McCarthy. No, sir. It does exist. We have had it 
in place about a year, and then what we have learned in the 
process is just really it is the contractual mechanisms which 
discourages, in most cases, small businesses from doing 
business with the Department of Defense because of the span 
time required to go through an RFP and to go back and forth and 
ultimately get on contract to where the funding flows. We have 
started to use more of the OTA authority that has been granted 
to us by Congress. And it has been able to get us more 
businesses involved, in many cases, as subs on other existing 
contractual mechanisms. But we have been able to get more 
attention from small business community and get more of them 
involved with our programs.
    General McConville. And, Chairman, one of the things we 
discussed, we found out with industry is these industry days 
where we lay out some of the problem sets, and I talked about 
the characteristics of a problem rather than going to a 
requirements document, which allows them to participate, which 
allows them to bring in their technologies and do it at a 
beginning level where it is just an idea where we can bring in 
ideas. We can give them a little money for their idea, and they 
can develop that idea. As they compete, they have chance to 
grow in that process.
    Mr. Visclosky. I would encourage you. I will not be here 
for next year's hearing, and I would hope it is a more positive 
message. I just having, been on this subcommittee since 1993, 
do not believe the Department of Defense has done an adequate 
job by any measure in engaging small business people. So I 
would really encourage you to step on the gas here.
    Mr. Cole.
    Mr. Cole. Did you call on me, Mr. Chairman?
    Mr. Visclosky. Yes.

                       PIM INTEGRATED MANAGEMENT

    Mr. Cole. Thank you very much. I wasn't quite sure.
    I want to associate myself very much with the remarks of 
the chairman and the ranking member on concerns just about the 
procurement process and, you know, constantly making maybe 
perfect the enemy of the good. I have been on this committee 
long--well, I have been in Congress long enough, I should say, 
to have gotten here just after Crusader. I represent Fort Sill. 
Then lived through the future combat system, which was billions 
of dollars down the drain for nothing, no fieldable, then the 
NLOC debacle. And now we finally seem to get something going 
with PIM integrated management, had some rough spots, but 
starting to move. If I understand the fiscal year 2020 budget, 
we allocated enough money for 53 units, and you only procured 
48. Can you tell me why?
    Secretary McCarthy. With respect to pellet and PIM, sir?
    Mr. Cole. Yes, sir.
    Secretary McCarthy. There were some issues with the 
production line for pellet and PIM. Over the last 6 months, 
they are getting on track, and that is why we made the--
ultimately made the full rate decision. But there were issues 
with the manufacturer getting the tack time down so they could 
produce the quantities that were on contract.
    Mr. Cole. So they couldn't have produced the 53?
    Secretary McCarthy. To get to that point, yes, sir. But we 
are on track now and have confidence that----
    Mr. Cole. And can you tell me what you are asking for in 
the 2021 budget?
    Secretary McCarthy. What is that, sir?
    Mr. Cole. How many units are you asking for in 2021?
    Secretary McCarthy. I don't have the exact number off the 
top of my head.
    Mr. Cole. I think it is, like, 30, so it is, like, way 
down, and I am wondering why that big a disparity. I mean, we 
have got a real problem here where we are outgunned, quite 
frankly, by our peer competitors. Made some progress here, and 
I am wondering why we are that dramatically slashing the 
acquisition and slowing down the program.
    Secretary McCarthy. Sir, the challenge that we had with the 
manufacture was just getting the quantities produced on time. 
We couldn't reach the tack times and hit them every month, so 
Dr. Jette was up there personally getting involved with the 
manufacturer, went up there three or four times last year 
alone. We have been about five for five for the last 5 months. 
So we are starting to ramp those quantities back up, but we had 
to work with the manufacturer on their processes, working with 
them to make appropriate investments tooling so that we could 
decrease those span times so we could make the products faster.
    Mr. Cole. So, if we are back up, again, why that big a 
disparity between 48 and 30?
    Secretary McCarthy. Sir, we had challenges hitting the 
targets, you know. I would refer to Dr. Jette ultimately, but 
when we went through this process, it was about can we hit the 
targets that we put on contract.
    Mr. Cole. Yes. Thank you very much, Mr. Chairman.
    Mr. Visclosky. Thank you.
    Mr. Ruppersberger.

                              HYPERSONICS

    Mr. Ruppersberger. First thing. I have been here for a 
while. I think Mr. Cole and I came in the same class. In the 
very beginning on Armed Services, I was really concerned about 
a lot of issues involving the Army, but I think from what I 
have seen, you have come a long way, and I think first under 
General Milley and Esper and then you two that are taking over 
now, I have confidence that you are going to do the job. You do 
have to understand that our job is oversight, and in oversight, 
we need to ask you hard questions and to make sure that, you 
know, you are directing and that we are spending money the 
right way. Judge Carter and I are co-chair of the Army caucus. 
We work very closely with you, and you know, we want you to 
keep doing what you are doing.
    Anything involving contracts and those type of issues, 
there always seem to be issues. You have bidding, who has the 
right person, and we try to do the best there, but there are 
issues there, and we have always got to stay on top of that 
issue.
    I want to get into hypersonics. I know especially you, Mr. 
Secretary, when you were Deputy Secretary or whatever your 
former job was, we have talked a lot about hypersonic weapons. 
Other than nuclear weapons and maybe cyber security, it is 
probably, in my opinion, one of the most dangerous issues we 
deal with. And, unfortunately, Russia and China are ahead of us 
because of our crazy shutdowns of government and those types of 
things. But now we are together, we are on a roll, and I am 
going to ask you this question.
    Again, I said I am very concerned about the hypersonic 
missile development, and our adversaries are developing 
hypersonic weapons at a rapid pace. President Putin recently 
claimed to have developed a hypersonic weapon, and news outlets 
have shown images of China displaying its platforms during a 
military parade marking China's 70th anniversary.
    At last month's Army caucus breakfast, I was encouraged by 
the progress Lieutenant General Thurgood and his team at Army 
Rapid Capabilities and Critical Technologies Office have made 
to develop and test our systems and also working very closely 
with Secretary Griffin at the Pentagon. Can you explain the 
importance of the Rapid Capabilities Critical Technology Office 
to our strategic modernization efforts and how its role is 
different from that of cross functional teams and Army Futures 
Command. And can you explain the role the Army as playing in 
the development of a common hypersonic glide body? Did you get 
that? Okay.
    And I also have concerns that inefficient government 
shutdowns have put us behind our adversaries in hypersonic 
development, and many believe we are 2 years behind. Do you 
agree with that? The Army has requested $800 million in this 
year's budget to support hypersonic missile testing and 
prototyping. When do you expect to transition from prototypes 
to production, and does this funding also support development 
of defensive hypersonic measures?
    General McConville. And, Congressman, I will go ahead and 
take that and just talk a little about what General Thurgood is 
doing. As you saw and we demonstrated, the hypersonics program 
is moving out extremely quickly. We are going to be announcing 
very soon the capability to actually test that system and 
demonstrate that capability. We can talk about that in another 
venue and how soon that is going to happen.
    Not only are they doing hypersonics and moving out very 
aggressively, that is a joint team that is doing that. We are 
working very, very closely with the Navy. We anticipate having 
a battery, a mobile battery capability in fiscal year 2023. We 
are also aggressively moving out on directed energy. We have 
that capability at the 50 KW range and looking at the 300 
capability on directed energy. And then we are working with our 
integrated battle command system that is bringing sensors to 
shooters together. So what he is doing is taking critical 
technologies and bringing them together, working very closely 
with our Futures Command and bringing these very, very 
important top priority systems into being very, very quickly.
    Mr. Ruppersberger. Could you discuss where you are on 
offense and defense?
    General McConville. Well, we are much better on the offense 
right now, and the defense--we have some work to do on the 
defense.
    Mr. Ruppersberger. And do you agree we are 2 and a half, at 
least 2 and a half years behind China and Russia?
    General McConville. I am not sure that we are 2 and a half 
years behind as far as in capability. We will know more in a 
short period of time where we are in relationship to them.
    Mr. Ruppersberger. Is the funding that we have in this 
year's budget enough for you to move forward to do what you 
need to do?
    General McConville. Yes, it is.
    Mr. Ruppersberger. I yield back.
    Mr. Visclosky. Mr. Womack.

                       MODERNIZATION INITIATIVES

    Mr. Womack. Thank you. I thank both the gentleman for their 
testimony here today.
    I want to go back to the modernization initiatives. And, 
man, I know all of them are important. I mean, all you have got 
to do is read the list. But as has been said before, in 
comparing it to a menu, a lot of entrees here, but you can't 
eat it all. And we can't have all of these things, but I still 
know we have to have a prioritization list. So two questions 
about it.
    One, what are the absolute gotta-haves in these 
initiatives? And then my second question is, given the 
discussion that is already happened on the Bradley replacement, 
how has that shifted the priorities, if they have shifted at 
all?
    General McConville. Well, Congressman, I will start. You 
know, the number one priority is long-range precision fires, 
and I would say within long-range precision fires, the number 
one priority is hypersonics because we have talked about that, 
and that has got to happen. Within that portfolio also, we have 
a precision strike missile system, which is going to go out 
past 500 kilometers. That is going to give us ability to 
penetrate competitors' anti-access/area-denial capability and 
hold their ships at risk in the future. We have got to have 
that.
    When it comes to extended range cannon, what we call ERCA, 
that is the ability--you know, we are basically improving what 
we have, and we have got to have that. The optionally manned 
fighting vehicle, I think we need to have, you know. Right now, 
with the Bradley fighting vehicle, it is coming up on 40 years. 
We have incrementally improved it. We need to get a new 
vehicle. We have got to get that right, and I think we are 
going to make that happen.
    As far as our aircraft, the Future Vertical Lift, the 
future attack reconnaissance aircraft, and the future long-
range assault aircraft, we need them both. Again, we are 
looking over the next 40 to 50 years. These are the systems 
that we are going to have to have.
    The network we are putting together, we are going to tie in 
on air and missile defense. The future on air and missile 
defense is sensors to shooters. We are going to use artificial 
intelligence. We are going to use an integrated battle command 
system. Every radar is a sensor. We are going to have different 
types of shooters, whether it is directed energy, whether it is 
Patriot missiles, whether it is THAAD. We will pick the right 
arrow, depending on the system that we are having, but there is 
multiple threats that we are dealing with from hypersonic 
missiles to theater ballistic missiles to swarming unmanned 
aerial systems to rockets to mortars. We have got to have that 
capability.
    And certainly last, but very important on the soldier 
lethality side, we are giving our soldiers, our combat soldiers 
who take most of the casualties, what they need, and that is an 
Integrated Visual Augmentation System. It is also new rifle, a 
new SAR. And these programs are setting us up for the next 40 
to 50 years so we will have the overmass that we need in the 
future.
    Secretary McCarthy. The only thing I would add, sir, is 
cloud architecture. So we have to be able to capture data and 
be able to put it into a standard protocol to be able to pass 
information seamlessly between our Navy and Air Force 
counterparts to truly weaponize data and to move at the speed 
of relevance in the future.

                      SOLDIER LETHALITY PORTFOLIO

    Mr. Womack. General McConville, you did a pretty good job 
of articulating the needs for really all of the initiatives in 
your discussion. Noteworthy to me is the fact that, when you 
look at the lower priorities that have been outlined, still 
needs but down on the priority list, I see soldier lethality, 
400 percent increase. That is the request? But for your long-
range precision fires, a 4-percent increase. So help me 
understand the request for increases versus the prioritized 
list that you have outlined here today. I know there is a good 
answer for it. It is just that I am looking at the math and 
thinking, man, there is something not right here.
    General McConville. One of our most transformational 
programs within the soldier lethality portfolio is the 
Integrated Visual Augmentation System, which is going to 
fundamentally change the way our soldiers operate. The other 
thing is, as we talked about, working with small businesses and 
working with non-traditional defense partners and going ahead 
and working this new acquisition process. This thing is moving 
very, very quickly, and it is transformational in nature for 
our soldiers. That is why you are seeing the large increased 
investment in this portfolio because it is happening very, very 
quickly.
    Secretary McCarthy. It is a 26-percent increase year over 
year for the entire modernization effort, sir. But to your 
point about some portfolios moving faster than the others, that 
is largely the mature of the technology and how quickly we can 
integrate into a soldier or air formation.
    Mr. Womack. Thank you. Go Army.
    Mr. Visclosky. Mr. Kilmer.

                        CHINOOK BLOCK II UPGRADE

    Mr. Kilmer. Thank you, Mr. Chair.
    And thanks to you both for being with us.
    Mr. Secretary, I have some questions about the Chinook 
Block II upgrade, which the committee talked about at length 
last year. In 2017, General Milley determined that the Block II 
was necessary to fill critical capability gaps such as moving 
more people, more material, heavier vehicles around the 
battlefield, and since that time, Congress has been supportive 
of the program. Yet, you decided to continue to delay the 
program, even though both the House and the Senate included 
funding and report language in fiscal year 2020 which was 
intended to keep the program on schedule. Can you tell me the 
plan for the Block II upgrade of the Chinook helicopter and why 
the program can continue to be delayed without loss of 
capability to the warfighter?
    Secretary McCarthy. Yes, sir. So the aviation portfolio, we 
are bringing in two new platforms into the entire fleet, the 
future attack reconnaissance as well as long-range assault 
platform. When looking at the determination of the overall 
health of the aviation portfolio, the Chinook is on average 
about 8 to 10 years old. It has north of 20 years left on the 
lifecycle for that platform.
    Over the course of the last 2 years, Army leadership has 
worked to develop additional foreign military sales to the 
United Kingdom, the UAE, as well as the Afghan national 
security forces to keep the line warm until fiscal year 2026 
and to be able to keep flexibility in the outyears. We are also 
procuring G models for our Army special operations aviation 
platform. So we believe we have flexibility in the outyears as 
well as the health of the youngest helicopter in the formation.

            ARMY NATIONAL GUARD HUMVEE MODERNIZATION PROGRAM

    Mr. Kilmer. I also want to ask about the Army National 
Guard Humvee modernization program. That has had an immediate 
positive impact on readiness in the Army National Guard units, 
including the Guard in the State of Washington. However, there 
is a significant shortfall that remains. More than half of the 
National Guard Humvees currently are beyond their expected 
useful lives. The Army didn't request funding for the program. 
Rather, Congress has added funding of about $100 million in the 
past several years to ensure the program's success. Recently, 
the $100 million appropriated in fiscal year 2020 was part of 
the funding reprogrammed to build the border wall. Can you 
describe the benefit provided to the Army by the Army National 
Guard Humvee modernization program, and why doesn't the Army 
request funding in the budget for it?
    Secretary McCarthy. Yes, sir. The program has performed 
well, working antilock brakes, reconfiguring the ambulances, 
the Humvee ambulances. Right now, Dr. Jette and General Murray 
are conducting a vehicle study for the entire track-wheeled 
portfolio for the Army. We have about 50,000 Humvees in the 
portfolio or in the program of record for JLTVs, over 49,000. 
It is, like, a thousand in the program of record for the 
infantry fighting vehicle. We just need to make sure that we 
are right sizing what vehicles we have in the formation. So we 
are taking a hard look at that. It will be reflected in the 
investments of all of those programs that I mentioned, and we 
should be able to report that out to Congress in the near 
future.

                              CMAT CONCEPT

    Mr. Kilmer. I just have one other quick question. I am very 
interested in the continuation and expansion of the cyber 
mission assurance team concept in the Army and Air National 
Guard. I think it is helpful to address these cyber 
vulnerabilities.
    General, can I just get your thought on the CMAT concept? 
Are there cyber vulnerabilities faced by the Army that can be 
addressed through this program?
    General McConville. Well, as you know, Congressman, we have 
got tremendous talent in the Guard and Reserve that does cyber. 
We are doing a lot of innovative programs. One of the biggest 
things that we are looking at on talent management is, first of 
all, how we bring these folks in, how we keep them. There is 
tremendous opportunities in the Guard and Reserve because there 
are civilian jobs to bring them together and work those type of 
things. So I think there are possibilities in that area, but I 
am a firm believer in a talent management system where we can 
recognize those with these cyber capabilities so we get them in 
the right place at the right time.
    Mr. Kilmer. Thank you.
    Thanks, Mr. Chair. I yield back.
    Mr. Visclosky. Mr. Carter.

                 RECAPITALIZATING OLDER COMBAT SYSTEMS

    Mr. Carter. Thank you, Mr. Chairman. Welcome, both of you.
    We talked about the Bradley replacement. You gave us 
briefly some lessons learned because what we have created is an 
interesting thing, and we are really excited about it. Speed 
and accuracy is what we are trying to do in procurement, and 
that is interesting and challenging. When you look at the 
history of the military, it is very challenging. You learned 
some stuff from the Bradley, and if you apply it to anything 
else you are working on, it is going to be a learning process 
no matter what you do because a lot of things are going to be 
new. But the most important thing is to apply the learning 
process to the next project.
    And I think something my colleague to the right was 
thinking about when he was asking his questions, there is an 
awful lot here. Are you thinking to make sure that it is not 
all going to drop on our plate the same year? We have to fund 
all that as a completion project because there is a lot here. 
And are you thinking in terms of phasing it as it comes to us 
to fund because I would hate to think that all those things 
came to fruition in 1 year. It would be pretty tough for us to 
be able to finance it.
    Secretary McCarthy. Yes, Congressman. You kind of referring 
to a potential bow wave of capability that could land. 
Obviously, it would be a good problem to have, but ultimately 
what we are looking at is a flat fiscal environment. Would that 
force us into some, first, major decisions of flattening end 
strength, or do you get a budgetary increase? So the balance 
sheet, yes, we look very hard at that. This is where Dr. Jette 
and General Murray would then turn to the chief and I and make 
recommendations. Do you cycle them in based off of the 
priorities, and then would you tier them into certain units 
over time? There is a lot of that work underway right now, but 
that is an environment that we will probably face in the 2023-
2024 timeframe.
    General McConville. One of the things that we are seeing 
with even some of our older combat systems. You get to a 
certain point, you are going to have to recapitalize them. 
Really, when you start recapitalizating, you almost take them 
down to the bare bones, and you almost spend just as much money 
as if you had to purchase a new system. So the intent will be 
as the new systems get ready, we will have to divest of all 
systems, of the older systems.
    Mr. Carter. Right.
    General McConville. That is what we are trying to work our 
way through right now.

                 INTEGRATED VISUAL AUGMENTATION SYSTEM

    Mr. Carter. While I still have some time, tell us about the 
new night vision capability.
    General McConville. Well, you know, the night vision 
capability which, as you know, Congressman, is the Integrated 
Visual Augmentation System. And the difference with that is 
that is not only improving the night vision capability, which 
is the track we were on. We are taking our night vision 
systems, which started without a PVS-5, and then we went to a 
PVS-6 which gave us better night capability. And then we 
integrated a thermal capability in a night vision system 
together. The difference with this, we are going to be able to 
bring in the ability to train in virtual reality in these 
systems. So the future will be when our soldiers go to a 
target, they will be actually trained in the mission in virtual 
reality, do it 50 times, flick a switch, go off and do the 
mission. And they will have night vision capability, thermal 
capability, and also be able to see the type of information 
they need for the mission.
    Mr. Carter. Fantastic. Thank you.
    Mr. Visclosky. Mr. Diaz-Balart.

                     SYNTHETIC TRAINING ENVIRONMENT

    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. Thank you for your 
service.
    Obviously, training is a hugely important part of what 
makes our military the best in the world. I would like to 
understand, or if you can actually help me understand this next 
generation training system under the STE, the synthetic 
training environment. If you can describe the program briefly, 
why it is important, and, you know, does it work? Just help me 
understand it.
    General McConville. If I could take that, Congressman. You 
know, we always have a war. The synthetic training environment, 
what that allows us to do is really to conduct deep practice 
before we actually go ahead or rehearsals before we actually 
have to go do it on the combat battlefield. And so these 
systems that we have today that are coming on board, these 
trainers are not--you know, back in the day we used 
broomsticks. You know, soldiers during World War II didn't have 
weapons. So they ran around with broomsticks. These simulators, 
these rehearsal platforms, these virtual reality capabilities 
are cutting edge. We can put our soldiers or our pilots or our 
artillery men into situations where they get an opportunity to 
rehearse a mission 50 times before they actually have to go out 
there and do it in combat and do it live. I think it is 
extremely important.
    Mr. Diaz-Balart. And, General, so correct me if I am wrong. 
So are they, in essence, training with actual, for example, 
what it is going to look like there, whether it is buildings, 
fields, whatever it may be?
    General McConville. Absolutely. And the system that I was 
talking to Congressman Carter about is you will be in that. In 
fact, the Secretary and I have actually done it and gone 
through a virtual reality shooting house with a scenario that 
we set up, and it is as real as you can get. You can get all 
the training that you need, plus you have the ability to see 
what soldiers are doing during the actual rehearsal. And then 
you come back and do a very good after-action review and get 
lessons learned and go back and do it again.
    Mr. Diaz-Balart. If I may follow up on that, Mr. Chairman. 
So my understanding is that--what is it, $33 million? Is that 
the part of the unfunded request, I believe?
    General McConville. I think that was on the UFR. That was 
actually on the UFR, yes.
    Mr. Diaz-Balart. So those funds would be for what?
    General McConville. Those funds----
    Mr. Diaz-Balart. To expand or to do what? I mean----
    General McConville. Well, those funds are for prototyping. 
One was on the MILES system, which we use to work our way 
through, you know, actual combat so, when people are shooting 
laser-type things at each other, but it is the ability to 
conduct training exercises without actually using live bullets.
    The other one is on the virtual trainers that I talked 
about, you know, to go ahead and to begin the development of 
those trainers that our soldiers will use for rehearsals, 
whether it is fire or driving or those type of things.
    Mr. Diaz-Balart. And so those are--is that an effective way 
to train folks?
    General McConville. Oh, absolutely. And it is--really, it 
is a lot cheaper way, too. It is a lot less expensive than 
actually doing it with a real----
    Mr. Diaz-Balart. So cheaper and potentially even more 
effective because you are actually able to be in theater 
almost, right?
    General McConville. That is right. That is right. You can 
do it at home station, and you know, a lot of people don't 
have--you know, if you are in the National Guard, the Reserves, 
you are in an armory or something like that, or you have access 
to that training, you get a chance before you actually go and 
do it. I think it is valuable.
    Mr. Diaz-Balart. Thank you.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Thank you very much.

      ARMY MEDICAL RESEARCH TRANSFER TO THE DEFENSE HEALTH AGENCY

    Ms. McCollum. Mr. Secretary, you had a memo recently that 
became public, in which you expressed your concerns regarding 
the transfer of the Army's medical research to the Defense 
Health Agency while they were undergoing reorganization at the 
military treatment facilities. I too have some concerns. Can 
you share with us what your specific concerns are with the 
transferring of Army medical research to the Defense Health 
Agency?
    Secretary McCarthy. Yes, Congresswoman. This whole process 
is like a massive merger where we are divesting assets to the 
Defense Health Agency. And, ultimately, what it comes down to 
is how do you break apart the readiness piece of medicine to 
what we--the home station--and understanding the operating 
model of how the Defense Health Agency is going to work, how do 
did they budget, how do we recruit people and develop 
professionals career tracks and, you know, recruit and retain 
our personnel. It is not altogether clear how it works.
    And so, ultimately, I reached out to my colleague Deputy 
Secretary Norquist and told him that the pacing of the 
changeover was of concern, as well as the moving the Medical 
Research and Development Command to Defense Health Agency, 
MRDC, who has been instrumental in the work that we are doing 
to combat COVID-19 in particular. So I just put in the request 
to slow the pacing of this merger until we had greater fidelity 
of just how all of it is going to work.
    If you want to answer, General.
    Ms. McCollum. Yes, please.
    General McConville. I was just going to add that, you know, 
the Army is a people business, you know. Our soldiers, 
families, civilians, they depend on those medical treatment 
facilities. We have a sacred obligation to provide them quality 
healthcare. We just want to be make sure we are able to do 
that. And this is a very important endeavor, and we just want 
to make sure that we can take care of people while it is going 
on.
    Ms. McCollum. Well, thank you, gentlemen. And as I shared 
with you, I too, have some concerns, and I brought those up 
when we were talking to the different military service health 
sectors and that on there. So do you know if you are thinking 
of asking Congress for a delay on this transfer at all?
    Secretary McCarthy. No. Congresswoman, we are trying to 
work it internally. When Matt Donovan was the acting, I know he 
went through confirmation today, but we have been working with 
him about these very specific challenges. In many cases, our 
installations are in some very rural locations around the 
country, and how are we going to be in a position to ask our 
soldiers and their families to go get healthcare on the local 
economy, which may not be in a position to absorb thousands of 
people. So, for an example, how do you work through these 
relationships to ensure that we can work together and get the 
support that they need. In many cases, these local communities 
rely on us.

                                COVID-19

    Ms. McCollum. Right. Well, I have a lot of concerns about 
the way that this is moving forward. And for medical doctor 
training to what you said about rural communities and to tell 
me that you can--you know, there won't be any change in 
prescriptions because we can do them over the mail is not an 
answer.
    You mentioned COVID-19. The Army has suspended travel for 
soldiers and families from South Korea over the weekend because 
of outbreak of COVID-19 in the country. Can you give us an 
update on where you are and what U.S. Forces is telling 
soldiers and families? And then I think what has been on a lot 
of our minds, and you know, whether it is in the States or 
looking at the DOD family, do you have the kits that you need 
to even find out what is going on?
    Secretary McCarthy. So, ma'am, first, your question with 
respect to the PCS decision on Friday that we made. That was a 
60-day delay to the PCS decisions, and it is to see, will the 
flu season burn out? Will this actually reduce our risk? We 
don't know, but we want to buy some time. So we made this 
decision Friday night because we have got thousands of people 
moving to these locations all the time. So we, you know, saw 
the President put the guidance out about South Korea and Italy 
in particular. We followed suit.
    With respect to test kits, the Army has been organized for 
about last month against three lines of effort, which are 
prevent, detect, and treat. So, on the prevent standpoint, we 
have General Martin. The vice chief every day does a meeting 
and looks at where every soldier, civil servant, and family 
member is moving around the earth. And we are looking at risk-
based decisions about TDY and PCS, all of these related 
decisions.
    The Medical Research and Development Command is working 
with the CDC and NIH on vaccines. We are testing mice right now 
on one of our own solutions. So a lot of great work going 
there. Many of our people are former colleagues and proteges of 
an Anthony Fauci and Dr. Redfield at CDC, so wonderful 
relationships there and folks that have worked together for 
decades.
    Ms. McCollum. Getting back to the kits, if I may.
    Secretary McCarthy. Yeah. I was going to get there, ma'am, 
the kits.
    Ms. McCollum. Okay. Because you can't prevent if you 
haven't detected.
    Secretary McCarthy. I was going to get to detect. On the 
detect line of effort, nine of the Army labs are validated to 
build the test kits. We put in a request for more funding so we 
can open up our capacity to produce thousands a day. We are 
working through that funding right now from the supplemental 
that was granted by Congress last week.
    Ms. McCollum. In South Korea, do you have test kits was the 
more specific question?
    Secretary McCarthy. We are buying those. I believe General 
Abrams is buying those off of the local economy as well as has 
some on hand as well.
    Ms. McCollum. And you can get the lab results how soon?
    Secretary McCarthy. I don't know the answer to that.
    Ms. McCollum. Would you get back to us with that----
    Secretary McCarthy. Yes, ma'am.
    Ms. McCollum [continuing]. Because some places are having 
to send them. Other places are being able to do it.
    General McConville. That is one of the things, ma'am, we 
are working on is we've got these master testers that have done 
it for other type of diseases or viruses, and we need to ramp 
that up. It was, like, 50 or 60 a day. We have got to get up to 
thousands so we can actually get this----
    Ms. McCollum. So I would assume as part of prevent, you are 
telling others stationed in Germany to stay home, use abundance 
of precaution, not be moving around a lot?
    Secretary McCarthy. We have been putting these protocols in 
place, and they are developing additional CONOPS as the risk 
continues to grow.
    Ms. McCollum. Thank you, gentlemen.
    Thank you, Mr. Chair.
    Mr. Visclosky. Mr. Rogers.

               NEAR-PEER ADVERSARY AND TACTICAL READINESS

    Mr. Rogers. Gentlemen, thank you for being here.
    After of two decades of focusing on counterinsurgency and 
counterterrorism, the Army needs to refocus on preparations to 
oppose a near-peer adversary. The 2018 National Defense 
Strategy emphasizes the threats posed by, quote, great powers 
and specifically highlights Russia and China as the greatest 
threats to our interests.
    China, naturally at the forefront of many of our minds, 
whether it is their military modernization and mobilization, 
economic pressure on countries in the region, or continuing to 
militarize the South China Sea, it is clear that they seek to 
increase their influence in the region and, indeed, the world. 
Similarly, Russia continues to expand it is global influence, 
conducting mass misinformation campaigns, inserting itself into 
the domestic policies of foreign nations.
    I understand one of the Army's top priorities in the 
upcoming fiscal year is improving its tactical readiness when 
it comes to the near-peer adversary which will be critical 
after 2 decades of fighting in the Middle East. When it comes 
to training from the team and squad level all the way to 
brigade and higher, how are you preparing for potential combat 
or opposition against a near-peer adversary like China or 
Russia? Are there any specific training-related areas in which 
we could improve upon to ensure we are ready for this kind of a 
world? Lastly, is there anything we as a committee can do to 
help you achieve maximum tactical readiness levels?
    General McConville. If I could, Congressman, again, we are 
going through a major change for a lot of our officers, NCOs, 
as you said, prosecuting wars of what we would call irregular 
warfare, counterterrorism, counterinsurgencies, and we are 
going back to what many of us grew up with when we came in the 
Army in the 1980s, which was really large scale, ground combat-
type operations, although the difference now is we believe we 
will be contested in every single domain. Not only will we have 
large formations that will have to fight various advanced 
equipment--and when we start talking about armored-type 
vehicles, we are talking about artillery, mass type artillery--
we are also going to be contested from the air, you know. The 
last time we lost an American soldier from the air is April 15, 
1953, and that is why somewhere in our request, we are starting 
to develop the mobile short-range artillery capability. We are 
going to be contested on the sea, which we are going to have to 
think our way through how that works, and also contested in 
space and contested in cyber.
    So a lot of--you know, we are hardening a lot of our 
communications, you know. We are making sure that we have the 
ability to use the systems that may be affected from those 
areas. And so we go out to the national training center. We go 
to the joint readiness center. We are taking these--our threat 
forces, exercise these capabilities, and then we are training 
our soldiers and our officers and units how to fight against 
them.
    Mr. Rogers. Mr. Secretary.
    Secretary McCarthy. Having the maxed-out number of CTC 
rotations with these changed scenarios is greatly enhancing 
their ability. Those repetitions are key. If you look at--I 
mean, whenever I talk with General McConville or the other four 
stars, many of them had had eight or nine repetitions at the 
CTC rotations before they hit the berm in Iraq or the invasion 
of Afghanistan. So when you get repetitions of these large 
collective exercises, that is really what makes the change.
    But the investments that have been made in the CTCs have 
made a dramatic difference in fighting against real scenarios 
for near-peer competitors.
    Mr. Rogers. Thank you. I yield.
    Mr. Visclosky. Mrs. Kirkpatrick.

                            FAMILY READINESS

    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today.
    My district is home to Fort Huachuca. The fort is home to 
more than a thousand servicemembers and their families and has 
about 1,100 housing units. More than 6,000 enlisted individuals 
serve at Fort Huachuca.
    Family readiness is essential to our military's mission 
readiness. The military families' ability to maintain a stable 
home front is imperative for our troops to keep their eyes on 
the mission.
    Childcare is a necessary tool, essential to a military 
family's quality of life. Once again, the Army is not investing 
funds in childcare activities.
    So I have three questions about that. Could you please give 
the committee a justification for the lack of attention to 
these vital programs? How is that possibly going to help with 
retention and quality of life? And what is the Army budgeting 
for these programs in future years?
    As a source of stress for military families, I would think 
this would be an easy problem to attack.
    Secretary McCarthy. Congresswoman, we have grown the budget 
over the last couple of years. We have brought down the backlog 
from over 7,000 down to just under--just over 3,000 for the 
Active uniform personnel. Secretary Esper just released a 
Department of Defense-wide memorandum to prioritize military 
families first and availability for the childcare opportunities 
that exist on the installations.
    But clearly we need to do more. And we are developing a 
plan to how do we get to buy down this whole--burn down this 
whole backlog and to get it done in the next 2 to 3 years. 
General McConville has requests also on his UFR list for 
additional locations for some of the more----
    Mr. Visclosky. Mr. Secretary, I am having a very hard time 
hearing you.
    Secretary McCarthy. Can you hear me now, sir?
    Mr. Visclosky. Yes. If you could continue where you 
referenced the General was going to have remarks. No, I am not 
interrupting. I just couldn't hear you.
    Secretary McCarthy. Oh. Sorry. General McConville also has 
a request on his UFR list as well for additional----
    Mr. Visclosky. On the unfunded?
    Secretary McCarthy. On the unfunded, yes, sir.
    Mr. Visclosky. Yes. Okay. I just wanted to make sure I 
heard that right.
    Secretary McCarthy. For three additional CDCs. I believe it 
is two in Hawaii and one in Fort Wainwright, right?
    General McConville. That is correct. There is also the 
ability to--there is some other money in there.
    Congressman, like you said, we need to do more on that, and 
here is why. Eighty-eight percent of our sergeants have 
families. And we have a lot of dual families. And the Secretary 
and I have talked about this, and I put--I think it is $190 
million in my unfunded requirement list. We need to work with 
the committee to make sure we can get that funded.
    We have got about 4,000 folks on the waiting list and they 
shouldn't be waiting, and we just need to get after that, and I 
hope we can work with the committee to do better on that. We 
need to do better on that in the future.
    Mrs. Kirkpatrick. Well, I can't stress it enough. My 
district in Arizona is largely a military district, so we have 
Fort Huachuca Army Base, but we also have an Air Force base, 
Davis-Monthan, and then five of the major defense contractors 
are in Tucson. So it is a huge segment of our economy.
    And also, because of our proximity to the border, it is 
really important to maintain those bases and make sure they 
have got the resources that they need.
    So thank you for your attention to that.
    I yield back.

                        BUDGETING FOR CHILDCARE

    Mr. Visclosky. Well, I would like to follow up on the 
gentlewoman's questions as well as the answers from the panel.
    But, first of all, Mr. Secretary, you said we have grown 
the budget for childcare over the last several years, and the 
numbers would prove you correct. In fiscal year 2019, the Army 
had $326.6 million for childcare programs. In fiscal year 2020, 
our current year, it is $371.5 million.
    I would point out that is because we added the money. I 
would point out that the request for the Army for 2021 is a 
reduction of $36.8 million from current year levels. Your 
request for this year is $334.7 million. That is a cut in 
funding for childcare of $36.8 million.
    I would note, and you are correct, Mr. Secretary, that you 
have reduced the backlog. The backlog figures from the 
Department of the Army for fiscal year 2019 were 5,561 
children. Those are people. The backlog for the current year is 
estimated to be, it is not done, 5,350. So there is a reduction 
of 211 people.
    It is interesting that despite the fact that you have asked 
to cut the budget for childcare by $36.8 million, and you 
estimate you will have 900 more people in the United States 
Army next year, that your estimate for backlog for childcare is 
exactly the same number for this year, so you are making no 
progress.
    The second point I would make, as far as budgeting, we 
received notice from the Department of the Army this past week 
that relative to certain procurement programs--and the budget 
was just introduced to the Congress in the second week of 
February--that there are $145.4 million of assets identified 
that are over budget that will not be required.
    That is a huge amount of money that now is not going to be 
needed but was requested in the budget submission a month ago. 
But we cut daycare. I don't know who is doing the budgeting 
here.
    And I would also point out, and you are correct in your 
testimony, there are two unfunded requests for additional money 
for daycare. I want to be fair with you. One is for $171 
million. The other is for $150 million. I would point out they 
are unfunded. That means you didn't ask for them in this 
budget.
    Mr. Aguilar.

               PRESENT AND FUTURE THREATS AND RECRUITMENT

    Mr. Aguilar. Thank you, Mr. Chairman.
    Gentlemen, as you know, when we talk about workforce, the 
U.S. workforce and our ability to stay competitive from a 
technological environment is important.
    Looking at present and future threats, I think cyber, 
hypersonics, and directed energy are at the forefront of those 
changes. Specifically, what is the Army doing to develop 
military and civilian workforce in those areas?
    Secretary McCarthy. General McConville started a talent 
management effort when he was the G1 about 5 years ago, and we 
have matured over time with our ability to recruit and retain 
really unique skill sets, like you mentioned, with the STEM 
talent.
    We have also enhanced our relationships with academia and 
business and using direct hire authorities to find individuals 
like data scientists that have very unique capabilities and 
educational experience in particular.
    This is a challenge. With a lot of opportunity, with 3.5 
percent unemployment, we have worked this very hard even at our 
level of getting involved and personally recruiting people to 
join the Army. But it has been a difficult challenge not only 
getting them but retaining them. The compensation is just very 
competitive.
    Mr. Aguilar. What more can we do? What more needs to be 
done at your level and at our level to address some of those 
challenges?
    Secretary McCarthy. Well, some of the things we are looking 
at is on the compensation side, you know. We will never really 
achieve Silicon Valley kind of money, but are there ways that 
we can compensate people differently, different hiring 
authorities related to that.
    So we may need to come back to that next year, but right 
now we have developed these platforms to recruit people, and we 
brought them into ASOL and Futures Command like organizations 
to help us with the development of weapon systems in 
particular. We have been able to hire some very talented civil 
servants to help us with our cloud efforts.
    It may require a change with how we compensate people in 
the future.
    Mr. Aguilar. Anything to offer, General?
    General McConville. I just think that we have some very 
highly talented people that want to come into the Army, 
especially young people today. They seem to be motivated by 
purpose, being part of a team, and that is what we offer them, 
and they can do things that they can't do anywhere else.
    I have seen some amazing people who want to join the Army, 
both as civilians and the military, so we are very proud of 
their service.

              WORKING AND INTEGRATING WITH THE SPACE FORCE

    Mr. Aguilar. Another question, gentleman, on space 
operations. Can you talk to me a little bit about the Army's 
space forces that are employed, and how do you anticipate them 
working and integrating with the Space Force in the future?
    Secretary McCarthy. Sir, I would defer to the chief as well 
here. But we are going through the process of the joint 
warfighting concept, which is largely driven in the Tank with 
the Chiefs, and that is how will this change the operating 
model of the entire Department of Defense.
    What you will see over the next couple of years is the 
divestiture of some space assets from the Army. But ultimately 
it is finding where is that line of demarcation between Army 
responsibilities and the Space Force, Air Force, Navy, Marine 
Corps.
    So a lot of that will unfold over the next 24 months. But 
we have done some--we have made a lot of investments with low 
Earth orbit, satellite architecture in particular. This is a 
key capability that we are going to need to have that very 
resilient COMs as well as position navigation and timing so 
that we can have a unique capability for targeting at lower 
echelons.
    The speed of combat is continually getting tougher, and to 
have that capability at lower echelons to be able to help 
improve our targeting will be necessary. We are the largest 
consumer of space in the Department of Defense.
    Chief.
    General McConville. I absolutely agree with what the 
Secretary said. We use space. Every single vehicle has 
something that is derived from space, whether it is a global 
positioning satellite or it is a long range communication or it 
is early warning. So we have got to keep those mechanisms in 
place, and we will work with the Space Force.
    We do some things with satellites that probably will go to 
Space Force. We don't need to be actually operating in space. 
But we need to keep the capabilities on the ground that we draw 
from space, and they will be with our soldiers that are forward 
in the battlefield. So we are working on that right now.
    Mr. Aguilar. Appreciate it, General.
    Thank you, Mr. Chairman. I yield back.
    Mr. Visclosky. Mr. Crist.

          SYNTHETIC TRAINING ENVIRONMENT CROSS FUNCTIONAL TEAM

    Mr. Crist. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here. Appreciate your 
service to our country.
    As you know, the Synthetic Training Environment Cross 
Functional Team in my State of Florida is working to modernize 
training. Can you talk about the timeline for incorporating 
some of the things the Army is developing out of Orlando and 
into the force? I think Congressman Diaz-Balart had a similar 
question.
    General McConville. One of the things that, Congressman, we 
did talk about was the Integrated Visual Augmentation System, 
which we think is the most transformational system we have 
going. That came together because of the Synthetic Training 
Environment Team worked with the Soldier Lethality Team, and 
this is what made that whole program transformational, the fact 
that soldiers will be able to train on missions in virtual 
reality before they actually get to do that.
    And one of the things that the synthetic training 
environment is developing is what we call One World Terrain. So 
you can go anywhere in the world eventually and be able to 
rehearse and practice on that terrain.
    And so, we talked a little bit this before, that the 
capability of training today in simulation is unbelievable, 
whether it is flying an aircraft or it is driving vehicles or 
it is shooting weapons systems. We can do it a lot faster. We 
can do it a lot quicker. We can do multiple rehearsals without 
expending all the money that you would do if you were shooting 
live ammunition.
    Mr. Crist. Do you have anything to add, sir?
    Secretary McCarthy. Sir, looking at fiscal year 2022 for 
fielding event capability, to the point that the Chief made, is 
that it will spiral additional applications over time, day/
night sights, as well as pumping synthetic training scenarios 
like room clearing and others, as well as the maps.
    So once the actual goggle is fielded over time, more 
implications can be squirted in there because it is an open 
system architecture.

                            COVID-19 VACCINE

    Mr. Crist. All right. Thank you.
    Can you provide an update on the Army's effort to develop a 
COVID-19 vaccine? And are you working in coordination with any 
outside organizations, like National Institute of Health, 
American universities, or foreign governments?
    Secretary McCarthy. Yes, sir. We met with our experts. We 
meet with them every week. It depends on the day. We met with 
them last night.
    Right now, we are developing additional test kits, and we 
are looking at increasing the capacity of our test kits to 
thousands a day. We are working within the Vice President's 
task force to request additional funding over the course of the 
next couple of days.
    With respect to the vaccine, the Army has a vaccine that it 
is testing on mice right now, and we believe we are less than a 
couple months away from starting to test human specimens.
    There are about four or five total that are on different 
tracks. This is all being driven by the CDC. Our scientists, in 
particular, our lead scientists are proteges of Dr. Fauci. They 
have wonderful relationships. They all worked together over 
decades.
    We have, in particular, Dr. Modjarrad, who is one of three 
people on the Earth that has ever published on coronavirus. He 
works for us in Army Medical Research and Development Command, 
and he is the point man on this. He was a key figure in the 
Zika vaccine.
    So we feel very confident in our people. We just need to 
keep pushing the resources to them. But they are working really 
hard, and we are going to have options here very soon.
    Mr. Crist. Thank you for that.
    How many testing kits do you have available? How many 
testing sites are available for Army personnel? And do spouses 
and dependents have access to testing, particularly overseas?
    Secretary McCarthy. Sir, we have nine validated labs that 
can build test kits.
    Mr. Crist. Right.
    Secretary McCarthy. Right now, the quantities are very low, 
50, 60 a day. We are moving the funding, and they can get to 
thousands a day once we get the funding in place and start 
cranking this through.
    So it is a matter of weeks where we will be getting this 
going. We have just got to get the funding in place. But we are 
confident in our team's ability to start cranking more 
capacity.
    With respect to the quantities that are available to 
soldiers and their families around the globe, I would have to 
get back to you on the specifics of that, sir.
    Ms. McCollum. Mr. Crist, if you would yield?
    Mr. Crist. Of course.
    Ms. McCollum. You said, sir, 50 or 60 kits a day being 
manufactured. Is that total? Or is that 50 or 60 kits per day 
per----
    Secretary McCarthy. I will get you a paper, Congresswoman, 
but I believe that is per lab. So we will get you the 
specifics.
    Ms. McCollum. And then you said you were getting money from 
the supplemental for tests?
    Secretary McCarthy. We are looking for additional funding 
internally to the executive branch.
    Ms. McCollum. Internally.
    Secretary McCarthy. Yes.
    Ms. McCollum. Because there is no DOD language in the 
supplemental.
    Secretary McCarthy. That is right. So we would have to go 
to either HHS or other entities within the Department of 
Defense. We are working that internally right now.
    Ms. McCollum. Okay. Thank you.
    Thank you, Mr. Crist.
    Mr. Crist. Of course. Of course.
    So you mentioned about the funding. What is the issue 
there? You don't have the money?
    Secretary McCarthy. The MRDC--I am sorry, sir--the MRDC is 
on a----
    Mr. Crist. I was trying to be polite. I am sorry.
    Secretary McCarthy. MRDC is on a reimbursable model.
    Mr. Crist. Yeah. Yes, sir.
    Secretary McCarthy. So CDC, your NIH, and other government 
entities would turn to them and say, do you have the scientific 
capability here to do the work? In this case, we do.
    But we are moving to a different model where it will be on 
rate boards where we have budgets that you can lay into. But 
the current operating model of how we would do business is on a 
reimbursable basis. So someone has to come with the funding to 
say, can you do this? We are capable of doing this. We are 
working this out internally to turn on additional funding.
    Mr. Crist. So who would be the one who would come to you 
with the money?
    Secretary McCarthy. CDC, NIH, other entities within the 
U.S. Government.
    Mr. Crist. Have you sought it out?
    Secretary McCarthy. Yes, sir.
    Mr. Crist. How does it look?
    Secretary McCarthy. I could probably tell you here in a 
couple days, sir.
    Mr. Crist. Perfect. Thank you very much.
    I yield back. Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Cuellar.

             REDUCTION OR ELIMINATION OF EXISTING PROGRAMS

    Mr. Cuellar. Thank you.
    Good seeing you all again.
    Can I ask you a little bit on the Army's Night Court review 
that have led to reduction or elimination of 240 existing 
programs and ask you, I think in fiscal year 2020, you all 
proposed to eliminate or delay or cancel 186 programs, and 
Congress pretty much supported what you all did.
    Fiscal year 2021, you are again proposing to reduce or 
eliminate an additional 80 programs, which will shift another 
$2.4 billion this year and $13.5 billion across the 5-year 
program.
    Is this going to be an annual review that you all are going 
to be doing? Give us a little bit more. And again, I am one of 
those big believers in getting rid of any duplication, 
elimination of anything that has been done, so I appreciate 
this type of work, but give us a little bit more of your 
thought process on this.
    Secretary McCarthy. Yes, sir. The Army's balance sheet of 
$178 billion, if we get this budget through, is over half of 
it, north of 60 percent of it is people and operations and 
maintenance. So we are fixed with the number of dollars we have 
to modernize the force because you have got almost 190,000 
people deployed worldwide.
    So readiness is our number one priority. We have to 
continue to grow the force because we have about a 1 to 1 dwell 
between boots on the ground and deployments and dwell time 
boots on the ground. So we need more people to meet global 
demand and not wear people out.
    So when you look at the modernization effort, the research 
and development and acquisition dollars, we are fixed. We have 
to divest if we want to continue to modernize our formation. So 
we have made some very hard choices over the last 24 months in 
particular, and I think more of that will come in the future.
    But to the points that we have had in the discussion today, 
it is going to get much harder. The divestiture of systems that 
have served the Nation very well for 40, 50 years are going to 
come to an end as long as we have weapon systems that go 
through the development process, that have the maturity. So 
some very difficult decisions are in front of us.
    Mr. Cuellar. Is this your idea? How did these reviews come 
about?
    Secretary McCarthy. Well, I think it is really the four of 
us, Secretary Esper, General Milley, General McConville, and I. 
We looked at just the realities we face. We had to meet 
national objectives. We had to have units that could deploy and 
be ready to go. But we wanted to modernize the force. We knew 
we had to do this.
    So, you know, the four of us came together, took the blood 
oath, and we have taken this on. And that is why General 
McConville and I have maintained the same priorities, just 
putting greater emphasis on people, and we are going to pursue 
this for as long as we are in the seat.

                   WORK WITH HOSPITALS ON THE BORDER

    Mr. Cuellar. Well, I have to congratulate you. Mr. Carter, 
this kind of reminds me of the John Sharp performance review 
that we went over the State government in Texas. And they did 
all of this, and it saved the State of Texas billions of 
dollars. So this kind of reminds me of what we did in Texas. I 
know you have spent a little bit of time in Texas also.
    But I just have to say that I really appreciate this type 
of exercise that you all are doing.
    Can I ask you one last question quickly? Your folks in San 
Antonio are going to start doing some work with hospitals on 
the border. We changed the language to allow them to do that in 
the NDAA. And I think sometime in June, I think some of your 
folks will be going down there to the border.
    That works out for areas that don't have trauma one, tier 
one, trauma one. That helps the community. But at the same 
time, it helps your men and women to give them that type of 
training. So I highly encourage you that you continue doing 
that, not only for the border, but other parts of the country.
    And I would ask you as you do that training that is 
beneficial not only for areas that don't have--I think our area 
has about a tier three and not a tier one like in San Antonio--
that if you have any surplus equipment or anything you can help 
some of those communities that don't have the resources, I ask 
you to look at that possibility.
    But it is a win-win situation for communities that don't 
have that type of capacity. And then your men and women, so 
when they go abroad, will have that training there. So I just 
want to say thank you for that.
    Secretary McCarthy. Yes, sir. We will look at that very 
closely. As we mentioned earlier, we are in the midst of a 
merger inside the Department with the Defense Health Agency, so 
we will have to see what the implications are. Whether or not 
we have the authorities depends upon the organization in 
question.
    But this is great training, it is great opportunities to 
work with local communities, and those sorts of things we 
continue to pursue all over the country.
    Mr. Cuellar. Well, thank you for bringing an innovative--
and I am not talking only about this project, but I am talking 
about the--I will call it a performance review evaluation and 
getting rid of any duplication and unnecessary programs on 
that. Thank you, both of you.
    Thank you Mr. Chairman.
    Mr. Visclosky. Mrs. Bustos.

           ROCK ISLAND ARSENAL ADVANCED MANUFACTURING CENTER

    Mrs. Bustos. Thank you, Mr. Chairman.
    Mr. Secretary and General, thank you very much for being 
here.
    You know, Mr. Secretary, every time we have a chance to 
talk, we talk about the Rock Island Arsenal. We are very proud 
of the advanced manufacturing center that we have there. We 
really appreciate when you visited there along with me and 
Senator Durbin.
    With that in mind, you released an advanced manufacturing 
policy, and so I want to ask if you can elaborate how you see 
our center of advance manufacturing, center of excellence, 
supporting your strategy moving forward.
    Secretary McCarthy. This is a capability that we need to 
have from an expeditionary standpoint. So as much as having the 
technology to be able to produce parts is that they are going 
to have to help us figure out how to make it expeditionary in 
nature, so you can put these 3D printing machines in a ConEx 
and forward deploy it with a formation. Because that is where 
you will be able to quickly get a part produced, put it into a 
combat vehicle or a helicopter so they can get it back up, and 
keep those OR rates very high.
    So this is a very strategic priority of ours. The challenge 
that we think we are going to face with that on the 
manufacturing, we are working hard with industry because this 
is a place where intellectual property with a part is something 
where we have general purpose rights on everything, but it is 
how we write this into contracts so that over time we can 
produce them.
    So what we see the challenges ahead is going to take a lot 
of communication in particular, but this is something that we 
are going to have in all of our platforms in the future, along 
with predictive maintenance as well, so we can make those right 
calls before the part breaks while you are in the middle of an 
operation.
    Mrs. Bustos. General.
    General McConville. I absolutely agree, Congresswoman. This 
is transformational for how we do logistics in the field. 
Rather than carrying around thousands of parts, if we can make 
them.
    Mrs. Bustos. Right.
    General McConville. It keeps kids off the roads. They don't 
have to drive trucks. I mean, it saves money. We never quite 
get right which part we may need, so we have to carry them all, 
and it can take weeks to get them. So I think this is the 
future.
    Mrs. Bustos. So how can the center help with establishing a 
database of spare parts?
    General McConville. Well, I think the way it can help, and 
the Secretary mentioned that, is as we contract in the future, 
you can probably see this in the contract. We want to be able 
to manufacture so much of these parts.
    It may not be all of them because we will still have a 
logistics chain, but we will have to get a little more finesse 
in how we can get the intellectual capital to do these type of 
things. Because that is how industry makes money. They make 
money on the logistics and the sustainment. That is going to be 
all part of the deal as we move into the future.
    Secretary McCarthy. And with the older platforms, 
Congresswoman, we are going to have to get really college 
students who go to graduate engineering programs so that we can 
convert these old drawings into digital drawings. Because that 
is how you perfect the tensile strength, so when you reproduce 
it, it is within the percentage of being 100 percent accurate 
to the drawing that was written 30 or 40 years ago.
    So we are going to have a lot of these platforms in the 
formation for a long time, so it is perfecting that. We have 
relationships with Northwestern University, with Wichita State 
and others around the country, and they are helping us, looking 
at these old drawings of these weapon systems, turning them 
into digital drawings so you can--a machine can produce the 
part in real-time.
    Mrs. Bustos. So are you looking at the center that we have 
at the arsenal to help be the test bed for new concepts in 
advanced and additive manufacturing that can help fulfill the 
strategy?
    Secretary McCarthy. Absolutely.
    Mrs. Bustos. Okay. General, anything else to add?
    General McConville. I just think it is really important 
transformational work. It is what we are going to be doing in 
the future. And that is going to be, like, a center of 
excellence, and we need to move in the future. We need to get 
in the information age. That is what it is all about.
    Mrs. Bustos. Very good.
    Mr. Secretary, we would love to have you back there. Come 
visit us again.
    Secretary McCarthy. Yes, ma'am.
    Mrs. Bustos. All right. Thank you very much.
    I yield back.

                          ARMY FUTURES COMMAND

    Mr. Visclosky. Thank you very much.
    Gentlemen, the Army Futures Command was created about 18 
months ago, and each command is different. The Space Force was 
in last week and said that they aim to be agile.
    I would note, after 18 months, there are 404 people 
connected with the Army Futures Command, and in your budget 
request for 2021, you ask for an additional 150 people. That is 
a 37 percent increase in personnel. Could you explain that 
increase?
    Secretary McCarthy. Sir, Army Futures Command is about--you 
are talking about just the headquarters element? Because there 
are 36,000 people in Army Futures Command. They have the lab 
networks. They have Futures and Concepts Division. They have 
cross-functional teams.
    With respect to the, I believe, the 150----
    Mr. Visclosky. I am having a hard time hearing you. I am 
sorry.
    Secretary McCarthy. Sorry, sir. I am looking right into 
this. Can you hear me now?
    Sir, the 100--you said 100 and how many again, I am sorry?
    Mr. Visclosky. We have a request for 150 new FTEs for the 
Army Futures Command.
    Secretary McCarthy. So Army Futures Command is about 36,000 
people. It has the Futures and Concepts Division, combat 
development, combat systems, it has cross-functional teams.
    And so you are referring directly to the headquarters 
element in Texas? Is that----
    Mr. Visclosky. If I can back you up, you are asking for the 
headquarters.
    Secretary McCarthy. Yes. I thought you said Futures Command 
was only 400 people. I am sorry.
    Mr. Visclosky. For the headquarters. I am sorry. I will 
correct it.
    My understanding is there are 404 people at the 
headquarters for Army Futures Command.
    Secretary McCarthy. And we want it to be around 500.
    Mr. Visclosky. You asked for an additional 150 people.
    Secretary McCarthy. And we want it to be around 500 people. 
That was intent from its inception, sir.
    Mr. Visclosky. Why do you need those people?
    Secretary McCarthy. They are managing an organization of 
about 36,000 people. So it is the support that General Murray 
needs to run his command, sir.
    Mr. Visclosky. Okay. At this point, the committee knows you 
want 150 more people. We have no justification as to what each 
of those individuals are going to be doing and why they are 
required to help manage 36,000 other people. So if you could 
supply that for the committee, I would appreciate it very much.
    Secretary McCarthy. Yes, sir.

                              END STRENGTH

    Mr. Visclosky. On the good news front, the Army's estimated 
end strength for this current year is 485,000. It would also 
appear that there then would be a shortfall of about $400 
million to pay for that increase. I think it is terrific that 
recruiting is going well.
    Could you explain to the committee how you are going to 
meet that shortfall?
    General McConville. Well, Chairman, the way that we plan to 
meet that shortfall is the way that recruiting works over the 
year. It won't be for the entire year. We will meet end 
strength at the end of the year.
    So it basically goes through cycles. It comes down, then it 
comes back up as we bring more people in. That is how we plan 
to meet the request.
    Mr. Visclosky. So there will be savings on average to cover 
the 400. Is that what you are saying?
    General McConville. No. What I am saying is as far as how 
we manage the end strength during the year, it varies during 
the year and tends to come down and then come up at the end as 
far as how do we manage----
    Mr. Visclosky. So you will not have a shortfall of $400 
million.
    General McConville. I will have to check and take that for 
the record then.

                      AFGHAN SPECIAL MISSION WING

    Mr. Visclosky. Okay. There was earlier conversation about 
the Block II upgrade for the Chinook. I would like to continue 
the conversation about the Chinook and plans for the Afghan 
Special Mission Wing. It is my understanding there are 
discussions about transferring older models of the Chinook to 
the Afghans Special Mission Wing. Is that true?
    Secretary McCarthy. The specific mechanics of what type of 
platform that would get to the--you know, I would defer to the 
commander, but I think that they have looked at options of 
moving what would be the Block I variant to the Afghan Special, 
yes, that is correct.
    Mr. Visclosky. My understanding is they would be older 
models of the Chinook that would be transferred.
    Secretary McCarthy. They would be Block I, yes, sir.
    Mr. Visclosky. If I could ask, what is the strategy if we 
are drawing down? I mean, why are we going to provide a 
helicopter that has never, my understanding, been provided to 
the Afghans before? Why are we going to give it to them now?
    General McConville. I would defer that question to the 
commander in the field. But I mean, the aircraft is--the CH-47 
Fox is a very good aircraft there. It is for the Special 
Mission Wing. I think it is the right aircraft. The CH-47 is a 
great aircraft. And that provides the capability that they 
think they need, and they are working through how they are 
going to purchase that and make that happen, and I think it is 
a good recommendation.
    Mr. Visclosky. When you say they need, are you talking 
about our command or the Afghans?
    General McConville. In order to give the Afghan Special 
Mission Wing the capability.
    Mr. Visclosky. They would buy it from the Army.
    General McConville. They would--there will be some type of 
purchase agreement. I will defer----
    Secretary McCarthy. With foreign military financing or some 
relationship like that, yes, sir.
    Mr. Visclosky. But the moneys would go to United States 
Army.
    Secretary McCarthy. The platforms would go--well, you mean 
how would they cycle the funding through the Department and 
then ultimately provide them to the Afghans, sir? Is that what 
you are asking?
    Mr. Visclosky. It is my understanding that if you transfer 
those assets, the Afghans would have money from somewhere to 
pay for that, but the money would be transferred back to the 
United States Army.
    Secretary McCarthy. On the sale itself?
    Mr. Visclosky. Yes.
    Secretary McCarthy. It would presumably go through DSCA and 
then ultimately to the Afghan National Security Forces, sir. 
You are talking about the actual transfer, the transaction?
    Mr. Visclosky. My understanding----
    Ms. McCollum. They buy it; we take the money.
    Mr. Visclosky. The Army would get the proceeds from the 
sale of these helicopters from the Army. Is that correct?
    Secretary McCarthy. Sir, the specifics to the transaction, 
I would get a technical expert to give you all of the 
specifics, sir.
    Sorry. Sir, can you hear me?
    Mr. Visclosky. So as you testify here before us today, Mr. 
Secretary, you have no anticipation that there is going to be a 
transfer of old Chinooks to the Afghan forces?
    Secretary McCarthy. That is the option we are looking at, 
sir.
    Mr. Visclosky. You are looking at that option. So if you 
are looking at that option, it would also be your assumption, 
if that option is exercised, there would be a transfer of 
money.
    Secretary McCarthy. Yes, sir.
    Mr. Visclosky. Okay. If there is that transfer of money and 
you are looking at that option, the conclusion of the option is 
the Army has more money.
    Secretary McCarthy. If the transaction went that way, yes, 
sir.
    Mr. Visclosky. They are short helicopters. They have got 
money, right?
    Secretary McCarthy. Theoretically, yes, sir.
    Mr. Visclosky. Okay. What is the Army's plans as you are 
looking at the option? What would be the Army's option as to 
what they are going to do with that money?
    Secretary McCarthy. Sir, I would have to get back to you 
with specifics.
    Mr. Visclosky. I would appreciate it if you would, Mr. 
Secretary.
    I might also just ask that my impression, and I stand to be 
corrected here today, that the Afghans have had a very 
difficult time for 19 years maintaining any aircraft, the most 
recent ones, the helicopters they have. They have not dealt 
with the Chinooks. And, General, I would absolutely agree that 
they are terrific aircraft.
    What assurance after 19 years of failure in our drawdown 
that they are going to be able to do this? And are we going to 
end up having to pay someone else to stay in Afghanistan and 
maintain these if that option is exercised? Have people thought 
about who is going to maintain these as part of that option?
    Secretary McCarthy. That would be part of what we would 
come back with you on, sir, yes.
    Mr. Visclosky. Mr. Calvert.

                           PROGRAM MANAGEMENT

    Mr. Calvert. Thank you, Mr. Chairman.
    I think what they are trying to do is take money out of one 
pocket and put it in the other pocket, because the Afghans 
don't have the money to buy the helicopters in the first place, 
I suspect. But we will get into that later.
    You know, I think I have told you the story, my favorite 
procurement story of all time was Kelly Johnson, who was a 
renowned aircraft designer at the Skunk Works, you know. At the 
beginning of World War II, we were losing, and he went to a bar 
in El Segundo with a couple engineers, and with cocktail 
napkins he laid out the P-38. Nine months later it came across 
the assembly line.
    They asked him at the end of his life how come you did it 
that quickly? He said, because we were going to lose the war.
    And today we are having a discussion about various systems 
that we can't seem to get to for years, including the 
hypersonics, which is obvious. But, obviously, the replacement 
for the Bradley isn't all that technical, it seems to me, and 
these delays and delays and delays is remarkable to me.
    And now I get a memo the other day that Secretary Esper, in 
his former role as Secretary of the Army, approved a waiver for 
the use of a compound called HNS-2, an organic compound, from a 
prohibited source. That source was a Chinese military company. 
Apparently, the Army didn't realize that the manufacturers of 
our Abrams active protection system used a compound that nobody 
else could provide. Nobody else could provide it.
    The waiver notification indicated that the manufacturers 
are working on qualifying two nonprohibited sources, but that 
would take 18 to 24 months.
    So I thought it was kind of the ultimate irony that Kelly 
Johnson designed the P-38 aircraft in 9 months--I mean, not 
designed it, it was coming across the assembly line in 9 
months--and we can't get a waiver to take away a critical 
resource for the Chinese military that provides protection for 
the Abrams tank. We have got a problem, and we have got to fix 
this problem in our procurement process.
    This gets to my comment, is program managers. I don't know 
who the program manager is on the Abram modernization program 
or the program manager for the Bradley replacement or the 
program manager--I know the program manager for the hypersonic. 
That would be Mike Griffin. Mike is on that full time, I think. 
At least that is what he tells me.
    Do we have program management on this, or are we changing 
these people out too often? That is the question I have got.
    Secretary McCarthy. With respect to the program manager for 
Abrams, we have had--we have a PEO, a two-star general that 
falls under him, Jeff Cummings. I think we are looking at about 
24, 36 months on station for these program managers.
    Mr. Calvert. How come it takes 18 to 24 months to get a 
signoff to take away ordering this prohibited--this material 
from the Chinese? I mean, we shouldn't be doing it in the first 
place, but you think they could--somebody could go upstairs and 
knock this thing out right away.
    Secretary McCarthy. Yes. It is entirely too long, very 
bureaucratic, going through different entities within the 
Department of Defense and other government agencies.
    Mr. Calvert. Don't you think it is a little bit ironic that 
we are buying this from the Chinese military? I mean, that is--
whoa.
    But anyway, Mr. Chairman, I yield back.

           MATERIALS IN EXTREME DYNAMIC ENVIRONMENTS PROGRAM

    Mr. Ruppersberger. I want to talk to you about the 
Materials in Extreme Dynamic Environments program.
    General McConville, today, about the Materials in Extreme 
Dynamic, it is called MEDE, I believe it is, program led by the 
Army Research Lab and Johns Hopkins University at Aberdeen 
Proving Grounds. Through this program, Army scientists and 
engineers partner with industry and academia to test and 
develop advanced body armor ceramic blends and innovative 
manufacturing techniques. This research has already paid 
dividends, resulting in a significant 16 percent reduction in 
the way that body armor used in the Army's next generation 
Personal Protective Equipment system.
    While 16 percent doesn't sound like a lot, I am told when 
you are jumping out of a C-130 it makes a hell of a difference.
    In my opinion, this is program is an example of a 
successful Army research partnership and one that directly 
affects our frontline troops on the battlefield. Unfortunately, 
the MEDE program is in the last year of funding. Are there 
plans to extend this program into the future? And as we work to 
modernize our Army, how important are Army research programs 
like MEDE to the advancement of new armor materials for our 
soldiers and equipment?
    General McConville. Yes, Congressman. As you said, this is 
some incredible work that was done. It is cutting edge 
technology as far as what it has done for body armor.
    As I understand, this has reached the end of a 10-year 
contract, and we will come back to you with some more details. 
But I believe they are going through the process of doing 
another contract. I am not sure exactly where the details are 
on that.
    Mr. Ruppersberger. Okay. I yield back.
    Mr. Visclosky. Mr. Womack.

                    TRAINING GROUND AT CAMP BUCKNER

    Mr. Womack. Thank you, from a different vantage point.
    Mr. Ruppersberger. Look where you are sitting?
    Mr. Womack. I kind of like this seat. Just kidding.
    Secretary McCarthy, I know you would think I would be a 
remiss if I didn't throw a West Point question into our 
discussion today given the fact that everybody that sits at 
this dais has young men and women that they have nominated and 
ultimately had appointments to the U.S. Military Academy.
    And now, having the benefit of serving on that board since 
2017, and now as chair for the fourth straight year, I just 
want to put in a plug for the proactive nature in which our 
West Point leadership is approaching the modernization of the 
post.
    As you know, that has got some age on it, and it has some 
stressors, notably Camp Buckner, where a lot of very important 
and critical training takes place. We have done a very good job 
with and still doing a good job with the Barracks Improvement 
Program, the beautiful Davis Barracks, the Academic Improvement 
Program.
    So down the road, how are we going to address and is it 
going to be the intention of our Army to pay some attention to 
the training ground out of Camp Buckner and Camp Natural 
Bridge?
    Secretary McCarthy. Congressman, we have put the initial 
request into this budget for the refit of the Buckner site. We 
put the request in this year on Buckner and we are starting the 
process. But that is something that is way overdue.
    Mr. Womack. Yeah. General McConville, you have obviously 
trained there. Hasn't changed much since you were there, Camp 
Buckner, so you probably have at least a little bit of 
parochial interest in that training ground, do you not?
    General McConville. I certainly think that it needs to be 
replaced, and we have had that discussion. I have talked to the 
superintendent. We also support the engineering facility. That 
also needs to get done. So those are out there, and those are--
we want those in the program.
    I know with Buckner, we have talked about that. That is in 
the future. I just want to give you exactly where that sits.

                 BATTALION COMMANDER ASSESSMENT PROGRAM

    Mr. Womack. Sure. But you know General Williams would drop 
me for pushups if I didn't throw that subject out on the table.
    One other question. This is for General McConville.
    Your work as a G1 was noteworthy, and I really appreciate 
and admire the strategy behind the talent management piece of 
what we are trying to do with people. I personally think it is 
long overdue, but particularly in the area of the Battalion 
Commander Assessment Program. And I want to give you a chance 
here for the committee to articulate the need for a process 
that was conducted in January and February that was designed to 
better identify those officers who should be commanding at the 
battalion level.
    And a follow-up question to that is, do you sense, given 
what you have been through in January and February, that we 
could see this thing also applied to the brigade command 
selection process, even the sergeants major process? So just a 
few random thoughts on it.
    General McConville. Yes, Congressman. And we took an 
assessment, and we started at the battalion command level, and 
we believe--I personally believe the battalion command is the 
most consequential command position in the United States Army 
because they deal with our new soldiers, new officers. And 
based on that experience, a lot of soldiers and officers decide 
whether they are going to stay in the Army or get out of the 
Army.
    They are also our future leaders. We pick 435 battalion 
commanders. We pick about 450 colonels. It is not the one to 
one. But that is where our future leaders are going to come 
from.
    And we took a look at the way we are assessing these very 
important leaders, and we are basically looking at their 
evaluation reports for about 2.5 minutes during the board, and 
we decided that we should give them some more time. So we set 
up a 5-day assessment that looks at a lot of knowledge, skills, 
and attributes that we think they should have, and we got some 
good results.
    And we are going to look at doing the same thing both for 
command sergeant majors and brigade commanders. One size 
doesn't fit all. But these assessments, I think, are extremely 
important.
    Mr. Womack. Thank you for your work in this particular 
regard because I agree. I think it is one of the threshold--
probably the threshold command that has as much of an impact on 
the success of our Army as about anything.
    And in order to get a rise out of Dutch, I am going to end 
by saying beat Navy.
    Mr. Visclosky. The gentleman from Maryland?
    Mr. Ruppersberger. Nope. I wasn't listening.
    Mr. Womack. That, I know. I said----
    Mr. Ruppersberger. What did you say?
    Mr. Womack. I said beat Navy.
    Mr. Ruppersberger. Well, you know, I am Army Caucus. I 
don't watch Army-Navy games.

              NATIONAL GUARD AND RESERVE EQUIPMENT ACCOUNT

    Mr. Visclosky. Gentlemen, there was a transfer of money 
from the National Guard and Reserve equipment account totaling 
about $1.3 billion. We won't get into the details, except for 
the Army Reserve $205 million were involved, and for the Army 
National Guard there was $395 million involved. That is a loss 
of $600 million for those accounts.
    Do you have any plans or thoughts as to how you will 
proceed in 2020 given that loss of $600 million?
    Secretary McCarthy. Sir, we are going to have to look back 
and reevaluate how we are going to be able to adjust. But those 
were program funds that we did not program for, so we will have 
to go back and look at how we could adjust to that.
    Mr. Visclosky. I would acknowledge to you it is a 
congressional add, and we do it annually. Was there any 
anticipation by the Army that we wouldn't do it again? I mean, 
the money was there.
    Secretary McCarthy. Yes, sir.
    Mr. Visclosky. Mr. Diaz-Balart.

                              GRAY EAGLES

    Mr. Diaz-Balart. Thank you, Mr. Chairman. I actually will 
be brief.
    So the Gray Eagle, was it MQ-1C, which is an enduring 
component, frankly, of future force structure of the Army, and 
then I noticed that there was a report commissioned by the Army 
that recommended procurement of 14 aircraft per year as a 
minimum just to sustain the industrial base.
    And yet my understanding is the Army now has, in essence, 
zeroed out that airplane, that drone, whatever you want to call 
it, for fiscal year 2021.
    So again, if the report says that just to--forget about 
anything else--just to keep the industrial base alive it 
requires 14 aircraft, how do we then zero it out overnight?
    General McConville. I think--and we have got to--I will get 
you the exact details, but the way I understand it is we met 
our acquisition objectives. We bought all the Gray Eagles that 
we required to fill our organizations, and now we are starting 
to look at what is the future of our unmanned aerial systems 
that manufacturing and others can compete for so we keep the 
base going.
    But as we talked, in the future--first of all, these 
aircraft have done great things for us in the environment we 
are in. But we are moving to great power competition where the 
airspace will be contested, so that is going to drive the type 
of aircraft that we are going to need in the future.
    Mr. Diaz-Balart. No. I get that, General. I am just 
concerned that we don't destroy the industrial, because again, 
when that report talks about 14 aircraft per year minimum to 
sustain the industrial base, I think that is something that we 
have to also look at. So I would just be interested to kind of 
follow up on how that is going to look, how do we make sure 
that we don't jeopardize the possibility that some of those 
that are providing these amazing platforms, that we don't 
jeopardize them. So I would like to follow up with you.
    General McConville. Sure.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.

                            FORCE EMPLOYMENT

    Mr. Visclosky. The next question I would have is on the 
dynamic of force employment. The Army has requested 500----
    General McConville. 588, sir.
    Mr. Visclosky [continuing]. $588 million for the force. And 
the question I have is about the justification that has been 
submitted.
    I would, again, in all fairness, indicate that we do have 
four pieces of paper from the Department of the Army justifying 
$588 million. I would point out that for $458 million we have 
one piece of paper with three sentences. The three sentences 
are repeated on each of the other three sheets.
    In an effort to find out more detail, our committee has 
requested information about these forces, how they will be 
deployed, how long the deployments will be, how large of the 
contingencies, and other details, recognizing that you want 
some flexibility for this force, and to date, we have received 
no information.
    So you might, if you could, Mr. Secretary, explain to me 
why the details have been lacking and why your office has not 
responded to our request for information.
    Secretary McCarthy. Sir, we will get the G3 up here to 
explain.
    Mr. Visclosky. When will you do that, Mr. Secretary?
    Secretary McCarthy. As soon as possible, sir. As soon as 
you are ready we will bring them up here. That is unexcusable. 
We should get you the information.
    Mr. Visclosky. Okay.
    Ms. McCollum.

                    MERGER OF THE HEALTHCARE PROGRAM

    Ms. McCollum. I want to go back to our discussion earlier 
about the merger of the healthcare programs. 171 doctors on 
average graduate every year from our military schools. We 
graduate highly proficient nurses, master's, dentists. And of 
the 171 doctors that graduate, we are still short in the 
military 15 to 18 percent, and that is with the 7-year 
enlistment.
    That is a great opportunity to get your medical school paid 
for. Many of us in this room probably don't even know it, but 
our doctors--one of my doctors, my gynecologist, was an Army 
doctor. That is how a poor kid from South St. Paul was able to 
go to school.
    We have a shortage of physicians and doctors in this 
country. And so, Mr. Chair, I think we need to work with the 
staff to really figure out if we know where this is heading, 
because if this isn't done right, we are heading to compound a 
physician, nurse, and possibly even a dental shortage in this 
country, not only for ourselves, but for our military men and 
women.
    And you don't know when you are going to get called in to 
fight the battle. And these doctors and nurses and techs and 
radiologists and everybody else that comes with the finest in 
the world, do some of the most advanced healthcare in the 
world, they are working with military families and soldiers, 
airmen, and marines, and their families, keeping their skills 
fresh and learning all the time to be better healthcare 
professionals.
    Ms. McCollum. And I am very concerned that we are not 
thinking this out thoughtfully and about not only what we are 
doing to the research side, but the healthcare delivery side. 
And if we don't get this right, it will mean less people 
either, you know, re-upping to stay in the military service 
part of it, the military core, or families walking with their 
feet if there is a shortage of pediatricians and gynecologists, 
which are the two that I have seen that they really want to 
scale down.
    And what that signals to women, that we are trying to keep 
and retain and move through rank and do the important jobs in 
the military, is we don't care about your healthcare. Now, I 
know that is not what you gentlemen are about, but that is what 
I am becoming very, very concerned about.
    So, Mr. Chair, with your permission, you know, I am ready 
to slow this down and do a deep dive and do some research 
because I think this has repercussions that we don't even 
realize, not only in the military healthcare but in civilian 
healthcare, and I am very concerned about it.
    I am not saying we can't do it, but all the articles I am 
reading, everybody is like nobody has proved that this isn't 
going to cause a shortage.
    And so that--Mr. Chair, we are going to have to--you know, 
based on the previous hearing--and you were at a very important 
meeting while that was taking place. I have become more alarmed 
over the last week about--that we are rushing into this.
    And so I appreciate what Secretary McCarthy said about him 
having concerns, but he is not asking for a delay, Mr. Chair. I 
might be looking to work with you to talk about how we make 
sure all our ducks are in a row before we do this because it 
could have severe consequences to our healthcare.
    General McConville. Can I just stress the importance of the 
military medical education? Just like you said, all the doctors 
that graduate with military education, that is how we get folks 
to serve in the Army, and we really appreciate that.
    Ms. McCollum. We can be short people when we need them the 
most.
    Thank you, Mr. Chair.
    Mr. Visclosky. We are close to the end.
    Mr. Secretary, General, a number of questions have been 
left for the record, and additional information is to be 
supplied. We would expect that that would be done in detail and 
promptly. Again, we would reiterate the request of the chair 
for some detail about those additional 150 people for the 
headquarters at Futures Command.
    Additionally, I just would make the observation that I felt 
all of the answers for the Chinook questions were lacking.
    And I would close on childcare. The Department of the Army 
left this brochure for us. You know, the five initiatives that 
are highlighted in your brochure--initiatives--is childcare, 
which you propose cutting by over $36 million. So I wouldn't 
want to characterize what I think of that, but I will simply 
say this hearing is adjourned.

                                         Wednesday, March 11, 2020.

                     UNITED STATES CENTRAL COMMAND

                                WITNESS

GENERAL KENNETH F. McKENZIE, JR., COMMANDER, U.S. CENTRAL COMMAND

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. The committee will come to order. This 
morning the subcommittee will hold a hearing on the posture of 
the U.S. Central Command, or CENTCOM.
    Before we start, I would like to recognize Ranking Member 
Calvert for a motion.
    Mr. Calvert. I move those portions of the hearing today 
which involve classified material be held in executive session 
because of the classification of the material to be discussed.
    Mr. Visclosky. Thank you, Mr. Calvert.
    I would like to remind members that any material placed in 
front of you marked ``classified'' should be left at your chair 
at the conclusion of the hearing.
    General, before I begin, I do understand that you lost two 
Marines in Iraq on Sunday. And all of us obviously send our 
condolences to their family and understand we all have 
responsibility we do everything we can to make sure people are 
as safe as they can be.
    Today we will hear and receive testimony from our witness, 
Central Command General Kenneth McKenzie. General, we do 
welcome you to your first hearing before the subcommittee.
    Less than 2 weeks ago, the United States signed a peace 
agreement with the Taliban. The U.S. has agreed to withdraw all 
U.S. and coalition forces within 14 months in exchange for the 
Taliban cutting ties with Al Qaeda. While the Afghan Government 
is not a party to this agreement. talks between the government 
and the Taliban are imminent, as I understand it. According to 
the administration, these intra-Afghan negotiations will lead 
to a ceasefire and the prospect for peace after two decades of 
war.
    Administration officials also argue that protections for 
Afghan women are likely to continue because the Afghan of today 
is different from that of two decades ago, and the Taliban 
wants support from the international community. I believe that 
our Nation's military operations in Afghanistan should wind 
down. Unfortunately, I remain deeply skeptical that this 
agreement will enable the United States to depart Afghanistan 
in a responsible fashion.
    The agreement does not contain a ceasefire. It does not 
contain verifiable metrics to ensure the Taliban is holding up 
their end of the bargain. It does not include serious timeline 
or end date for the intra-Afghan talks, and the agreement makes 
no mention of democracy nor includes any protections for human 
rights or women's rights. Moreover, it is hard to understand 
how we can continue our counterterrorism mission or train and 
equip Afghan forces if we pull out all of our forces within 14 
months.
    The administration has recognized some of these 
shortcomings, and their response has been to state that our 
withdrawal is conditions based. Unfortunately, this is not 
reassuring since there appears to be no common understanding of 
what those conditions are or what is or not acceptable under 
the agreement.
    Meanwhile, since the agreement was signed, the Taliban has 
resumed attacks against the Afghan Security Forces, and the 
United States has responded with air strikes. It is in this 
environment of uncertainty that the committee must review the 
administration's budget request, which is now dated--through no 
fault of your own, General.
    General, we do need your best assessment of the situation 
as it is today. With respect to plans for U.S. troop 
withdrawals, the committee needs to understand which bases are 
closing, which of our units are coming out and when. We need to 
know the cost attributable to the drawdown and where the money 
will come from. This is made more problematic since the 
administration has used nearly all of the transfer authority to 
build a wall.
    With respect to the billions of funding requested to 
support the Afghan Security Forces, we also need to understand 
what is absolutely necessary and what can wait. After nearly 
two decades, I do not believe now is the time to make major 
investments or to start new programs. Instead, we should be 
focusing on making sure that what we have already provided is 
being used and maintained properly.
    General, I hope we can get your best advice. I have a 
lengthy opening statement. I will enter the rest of it into the 
record and would now recognize Mr. Calvert.

                     Opening Remarks of Mr. Calvert

     Mr. Calvert. Thank you, Chairman Visclosky.
    And welcome, General McKenzie, to your first appearance 
before this subcommittee. We are committed to helping ensure 
the readiness and capability of your command and supporting our 
men and women in uniform with the tools they need to accomplish 
their mission. From political uprisings to ongoing civil wars 
and an expanding Russia and Chinese footprint in the region, 
there is no shortage of issues to discuss with you today.
    The big picture context involves implementation of the 
National Defense Strategy and what our realignment of global 
military resources to better counter China and Russia means for 
CENTCOM and our other combatant commands.
    Iranian aggression and attacks against Americans and our 
partners in the region have helped drive our current force 
posture. Perhaps not all my colleagues would agree, but in my 
view, the strike on General Soleimani was appropriate and 
helped strengthen deterrence. However, further Iranian 
miscalculation cannot be ruled out.
    I also, as a side note, would be interested in hearing 
about the Iranian outbreak of the COVID-19 and how that is 
affecting their leadership chain of command.
    One spillover of the strike on Soleimani has been its 
impact on our relationship with Iraq and on the counter-ISIS 
campaign. I hope you will be able to manage these difficulties 
in a way that supports Iraqi sovereignty and against Iranian 
interference and prevents an ISIS resurgence.
    In addition to a host of other pressing issues, there is, 
of course, the future of U.S. and coalition efforts against 
terrorist threats in Afghanistan and prospects of a durable 
political settlement with the Taliban.
    We are eager for your assessment of the situation on the 
ground, the conditionality and verification relating to a 
proposed U.S. and NATO drawdown and its impact on Afghan 
security. I want to conclude by thanking you once again for 
your service and look forward to your testimony.
    With that, Mr. Chairman, I yield back.
    Mr. Visclosky. Thank you very much, Mr. Calvert.
    General, if you want to proceed, your entire statement will 
be entered into the record.
    [The written statement of General McKenzie follows:] 
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

    [Clerk's Note.--The complete hearing transcript could not 
be printed due to the classification of the material 
discussed.]

                                         Wednesday, March 11, 2020.

                      UNITED STATES AFRICA COMMAND

                                WITNESS

STEPHEN TOWNSEND, COMMANDER, U.S. AFRICA COMMAND, (AFRICOM)

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. The subcommittee will come to order. This 
afternoon, the subcommittee will hold a hearing on the posture 
of U.S. Africa Commander, AFRICOM.
    Before we get started, I would like to recognize Mr. 
Calvert for a motion.
    Mr. Calvert. I move that those portions of the hearing 
today which involve classified material be held in executive 
session because of the classification of the material to be 
discussed.
    Mr. Visclosky. Thank you, Mr. Calvert. So ordered. I would 
remind members that any material placed in front of you marked 
classified should be left at your chair at the conclusion of 
the hearing.
    Today, we will receive testimony from our witness, AFRICOM 
Commander Stephen Townsend.
    General, we welcome you to your first hearing before the 
subcommittee. This hearing takes place at an important time for 
U.S. foreign policy and our military presence around the world. 
As those in the room are aware, the 2018 and National Defense 
Strategy emphasizes competition between great powers as a 
greater long-term challenge to U.S. national security than the 
threat of terrorism.
    Over the past two decades, China has deepened its reach in 
Africa, financing large infrastructure projects, opening up a 
base in Africa, and deploying peacekeepers and spreading its 
culture and language by funding Confucius Institutes across the 
continent. Further, as you will note in your testimony, Russia 
has aggressively increased its activity in Africa and is the 
continent's top arms dealer. Not only does AFRICOM contend with 
the growing presence of China and Russia, but also, as our 
intelligence officials point out, the threat to our national 
security from terrorism and violent extremism continues to be 
substantial.
    Despite these troubling data points, the Defense Secretary 
is weighing proposals for a major reduction in American forces 
from West Africa as one phase of reviewing global deployments 
that could reshuffle thousands of troops around the world. I 
assume AFRICOM has been making the case that its bases and 
missions run from them are integral to U.S. interests. We would 
appreciate hearing these details today.
    As I have said in our COCOM hearings, all of this brings me 
to our oversight responsibilities. First, as long as we have 
troops in the region in harm's way, we should make sure they 
receive the best training and equipment and are not left 
exposed.
    Second, we need to make sure that the funds we appropriate 
to carry out programs in the region are executed efficiently 
and effectively.
    And finally, if the administration is going to change our 
posture in the region, we need to look at the tradeoffs and how 
such changes would affect our national security and, very 
important to us, the fiscal year 2021 budget. In that context, 
I hope we can discuss several of these issues today.
    But, General, before we turn to your testimony, I would 
turn to Mr. Calvert, our ranking member, for any statement he 
would have.

                     Opening Remarks of Mr. Calvert

    Mr. Calvert. Thank you, Mr. Chairman.
    And welcome, General Townsend, for your first appearance 
before the subcommittee. The macro level backdrop for this 
hearing is Secretary Esper's ongoing review of all combatant 
commands, with a goal of realigning our military resources in 
line with the National Defense Strategy.
    We all understand that competition with China and Russia 
extends to the African continent and that terrorist threats 
pose significant, perhaps growing, threats to the stability of 
both East and West Africa. We have seen firsthand the deadly 
attacks on U.S. and Kenyan personnel by al-Shabaab earlier this 
year and by what one official has called an unprecedented rise 
in terrorism across the Sahel and West Africa.
    In other words, for these and many other reasons, the 
United States needs more rather than less engagement across the 
full range of our interests in Africa, including on security. 
The challenge is determining what issues are best addressed by 
our civilian agencies, whether our allies can contribute more, 
assessing where the Department's unique assets are critical to 
the national security.
    I want to conclude my brief statement by thanking you and 
the men and women under your command for your service, and I 
look forward to your testimony.
    With that, Mr. Chairman, I yield back.
    Mr. Visclosky. Thank you, Mr. Calvert.
    General, your entire statement will be entered in the 
record, as you know. You may summarize and then we will get 
into questions. Thank you so much. Go ahead.
    [The written statement of General Townsend follows:] 
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

    [Clerk's Note.--The complete hearing transcript could not 
be printed due to the classification of the material 
discussed.]

                                          Thursday, March 12, 2020.

                    TESTIMONY OF MEMBERS OF CONGRESS

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. The committee will come to order.
    Today, we will be hearing testimony from our colleagues in 
the House of Representatives relative to their concerns. We 
would like to learn from them and their experiences, also to 
potentially help with any needs that they see, whether it be in 
their district, State, or the Nation.
    Before we begin with our friend and colleague Mr. Williams 
from Texas, I would point out for the record that three of our 
colleagues have submitted written testimony for the record: 
Congressman Ron Estes from Kansas; Congressman Buddy Carter 
from Georgia, who usually is able to join us; as well as 
Congressman Tom Suozzi from the State of New York.
                              ----------                              

                                          Thursday, March 12, 2020.

                                WITNESS

HON. ROGER WILLIAMS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Visclosky. Mr. Williams, the floor is yours. Welcome to 
the committee.

               Summary Statement of Congressman Williams

    Mr. Williams. Thank you, Mr. Chairman and Ranking Member 
and my friend, my colleague from Texas. I will be brief today. 
I know there is a lot going on. But, Chairman Visclosky and 
Ranking Member Calvert, I thank you for the opportunity to 
testify before this subcommittee and for all that you do for 
our men and women in uniform.
    Today, I would like to take this opportunity to talk about 
Fort Hood, about the military's readiness and what is needed to 
continue America's superiority in the future.
    Fort Hood we know as the ``Great Place,'' as it is commonly 
known, is home to over 36,000 soldiers and airmen, with 
thousands of troops currently deployed in South Korea, Europe, 
Afghanistan, and the Middle East in support of global combat, 
peacekeeping, and humanitarian operations. Our soldiers bring 
to central Texas over 48,000 family members, making Fort Hood 
one of the largest and most populous military installations in 
the world. Its economic contributions are also significant, 
delivering roughly $25 billion to the Texas economy last year.
    And I also would like to call attention to North Fort Hood, 
home to the First Army Division West and a staple in my 
district. Division West serves a critical function in the pre-, 
post-, and de-mobilization operations, a mission that has 
likely affected your States' U.S. Army Reserve or National 
Guard units in some way.
    I encourage this committee to make every possible dollar 
available to support this critical mission. As the DOD and 
FORSCOM continue to rely on the U.S. Army Reserve and National 
Guard units to supplement manpower shortages, we must ensure 
that we are providing the training, funding, and resources 
available to maintain their effectiveness and lethality on the 
battlefield.
    The modernization of our force is pivotal in our ability to 
develop the force of the future, and I remain supportive of 
every effort to build the most lethal and modern fighting force 
on the planet.
    With that said, if there were an opportunity to identify 
specific defense accounts that don't require an increase this 
year but are projected to have one, I hope that, instead of 
returning the entirety to the defense account, the full 
committee would consider providing a reasonable percentage 
towards MILCON projects that have been pending or underfunded 
far too long.
    Fort Hood's top priorities continue to be improvements to 
barracks, motor pools, and aircraft hangars. Each one of these 
infrastructure types are critical for the health and welfare of 
the soldiers as well as their professional ability to carry out 
their assigned duties.
    And I hope when 302(b) levels are determined that there 
will be significant plus-ups in the MILCON account for these 
projects in the same way that I hope that there will be 
practical increases in the subcommittee's jurisdiction.
    Lastly, I trust this committee will continue to prioritize 
the overall modernization and readiness of the total force and, 
most importantly, to not sacrifice one for the other.
    Last year, the Army Futures Command stood up in Austin, 
Texas. In their own words, Army Futures Command, or AFC, is on 
a quest to modernize the way the Army does business by creating 
a space of endless possibilities to explore, develop, and test 
new methods, organizations, and technologies. Above all else, 
we want to make sure soldiers have what they need before they 
need it to protect tomorrow today.
    These innovations within the DOD are essential to 
modernizing the force and utilizing the expertise and solutions 
that will put combat enablers on the field of battle in less 
time and at a better cost. I hope the utmost of consideration 
will be given to AFC and that our defense committees will 
ensure that they have the talent and the resources necessary to 
achieve their mission.
    In order do that, we must guarantee that they can hire top 
talent through already-existing, streamlined hiring processes 
that provide competitive compensation and long-term retention 
strategies. There are countless Americans who are excited for 
the opportunity to serve their country in this innovative 
field. It is our future. Our goal should be to welcome these 
talents, not create barriers to entry.
    In May of 2018, I had the privilege of traveling to Iraq 
and Kuwait with my colleague and the ranking member of the 
MILCON-VA Subcommittee, Chairman John Carter, who I am honored 
to represent Fort Hood with him. During our travels, I enjoyed 
spending time with our III Corps soldiers deployed to the 
region as part of Operation Inherent Resolve. The experience is 
one that I will never forget, I will always treasure, and 
reaffirms why our tireless advocacy for the military in this 
body is so vitally important.
    America's adversaries are working every day to defeat us, 
and if we are tested, we must be prepared to deliver a 
resounding response of America's strength and resolve. We 
cannot afford to put Band-Aids on a problem and hope that we 
can keep a helicopter, a plane, a ship, or a tank in use for 
another day past its prime.
    The investment in our modernization is key not only to 
maintaining a competitive edge against our near-peers and 
terrorists but to guarantee the safety of our servicemembers, 
who so selflessly volunteer to get behind the stick of that 
helicopter or the wheel of that ship.
    We have a longstanding bipartisan tradition of coming 
together to provide the Pentagon with the resources necessary 
to fight and win in any domain, and I am committed to 
continuing that cooperation.
    Mr. Chairman and Mr. Ranking Member, thank you again for 
providing me the opportunity to discuss the defense priorities 
on Fort Hood and throughout the DOD. Your steadfast support for 
our servicemen and -women does not go unnoticed.
    The United States of America has the greatest military the 
world has ever known, and it is the honor of my lifetime to 
represent our servicemembers in Congress.
    So thank you, Mr. Chairman, Mr. Ranking Member. I yield my 
time back.
    Mr. Visclosky. Mr. Williams, thank you very much for your 
testimony.
    I certainly hear a clear bill here on the military 
construction accounts. We share that concern. And, also, the 
investment as far as the mobilization platforms I think are 
critical, because you want to make sure everyone is as safe and 
as effective as they can be. So we certainly appreciate that.
    As I think I asked last year, though, are you still showing 
Judge Carter the way?
    Mr. Williams. Oh, that is part of the hardest thing I do in 
Congress, but I am still at it.
    Mr. Calvert. Well, I want to thank the gentleman. I have 
been to Fort Hood. It is a wonderful facility. And the men and 
women who serve there are fabulous, and I am sure you are very 
proud of them, as the rest of the country is. And go, Dodgers. 
Thank you.
    Mr. Williams. You are with a winner. Thank you. God bless.
    Mr. Cuellar. Mr. Secretary, I also want to thank you for 
what you and John Carter do to represent that area. So thank 
you so much.
    Mr. Williams. Thank you.
    Mr. Visclosky. Mr. Williams, thank you so much.
    Mr. Williams. Thank you, Mr. Chairman.
    [The written statement of Congressman Williams follows:] 
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
                                          Thursday, March 12, 2020.

                                WITNESS

HON. JAMES MCGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Visclosky. Mr. McGovern.
    Mr. McGovern. Thank you very much. I am sorry I am late. We 
are in Rules Committee----
    Mr. Visclosky. You are on time.

               Summary Statement of Congressman McGovern

    Mr. McGovern [continuing]. And we are hold on right now.
    But I want to thank you, Chairman Visclosky, Ranking Member 
Calvert, for giving me the opportunity to talk about a few of 
my priorities for the Fiscal Year 2021 Defense Appropriations 
Act.
    First, I respectfully ask the committee to honor the 
service of a specific cohort of former members of the Armed 
Forces who were exposed to radiation during the years following 
World War II, known collectively as the atomic veterans. 
Specifically, I ask the committee to provide $4 million for the 
creation and distribution of an atomic veterans service medal.
    You know, year after year, House-passed language to create 
this medal has been stripped from the NDAA final conference 
reports. This is particularly galling when the provision has 
received overwhelming bipartisan support in the House for 
years.
    For 5 years, my good friend and Republican colleague, Tom 
Emmer, and I have offered this provision as an amendment, 
receiving unanimous votes in the House. And, last year, the 
provision was included in the base text of the House NDAA. And 
so, in light of this, I respectfully ask the committee to take 
the lead and provide the necessary funding to honor these 
veterans with a service medal.
    As you know, between 1945 and 1962, about 225,000 members 
of our Armed Forces participated in hundreds of nuclear weapons 
tests. Thousands of other GIs were exposed to dangerous levels 
of radiation as part of the U.S. military occupation forces in 
Japan and those who were POWs in and around Hiroshima and 
Nagasaki.
    All were sworn to secrecy, unable to talk to their doctors 
about their exposure to radiation. And the Pentagon stubbornly 
refuses to honor their service, arguing that it would somehow 
diminish other military personnel tasked with dangerous 
missions. Mr. Chair and members of this committee, that is just 
ridiculous, and it is offensive.
    So this is a unique group of veterans. No other cohort has 
been recognized for specialized testing and treatment by the 
Department of Veterans Affairs. No other cohort has been 
recognized by three former Presidents for their unique service. 
President Reagan designated July 16, 1983, as Atomic Veterans 
Day. President George H.W. Bush recognized them as a discrete 
cohort of American veterans eligible for compensation under the 
Radiation Exposure Compensation Act of 1990. And President 
Clinton issued a public apology in 1995 following the Advisory 
Committee on Human Radiation Experiments' landmark report.
    So it is beyond comprehension for the Pentagon to assert 
that these veterans are just like any other veteran who faced 
hazardous duty. They are not.
    In 2007, our allies Great Britain, New Zealand, and 
Australia awarded such medals to their atomic veterans who 
served alongside our GIs. There is no reason for us not to do 
the same.
    Tragically, upwards of 80 percent of American atomic 
veterans have already passed away, never having received this 
recognition.
    So, Mr. Chairman, we can't wait any longer to honor them. 
Please recognize this unique group of veterans, their sacrifice 
and selfless service. Please fund and create an atomic veterans 
service medal, please, before they all pass away. Time is 
running out.
    Second, I want to thank you for your consistent support of 
the Wounded Warriors Service Dog Grants Program. Since fiscal 
year 2015, this committee has led the way in creating and 
funding this program that provides grants to qualified 
nonprofits to offset the cost of training service dogs for our 
veterans. I ask that you continue funding this program at $11 
million, the same as last year.
    And, finally, I would like to thank the committee for 
recognizing the importance of prioritizing research to address 
enteric disease, or ETEC, in last year's bill. For fiscal year 
2021, I ask the committee to provide $10 million under Navy 
RDT&E Medical Development to support ETEC research.
    Among our servicemembers deployed around the world, ETEC is 
the leading cause of bacterial diarrhea. It results in millions 
of days of diminished readiness. It incapacitates a 
servicemember for 3 to 5 days, and half of all affected report 
decreased job performance afterwards. So 1 in 10 will develop 
post-infection bowel problems.
    So the Navy, DARPA, and academic partners have made 
significant progress in developing effective countermeasures, 
but without further funding, the antibodies developed will not 
go on to the next stages of development and testing. So it is 
urgent that the committee advance this research, which will 
benefit literally tens of thousands of our uniformed men and 
women deployed abroad.
    So, Mr. Chairman and members of the committee, I want to 
thank you. I appreciate your hard work. And that concludes my 
testimony.
    Mr. Visclosky. Mr. McGovern, thank you very much for your 
testimony and your concerns.
    I would point out that we will do our very best to maintain 
the funding for the military service dogs.
    Mr. McGovern. Thank you.
    Mr. Visclosky. You were an advocate last year.
    And we did provide some funds for the atomic veterans 
service medal, but, as you know--and I know you are working 
with the authorization committee too--we still have to solve 
that particular part, but would want to stay in touch with that 
committee as well as yourselves----
    Mr. McGovern. We will.
    Mr. Visclosky [continuing]. To see if we can have some 
success.
    So, again, realize you have a full plate, and appreciate 
you taking the time to be down here.
    Mr. Calvert.
    Mr. Calvert. I thank the gentleman for his testimony and, 
certainly, concern about the atomic veterans. I knew one 
myself. Unfortunately, he is no longer with us, like most of 
them. But they certainly should be recognized.
    And, certainly, the dogs that go to service are necessary 
in times of war, and they should be treated properly. So I 
appreciate that.
    Thank you.
    Mr. Cuellar. Yes. And I just wanted to say, certainly, on 
the military dogs, that is something that we support, and we 
will work with you on that. Thank you for pointing that out.
    Mr. McGovern. And I should just say, the support that you 
have provided over the years, in terms of grant assistance to 
help train these dogs, benefited countless veterans. And it 
literally changed their lives, I would argue even saved their 
lives. So thank you for your great work. Appreciate it.
    Mr. Cuellar. Thank you for your leadership.
    Mr. McGovern. Thank you.
    Mr. Visclosky. Thank you very much.
    [The written statement of Congressman McGovern follows:] 
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 12, 2020.

                                WITNESS

HON. RICHARD HUDSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NORTH CAROLINA
    Mr. Visclosky. Mr. Hudson, welcome to the committee. You 
may proceed.

                Summary Statement of Congressman Hudson

    Mr. Hudson. Thank you, Chairman Visclosky, Ranking Member 
Calvert, members of the subcommittee. I really appreciate this 
opportunity to be here today to discuss the pressing needs of 
Fort Bragg, North Carolina, and the surrounding community.
    As many of you know, Fort Bragg is a very special and 
unique place. Fondly referred to as the ``epicenter of the 
universe,'' it is not only home to the Airborne and Special 
Operation Forces but also our Nation's largest military 
installation in terms of personnel, which is a fight I had with 
Judge Carter, who has the largest base, I believe, by land 
mass.
    Each of these commands and their subordinate units are 
specifically designed to meet the most unique challenges facing 
our Nation. Simply put, when a President calls 911, the phone 
rings at Fort Bragg, as they are the tip of the spear.
    One of these units, the 82nd Airborne Division, has the 
unique designation as the immediate response force, in which 
they must be able to deploy anywhere in the world within 18 
hours. Combine this with increased reliance on Special 
Operations Forces over the last 20 years, and it is clear that 
Fort Bragg deploys more personnel to more countries on shorter 
notice than anyone else.
    Maintaining such a capability requires investments in not 
only lethality and modernization but also in the infrastructure 
to make it all work, which has not been sufficiently funded. 
Our men and women in uniform cannot win the next fight if they 
can't get there quickly and safely.
    Fort Bragg is at a critical juncture. Our primary and 
alternative airfields, rail systems, roads, training areas, 
maintenance facilities, and infrastructure are in desperate 
need.
    The roads that connect Fort Bragg with neighboring 
communities and serve a disproportionately high concentration 
of our Special Operations Forces and their families are in 
utter disrepair. The roads are so bad they cost Fort Bragg $2.5 
million annually in accident and death payments alone.
    The State of North Carolina wants to take over maintenance 
of these roads but needs the Army to first raise them to State 
standards. That alone would cost approximately $43 million.
    Unfortunately, conventional forces at Fort Bragg, including 
the 82nd, have suffered from a lack of MILCON funding, 
receiving only one project since 2010. With this in mind, the 
command has been forced to try to mitigate the effects of this 
financial drought by utilizing Facilities Sustainment, 
Restoration, and Modernization, FSRM, funding.
    This applies to barracks that had their roofs ripped off 
during recent hurricanes, motor pools that can't physically fit 
modern vehicles, and an airfield that desperately needs 
resurfacing.
    The fact is, we are dangerously close to losing the 
capabilities that our Nation relies on. During the recent rapid 
deployment of the 82nd on New Year's Eve, the lights on the 
runway that have been there since 1938 actually failed.
    One of the most concerning issues to me is that the 
Department of Defense won't even request what it has identified 
as true needs. For years, they have been forced to undercut 
themselves and request less than 100 percent of their 
requirement. This year, that request has come to 81 percent of 
the actual need.
    I urge the committee to see what effect this is having on 
the force. I understand we have limited resources to fund 
competing priorities and acknowledge that members of this 
committee have done an exceptional job at finding that very 
tough balance. Yet, as Fort Bragg's Congressman, I am here to 
tell you, these decisions have a cost that is jeopardizing the 
safety of our men and women in uniform. With this in mind, I 
would ask that the committee fund the FSRM budget for the Army 
at the highest levels possible.
    Additionally, I would like to bring your attention to a 
program within USSOCOM known as the Preservation of the Force 
and Family, or POTFF. POTFF was established to create a 
holistic approach to address pressures on the force and 
increased stress on operators' families. This program touches 
all aspects of the operator--physical, mental, social, and 
spiritual.
    The success of POTFF is demonstrated through a notable 
decrease in the rate of physical and emotional injuries from 
all causes, significantly accelerating return to duty times, 
increasing retention, and improving overall morale of the 
force, to include their families. POTFF is the embodiment of 
the SOF truth that people are our most valuable asset.
    As you know, it takes years to build a special forces 
operator. The demands of SOF continue throughout their career 
and are compounded by a high deployment-to-dwell ratio. Simply 
put, the demand is there, and the job isn't getting any easier. 
Thankfully, programs like POTFF are exactly what we need to be 
able to maintain a ready force.
    I ask this committee to fund the POTFF program as robustly 
as possible.
    Finally, I would like to highlight a relatively small but 
extremely valuable program from the Department of Defense. As 
you know, the Department of Education administers the Impact 
Aid program to provide financial assistance to compensate for 
the lost tax revenue for school districts that contain Federal 
property. Similarly, the Department of Defense Education 
Activity administers a supplemental DOD Impact Aid program.
    As you can imagine, each of the counties surrounding Fort 
Bragg are recipients of Impact Aid, which serves as a critical 
lifeline to school districts that would otherwise lose funding 
they desperately need.
    In fiscal year 2020, the Department of Defense included $40 
billion of supplemental funding for the program and a separate 
$10 million for additional funding for children with severe 
disabilities.
    Fort Bragg is one of the few installations across the 
country that has an Exceptional Family Member Program for 
children with special needs. As such, families from across the 
country are stationed here solely based on the fact that their 
children need access to these resources. Because not all of 
these children are in schools on post, the DOD Impact Aid for 
children with severe disabilities is increasingly important for 
our communities.
    With this in mind, I would ask that you continue to build 
on the progress made in last year's defense appropriations bill 
and further increase both the DOD Impact Aid supplemental and 
DOD Impact Aid for children with severe disabilities when 
looking at fiscal year 2021.
    Again, I would like to thank you, Chairman Visclosky and 
Ranking Member Calvert, for allowing me to testify today, and I 
stand ready to answer any questions you might have.
    Mr. Visclosky. Mr. Hudson, thank you very much for taking 
the time to appear. Do appreciate your commitment, one, to 
national defense, as well as the United States Army, and 
attentive to the needs in your district.
    Would point out--and I am an infrastructure guy; I am from 
Gary, Indiana--that for Facilities Sustainment, Repair, and 
Maintenance in fiscal year 2020, we increased the budget by 
$600 million for the Army's line, to a total of $4.1 billion. I 
regret that the administration only asked for 3.5, not that 
that is not a lot of money, but it is a cut. So we are aware of 
that. Appreciate your concern.
    Also share your concern, we all do, on Impact Aid. I don't 
have that particular issue in my district, but it is 
immediately across the line, and deal with people who have that 
issue. And, again, would just point out that, in this year's 
bill, we increased Impact Aid from the Department by $50 
million.
    And also--and you mentioned, I appreciate--that children 
with disabilities, we increased that account this year for $20 
million. No one knows what the future holds, but obviously we 
will do our very best.
    Mr. Hudson. Well, I really appreciate that.
    And, again, you know, the requests that end up in front of 
you don't represent the totality of the need. And you don't 
have enough money to cover all the need that even is presented 
to the committee. And so you guys have a tough job, you men and 
women here, and I appreciate the job you do. But keep in mind 
that you are not even seeing all the need that is out there. 
And a place like Fort Bragg that hasn't had a MILCON since 
2010, the place is crumbling.
    Mr. Visclosky. Is that near where you live, Fort Bragg?
    Mr. Hudson. Well, pretty close, pretty close. Yes, sir.
    Mr. Visclosky. Mr. Calvert.
    Mr. Calvert. Well, the men and women that serve at Fort 
Bragg are at the point of the spear, and we should certainly 
support them as much as we can, any way we can. And I will be 
working with the chairman to do exactly that. And we will stay 
in touch to see what we can do under the constraints we have on 
the appropriations process.
    Mr. Hudson. Thank you.
    Mr. Calvert. Thank you.
    Mr. Visclosky. Thank you very much.
    Mr. Hudson. All right. Thank you.
    [The written statement of Congressman Hudson follows:] 
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
                                          Thursday, March 12, 2020.

                                WITNESS

HON. BRIAN FITZPATRICK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Visclosky. Mr. Fitzpatrick, welcome. You may proceed.

              Summary Statement of Congressman Fitzpatrick

    Mr. Fitzpatrick. Thank you, sir. Thank you, Chairman 
Visclosky, Ranking Member Calvert, members of the committee. 
Thank you for hosting today's hearing and giving me the 
opportunity to discuss two priorities that are very, very 
important to this subcommittee for fiscal year 2021 
appropriations.
    First, as co-chair of the bipartisan Congressional Ukraine 
Caucus, I come here today in strong support of robust funding 
levels for Ukraine in the fiscal year 2021. At a minimum, we 
ask that this committee appropriate funds for Ukraine-related 
programs at currently enacted levels, but I strongly encourage 
that these programs receive an increase in funding.
    It is in our national interest to help Ukraine succeed as a 
democratic, independent, and prosperous nation and by 
strengthening the security of our Central and Eastern European 
allies in the face of increasing Russian aggression. Our 
support for Ukraine also stems from our shared values of 
sovereignty, human rights, and the rule of law.
    These funds are essential to support Ukraine's democratic 
progress, military readiness to combat Russian aggression, its 
civil society capacity to combat corruption, which I personally 
worked with and experienced over there as my time as an FBI 
agent, and also efforts to care for Ukraine's veterans, and 
efforts to boost economic development in key fields such as 
agriculture and small business.
    Robust American support remains critical to Ukraine's 
independence and sovereignty. We especially encourage strong 
support in the Ukraine Security Assistance Initiative, which is 
directed by the Department of Defense.
    Moreover, I would like to express my support for funding 
programs that promote transparency and accountability to end 
corruption, especially programs that strengthen the parliament, 
judiciary, media, and civil society in Ukraine; also, to help 
Ukraine defend its territorial borders and its territorial 
sovereignty from outside aggression--Russia's illegal seizure 
of Crimea must never be recognized--alleviate human suffering, 
especially in eastern Ukraine, including hundreds of thousands 
of children who have been displaced.
    These challenges require comprehensive and bipartisan 
support, and the United States must continue to stand shoulder-
to-shoulder with the people of Ukraine and provide robust 
funding for our strategic ally in the region. And I urge the 
committee to ensure that the necessary funds are appropriated 
to assist our friends in Ukraine.
    Secondly, I would like to turn to an issue that is much 
closer to home. For several years, I have been working very 
hard to address the contamination of our drinking water by 
toxic PFAS chemicals, because I believe these chemicals 
represent one of the most widespread public health crises we as 
a Nation face, so much so that myself and my friend and 
colleague Dan Kildee from Michigan co-led and are co-leading a 
bipartisan PFAS Task Force to unite all the area Members of 
Congress whose districts have been impacted.
    Advisory levels--a high percentage, exceedingly high 
percentage, of our drinking water throughout the Nation, 
particularly in some of our districts, contain an exceedingly 
high percentage of PFOS and PFOA chemicals that exceed the 
EPA's current lifetime health advisory level of 70 parts per 
trillion of combined PFOA and PFOS. However, toxicological 
profiles of these chemicals released by the Agency for Toxic 
Substances and Disease Registry suggest that tens of millions 
more Americans than previously thought are drinking water with 
harmful levels of these chemicals.
    An example of how my constituents have been impacted by 
this issue is in West Rockhill Township. In 1986, a team of 
firefighters from the former naval air station in Willow Grove, 
Pennsylvania, and also the Naval Air Development Center in 
Warminster use AFFF-spraying trucks to assist firefighting in a 
massive tire fire. And the AFFF foam is a firefighting foam 
made up of PFAS chemicals. And now the water supply for many 
households in West Rockhill Township test at some of the 
highest levels of PFOA and PFOS in the entire Nation.
    The Pennsylvania Department of Environmental Protection 
first started sending notices to affected households in 2016. 
That means that for 30 years many were drinking water and 
bathing their children in water that was poisoned by these 
highly toxic chemicals with no idea of the harm they were being 
exposed to and through no fault of their own.
    Last July, the Congressional PFAS Task Force led a 
bipartisan group of lawmakers in sending a letter to the 
Defense Department Inspector General, asking the office to 
examine the Defense Department's use of PFAS at military 
locations. The IG's office responded that they will be 
launching a review of the Defense Department's use of PFAS at 
military sites in Michigan and around the country.
    It is unacceptable that the Defense Department put the 
health of families in Pennsylvania and around the Nation at 
risk with these chemicals. Whether it was intended or 
unintended, every American has the right to clean drinking 
water. And the Federal Government created this health crisis, 
and it is important that the government now start to take 
responsibility for that.
    Our citizens have the right to this. And, moreover, the 
more we learn about these chemicals, the clearer the danger 
becomes. And as the co-chair of the PFAS Task Force, it is my 
firm belief that this committee must appropriate the necessary 
funds to remediate and clean up contamination from these PFAS 
chemicals.
    I thank the committee for their time and attention to these 
two very important matters, and I am happy to answer any 
questions.
    Mr. Visclosky. Well, I thank the gentleman very much. Both 
primary issues you have touched on, Ukraine as well as the 
environmental, are very close to our hearts.
    Mr. Calvert and I have been to Ukraine, and whether we have 
been or not, a very, very serious issue. As you probably know, 
we did include $250 million this year. There is no guarantee 
for the future, but very alert and very concerned about 
Ukraine. So do appreciate your position.
    Additionally, particularly Ms. McCollum has been very, very 
active on this, as the issue of the water quality issue and the 
cleanups. Met with the Secretary of the Air Force yesterday, as 
a matter fact. It is unclear how much the administration really 
is looking for. I would point out for the record that for 
fiscal year 2020 they asked for $79 million, which I thought 
was completely inadequate. The committee added 172 above that.
    At least two of us, Mr. Calvert and I, serve on Energy and 
Water. I tell people, environmental management is always a bill 
payer, it is always last. But people drink that water, whether 
they are at a base, whether they are in a community. And it is 
a priority for us, and we will be very attentive to it. So 
appreciate your concern.
    Mr. Calvert.
    Mr. Calvert. I thank the gentleman.
    And, as you pointed out, I worked with the gentlelady on my 
prior job but that she has now, the jurisdiction over the 
Environmental Protection Agency. And DOD certainly has a 
responsibility. This PFAS issue is nationwide. It is a 
difficult issue to approach. We have programs within EPA like 
WIFIA and certainly the Department of Defense grant programs, 
but we need to take this on. And it is a big, big problem.
    As far as Ukraine is concerned, we agree. I have been a big 
believer in lethal aid to Ukraine to get Russia's attention. I 
am fearful this summer they may try something provocative, so 
we need to make sure that we are in a good position.
    So, with that, thank you, Mr. Chairman.
    Mr. Visclosky. I thank you.
    Betty.
    Ms. McCollum. Just on the PFAS, we have an all-of-
government approach that I have been working on with the team 
in Michigan. And I thank you for the task force that has been--
it has made a difference in getting people's attention on this.
    So we are waiting for the EPA to set a standard. They have 
been slow to do so. But that standard might not be the final 
standard. We might have to lower the levels again even after we 
have that because of what we are finding out.
    I have a municipality that since 2006 has been filtering 
water. So it is a problem all across. But the Department of 
Defense needs to step up, and they need to take responsibility 
and work with you to remediate this problem. So I look forward 
to working with you on this.
    Mr. Calvert. If the gentlelady would yield, too, on that, I 
just would point out, technology has changed. And I may just 
point to you and others that there are technologies that work 
and are much more effective and, you know, it gets the cleanup 
quicker. And I hope the EPA and the Department of Defense and 
others will pay attention to these new technologies and get it 
out there.
    Ms. McCollum. Well, that is true, but it can be in surface 
water, it can be in groundwater, it can be in wells, so the 
technology is all where it is.
    And my municipalities, we are filtering the waters, but 
the--I have been in a--so if you set this room upright, one of 
these filters, it is a little smaller than the circumference of 
this room. But then that has all the nasty stuff in it. And 
then what do we do? We landfill it.
    So we need research. And as the gentleman from California 
put out, you know, there are lots of different ways to address 
this. We have to address it. We can't wait for the perfect way 
to do it. We need to do something right now.
    Mr. Fitzpatrick. And the filtration issue, as you pointed 
out, is a separate issue in and of itself, because what do you 
do with the filters after they are filled? Because there is no 
safe way that we have been aware of to dispose of these 
chemicals.
    Ms. McCollum. So we need research, we need standards. But 
we need the Department of Defense to stand up in doing 
research, in setting safe standards, and in cleaning up these 
plumes so that they don't spread any farther.
    So it is a serious problem. And thank you for, you know, 
the fight, because it is making a difference. But I was just 
shocked when the President, after--you know, this is 
bipartisan, bicameral--when the President's budget came out 
and--I won't say ignored it but, you know, didn't give it the 
due diligence it deserved.
    Mr. Visclosky. Thank you very much, and please do stay in 
touch. We will continue to work on it.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    [The written statement of Congressman Fitzpatrick follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                          Thursday, March 12, 2020.

                                WITNESS

HON. THOMAS SUOZZI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Visclosky. The gentleman from New York. I am so happy 
to see you. We were told you were not going to appear and 
simply submit written testimony, and it darkened our day.

                Summary Statement of Congressman Suozzi

    Mr. Suozzi. Oh. Well, I am happy to be here myself. Thank 
you, Mr. Chairman.
    Mr. Visclosky. You may proceed.
    Mr. Suozzi. Thank you for that warm welcome.
    Mr. Ranking Member, other members of the committee, I 
really appreciate the opportunity to testify before you today.
    You know, you all have reputations of being concerned about 
environmental restoration. We were just talking about PFAS. I 
am here to talk to you today about a groundwater plume on Long 
Island that has contaminated our sole-source drinking water 
aquifer for over 40 years. We have known about it for 40 years. 
And the Navy is the responsible party, and they can't get out 
of their way to actually clean it up.
    So I am here to advocate for a monumental but necessary 
$500 million increase in funding in the Environmental 
Restoration Program in the Department of the Navy. This is a 
big thing I am asking for. I am asking us to really look at 
something that our community has struggled with for over 40 
years.
    So this money that we are looking for is to remediate 
environmental degradation stemming from defense-related 
activities. Congressman Peter King joins me in this bipartisan 
request. He can't be here today because he has a function for 
St. Patrick's Day at the White House.
    This funding is essential for the cleanup of contamination 
of the defense manufacturing site in my district that, again, 
we have known about for over 40 years and other similar sites 
across the country.
    Mr. Suozzi. During World War II and throughout the 1980s, 
Long Island was a defense industry manufacturing hub. Long 
Islanders produced the aircraft that helped lead the allies to 
victory during World War II. We helped develop the propulsion 
technology that carried Americans into space and built the 
lunar module that landed on the moon.
    We are proud of our contributions to the Nation's defense 
and space exploration, but for over 40 years--again, over 40 
years--the pollution that was left behind has contaminated our 
drinking water. It is spreading rapidly. It has decreased 
property values, and it has spread fear throughout our 
communities.
    The United States Navy and the Grumman Corporation have 
long been deemed officially to be the responsible parties. We 
know they are the responsible parties for this contamination, 
and they are liable for the cleanup.
    Mr. Chairman, Newsday is our local daily newspaper on Long 
Island. And I would like to submit for the record a recent 
Newsday investigative report entitled ``The Grumman Plume: 
Decades of Deceit.''
    The excellent reporting, in frustrating detail--this is 
relatively recent that this report came out. This excellent 
reporting, in frustrating detail, outlines decades of finger-
pointing, bureaucratic delays, high-priced lawyers and 
engineers, and misdirection, which have resulted in a four-
decade-old problem that is a long way from actual remediation.
    Recently, the New York State Department of Environmental 
Conservation released a new plan to contain further spread of 
an underground plume of contamination before it destroys 
additional drinking water supplies, again, in our sole-source 
aquifer.
    Instead of a new round of finger-pointing between lawyers 
and engineers, Congressman King and I are advocating that the 
U.S. Navy and Grumman stick to their defense-related expertise 
and instead write a significant check, each of them, the Navy 
and Grumman, write significant checks to the New York State DEC 
and the Bethpage Water District so they can implement on a more 
timely remediation of the spreading underground blight before 
it further harms our island and our people. That is why this 
additional funding is essential.
    This plume, which is one of the most complicated in the 
country, is currently 2.1 miles wide, 4.3 miles long, and goes 
as much as 900 feet deep and has contaminated the sole-source 
aquifer drinking water for millions of people on Long Island.
    To date, the remediation of the Navy-Grumman plume has 
concentrated on cleaning up hotspots and treating drinking 
water at the wellhead. There has been no plan in place to fully 
remediate the site, much less contain the plume. Hence, it has 
continued to spread.
    The DEC, the Department of Environmental Conservation, of 
New York State's bold plan, which includes construction of 16 
wells along the southern perimeter of the plume, is estimated 
to cost $585 million over the next 30 years and hundreds of 
millions of dollars more of the existing record of decision to 
fund the current remediation.
    The Navy and Grumman are going to have to pay this money. 
They are going to have to do it. And I am saying, instead of 
going through the bureaucratic mess that the Navy has to go 
through because they are not experts in environmental 
remediation, the previous Secretary of the Navy agreed with me, 
let's just have them write a check to the local authorities so 
they can cut through the bureaucracy and get this site cleaned 
up.
    The Environmental Restoration Program is a Department of 
the Navy program initiative to, quote, ``identify, investigate, 
and clean up former waste disposal sites on military 
property.''
    According to a Department of Defense report, the DOD 
anticipates that 1,852 sites will still not have achieved 
resolution complete by the end of fiscal year 2021, the fiscal 
year we are currently budgeting for, and will still require 
billions more to address the existing sites.
    Despite the present backlog, the President's budget 
proposal cuts this funding by $50 million to the lowest level 
in 4 years. That cut is unacceptable, as I am sure you agree, 
especially when considering that emerging contaminants are 
already leading to additional sites and growing cost.
    I am not going to talk about PFAS. I know other speakers 
have already spoken about it. But I want to advocate, again, 
how important it is for these chemical contaminants to be 
cleaned up.
    Emerging contaminants pose a significant risk to the 
funding for existing sites. As the DOD writes, quote, ``Because 
the DOD could not plan, program, or budget for the 
unanticipated costs as part of the typical budget cycle, it 
used funding that was originally programmed for cleanup 
activities at other sites,'' like mine, ``that will likely lead 
it to delays in achieving response complete at some of those 
deferred sites.''
    This report goes on to state that the list of sites is not 
static and will grow by an average of 150 sites a year, and, 
therefore, it is unlikely the DOD will achieve a response.
    We cannot--we must not--cut funding at this time. In fact, 
we need a dramatic, new solution. We need your help. The people 
on Long Island are begging for your help.
    This is a bipartisan request. It is well-documented; it has 
gone on for 40 years. And only your help can help resolve this 
very dramatic problem.
    Thank you, Mr. Chairman.
    Mr. Visclosky. I feel the gentleman's frustration, and I 
share it. I would suggest there is probably not another Member 
in the House who has more Superfund sites, more contaminated 
waterways, and other environmental problems than the First 
District of Indiana. I live in Gary, Indiana.
    We have the Grand Calumet River, which is not grand, but it 
is a river. And for 100 years, 90 percent of the water in that 
river was industrial discharge from five refineries and four 
integrated steel mills. As a member of congressional staff for 
6 years and as a Member for 36 years, we have been trying to 
just clean up that one site. We have made progress, but we 
still have four reaches of the river to go. And I absolutely 
appreciate your frustration.
    I also appreciate your activity because you had an 
amendment that was adopted in House, and we were able to retain 
fiscal year 2018 on this issue. And would point out--and it is 
of little consolation to you at this moment--that for the 
current fiscal year we increased the administration's request 
for that account by $49 million.
    These are problems, as you point out on page 5, the 
movement of money because we can't plan and we are going to 
take money from your account--just isn't going to solve the 
problem you have.
    So I can't--none of us can promise you anything, but----
    Mr. Suozzi. Mr. Chairman, let me just say very clearly, I 
appreciate----
    Mr. Visclosky [continuing]. Committed to trying to push the 
Department to clean it up.
    Mr. Suozzi. I appreciate so much how much you know about 
this and how passionate you are about this idea of cleanup as 
well. One of my staffers is one of your former staffers. They 
have told me about your commitment to this. I have read about 
your commitment to this. And we are so grateful for the great 
work that you have done throughout your career on environmental 
remediation.
    I just want to point out one thing. The responsible parties 
here are, one, one of the major contractors in America, the 
Grumman Corporation, that we send contracts to on a regular 
basis, and, number two, the United States of America Department 
of the Navy. They are the responsible party for this cleanup.
    It has been there for 40 years. And it is not a question of 
the technology. It is a question of going through the 
bureaucracy of just getting this thing approved. I want to get 
it off of the Navy's back, write a check to the local 
authorities, and have them just go clean it up. Because you 
know as well as I do how awful the bureaucracy of the Federal 
Government is, not because people are bad, not because they are 
incompetent, not because they are mean-spirited, not because 
they don't care. It is just an awful, terrible bureaucracy they 
have to go through.
    And if we could just get this money and give it to the 
local authorities, they could get this done, and more people 
would not suffer from this site for which the country is 
responsible.
    Mr. Visclosky. Mr. Calvert.
    Mr. Calvert. Well, I certainly hear the gentleman's passion 
on this issue. Unfortunately, we have hundreds of these sites, 
legacy sites, primarily from World War II, that have various 
pollutants. We certainly have them in California. We have them 
across the Nation. And it is going to cost us billions and 
billions of dollars.
    We had a hearing yesterday in Energy and Water on sites in 
Idaho and the State of Washington where we, you know--when we 
did the Manhattan Project, we were in a hurry. And we have 
remediation we are doing in various locations that is going to 
cost a significant amount of resources.
    I would just bring up the other issue, too, on technology. 
A lot of these sites, we use pump and treat, pump and treat, 
pump and treat. It takes 30 years, like you just pointed out. 
We are using microbial technology now in certain areas. It had 
been hugely successful. I would encourage to look at those 
types of technologies. I don't know the site specifically, so I 
can't opine on that, but it has worked. It cleans it up 
rapidly.
    And so that is what we need to do. We need to change our 
mindset to get these sites cleaned up.
    Thank you, Mr. Chairman.
    Mr. Suozzi. Congressman, let me just point out one thing, 
if I can, just to make a distinction here. Unlike a lot of the 
other sites throughout the Nation, this is the sole-source 
drinking water supply for this area, because we take our 
drinking water straight from the groundwater.
    And it is a heavily populated area. So it is not a remote 
facility. It is in the middle of people's neighborhoods. 
Literally, one of the sites was a park that was closed down.
    And this is where we drill right into the ground that is 
contaminated and pull the water out of there. And this has been 
going on--we have known about it for 40 years. And I know we 
have known about other sites for 40 years. But this is, again, 
in the middle of densely populated areas with drinking water 
right there.
    Mr. Visclosky. We will do our very best.
    Mr. Suozzi. I appreciate it so much, Mr. Chairman.
    Mr. Visclosky. Thank you very much.
    Mr. Suozzi. Thank you so much.
    [The written statement of Congressman Suozzi follows:] 
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Thursday, March 12, 2020.

                                WITNESS

HON. GLENN THOMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Visclosky. We are now happy to recognize our colleague, 
Mr. Thompson.
    You are free to proceed.

               Summary Statements of Congressman Thompson

    Mr. Thompson of Pennsylvania. Well, good morning, Chairman 
Visclosky, Ranking Member Calvert, and all the members of the 
subcommittee. Good morning, and thank you for the opportunity 
to share my priorities for fiscal year 2021 defense 
appropriations.
    As Members of Congress, meeting the needs of our servicemen 
and -women must remain one of our highest priorities. As the 
father of a wounded warrior, I greatly appreciate the 
opportunity to be here today and to share my priorities for 
fiscal year 2021.
    I recognize the challenge placed before the subcommittee 
and appreciate your ongoing commitment to our soldiers, 
sailors, Marines, and airmen, even when difficult choices must 
be made. Despite these tough choices, you recognize that troops 
are on the front lines, in danger, defending the freedoms that 
we all hold so dear.
    It is imperative our country always maintain the lethality 
and the strategic edge it has had for decades. Our military 
should never be engaged in a fair fight. It is for these 
reasons we must maintain and ensure robust funding for the 
defense of our Nation. The United States military has always 
had a dominating presence, and maintaining our readiness plays 
a significant role. Keeping an edge requires our military 
technologies be a step ahead of our adversaries.
    At a time when we face unprecedented challenge from near-
peer actors who are making strides in the development of 
hypersonic weapons and other new programs, we must invest in 
our own advanced technologies--specifically, additive 
manufacturing to support low-cost, optimized precision fires.
    Additive manufacturing will reduce manufacturing times by 
60 percent at an affordable cost. This requirement is necessary 
to reduce the weight of the missile systems and optimize the 
manufacturing process to ensure that the parts in the missiles 
can be manufactured fast enough without defects at a cost 
structure that meets the overall U.S. Army missile performance 
requirements. Additive manufacturing is crucial to our missile 
defense.
    As we continue to prepare for the future by optimizing our 
missile systems, we must also ensure our Navy remains at the 
tip of the spear by rebuilding and maintaining its 
capabilities. Our sailors regularly face aggressive actions 
when navigating our world's waters.
    The U.S. Navy is making investments into programs ensuring 
the freedom of navigation for all. Now, some of these programs 
being invested in and needing continued support include an 
evolutionary update to the MK 48 Mod 7 Heavyweight Torpedo, 
which will maintain its capabilities while improving range and 
payload. Additionally, the lightweight torpedo program designs, 
integrates, and tests the Lightweight MK 54 Torpedo to make it 
more effective in shallow water. Continuing to support these 
programs gives our sailors the edge that they need to face our 
adversaries.
    As a former healthcare professional, I request we continue 
to support and fund vital Department of Defense research 
programs. These include research programs for multiple 
sclerosis, ALS, burn pit exposure, breast and ovarian cancer, 
as well as the Peer-Reviewed Orthopedic Research Program. I 
strongly believe making critical investments in medical 
research at the Federal level will improve the well-being of 
our Nation.
    Finally, we must keep in mind the more than 80,000 American 
citizens who served in the Vietnam War, Korean War, and World 
War II and are still missing in action. The families and 
friends of these American heroes deserve no less than our 
greatest efforts to bring their loved ones home. Therefore, I 
respectfully request the subcommittee support robust funding 
for the Defense POW/MIA Accounting Agency in the fiscal year 
2020.
    I want to thank the chairman and ranking member and all the 
members of this subcommittee for your continued dedication to 
the matters within the jurisdiction of the subcommittee and the 
committee as a whole. I would really appreciate your 
consideration of these priorities, and I look forward to 
working together in the future.
    Thank you.
    Mr. Visclosky. I thank the gentleman very much for taking 
the time to appear. And we share a number of your priorities. I 
would point out that one of our members who is unable to 
attend, Mr. Ryan from Ohio, is particularly vocal on a number 
of things but particularly additive manufacturing.
    And I will just repeat myself again. I am from Gary, 
Indiana. I like to make stuff. And if we don't make those kinds 
of investments, we are going to be a stupid country because you 
aren't going to have to be more efficient next year, you are 
not going to have to research, all of that. So, absolutely, I 
support it.
    I appreciate your emphasis on some of the health programs. 
And, also, you did mention the Defense POW/MIA Account, and we 
increased that, the current fiscal year, $24 million.
    Interestingly enough, a good friend of mine, grew up in the 
same neighborhood and former U.S. attorney, had an uncle killed 
in World War II--missing, missing, in World War II in Italy. 
And they think they have found him and his comrade with two 
British soldiers. And but for his diligence and the moneys 
available to expand their work, would never have happened. And 
for that family, the closure is just so incredibly important. 
So do appreciate your emphasis on that.
    Mr. Thompson of Pennsylvania. Chairman, I appreciate your 
support for that too. It is closure for the family, but it is 
also fulfilling that promise that we made to leave no soldier 
behind.
    Mr. Visclosky. Uh-huh. Uh-huh.
    Mr. Calvert. I thank the gentleman.
    It is heartening to see some of the manufacturing 
industries coming back to the United States, and we hope that 
continues.
    And I have been with those teams that go out and look for 
people who are missing in action in Vietnam, Laos, and Cambodia 
a number of years ago. And they do a fabulous job in searching 
the remains, as you say, to leave no man behind. And they are 
fulfilling that pledge, and we will need to make sure we fund 
those efforts.
    So I thank the gentleman.
    Mr. Thompson of Pennsylvania. Thank you.
    Mr. Visclosky. Thank you very much.
    Mr. Thompson of Pennsylvania. Thank you very much, 
Chairman.
    [The written statement of Congressman Thompson follows:] 
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Thursday, March 12, 2020.

                                WITNESS

HON. DENNY HECK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
    Mr. Visclosky. Mr. Heck, who has already been very helpful 
this morning, is recognized.

                 Summary Statement of Congressman Heck

    Mr. Heck. Thank you, Chairman Visclosky, very much and 
Ranking Member Calvert and esteemed members of the House 
Appropriations Defense Subcommittee.
    I first wanted to say how thankful I am, genuinely so, for 
the funding for the Defense Community Infrastructure Program, 
known as DCIP, which was included in the final fiscal year 2020 
defense appropriations budget. I thank you for that. I thank 
you for all the essential work that you and your staff do.
    I am indeed here testifying today in support of the Defense 
Community Infrastructure Program and asking that this vital 
program be funded at $100 million in the fiscal year defense 
appropriations bill.
    DCIP is a grant program for the Federal Government to 
assist State and local governments in addressing defense 
community infrastructure projects. Grants are meant to support 
military installations and include a 30-percent matching 
requirement for the community.
    Let's put this in perspective. Over 100 years ago, there 
were a lot of installations that were developed around this 
country in what were then rural areas. As time has passed, they 
have found themselves in the midst of urban areas. And as a 
consequence of two-thirds to three-fourths of all civilian and 
military personnel living off-base, they have added to the 
problems, stressed the infrastructure in the surrounding 
communities.
    I have the privilege, for example, to represent Joint Base 
Lewis McChord, the largest force projection base in the western 
United States. Fifty-five-thousand people per day report to 
work there, and the overwhelming majority live in the 
surrounding communities. So the purpose of DCIP is to help 
those local communities with infrastructure that assist the 
base themselves.
    As a matter of fact, at the end of the day, DCIP is a 
readiness program that requires significant participation by 
local communities. It is intended to help those bases and the 
soldiers, sailors, airmen, Marines, and their families who 
serve there.
    This program began when I first entered Congress under 
title of another name, COMMUTE Act. It has been my highest 
priority in the appropriations process since I have arrived. 
Every year, I have advocated for this. And I cannot tell you 
the sense of gratitude and gratification that we first were 
able to get it authorized and then funded. And my humble 
request here today is that we take that next step, continue to 
support it more robustly.
    I am very proud to have been joined by 51 of my colleagues 
in a letter of support to you all, including my co-leads, 
Congressman Chris Smith, Elaine Luria, Don Young, and Jason 
Crow. They all represent communities that have been heavily 
impacted, and readiness has been compromised. This is a 
solution to that.
    I look forward to working with the subcommittee and, once 
again, extend to you my deepest appreciation for all your work, 
your past support of this program, and hopefully your future 
support of this program.
    Mr. Visclosky. Mr. Heck, thank you very much.
    One, appreciate your advocacy and the fact that you had the 
program authorized. Some people come to us, as you can imagine, 
and need appropriations and lack the authorization, so that 
hurdle has been cleared.
    Also appreciate your advocacy for the fiscal year 2020, 
because the administration asked for no money for the account, 
and we were able to add $50 million, which I know, from your 
perspective, isn't adequate. It was the best we could do. I do 
understand you would like to see it plussed up.
    And I would just note for the record, it is my 
understanding that for this year's money, for that $50 million, 
the memo for distribution for the fiscal year 2020 funding is 
on the Secretary of Defense's desk, awaiting for signature. We 
do not know what the elements of that is, but we will very soon 
know what that will be. So I would ask that you please stay in 
touch with us, and we will do our best.
    Mr. Heck. Thank you. And, again, thank you for your 
support.
    Mr. Calvert. Just going to point out, I have been to 
LewisMcChord many occasions. It is a great base. And we love 
the C-17s, the tankers that are located there, the United 
States Army that deploy out of that wonderful facility. So we 
will do everything we can to help.
    Thank you.
    Mr. Heck. Thank you, sir. We are very proud of the people 
who work there and serve there.
    Mr. Visclosky. Thank you very much.
    [The written statement of Congressman Heck follows:] 
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                                          Thursday, March 12, 2020.

                                WITNESS

HON. JODEY ARRINGTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Visclosky. Mr. Arrington, please.

               Summary Statement of Congressman Arrington

    Mr. Arrington. Thank you, Mr. Chairman, Ranking Member, 
members of the subcommittee.
    Thank you for your leadership and your diligence on this 
very, and possibly most, important responsibility, to ensure 
that our armed services have the resources to provide for our 
Nation's defense. And we appreciate all your hard work, and we 
appreciate you letting us, your colleagues, especially those 
who have military assets in their districts, provide input into 
this process.
    I hail from west Texas and represent 29 counties----
    Mr. Visclosky. Is that better than east Texas?
    Mr. Arrington. Sir, it is better than north, south, and 
east Texas.
    Mr. Cuellar. Don't say south Texas. Do not say----
    Mr. Arrington. With the exception of Laredo----
    Mr. Cuellar. All right. There you go.
    Mr. Arrington [continuing]. Which is connected by I-27 and 
the Ports-to-Plains.
    No, listen, bragging is more than a sport, Mr. Chairman, it 
is a way of life in Texas. But my mama always told me that it 
ain't bragging if it's true, son. And, listen, we have the 
food, fuel, and fiber--we are the food, fuel, and fiber 
epicenter of the world in west Texas. No one produces more ag 
and energy.
    And from a national security perspective, I just want to 
make one quick point: Food security and energy independence is 
national security.
    But, you know, we have another component to national 
security that we preserve and promote and protect in west 
Texas, and that is the freedom fighters of Dyess Air Force Base 
in Abilene, Texas. That is the largest B-1 bomber base in the 
country. It is the training base; it is the operational 
squadron; it is the classic associate Reserve unit. And it is 
critical to the Air Force air power and air arsenal for the 
United States defense.
    So it has also been referred to by the Air Force as the 
backbone of our Air Force. And its long-range bomber 
capabilities played a critical role in the Afghanistan-Iraq 
fight against ISIS. And it presented strength and deterrence, 
American strength and deterrence, in the Korean Peninsula, and 
on and on.
    I think you get the point. Dyess Air Force Base and the B-1 
bomber is critical to this Nation's defense.
    Now, here is the latest, sir. There has been a fatigue 
testing done, a stress test, on these birds, and the Air Force 
has determined that 17 of the 62 B-1 bombers should be retired 
based on structural deficiencies.
    That is a lot of planes for a squadron that provides so 
much strength and important deterrence and force for the United 
States defense and the Air Force. And so my request to you and 
my colleagues is to really dig in to this.
    Look, my first commitment is to the defense of the American 
people. My second is to--and I would say second--another 
priority is the safety of the airmen. So we can't compromise 
our mission, and we can't compromise the safety of our airmen. 
And that takes precedence over everything. I am not just a 
single Member district guy; I am an American first. And those 
are my priorities.
    However, we have to be very diligent to determine if the 
number 17 is the right number. And I haven't seen the data. 
Doesn't mean I don't trust my leadership at the Air Force. I 
do. And I do believe there are serious integrity issues.
    But the question is, can we mitigate that number of 17 down 
to 10? What is the magic threshold for saying that they should 
be retired? Should we put them in the Boneyard and strip them 
of their parts? Or should we park them, in the event that we 
need them, and then rebuild them and fix them so that they can 
fly if needed? These are just the important questions I know 
you guys are thinking about.
    And I just want to reinforce again the importance of really 
analyzing and scrutinizing the data that is coming off of the 
fatigue testing. Again, if the data suggests that that is what 
we need to do and 17 is the right number, I will stand and 
salute, and I will be a good soldier with you and your 
colleagues and our friends on HASC. But until I look at those 
numbers and until I have my colleagues who are experts really 
dig in, I am going to maintain that we need to--I am not 
willing to accept that final number, if that makes sense.
    So I think that is pretty much what is in my remarks, 
without reading them word for word.
    Again, very proud of our airmen. Abilene and the Dyess Air 
Force is part of the Global Strike Command. And they have a 
competition every year between the communities that host these 
Air Force bases in Global Strike Command. Abilene, Texas, has 
won it so many times, they changed the award to the stinking 
Abilene Trophy.
    So these guys love their airmen, they love our veterans, 
they want to continue to support them. And, oh, by the way, the 
B-21 bomber, that is the next-generation bomber, the Raider. 
And we just need to get from here to there, from the B-1 and a 
seamless transition and retirement of the B-1, to the ramping 
up of the B-21, the most capable bomber the world has ever 
seen.
    And I just plead with you to really dig in with me, and 
let's analyze this, and let's make sure that whatever that 
final number is is the right number as we exercise our 
oversight responsibilities.
    Mr. Chairman, thanks for indulging me with my comments this 
morning and my input.
    Mr. Calvert, thank you as well. Enjoy working with you.
    And my dear friend Mr. Cuellar, connected by I-27 and the 
Ports-to-Plains Corridor, and we are proud of you and your 
leadership.
    So thank you, sir.
    Mr. Visclosky. Thank you for the time to testify, and do 
appreciate your concern about making sure we take an in-depth 
look not just at the B-1 and other programs.
    I have said, as recently as yesterday, that Congress writ 
large is one of the problems, because from time to time we do 
have to make judgements and eliminate programs so we can spend 
on new technology and new programs. But we ought to be very 
deliberate about it.
    Your timing is impeccable, because the Air Force will be in 
for their hearing before this committee the week after we come 
back from recess. So, again, we will make sure we are attentive 
and draw them out on the issues.
    Mr. Calvert.
    Mr. Arrington. Thank you, Mr. Chairman.
    Mr. Calvert. I was going to make the same point the 
chairman made; your timing is good. As you know, the Air Force 
is relooking at the inventory of the United States bomber 
fleet. We are going to be flying B-52s until they are 100 years 
old. And that is something.
    But the B-1s, obviously, are going to be replaced by the B-
21, and we need to quicken that process up so we can send those 
B-21s to Texas. And----
    Mr. Arrington. Amen and amen.
    Mr. Calvert [continuing]. Hopefully, we can have a smooth 
transition.
    Mr. Arrington. Yes.
    Mr. Calvert. And I know that is what you are concerned 
about----
    Mr. Arrington. Thank you.
    Mr. Calvert [continuing]. For the men and women that serve 
at that base, and they do a wonderful job. So we are certainly 
going to keep a good eye on it.
    Mr. Arrington. Thank you. Thank you for your comments.
    You know, the B-1 is a victim of its own success. They used 
it so much, because it was so needed and its capabilities were 
so critical, that they say they flew the wings off of it. And I 
understand we need to be careful to make the right decision.
    Ms. McCollum, I enjoyed being with you at West Point and 
enjoyed our visit there and to get to know you. Thank you for 
your leadership as well.
    Again, God bless you guys in your endeavors. Thank you.
    Mr. Visclosky. Mr. Cuellar would like the last word.
    Mr. Arrington. Oh, yes.
    Mr. Cuellar. I just want to say thank you. I have been to 
the Dyess Air Force Base there in Abilene with Dr. Bob Hunter 
some years ago.
    Mr. Arrington. Yes.
    Mr. Cuellar. Appreciate your--I think your timing is right. 
I certainly agree with the chairman and the ranking member and 
the rest of the committee. We have to look at this inventory 
and look at the transition.
    But really appreciate your work on this. We want to 
continue working with you. But this is the right timing to take 
this in-depth look at it. So thank you very much.
    Mr. Arrington. Thank you. And you will not hold the 
comments about ``west Texas is the best Texas''' against me, 
will you?
    Mr. Cuellar. Well, you said ``with the exception of 
Laredo,'' so----
    Mr. Arrington. Thank you. Yes, sir. I am glad you kept--for 
the record, Mr. Chairman.
    Mr. Visclosky. Thank you very much.
    [The written statement of Congressman Arrington follows:] 
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Thursday, March 12, 2020.

                                WITNESS

HON. BRAD WENSTRUP, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Visclosky. The gentleman from Ohio is recognized.

               Summary Statement of Congressman Wenstrup

    Mr. Wenstrup. Thank you very much, Chairman Visclosky and 
Ranking Member Calvert, Ms. McCollum and Mr. Cuellar. Thank you 
very much.
    I am here to advocate for military medicine and voice my 
concern about some certain decisions that have and could be 
made that may diminish our capabilities to accomplish our three 
main goals in military medicine, which are, one, to have a 
medically ready force, a ready medical force, and the ability 
to care for our beneficiaries. And I am engaging here today to 
make sure that our funding decisions align with these needs.
    You have all heard from the surgeons general last week, and 
I share some of their concerns. I have met personally with each 
of the surgeons general as well as General Place of the Defense 
Health Agency.
    So a little bit of a bio. I am an Army Reservist still. I 
have been in for 22 years. I was chief of surgery for a combat 
support hospital, stationed at Abu Ghraib prison in 2005-2006. 
Currently I still serve at Walter Reed, and a medical policy 
advisor for the Chief of the Army Reserve. So I am speaking 
from the heart when I am talking to you today about some of the 
issues that I am concerned about.
    One, I want to make sure that we continue to support our 
military-civilian partnerships. To give you an example, we 
created a partnership in Cincinnati with the Army, and expanded 
it to joint, where we embed our medical personnel into our 
civilian hospitals.
    And to give you some idea of how that works, we had an Air 
Force medic from Wright-Patt, the largest Air Force base, who 
spent 2 weeks in Cincinnati, who said, ``I did more in 2 weeks 
in Cincinnati than I have done in 6 years of Active Duty at 
Wright-Patt.'' Why? Because he was on air care, he was in 
ambulances, he was in a Level 1 trauma center in the emergency 
room.
    These are the types of relationships we have to continue to 
develop. And so that is why I want to make sure that we are 
focused on making sure those programs can continue.
    I also want to speak for a moment on how I support the 
notion and the creation of a defense health command. I think 
that Congress had good intentions when we developed the Defense 
Health Agency, and I think the Defense Health Agency mission 
could continue, but I would like to see that under the auspices 
of a defense health command. The defense health command would 
consist of a Defense Health Agency director.
    In my mind, congressional intent with the DHA was to make 
our stateside and facilities like Landstuhl more efficient and 
more effective, more streamlined, to decide how much care we 
need where, whether we can use community care or not. These are 
some of the things that we were looking into.
    So the defense health command, as you will see on the 
chart, would consist of Defense Health Agency director, the 
surgeons general, and also regional representation, which would 
give us flexibility.
    Included in that chart are some of the training 
opportunities that we would have. I will be frank with you when 
I say, if you are a Reservist and you are a Reserve general 
surgeon in a Level 1 trauma center, you are good to go for the 
combat mission. If you are Active Duty, you may be on a base or 
a post where the speed limit is 15 and there really isn't much 
trauma. So we need to have these types of relationships to 
build upon.
    The Air Force has C-STARS, Center for the Sustainment of 
Trauma and Readiness Skills, a very effective program. I have 
participated in that. We have Operation SMART, which I just 
described before, Strategic Medical Asset Readiness Training. 
We have the AMCT3, the Army Military-Civilian Trauma Training 
Teams.
    These are great training opportunities that we need to 
expand, expand jointly, and, in my mind, should be under the 
management of the surgeons general. And they can all work 
together under the structure of a defense health command.
    So there is a lot there. I have presented a lot to you. I 
would be more than happy to sit with you one-on-one or whatever 
the case may be to go into more detail about where I think the 
future of our military medicine should be.
    I never want our military medicine to be seen as a 
vulnerability by our enemies. And so we want to do everything 
we can to have a structure in place that is well-defined, that 
we can have troops ready to go out the door at a moment's 
notice, and, at the same time, making sure that we are taking 
care of all of our military families and the military 
themselves. So I will engage with you on that.
    I also have a bill that I will be presenting to HASC for 
retention, especially in critical specialties. For example, in 
the Army Reserve right now, we are only at 9 percent of 
orthopedic surgeons. That is not a good number. And the same 
ones get deployed over and over again.
    At the same time, if you are Active Duty, you have done 20 
years and you are getting out, eligible for a pension, you may 
be 45 years old, but if you join the Reserve, your pension is 
penalized. That makes no sense. We should be able to allow 
people to get the pension that they have earned and go into the 
Army Reserve.
    And you bring someone who has already been in uniform, 
already skilled. And that could be pilots, surgeons. And the 
way the bill is presented, it has to be identified by the 
Secretary as a critical shortage of a critical need.
    So I ask you to take these things into consideration when 
it comes to appropriations, and I will be glad to take any 
questions.
    Mr. Visclosky. Appreciate, again, you taking the time and 
your concern, as well as, one, the experience and knowledge you 
bring. We may follow up. The committee has a lot of concerns 
about the transition that is taking place, and Mr. Calvert may 
have some comments. I know Ms. McCollum certainly does.
    Mr. Calvert. Yeah.
    You are here at the right time. We are getting a lot of--as 
you know, Brad, we are getting a lot of pushback from the 
various services on this defense agency issue. And so it is 
appropriate to be here.
    And I just want to say something personally, that if it 
wasn't for Brad Wenstrup, we would have lost our colleague, 
Steve Scalise.
    You know, I believe in miracles. You just happened to be 
right next to him when Steve was shot and saved his life, so 
God bless you. Thank you very much, and----
    Mr. Wenstrup. Thank you.
    Mr. Calvert [continuing]. Thanks for your service. And we 
will certainly take a good look at this.
    Mr. Visclosky. Also appreciate your emphasis on families, 
as far as how this works out.
    Mr. Wenstrup. Absolutely.
    Mr. Visclosky. Ms. McCollum.
    Ms. McCollum. Thank you.
    I think it is important, every once in a while, to step 
back, review, and look and see what is happening. But I have a 
lot of questions about the way that the plan has been presented 
in moving forward.
    We are losing our teaching hospitals, because of 
reimbursements and healthcare restructuring and a whole lot of 
factors, at a great rate. And medical school bills are huge 
when people graduate, whether it is dental, even advanced 
practice nursing and that. So one of the ways in which we can 
encourage people to go into medicine and then, you know, maybe 
go Reserve or Guard or maybe make a career of it in the 
military is to, you know, if they are talented, is to go into 
military medicine.
    So I don't think we have had that big conversation on how 
that is going to impact. And then we also have a shortage of 
rural healthcare, you know, where some of our bases are 
located. That becomes a question for families.
    So we have questions. Reform and change is difficult. 
Doesn't mean you shouldn't do it, but I think a little more due 
diligence needs to happen, from my comfort level, to make sure 
that we have adequate response in rural communities where we 
are posting that.
    But I think you bring up an interesting thing that I 
haven't heard anybody talk about, and maybe we can talk about 
this some more later: burn units. We have a trauma Level 1 burn 
unit in the Twin Cities. There are others throughout the United 
States. They are great to have.
    Maybe between these relationships, even--we don't have any 
bases in Minnesota--maybe, you know, working into rotations and 
conferences and really hands-on experience in working on a lot 
of these issues would be helpful.
    And that is another way that you can have relationships to 
keep people's skills fresh. Because I appreciate what you are 
saying about that. Sometimes maternity hospitals have to close 
because enough babies aren't being born. And I get that when 
they talk about removing obstetrics and gynecology. But if we 
are still going to serve families and if we want to retain 
women in the military, we also have to be addressing the 
family's healthcare needs, not only the child's but my gender, 
women's healthcare.
    So we have a lot of questions. And, you know, this seems 
like it is kind of steamrolling without thinking about some of 
the ripple effects. So I appreciate your comments. And, you 
know, it is refreshing to hear somebody say, this might not be 
perfect but we need to look at doing something different.
    Mr. Wenstrup. No, I appreciate everything that you just 
said. You know, we put people through medical school to join 
the military as a payback. You don't know what specialty they 
are going to be in, yet our families need every specialty, 
right? So why do we want to take people out of uniform 
unnecessarily, in my opinion? And it is a great opportunity in 
a lot of ways.
    I am suggesting right now, if I look at Puerto Rico, Centro 
Medico, they have a very--they have one trauma center, and it 
is Centro Medico in San Juan. And they are very short on 
personnel. If you are an ICU nurse, if you are a surgeon, your 
opportunities are better in the continental United States than 
they are in Puerto Rico. But what a great opportunity for our 
military personnel to be down to the Level 1 trauma center and 
provide the care for the community in the same way that Brooke 
Army Medical Center does for the community.
    So these opportunities--you mention a burn center. You 
know, believe me, I served in Iraq, we treat a lot of burns. 
There is no reason why we can't put some of our medical 
personnel into that burn center for training and for continued 
training and become the greater experts.
    And not only that, this is a great opportunity with what is 
going on with coronavirus. The more we build the military-
civilian relationships, the better prepared we can be.
    Mr. Wenstrup. If there is a natural disaster, an attack on 
our country, something of that magnitude, this is the way to 
develop it, when there is not a crisis and we are more 
prepared.
    You are spot-on, ma'am, and I look forward to talking to 
you one-on-one or whatever the case may be. Thank you.
    Mr. Visclosky. Thank you very much.
    Mr. Wenstrup. You bet.
    Mr. Visclosky. Appreciate it.
    Mr. Wenstrup. Thank you.
    [The written statement of Congressman Wenstrup follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Thursday, March 12, 2020.

                                WITNESS

HON. JENNIFFER GONZALEZ-COLON, A REPRESENTATIVE IN CONGRESS FROM THE 
    TERRITORY OF PUERTO RICO
    Mr. Visclosky. The gentlewoman from Puerto Rico.
    Mr. Wenstrup. I didn't even know she was sitting there.
    Mr. Visclosky. You planned this out. I know you planned 
this out.
    Mr. Wenstrup. Perfect timing.
    Mr. Visclosky. You got something going for you. You are 
welcome to the committee. Please proceed.

           Summary Statement of Congresswoman Gonzalez-Colon

    Miss Gonzalez-Colon. Thank you. Thank you, Chairman, and 
thank you, Ranking Member and members of the committee.
    And I will pick up where he left it. He went to the Centro 
Medico in Puerto Rico, and we worked that idea he is bringing 
with the VA Committee in the last term. And I truly support it 
from--I mean, we do have three medical schools on the island as 
well, so there are many options to have that training on-site 
and on American soil.
    Having said that, I want to say thank you for giving me the 
opportunity to actually come in here to present what should be 
some of the priorities on the island.
    As being the only Representative for Puerto Rico in 
Congress, one of our main issues is the Fisher House. We have 
one VA hospital and a network of outpatient clinics to care for 
close to 84,000 veterans that rely on extended care in 
increasing numbers. The VA hospital in San Juan cares for 
veterans from the entire island but also for the U.S. Virgin 
Islands.
    Elderly veterans attending the hospital for extended 
procedures often need the company of family members for 
support, and these family members incur additional expenses for 
transportation and lodging. Many of them cannot bear the cost 
of lodging.
    And that is the reason I do and I am pleased that both the 
VA and the Fisher House Foundation have acknowledged the need 
and are working to make this project a reality on my island. 
Therefore, supporting the Fisher House is critical now, more 
than ever, for us.
    Another area: According to the U.S. Department of 
Education, one-third of all Puerto Rican students drop out of 
high school. The National Guard Youth ChalleNGe Program at Fort 
Allen Juana Diaz reaches individuals who have separated from 
the educational system and connects them with mentors for 17 
months at no cost for their families.
    According to the National Guard Youth Foundation, more than 
6,000 individuals have completed the program in Puerto Rico, 
including almost 200 participants who graduated in March of 
this year.
    Funding for the program at $210 million will provide for 
the Fort Allen Juana Diaz program and 42 other National Guard 
Youth ChalleNGe Programs and 5 current Job ChalleNGe Programs 
across the Nation to function.
    Another area: The F-35 Joint Strike Fighter program is 
responsible for more than 220,000 direct jobs and indirect jobs 
nationwide, including 200 of them in Puerto Rico, where my 
constituents help construct control system software for the F-
35. Through one supplier on the island, this program has an 
economic impact of $17.8 million--of course, critical to the 
island's economy but as well of our national security.
    In other areas, I support the request of $56.2 million for 
funding for the Civil Air Patrol. I never knew how important 
this organization was until we suffered Hurricanes Irma and 
Maria. In the wake of those hurricanes, the Civil Air Patrol 
were instrumental in assessing damage through aerial 
photography, and FEMA utilized their photos and their 
information and data to provide faster assessments to areas 
isolated by disaster damage while saving a lot of money 
overall.
    The other area that I want to include is the request that 
the baseline funding to the Department of Defense Innovative 
Readiness Training Program should be $30 million.
    In 1 year, the First Mission Support Command, the U.S. Army 
Reserve in the Virgin Islands, and Puerto Rican soldiers joined 
different DOD components in an IRT mission that provided 
medical services to over 9,000 patients, delivered over 2,000 
eyeglasses, and completed over 10,000 medical procedures. 
Participating units increased readiness and obtained valuable 
hands-on training and experience while at the same time helping 
thousands in Puerto Rico.
    Another area that this committee has been working in the 
last years--and I ask that the ordnance cleanup on Vieques and 
Culebra remain a priority of the Appropriations Committee and 
again be included in the report language. I will ask that any 
steps to accelerate the cleanup currently slated to finish in 
2030 be taken.
    Lastly, I would also like to note my support for the 
Department of Defense role in healthcare research, including 
funding for endometriosis, ovarian cancer, breast cancer 
research, tuberous sclerosis complex, and Gulf War illness 
treatment. Research on these health issues are vitally 
important and will have a broad range of effects across the 
economy and the country. These conditions often lack essential 
research and funding, while individuals seeking relief must 
rely on the capabilities of the Department of Defense to find 
effective treatments.
    And, in that end, and with the situation with the 
coronavirus, there are more than 90 critical medical devices 
and drugs that are being made and manufactured in Puerto Rico. 
Forty-four percent of our economy is just pharmaceutical and 
medical devices.
    Having said that, I think it is an issue of national 
security to maintain and expand the current research and 
production of drugs on the island that could be made. And we 
already have a large footprint of pharmaceutical industry that 
are working on U.S. soil instead of having many of them made 
abroad.
    In that sense, I think we should expand the pharmaceutical 
industry and the footprint on the island. We do have the 
capabilities of making vaccines, of having the medical devices 
as well as drugs being made on the island, as well as the 
research. We are the main exporter of drugs from any other 
State. Puerto Rico is the first one, then California.
    Having said that, I think we should have a great 
opportunity to bring a lot of those productions of 
pharmaceutical and critically needed capabilities on U.S. soil.
    Thank you, and I yield back.
    Mr. Visclosky. Thank you very much for appearing, for your 
commitment.
    I would point out--and, certainly, we agree with your 
support for Fisher House--that the committee added--I shouldn't 
say ``added,'' but included $11 million from each of the 
operation and maintenance accounts for the services--the Army, 
Navy, and Air Force--for the current year, as well as $10 
million in the overall bill for $43 million.
    Also, your emphasis on the National Guard Youth ChalleNGe 
Program, we increased that program, as you may know--and I am 
sure you advocated for it last year--by $50 million to a total 
of $200 million. No guarantee going forward, but certainly 
appreciate the importance of these and your advocacy very much.
    Mr. Calvert. We all remember our former chairman fondly, 
Bill Young. And Bill certainly was a champion for Fisher House, 
as the gentleman remembers, and gentlelady, and he would be 
very supportive, as we are, of trying to help you.
    I have been to Puerto Rico a number of times. It is a 
beautiful place. But, obviously, it has some challenges there, 
and we need to assist. And I am all for having more 
pharmaceutical development within the United States and its 
territories, because, you know, 95 percent of all vaccines 
right now are coming out of China. So we need to get more of 
this domestic capability back within our own control. So I 
support the gentlelady's efforts on that.
    Miss Gonzalez-Colon. Thank you.
    Mr. Calvert. Thank you.
    Miss Gonzalez-Colon. And, again, we do have the 
capabilities. You have a large footprint of those 
pharmaceuticals on the island. I think this is the right time 
to bring them back.
    I thank you.
    Mr. Visclosky. Thank you very much.
    Miss Gonzalez-Colon. Thank you.
    [The written statement of Congresswoman Gonzalez-Colon 
follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 12, 2020.

                                WITNESS

HON. SHEILA JACKSON LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Visclosky. The gentlewoman from Texas.
    Ms. Jackson Lee, your statement in its entirety will be 
entered into the record. If you could summarize, we are 20 
minutes over our time already, so we would appreciate that. You 
are recognized.

             Summary Statement of Congresswoman Jackson Lee

    Ms. Jackson Lee. Good morning to everyone.
    I just wanted to make a few points of the importance of 
this committee and the importance of this committee, of course, 
to the Nation's security. Let me recognize both the chairman 
and the ranking member of this committee.
    And I know the timeframe was not specifically directed to 
me, but I will try to rush as quickly as I can to ensure that I 
do not contribute to the 20 minutes over time.
    The coronavirus is something that we have been told by our 
health professionals that is not at the end; it is at the 
beginning and surging. I want to emphasize the importance of 
the Defense Department and its ability to be innovative.
    So I have a particular university, Baylor College of 
Medicine, that has vaccination research ready to go and needs a 
partner. And I would encourage--I know that this is the next 
year's fiscal budget, but I am hoping that the Defense Approps 
can look at the opportunities for partnering with the civilian 
government and making a difference in the lives of civilians.
    And so Baylor College of Medicine has a vaccination 
protocol ready to go, and I would hope that there would be some 
opportunities in the funding for this to go forward.
    I would also like to promote in the Defense--these are 
things that I have not noted in my statement--is the issue of 
soft power. Now that there has been an agreement, which some of 
us are concerned about, with the Taliban, the importance of 
schools for girls, the importance of working with the Afghan 
Government on the issues of soft power, of educating 
individuals against violence, against succumbing to any of the 
old attitudes of the Taliban, I think would be particularly 
helpful to our remaining troops and to the safety and security 
of the Afghan people.
    I have supported consistently funding for PTSD. And I want 
to thank the Approps Committee for its resources. I always look 
for increasing that number. It seems that every time in my 
district, which has a large number of veterans, that PTSD 
continues to grow.
    You have also helped me in the past with triple-negative 
breast cancer in terms of the research. I would like and hope 
that I could get that focused on in this coming appropriations 
in terms of the impact it has on military women.
    I also want to emphasize my support, as well, for the 
National Guard ChalleNGe Program.
    Then I would like to just speak generally to programs 
dealing with the research that you do on cancer, and that is 
the Peer-Reviewed Cancer Research Program, which I believe is 
important; the Peer-Reviewed Pancreatic Cancer Research 
Program, knowing of the surge of pancreatic cancer; the support 
for the $18 million for kidney cancer research in the 
Congressionally Directed Medical Research Program; research for 
ovarian cancer; $18 million for neurofibromatosis research; 
research or supporting the money for medical care of suicide 
prevention, which is enormous and growing, and I know there is 
a way for us to prevent that; $18 million for multiple 
sclerosis research; $96 million for Department of Defense 
prostate cancer research and TBI/PTSD research. I think it has 
been noted of the increase in the veterans and Active Duty 
military with those concerns.
    Peer-reviewed money for Parkinson's disease; autism 
research; and then $8 million for service dogs for 
servicemembers and veterans--I am a strong supporter of service 
dogs, seen them work. Thank you for that support.
    And I support the robust funding for the GPS III space 
segment in Air Force procurement, making sure that modern 
weapons systems, including precise strike munitions, are 
getting precise navigation.
    $36 million for Procurement Technical Assistance Program, 
the PTAP; and the $22 million--let me thank you--for the Sexual 
Assault Prevention Program; and then the $33 million for the 
national trauma clinical research.
    I would like to join in my predecessor who was here before 
talking about stronger relationships between the military and 
civilian population. The military and defense are overall 
admired, and there are many opportunities for collaboration.
    And I would close by saying, certainly the coronavirus now 
raises its head and asks the question, how many in the military 
structure can be helpful as this virus continues to grow? And I 
know that it depends upon the funding that this committee, this 
important committee, has offered in terms of flexibility and 
how they can be utilized. But, obviously, they are very 
important, not only in our national security, our overseas 
efforts, but they are certainly important, as well, to the 
efforts here in helping out civilians in the domestic life.
    So I thank you. I would like to close by just reemphasizing 
the soft power, which I think is so greatly needed in our 
efforts around the world.
    I yield back.
    Mr. Visclosky. Thank you very much for your advocacy, 
particularly on the health programs.
    I would note that you have joined our colleague Mr. 
McGovern from Massachusetts in your advocacy for the service 
dog program, which is very vital.
    And, again, appreciate your appearance.
    Mr. Calvert.
    Mr. Calvert. I thank the gentlelady. I know that Houston 
has some of the greatest medical institutions in the world, and 
would be happy to assist and help in any way we can. Thank you.
    Ms. Jackson Lee. Thank you. I will pursue that. Baylor is 
sitting there with 20,000 vials of a potential workable vaccine 
for the coronavirus. They just need to get that partner to get 
into the lab to be able to do the clinicals. And we are trying 
to work proactively now, and I know we are in the budget for 
next year, but proactively now to see if we can get those 
clinicals done. We would be very interested.
    Thank you.
    Mr. Visclosky. Thank you very much.
    We are adjourned.
    Mr. Cuellar. Thank you.
    [The written statement of Congresswoman Jackson Lee 
follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
